<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





              DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2019

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                              _____________

                         SUBCOMMITTEE ON DEFENSE

                      KAY GRANGER, Texas, Chairwoman

  HAROLD ROGERS, Kentucky                    PETER J. VISCLOSKY, Indiana
  KEN CALVERT, California                    BETTY McCOLLUM, Minnesota
  TOM COLE, Oklahoma                         TIM RYAN, Ohio
  STEVE WOMACK, Arkansas                     C. A. DUTCH RUPPERSBERGER, Maryland
  ROBERT B. ADERHOLT, Alabama                MARCY KAPTUR, Ohio
  JOHN R. CARTER, Texas                      HENRY CUELLAR, Texas
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia
  MARTHA ROBY, Alabama

  
  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

        Jennifer Miller, Walter Hearne, Brooke Boyer, B G Wright,
                Allison Deters, Collin Lee, Matthew Bower,
                    Hayden Milberg, and Sherry L. Young
                            Subcommittee Staff

                                 ________

                                  PART 1

                                                                   Page
  Fiscal Year 2019 United States Navy 
and Marine Corps Budget Overview...................................   1    

                                                                                                              
  Fiscal Year 2019 United States Air 
Force Budget Overview..............................................  75  

                                                                  
Fiscal Year 2019 United States Army 
Budget Overview.................................................... 141                                                     
                            
                                        
  Public Witness Statements........................................ 191                                                               
                                                                   
                                        
  U.S. Strategic Command (USSTRATCOM).............................. 223
                                                                  
                                                                    
                                        
  Fiscal Year 2019 National Guard Bureau........................... 241
                                                                
                                                                  
                                        
  Fiscal Year 2019 Department of Defense 
Budget Overview.................................................... 367
                                                                 
                                                                   
                                        
  Testimony of Members of Congress................................. 405
                                                                 
                                                                   
                                        

                                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                  __________
                  
                  

    Printed for the use of the Committee on Appropriations
  
  
  
  
          
          

         

              DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2019

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                             ______________

                         SUBCOMMITTEE ON DEFENSE
                         

                      KAY GRANGER, Texas, Chairwoman

  HAROLD ROGERS, Kentucky                 PETER J. VISCLOSKY, Indiana
  KEN CALVERT, California                 BETTY McCOLLUM, Minnesota
  TOM COLE, Oklahoma                      TIM RYAN, Ohio
  STEVE WOMACK, Arkansas                  C. A. DUTCH RUPPERSBERGER, Maryland
  ROBERT B. ADERHOLT, Alabama             MARCY KAPTUR, Ohio
  JOHN R. CARTER, Texas                   HENRY CUELLAR, Texas
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia
  MARTHA ROBY, Alabama
 
  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

        Jennifer Miller, Walter Hearne, Brooke Boyer, B G Wright,
                Allison Deters, Collin Lee, Matthew Bower,
                    Hayden Milberg, and Sherry L. Young
                            Subcommittee Staff

                                 _______

                                  PART 1

                                                                   Page
  Fiscal Year 2019 United States Navy 
and Marine Corps Budget Overview...................................   1
                                                                
                                                                   
                                        
  Fiscal Year 2019 United States Air 
Force Budget Overview..............................................  75
                                                                  
                                                                     
                                        
  Fiscal Year 2019 United States Army 
Budget Overview.................................................... 141
                                                                 
                                                                    
                                        
  Public Witness Statements........................................ 191
                                                             
                                                                    
                                        
  U.S. Strategic Command (USSTRATCOM).............................. 223
                                                                 
                                                                    
                                        
  Fiscal Year 2019 National Guard Bureau .......................... 241
                                                                 
                                                                    
                                        
  Fiscal Year 2019 Department of Defense 
Budget Overview.................................................... 367
                                                                
                                                                    
                                        
  Testimony of Members of Congress................................. 405
                                                                 
                                                                    
                                        

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
 

                                 ________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  33-358                    WASHINGTON : 2018

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                 NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                 MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                          PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                   JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                 ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                       DAVID E. PRICE, North Carolina
  KEN CALVERT, California                     LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                          SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                  BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania               BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                         TIM RYAN, Ohio
  KEVIN YODER, Kansas                         C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                      DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                  HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                   CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee           MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington           DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                        MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California                GRACE MENG, New York
  ANDY HARRIS, Maryland                       MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                        KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                      PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus   
 
 
                   Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2019

                              ----------                              


                                          Wednesday, March 7, 2018.

  FISCAL YEAR 2019 UNITED STATES NAVY AND MARINE CORPS BUDGET OVERVIEW

                               WITNESSES

RICHARD V. SPENCER, SECRETARY OF THE NAVY
ADMIRAL JOHN M. RICHARDSON, CHIEF OF NAVAL OPERATIONS
GENERAL ROBERT B. NELLER, COMMANDANT OF THE MARINE CORPS

                 Opening Statement of Chairman Granger

    Ms. Granger. The subcommittee will come to order.
    This morning, the subcommittee will begin a series of open 
defense posture and budget hearings with our military services. 
Today, we will hear from the Navy and Marine Corps leadership. 
Although we are still completing work on the fiscal year 2018 
bills, we must also begin the fiscal year 2019 budget process. 
The schedule will be very tight.
    I want to thank the Navy and Marine Corps leaders for being 
here today to provide the subcommittee with their honest 
assessments of the readiness of our Navy and Marine Corps and 
the path forward, as we begin our work of carefully----
    Mr. Womack. Madam Chairwoman, the sound system is not 
working.
    Ms. Granger. I have said nothing that you haven't heard 
before.
    So we will get to work carefully reviewing the 
administration's defense budget request.
    Before I introduce our witnesses, I would like to recognize 
our ranking member, Mr. Visclosky, for any remarks he would 
like to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. Madam Chair, I appreciate the hearing being 
held.
    And thank you all for your service.
    Ms. Granger. Allow me to introduce our briefers: the 
Honorable Richard Spencer, Secretary of the Navy; Admiral John 
Richardson, Chief of Naval Operations; and General Neller, 
Commandant of the Marine Corps.
    Secretary Spencer is making his first official appearance 
before the entire subcommittee.
    Beginning with Secretary Spencer, I would like to ask that 
each of you take approximately 5 minutes to set the stage with 
some opening remarks.

                 Summary Statement of Secretary Spencer

    Mr. Spencer. It was on just a second ago. I will use my 
command authority voice.
    Chairwoman Granger, Ranking Member Visclosky, distinguished 
members of the committee, thank you for the time that we come 
before you here and talk about the status of the Department of 
the Navy.
    It is an honor to sit here with the Navy-Marine Corps team 
in front of you, the CNO and the Commandant, two men whom I 
respect and support. And I have found that in the short time 
that we have worked together, 7 months so far, so we have 
rapidly joined together as an effective, seamless management 
team.
    First, on behalf of the sailors and Marines, I would like 
to express gratitude for the efforts put forth by you and the 
Congress in addressing the President's budget request. We are 
very much aware that this process has stretched Members to 
limits on many fronts. Please know that the resources that we 
will receive will be expended in focused alignment with the 
National Defense Strategy building our combat-credible force.
    Today, 94,000 sailors and Marines are forward deployed and 
stationed, using the global maritime commons as a medium of 
maneuver, ensuring the maritime lanes of commerce remain free 
and open, ensuring access to overseas regions, defending key 
interests in those areas, protecting U.S. citizens abroad, and 
preventing adversaries from leveraging the world's oceans 
against the United States.
    For almost 30 years, we have enjoyed a well-earned, 
uncontested global dominance. Those days are over. Your Navy-
Marine Corps team remains very capable; however, our 
competitive advantage is being challenged. That said, our 
budget request enhances readiness and continues to increase the 
capability and capacity of the Navy-Marine Corps team.
    As directed within the 2018 National Defense Strategy, our 
budget submission supports building a more lethal, resilient, 
and agile force to deter and defeat aggression by peer 
competitors and other adversaries in all domains across the 
conflict spectrum.
    My priorities for the Department center on three 
categories: people, capabilities, and process. The ability to 
accomplish our mission relies on people: 800,000 sailors, 
Marines, Active Duty, citizen soldiers, and civilian teammates 
and families. The ability to accomplish our mission relies on 
having the capabilities necessary to fight tonight, challenge 
competitors, and deter rivals. Lastly, the ability to 
accomplish our mission relies on having efficient processes 
that will speed value and support to our warfighters.
    The Department is committed to follow reform guidelines and 
has identified savings already of more than $1 billion in 
fiscal year 2019 and $5 billion over the Future Year Defense 
Program, which will all be reinvested in force structure and 
readiness.
    I deliver you today a plan with a sense of urgency. We 
cannot and will not allow our competitive advantage to erode. 
With your guidance, these planned investments will provide 
combat-credible maritime forces now and in the future. We will 
ensure that we are exceptional stewards of the resources that 
you provide. We will drive efficiency across the Department to 
maximize every dollar and invest smartly to leverage the return 
on our investments.
    I look forward to your questions.
    [The written statement of Secretary Spencer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Granger. Thank you very much.
    Admiral Richardson.

                Summary Statement of Admiral Richardson

    Admiral Richardson. Congresswoman Granger, Ranking Member 
Visclosky, and distinguished members of the committee, thank 
you very much for the opportunity to testify today.
    And I just want to echo the Secretary's remarks concerning 
how grateful we are for the tough work to get us to these 
funding levels. I know that that was hard work, and we do 
pledge to spend those funds responsibly and transparently.
    I am also, as the Secretary said, very pleased to be here 
with Secretary Spencer and General Neller, two great leaders 
with whom I am working to increase warfighting lethality of our 
Navy-Marine Corps team. And make no mistake: A strong Navy-
Marine Corps team matters to America's security and economic 
prosperity now more than ever.
    This hearing comes at a critical time in our Nation's 
history. Thanks to decades of bipartisan congressional support, 
America's Navy still holds the title of best in the world. But 
our recent years of combat and fiscal uncertainty have eroded 
our warfighting advantage. And as our National Defense Strategy 
makes clear, we are now in an era of great-power competition. 
With a rising China and a resurgent Russia, America no longer 
enjoys a monopoly on seapower or sea control. And, meanwhile, 
rogue regimes like North Korea and Iran threaten global 
stability.
    Given these challenges, it is absolutely critical that we 
increase American naval power with a sense of urgency. In order 
to win in this competitive environment, we must take a balanced 
approach to build the Navy the Nation needs. This Navy requires 
a bigger fleet, more ships, submarines, aircraft, and special 
operations forces.
    Congress agreed with the conclusions of several thoughtful 
studies, and a 355-ship Navy is now the law of the land. This 
will increase our Navy's ability to protect our homeland and 
our allies, to expand our influence as America's global 
maneuvering force, and to support American prosperity by 
safeguarding access to critical waterways.
    And while there will always be a debate about the final 
number of ships to build, and that will fluctuate with the 
security environment in any given year, we can all agree on one 
thing: The Navy must get bigger, and the demand signal is to 
start building now.
    The Navy the Nation needs requires also a better fleet--
more capability achieved through modernization, networking, 
agile operating concepts, and a talented force of sailors and 
civilians, with officers of competence and character to lead 
them.
    And, finally, the Nation requires a ready fleet--more at-
sea time, more flying, more maintenance, and more weapons of 
increased lethality that go faster, farther, and are more 
survivable.
    As we discuss the 2019 budget request today, it is 
important to stress our Navy's commitment to good stewardship 
for every precious taxpayer dollar. Under the Secretary's 
leadership, we are determined to better understand the business 
of our business, to include embracing full participation in the 
Department-wide audit, so we can look every American in the eye 
and tell them with confidence that their hard-earned money is 
being spent as carefully as if it were our own.
    I am very grateful to this committee and the Congress for 
recent budgetary actions that put us on a strong trajectory to 
increasing American naval power.
    The stakes are high, and there is more work to do. War at 
sea is unforgiving. The winners sail away, and the losers sink 
to the bottom of the ocean. In this complex and dynamic 
maritime environment, eager contenders are training to defeat 
us. So I give you my word that we will work every day to earn 
the title of the world's best Navy.
    I look forward to sailing alongside Congress to build the 
Navy the Nation needs--a lethal Navy for our enemies in combat, 
a committed Navy for our allies and partners, and a safe Navy 
for our sailors.
    Thank you, and I look forward to your questions.
    [The written statement of Admiral Richardson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Granger. Thank you.
    General Neller.

                  Summary Statement of General Neller

    General Neller. Chairwoman Granger and Ranking Member 
Visclosky, members of the committee, I am here today to testify 
on the current posture of your Marine Corps. Thank you for that 
opportunity to be here, and I look forward to your questions.
    I know this committee, the Congress, the American people 
have high expectations for our Marines as our Nation's 
expeditionary force in readiness. You expect your Marines to 
operate forward with our Navy shipmates, reassure our partners, 
deter our rivals, and respond to crisis. And when called to 
fight, you expect us to win. You expect a lot of your Marines, 
and you should.
    As we hold these hearings, 34,000 Marines are forward 
deployed, some in harm's way, all engaged doing just what you 
expect them to be doing. Your Marines are an integral part of 
the new defense strategy, and, rest assured, we are doing our 
best to increase our competitive advantage against our 
strategic competitors.
    That said, we continue to face challenges, some a 
consequence of rival adaptations, some a result of 
unpredictable funding, some as a result of our adjustment to 
the new strategic environment.
    I echo and support what our Secretary and the CNO said. 
Since the fall of the Soviet Union, the sea services have 
enjoyed a well-earned, uncontested global dominance. Those days 
are over. Your Marine Corps remains capable, along with our 
Navy shipmates, but our competitive edge has eroded in every 
domain of warfare. We must modernize and address great-power 
competition or risk falling further behind.
    As we look ahead to the 2019 budget, developing your next-
generation Marine Corps requires modernization of our Corps, 
the continual recovery of our current readiness, and further 
investment to resource the next generation of Marines. These 
priorities, coupled with adaptations to our global posture, 
will provide our Nation's leaders the right capabilities at the 
right places to create the decisionmaking space necessary for 
the Nation to compete and, if necessary, fight at the lowest 
cost and resources possible.
    Despite the challenges facing us in today's strategic 
environment, our Marine Corps remains the Nation's forward-
deployed, agile expeditionary force in readiness as part of 
that Navy-Marine Corps team.
    To preserve that role and sustain the readiness it entails, 
we continue to require sustained, adequate, and predictable 
funding to develop the right mix of advanced capabilities and 
ensure a ready and relevant force. With Congress's support and 
sustained commitment, we can begin to restore our competitive 
naval advantage, enhance global deterrence, and ensure that we 
send our sons and daughters into the next fight with every 
advantage that our Nation can provide.
    I look forward to your questions.
    [The written statement of General Neller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Granger. Thank you very much.
    Before we begin questions, in the interest of time and in 
fairness to our briefers and all the members, we will limit 
each member's question to 5 minutes.
    And I would ask that those who are asking questions, if you 
are going to direct your question to one particular person, 
please do that. If not, indicate that you would like to ask 
that question of the entire panel.
    Mr. Visclosky and Chairman Frelinghuysen have both said 
they will wait and move to the end. So I will follow their 
wonderful tradition and do the same thing and call in order of 
the time that you arrived at the hearing.
    Mrs. Roby will go first.

                                  LCS

    Mrs. Roby. Whoa. This is an unusual turn of events. I did 
get here a little early today.
    The Navy's 30-year shipbuilding plan maintained the 
recommendation for 52 small surface combatants. As the LCS has 
been plagued with issues, I want to just talk about, in recent 
media articles, the Navy has stated that one LCS is sufficient 
to sustain the shipbuilding industrial base in the hot 
production lines as you transition to the new frigate.
    Both LCS shipbuilders have publicly stated that they do not 
believe that--one ship in the fiscal year 2019 budget--there is 
enough work to sustain the industrial base in hot production 
lines going into the frigate competition.
    So can you explain your differing position on the 
industrial base from those who comprise the industrial base?
    Mr. Spencer. Congresswoman, thank you.
    As you read in the 30-year shipbuilding plan, one of the 
key attributes that we wanted to make everybody aware of is, 
yes, we need to increase our capacity, but we also need to 
understand what the industrial base can absorb and how we can 
work as partners with the industrial base while purchasing our 
assets at the most effective and efficient rate.
    We believe, between 2018 and 2019, having four LCSs in the 
line for the yards will provide them, granted, not optimal--we 
believe that is a good sustaining rate for both yards as we 
move into what is going to be a very robust competition for the 
frigate, which, as you know, looks like fiscal year 2020, 
decisions, and 2021, build.

               AIR-LAUNCHED AND SURFACE-LAUNCHED MISSILES

    Mrs. Roby. Thanks.
    And, Admiral Richardson, as you know, the long-range anti-
surface missile LRASM is made in my district, in Troy, Alabama. 
And I realize we can't discuss all of its capabilities in an 
unclassified setting, but I am impressed with what I know. And 
I am glad that the Navy has asked for an additional 10 missiles 
on its unfunded priorities list.
    However, I am concerned that this is currently only an air-
launched missile. Wouldn't it be prudent for the Navy to also 
develop a surface-launched variant, whether it be from the 
vertical launch system, tube, or topside launcher, to help 
provide you with distributed lethality?
    And then, also, I understand that some would consider this 
an expensive missile, but on a cost-per-kill basis, compared to 
everything else the Navy has, it seems quite inexpensive.
    Admiral Richardson. Ma'am, we agree. And we are 
accelerating the production of that missile. We have moved it 
into the air-launched, as you said, and we are investigating 
expanding that to surface-launched applications as well.
    Mrs. Roby. Well, since I got to go first, I will yield back 
my time.
    Ms. Granger. Thank you.
    Mrs. Roby. Thanks.
    Thank you for your answers.
    Ms. Granger. We will move to the other side.
    Mr. Ryan.

                        DIRECTED-ENERGY WEAPONS

    Mr. Ryan. The trend continues here, I guess. Thank you, 
Madam Chair. And I appreciate this hearing, and thank you for 
your time and your leadership.
    One of the vulnerabilities we have with our Navy and other 
navies is the small seaborne and airborne threats. And this 
includes remote-controlled boats and drones that might pass 
unnoticed by traditional radar technologies.
    And as we work to stay ahead, as we talk about the great-
power competition, ahead of China, ahead of Russia, militarily, 
we have to be focused on the newer technologies. So I want to 
ask you about the directed-energy weapons that could give our 
Navy the capabilities that we need to apply the right amount of 
force to the right type of threat.
    And we know that the DE weapons can take the place of 
multimillion-dollar missiles, which we are interested in on 
this end, as far as helping us keep the budget contained as to 
where we think it needs to be.
    So I will just ask a couple questions and let you all touch 
on it wherever you can. What is the Navy's broader strategy for 
directed energy, and how are we addressing the growing threat? 
And, then, do you view the directed energy as a necessary part 
of the Navy's future offensive and defensive needs?
    Admiral Richardson. Sir, I will take that. I will be happy 
to take that question.
    We have in the Navy an accelerated acquisition program 
comprised of some designated capabilities that we want to move 
to the fleet as fast as possible. And inside that, there are 
very few programs, but one of those involves directed energy, 
both high-powered microwave but more specifically in the laser 
regime.
    And so we are moving forward with a family of lasers to get 
those to sea for exactly the reasons that you state. They are 
absolutely fundamental to allowing us to address some of these 
small threats--small boats, small aircraft, unmanned aircraft--
but, also, as the technology is allowing us to really address 
some very high-end threats--antiship cruise missiles and those 
types of threats.
    Furthermore, they can be used as a counter-ISR type of a 
thing, a dazzler. And so, depending upon the energy that you 
are employing, they can be used across the full spectrum.
    Finally, they get you on the right side of the cost curve 
in terms of dollars per shot instead of millions of dollars per 
shot.
    So we are accelerating this as fast as we can. We have some 
great progress. I would love to come and brief you on the whole 
portfolio. But by virtue of moving this into the accelerated 
acquisition program, we have achieved time scales, you know, 
compressing from 3 years to less than 1 year, in terms of 
moving some of these lasers through to production and testing.
    And so I look forward to briefing you on this. It is an 
absolute high priority for us.
    Mr. Ryan. Anyone else?
    General Neller.
    General Neller. I would just say that it is just not at 
sea. I mean, there is a lot of activity if you--if we could 
talk in a classified setting, we could talk to you about what 
is going off the west coast of Yemen. There is kind of a live-
fire laboratory down there with some of the threats that you 
describe.
    But the same capabilities that we are going to need at sea 
we are going to need ashore. So the small UAS threat is 
something that we are--there is a lot of activity going on, 
from basic kinetic ``shoot them down,'' to try to break the 
link, to use a laser. And all the services are involved, and 
the Department is involved. The OSD is involved. Dr. Roper, I 
believe, is working for the Air Force, and his office, the 
Strategic Capabilities Office, is working a lot of this stuff.
    So there is, as the CNO says, a lot of activity, and it is 
going to start to funnel down as we get to where we have to 
pick this. But I think for the naval force, mounting these 
capabilities on ships, I think, fairly soon, we are going to be 
able to see what their impact is. Because, clearly, our 
adversaries, to include violent extremist organizations, have 
taken advantage of very cheap, off-the-shelf technology that 
gives them an advantage that right now we are still--we have a 
capability to contest it, but the DE stuff would really change 
the game for us.
    Mr. Ryan. Great.
    Admiral, I had a very good brief your team gave us.
    And, Madam Chair, I would just encourage everybody in the 
committee to get that brief. It is, I think, a very important 
next step for us to continue to fund and take to the next 
level.
    I yield back.
    Mr. Spencer. Congressman, if I could just----
    Mr. Ryan. Sure.
    Mr. Spencer. Could I just add a footnote there? Because I 
think it is important for the whole committee to hear this.
    Starting when Secretary Esper was the last one to land on 
the ground, but Secretary Esper, Wilson, and myself meet with 
great regularity now. And one of the things that we are 
actually doing--we had a meeting last week--was pooling our S&T 
projects. Because we realized that we were parallel-tracking 
many of the technologies we are talking about.
    We are working with Mike Griffin, now that he is on board, 
and really seeing how we can align our resources in the most 
effective manner in order to tackle some of these issues at 
hand.
    Mr. Ryan. Great. Thank you.
    I yield back.
    Ms. Granger. Thank you.
    Mr. Diaz-Balart.

                  MAINTENANCE WORK AT PUBLIC SHIPYARDS

    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    Gentlemen, thank you.
    And two questions, if I may throw them out there. First is 
that, no secret that our public shipyards are having problems 
in providing scheduled overhaul and maintenance. And that is 
going to continue for the foreseeable future. So we are 
optimistic, you know, that the fiscal year 2019 budget will be 
on track, and that is great, but I wonder if the public 
shipyards are prepared for the increases.
    So does the Navy have a plan to correct the backlog and the 
overload of maintenance work at our public shipyards, 
obviously, to get more hulls operational?

                            INDUSTRIAL BASE

    And then the other one is that--no secret there either, 
that the industrial base has continued to express concerns 
about the feast-and-famine cycle of skilled labor at shipyards. 
And so, obviously, that is problematic as the shipyards are 
leading up to multiple new projects in the next decade, like, 
whether it is the Columbia-class sub or the Ford aircraft 
carrier.
    So the public shipyards, as you all know, have similar 
issues with an unexperienced, new labor force. And the second 
question: Is there any consideration of using our capable 
private shipyards in a greater capacity to offset some of these 
maintenance and workforce issues, which potentially could only 
increase?
    Admiral Richardson. Sir, I will take the first whack at 
that, and then the Secretary will come in behind me.
    First, I think you have characterized that exactly right. 
The public shipyards are at capacity. We are growing in those 
public shipyards. We have done a lot to discipline our 
processes in the public shipyards. And that maintenance backlog 
is decreasing, particularly with our ballistic missile 
submarines and our carriers. Our attack submarines are coming 
into that discipline.
    We are hiring in those public shipyards. And so we are 
doing everything we can.
    We also recently issued our report on the public shipyards 
that the Nation needs, which is the complement to the 355-ship 
Navy the Nation Needs program as well. This requires an 
extensive 20-year plan to recapitalize those shipyards so that 
we can improve capacity, very much in the same way that some 
private-sector industries have retooled, remapped production 
lines, et cetera, to increase capacity.
    With respect to the industrial base, we also signed out a 
shipbuilding plan that complements the Navy the Nation needs. 
And it talks exactly about this feast-and-famine cycle that you 
described, how we need to get out of this boom-and-bust 
approach to business, where peaks and valleys--very, very hard 
for the workforce to accommodate that.
    Finally, to get to your question, we are already moving to 
the private sector to help us with the overload in the public 
yards. I think we have moved four of our maintenance 
availabilities into the private sector. The private sector 
comes into the public yards to help us with capacity where that 
is appropriate.
    And so there is a good dialogue in terms of how to manage 
that workload over this national treasure, which is the 
combination of the skilled shipbuilders and fitters in both the 
public and private sector.
    Mr. Spencer. I think, just to add to that, Congressman, the 
conversations that we have been having with industry are really 
starting to move the needle. As long as they see a signal that 
we are going to have the ability to put resources forward, they 
are more compelled, obviously, to put money into research, 
development, and enhancements.
    It is just a punctuation on what the CNO just said. They 
are ready and willing, the private sector, to work with us on 
managing capacity and will keep the public shipyards, 
obviously, at the full capacity. But managing the workforce is 
going to be a challenge, but it is something that we are up and 
ready to do.
    Mr. Diaz-Balart. And so you foresee the private shipyards 
having, again, a larger role?
    Mr. Spencer. Yes.
    Mr. Diaz-Balart. All right.
    Admiral Richardson. Sir, let me just punctuate that too. 
The shipbuilding plan starts in 1955, right? And it projects 30 
years forward. Since 1955, there have been 14 shipbuilders that 
have gotten out of the defense business, right? And so, you 
know, the industrial base that we talk about today, that you 
questioned us earlier, ma'am, it is not the industrial base 
that we had in 1955.
    And so, given this signal to grow the Navy, preserving and 
managing this industrial base would be a key component to that.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    Ms. Granger. Thank you.
    Ms. Kaptur.

                       RECRUITMENT AND RETENTION

    Ms. Kaptur. Thank you, Madam Chair.
    Welcome. Thank you so much for your service to our country 
and all those under your command.
    Both General Neller and Admiral Richardson, in your 
testimony, you talked about, General Neller, three main 
priorities, manpower being one of them; and, Admiral 
Richardson, you talked about people and the young men and women 
under your command.
    My question really goes to your assessment, based on 
everything you know through recruitment and retention, on the 
physical and mental well-being of those under your command and 
some of the challenges you are facing, both in recruitment and 
retention.
    And, particularly, I was going to ask General Neller, the 
deployment-to-dwell ratio is, you say in your testimony, one to 
two now. The optimal ratio is one to three.
    And you mention in your testimony some of the destructive 
behaviors that impact those who undergo the stress of military 
service. These include, of course, sexual assault, suicide, 
hazing, excessive alcohol consumption.
    I learned this past week, to my great dismay, that the 
Naval Academy has had to expel 40 of their cadets for drug 
trafficking and use. I can't tell you what an impact that had 
on me. I didn't read it in the newspaper. I wanted to verify if 
that is true or untrue and whether this is something new or 
this is something that the military has faced consistently.
    And I would like to know, in terms of what you see in terms 
of recruitment across our country, some of the challenges you 
face with the ability to put together leaders who are mentally, 
morally, and physically fit.
    General Neller, those are the words that you used.
    Admiral Richardson. Ma'am, if I could, before--I just want 
to address right upfront that I am not aware of any expulsion 
of 40 midshipmen for drug use. And so I am not sure where that 
information came from. We discussed it quickly----
    Ms. Kaptur. Yes, yesterday.
    Admiral Richardson [continuing]. I checked on it, and there 
is nothing. I mean, there is an investigation going on, but 
there have been no expulsions, and it is nowhere near that 
number, so----
    Ms. Kaptur. All right. Thank you.
    General Neller. So I think we are all aware that, you know, 
in the Nation, I mean, it is a strategic issue that less than 
30 percent of the young men and women of our Nation are 
qualified just to join the military, either because of 
physical, mental, or moral issues.
    So now we are down to 30 percent, and now we have to find 
those that have a propensity and are interested in doing this. 
And as there is some growth in the force, we are all out there 
competing in the same--looking for the same type of young men 
or women.
    So, for your Marines, right now, you know, we are getting 
99.7 high school grads. We have a delayed-entry pool of high 
school seniors that are waiting to graduate that comprises 
about 50 to 60 percent of those that we are going to assess and 
send to recruit training next year. I would----
    Ms. Kaptur. Is it easier, General, or harder to find 
individuals to----
    General Neller. It is always hard work. Our recruiters work 
really, really hard. And, you know, the retention of these 
folks and their completion of their first contract is something 
we track.
    Our attrition numbers are down, not to the degree that I 
would like for every Marine. And once you earn that title, 
Marine, we expect there to be some attrition at entry-level 
training.
    So they are really smart. They have a different 
expectation. They are digital natives. Social media and the 
things that happen on social media affect them in different 
ways. I am not a psychologist. But this is a really good Marine 
Corps. And I could tell you about the Marine Corps I joined in 
1976, and I don't want to be in that Marine Corps. Not that 
there weren't good Marines, but I like this Marine Corps a lot 
better.
    On retention, I was concerned about that last year, because 
for the first time we were really struggling to make our 
numbers, to keep folks, particularly in our senior enlisted. 
This year, we are on track to make it. So whatever happened--I 
think there was--you know, because we had an appropriation, 
then we had money for bonuses. Even with the economy being what 
it is, we are keeping enough qualified folks and some of the 
very best.
    So there are some behaviors--I mean, I could show you the 
stats. I don't want to take up all the time. I will tell you, 
though, the one stat that consistently goes down: the number of 
people that are involved with the illegal drug use. That number 
continues to go down every year, which is good.
    We do struggle, like all young people, we struggle with 
alcohol and certain behaviors. Because 62 percent of the Marine 
Corps is 25 years old or less. So we have the blessing and the 
curse of youth and all the good things that youth brings. And 
sometimes we are trying to make these young men and women grow 
up.
    So we watch this. I am content with the force. We can 
always get better. But I think that you--I mean, as you have 
traveled around and seen them, I think everybody would be 
eminently proud of the young men and women that wear the 
uniform of any service in the United States military.
    Ms. Kaptur. Could I ask you----
    Do you, in your budget, do you feel you have enough funds 
for behavioral specialists to deal with some of the challenges 
you may face, as special ops did with some of the challenges 
they faced?
    General Neller. We continue to look at that. And we 
continue to look at MARSOC as a--and there are probably some 
diagnostic cognitive tools that we want to take a look at. I 
have to price those out. But I think there is enough money that 
we will be able to do that, and if I cannot, I will come back 
and let the committee know.
    Ms. Kaptur. Thank you.
    Ms. Granger. Thank you.
    Judge Carter.

                      NUCLEAR POSTURE REVIEW (NPR)

    Mr. Carter. I thank you, Madam Chairwoman.
    Welcome, each and every one of you. I appreciate you being 
here.
    We learned about the--pardon my voice. I was checking votes 
till late last night. The NPR, Nuclear Posture Review, came up 
with some recommendations, one of which is that we put low-
yield warheads on submarine-launched ballistic missiles, SLBM, 
along with sea-launched cruise missiles, SLM variant.
    Secretary Spencer, how does your budget address the 
recommendations from the NPR to develop low-yield nuclear 
weapons? And when can we expect these capabilities to be added 
to the Navy?
    Mr. Spencer. Congressman, as you know, it is a new 
initiative, and we are just getting started, to be very frank 
with you. To give you an answer right now as to calendar dates, 
I am not prepared, but more than happy to address it when we 
have it in the sights and come and brief you.
    Mr. Carter. And you will let us know when it is going to be 
reflected in your budget? Because we have been given a 
directive that is very important to our country.
    Mr. Spencer. Most definitely.
    Mr. Carter. Also, on that very issue, how do you respond to 
claims that modifying the current delivery system, such as the 
SLBM, to carry a low-yield weapon decreases the nuclear 
threshold because adversaries might not be able to correctly 
identify a potential nuclear launch?
    Mr. Spencer. Gracious. To be very frank with you, I will 
come back to you on that. That is an excellent, pointed 
question that, at this point, I do not have an answer for.
    I defer to the----
    Admiral Richardson. Sir, I will take a stab. I mean, this 
gets into some pretty big questions about deterrence theory and 
all those sorts of things. But, in general, what we are finding 
is that some of our adversaries are developing capabilities. 
And what you want in terms of that is to have, sort of, 
proportional responses so that it does have that deterrent 
effect that we are looking for. And I think that is the theory 
behind the recommendations in the NPR.

              MODERNIZATION PRIORITIES OF THE MARINE CORPS

    Mr. Carter. Thank you.
    General, I have a question. Can you briefly discuss the 
modernization priorities of the Marine Corps? Are there 
specific modernization requirements, such as the next-
generation combat vehicle or tactical communication networks, 
where inter-service collaboration may be beneficial to 
developing new systems? We have currently ongoing the DOD-wide 
inter-service collaboration in many areas. I would like to hear 
your comments on that.
    General Neller. There are a number of areas we need to 
modernize in. Information warfare, which would include 
electronic warfare, is probably at the top of that. And we are 
getting after that by changing our higher headquarters at our 
three Corps-level headquarters, changing it from a headquarters 
group into an information group and developing electronic 
warfare capabilities.
    So that is one area, which it also includes information and 
intel analysis, where we need to expand our capability in long-
range precision fires, which I think gets at what was talked 
about earlier. And we have to improve our air defense, which is 
also tied to directed energy.
    Command and control in a degraded environment. We have 
lived in a world, for the past--since 9/11, where we didn't 
have to worry about being contested in the communications area 
and that we thought we could--you didn't have to worry about 
moving our headquarters or masking our signature. I would say 
those days are gone.
    And we always have to be able to be more lethal in the 
ground fight and the air fight.
    So there are a whole lot of things going on, Congressman, 
that we are working on, but those are the priorities that are 
addressed in the budget. And aviation is a key part of that, 
but there is ground modernization.
    So, you know, the dilemma we face and the committee faces 
with us is we have to sustain the force for the current 
deployment, we have to maintain legacy gear as we go out and do 
that, and we have to field and modernize the force and 
transition to the new equipment, all at the same time. And, you 
know, the new stuff is very capable, but it also is very 
expensive.
    Mr. Carter. Thank you.
    I yield back.
    Ms. Granger. Thank you.
    Mr. Ruppersberger. 

                      TORPEDO THREATS AND DEFENSES

    Mr. Ruppersberger. First thing, Marcy, I wanted--your 
question. I am on the board of the Naval Academy, and anytime 
we have incidents that you talked about, we get notified 
initially. We don't wait for a meeting. I think it is one of 
the finest institutions and boards I have served on. So, if 
there is anything there, we would know about it. I just wanted 
to verify that for Admiral Richardson.
    Admiral Richardson, I am going to ask you this question. 
The last 2 years, I have been asking questions about torpedo 
defenses for our Navy.
    In 2010, as a result of an urgent operational needs 
statement issued regarding torpedo threats to our Nation's 
high-value units, such as our aircraft carriers, in the Seventh 
Fleet area of responsibility, the Navy accelerated development 
and deployment of a Surface Ship Torpedo Defense program.
    And just last month, Admiral Harris testified to the House 
Armed Services Committee on challenges in the Indo-Pacific 
region--Armed Services Committee in that region--stating that 
the torpedo threat, particularly from the Chinese and Russian 
submarines, has increased.
    Now, it is my understanding there are three Navy offices 
involved in the surface ship torpedo program. However, looking 
at the fiscal year 2019 request, the Navy has effectively 
canceled the program, despite recent positive test results and 
milestone achievements.
    And my questions are: First, which Navy office is 
ultimately responsible for developing and deploying this 
critical capability? And then secondly, what role has funding 
constraints in the Navy's fiscal year 2019 budget request for 
this program had in this? And is addressing this threat still a 
priority?
    Admiral Richardson. Sir, talking to a career submariner, 
so----
    Mr. Ruppersberger. Yeah, I know that.
    Admiral Richardson [continuing]. Completely in on the 
threat that the undersea domain brings and completely dedicated 
to mitigating that threat against our entire Navy, not just our 
high-value units.
    And the way we do that is through a layered defense--a 
layered defense with global and theater sensors, both fixed, 
mobile, and deployable, and then through a mixture of aircraft 
and payload delivery platforms. We want to hold that threat out 
far away from any kind of a target. And then we have sort of an 
in-close strike group defense that can address those.
    We have been putting investment into this anti-torpedo, 
sort of, very last bastion of defense, you know, this shipboard 
platform-level defense, for some time. And recent testing has 
shown that, particularly in ocean and prototypic environments, 
there is just too much of a false-alarm rate for the system to 
provide an effective contribution to that layered defense.
    So we are sort of dialing down the investment in that 
program until the technology, the detection schemes, the 
signal-to-noise ratio, artificial intelligence, whatever, may 
develop that will allow us to get to that system to a position 
where it really provides a contribution to that defense. And so 
we are watching that very closely.
    Mr. Ruppersberger. So are you saying the program is not 
being canceled but there are other alternatives? I mean, what 
is the conclusion to----
    Admiral Richardson. We have some systems deployed. As I 
said, we invested in that. And we are just finding that the 
performance of those systems is not living up to what our 
initial hopes were.
    Mr. Ruppersberger. Okay.
    Admiral Richardson. So we are just continuing to follow the 
technology very closely, investing proportionally with the 
capability.
    And, boy, I will tell you, sir, that is a great thing. If 
it comes back and delivers reliable capability in prototypic 
environments, we will be in.
    Mr. Ruppersberger. And I also want to ask you--I don't 
think I am going to have the time.
    Are we having a second round?
    Ms. Granger. Yes.
    Mr. Ruppersberger [continuing]. About hypersonic and 
dealing with the same type of issue.
    Admiral Richardson. Yes, sir.
    Ms. Granger. Mr. Calvert.

                        INNOVATIVE TECHNOLOGIES

    Mr. Calvert. Thank you, Chairman.
    Secretary Spencer, Admiral Richardson, General Neller, 
thank you for being here. Thank you for your service to our 
country.
    First, I want to be parochial for a moment and mention 
NAVSEA Corona, which is located in my congressional district. 
As you know, the small lab delivers big capability for the Navy 
through several mission areas, including performance 
assessment, readiness assessment, measurement calibration, 
system engineering. They are also rapidly growing in the live, 
virtual, constructive data analysis, directed-energy mission 
areas. I am proud of the work they do to support you and 
warfighters, so I just wanted to bring up that.
    Secretary, Admiral, I have had the opportunity to talk to 
both of you about the importance of innovation. I think you are 
both here at a unique time and here at the right leadership to 
bring about change in the Navy in how we acquire and 
incorporate innovative technologies.
    However, as history has taught us, bureaucracies outlast 
the best of us. As you know, bureaucracy favors the status quo, 
and there is little incentive for achieving efficiencies, 
incorporating disruptive technologies or methods, or deviating 
from incumbent providers.
    I have no doubt you are committed to reforming how the Navy 
does business to better serve the warfighter and to have a more 
lethal force.

                          WORKFORCE MANAGEMENT

    One of the priorities to accelerate capability--and the 
budget requests $18.5 billion for that effort in research and 
development. A couple of questions.
    The Navy budget document mentions workforce management. Can 
you please tell me how you plan on reforming the workforce and, 
importantly, changing the culture to be more adaptive and 
agile?
    Mr. Spencer. Congressman, you hit the nail on the head when 
it comes to being in the right place at the right time for 
innovation. I just want to comment on that first, because it 
starts at the top, coupled with urgency, because the two fit 
hand-in-hand, especially when we look at what our mission set 
is.
    As we go forward, one of the battle cries that is 
permeating throughout the organization is innovation doesn't 
mean we have to sit here and bang your head against the wall 
thinking something new. Look above your silo, look out of your 
area of expertise, find some innovation, and what we call 
``R&D,'' rip it off and deploy it, and get it into the service 
as quickly as possible to the warfighters' hands. That is one 
of the primary themes that we are working now for innovation.
    As far as workforce management goes, one of the greater 
assets that we were lucky enough to recruit is our head of 
acquisitions, as you know, Mr. Geurts, who has been at this for 
quite some time.
    We really do have to spend the time, energy, and resources 
to bring our workforce around to the sense of urgency and give 
them the tools to actually explore and leverage the ability to, 
quote/unquote, ``R&D'' as I just explained it. It is going to 
be some new muscle movements for the organization. It is going 
to involve some new DNA. But I also think we can manage with 
what we have, to provide a leverageable return.
    Mr. Calvert. We all know that innovation rarely comes from 
big companies. How will you change acquisition practices to 
seek out innovators, typically midsize, small businesses? If 
innovation is disruptive to current practices and even may 
result in a PM savings on budget, how do you ensure that these 
innovators are not discarded to protect budgets?
    Admiral Richardson. Sir, I will tell you, I will just 
support the Secretary's comments on this and say that Secretary 
Geurts and I have already met, a couple of different venues, 
where we just are talking directly to small business. And we 
are listening as much as we are providing opportunities for 
them to join, listening to them tell us what our bureaucratic 
obstacles may be, where we can knock those down, how they can 
get better into the game, to have that agility and flexibility 
that you have described.
    So we are very focused on small business and their role in 
innovation. I agree with the Secretary's comments that having 
the right people in the right place is absolutely essential to 
doing that. And with the combination of authorities that the 
Congress has already given us, the focus on small business, and 
the tremendous opportunity, I think we will get at this.
    Mr. Calvert. Well, thank you.
    And thank you for your answers.
    And I just want to put a little shout out for NASSCO down 
in San Diego. Great little shipyard.
    Thank you.
    Mr. Spencer. If I could also just put a punctuation mark, 
if I could, Ms. Chairwoman?
    Ms. Granger. Sure.
    Mr. Spencer. A vignette for you, Congressman, is that we 
found--and this actually came up through NCIS--we found that 
there was a component manufacturer in our hypersonic 
experimentation that is a very small organization. And what I 
mean by small, it is four Ph.D.s, and the intellectual property 
goes home with the, quote/unquote, ``CEO'' on his laptop every 
night. And NCIS said this is too much of a threat and came 
down, as you might imagine, with the best intentions in the 
world as a big bureaucracy, to challenge this. And the little 
business owner said, I can't afford this.
    We are actually trying to adapt now and find a construct 
and a context that works to provide us the satisfaction it is 
protected and allows him to keep doing business without being 
suffocated.
    Mr. Calvert. Good. Thank you.
    Ms. Granger. Ms. McCollum.

                     PILOTS--PSYCHOLOGICAL EPISODES

    Ms. McCollum. As has been said earlier, thank you for your 
service and for those who serve under you.
    I go to deployments. It is Reserve and National Guard. And 
most of us, I included, always say, ``We wish for you a 
successful mission, we wish for you a speedy mission, and to 
come home safe.''
    So I am going to ask some questions, and I know there will 
be followup in the office.
    Ms. Granger. Ms. McCollum, can we just--your mike isn't 
working. It is sort of----
    Ms. McCollum. I am trying to do the best. I will use my 
substitute teacher voice. How is that?
    I want to ask you about the concerns on this committee, and 
one of them is our pilots. Our pilots across the services are 
increasingly experiencing reports of psychological events, 
including hypoxia. And I know you will all agree with me, 
safety in flight is non-negotiable, but a recent NASA report on 
this issue shows that the Navy has more work to do.
    I understand that the Navy has been making a strong effort 
to ensure any aircraft mechanical issues are fixed, but I 
remain concerned that we are not doing enough to focus on the 
pilots themselves.
    The NASA report states, and I quote, ``Events do not happen 
to planes; they happen to people.''
    So can you give us an update on the Navy's actions, team's 
efforts, and how involved the Navy medical community has been 
in determining the potential causes? Can you describe the 
Navy's coordination across services in solving this problem, 
particularly with the Air Force, to ensure that we are 
leveraging solutions across the military?

                            SHIP COLLISIONS

    I would also like to ask you about two concerns that were 
trending this year. First is a series of fatal ship collisions, 
including the USS Fitzgerald and the USS McCain; second, what 
appears to be an increasing trend in the Marine Corps in the 
number of aviation crashes and fatalities. In fact, Breaking 
Defense reported last year that the Marine aviation deaths were 
six times that of the Navy.
    Now, obviously, both of these trends are concerning to 
everyone in this room, and that includes you gentlemen.
    So, Admiral Richardson, now that the Navy's comprehensive 
review of ship collision is completed, how has the Navy changed 
training procedures to reflect what is found in this proper 
procedure? In your full testimony, there is some, but I would 
like more.
    And, General Neller, are these crashes are a symptom of a 
readiness crisis, an issue with the airframes, or is it with 
something else? What is the Marine Corps doing to address these 
aviation failures?
    In the time remaining, if you want to just touch on it. I 
know I haven't given you enough time remaining to get into it 
fully, so please brief me.
    Admiral Richardson. I will start, and I will address the 
physiological episode issue right up front, which, as you said, 
is a combination of system, you know, the aircraft, and also 
the person.
    In fact, just last week, I was down at Oceana, and I 
visited both the repair facilities that are doing the system 
modifications to address, sort of, the system degradation and 
get at this, and also held a roundtable with 12 of the pilots 
who had experienced these physiological episodes to make sure 
that they are getting exactly what you say, you know, the 
proper medical care individually, and that we are approaching 
this as a system properly.
    In fact, one of those aviators is my aide, Lieutenant 
Commander Danielle Thiriot, a strike fighter aviator, right 
behind me. She was part of that roundtable.
    I think that a major part of this is it involves 
communication so that everybody knows exactly what is 
happening. We are moving together. We brought NASA on board. We 
brought on all of the private vendors--Boeing, Cobham, the 
manufacturers that are doing this. We are working very closely 
with the Air Force and the medical community to make sure that 
we are moving forward in as focused a way as possible.
    With respect to the breathing gas issues that are resident 
in the training aircraft, the T-45, those efforts are paying 
off, and we are seeing a decrease in breathing gas issues in 
our training community.
    With respect to the F-18s, those are mostly cockpit 
environment pressurizations. And while we are seeing some 
progress in those, we haven't really found a full smoking gun, 
but we have a number of material issues and upgrades that we 
are doing to address that problem; and then also, as I said, 
making sure that these aviators get the full medical treatment 
and we are concentrating on them to learn everything we can 
about this phenomenon.
    With respect to the Fitzgerald and McCain, I appeared and 
briefed this committee earlier. I thought that was very 
thorough. I will be happy to answer more thoroughly for the 
record. But suffice it to say that, since we last talked, we 
are moving out with alacrity in this area, both from an 
education and training standpoint. We have $600 million in our 
budget to address increased simulators, both in the schools and 
in the fleet concentration areas, common bridge equipment 
across the surface force, all of these operator tools that both 
for training, education, and operations will help us get after 
this.
    I am going to take a brief this afternoon on the 
modifications to the surface warfare officer career pattern, to 
include increased education opportunities and certification 
opportunities.
    And so everything that we talked about before during the 
brief remains valid. Much of that has been accomplished, and 
what is not already accomplished is in full-speed development.
    General Neller. So I agree with everything the CNO said 
about the physiological, which is both the quality of the air 
and the pressurization of the cockpit.
    Our numbers are a little bit different. For whatever 
reason, even flying the same model-type series, we haven't had 
the same number of incidents as the Navy. But we track it.
    Certain things that we did: I will tell you that, before, 
if something within the--there are, like, 14 parts to the 
oxygen system of an aircraft, and we didn't fix it unless it 
failed. It was like, okay, you have to wait for it to break. 
Now, it is, okay, we are going to repair this part. And we had 
to do a better job of maintaining the system. So we gave pilots 
different sensors, we changed the altimeter--you know, we did 
everything.
    And we listened to them. I think that is the most important 
thing, is when people were telling us, hey, we are having these 
issues, you know, we said, okay, let's talk about it. Now, it 
is part of the training regimen.
    I mean, I am an infantry officer, but I spend a lot of time 
on aviation, and, obviously, we want everybody to be safe. And 
so I don't know if we will ever get to zero, because I think 
that is just part of the high risk of flying at high altitude, 
but, you know, we try to put everything in there. And the 
numbers are what they are, and I can give you all that data.
    On the Class A, we had a horrible year last year. It was 
terrible. We had 12 Class A's. And part of the reason that we 
had some of the high casualties is we had one aircraft where we 
lost 16 people, a C-130. And so I think we know what happened 
in that case, and the families are in the process of being 
notified. I will tell you that, in almost all the cases, 
though, the material condition of the aircraft was not part of 
the event.
    So what are we doing about it? This year, we have had one, 
and we have not had any fatalities. So I am very superstitious, 
and I would rather not talk about that anymore. So we are 
tracking, and we will see what happens.
    We are flying a lot more, although there is no correlation 
between flight hours and these events. In some cases, there 
were some aircrew that didn't have enough hours.
    But I think, whether it was a wake-up call or we are 
doing--I know we are doing a better job of paying attention, 
but we are flying more. The hours are going up. I think 
everybody is focused on this. And, you know, I am hopeful that 
we will be in a better place at the end of this year and we 
will not lose anybody.
    I mean, it is one thing to lose an airplane--but it is not 
just the Class A's. I mean, Class A's are the ones that make 
the news, but we have to do better across the board. I mean, we 
end up damaging aircraft, certain things. Being at sea is a 
tough environment. You have to tow the aircraft, whether it be 
a helicopter or a tiltrotor. You have to get across the flight 
deck. You have to get it on the hangar bay. It is not a lot of 
space. You have really got to pay attention. So we have talked 
to commercial industry. We have had Delta come out and talk to 
us.
    I would say one of the things we have done is we have 
increased the number of maintainers that go to our weapons 
training instructor course. Because we realize you just can't 
train the aircrew, you have to train the maintainers. And so 
now they are involved in this.
    So, just like the CNO said, I mean, this is an enterprise 
effort to try to arrest these issues, because we need to keep 
all the planes that we have flying. And so we will continue to 
work on it, and we are not going to take our eye off it. It is 
not going to get fixed. It is something that, you know, you 
just kind of keep your eye on all the time. And whenever I talk 
to the commanders, we make sure that they understand that, you 
know, we have to be safe.
    Ms. Granger. Thank you.
    Chairman Rogers.

                  EUROPEAN DETERRENCE INITIATIVE (EDI)

    Mr. Rogers. Thank you for your service to your country.
    One of the major policies of our government is ensuring 
that we are doing all we can to deter Russian aggression in 
Europe. Whether we are talking about kinetic operations in 
Georgia, Crimea, Ukraine, attempting to influence foreign 
elections, just recently boasting about their military 
capability and this so-called new missile that they crow about, 
it is clear that Russia is obviously seeking to re-exert itself 
as a global player.
    I recently met with the Estonian Secretary of Defense, 
visiting also in Ukraine the same, as well as Georgia, all of 
whom are very much concerned, obviously, because they are 
impacted in a direct way in Russia efforts in Europe.
    One of the primary means that we are responding to this 
aggression is through the European Deterrence Initiative, EDI.
    Mr. Rogers. In 2019, the lion's share of Navy and Marine 
Corps EDI is for theater antisubmarine warfare, P-8 airfield 
enhancement, multinational exercises, and prepositioning of 
Marine Corps equipment.
    This question is for any or all of you, but can you 
describe your view of our efforts with EDI, or otherwise, 
encountering Russian aggression in Europe?
    Mr. Secretary, would you lead off?
    Mr. Spencer. Certainly, Congressman.
    Let me just emphasize, one of the first overseas trips I 
took was up to the Arctic conference. And we spent some time in 
Norway and listened to both the MOD and the CHOD in Norway talk 
about what is going on. Zapad had just finished the summer 
exercise in Russia, and it was a very eye-opening exercise for 
me, and I consider myself somewhat informed. Up in the Arctic 
Circle alone, you are seeing Russia repaving 12,000-foot 
runways, putting 10,000 Spetsnaz up above the Arctic Circle for 
search and rescue. Everyone is quite keyed up.
    The EDI, as far as dollars and cents go, for the Navy and 
Marine Corps, is our contribution. Remember that we are the 
forward deployed force. The fact that we have our submarines, 
our surface ships, and our aviation assets already deployed and 
flying is meaningful. This is additive on top of that.
    I defer to both the CNO and the Commandant to add on to 
that, but it is definitely a concerted, combined effort.
    Admiral Richardson. So I will take the next stab and then 
let the Commandant finish up.
    But I will tell you that, as a major component of this 
resurgent Russia has been in their maritime, they have really 
never taken their eye off the development and deployment of 
their undersea forces, but they have really stepped on the gas 
and stepped that up, both in technology and in, sort of, the 
capacity, the amount of time that they are spending deployed.
    That is exactly why our investments there are focused on 
the antisubmarine warfare problem, both enhancing our undersea 
sensors and then, as you pointed out, infrastructure for the 
antisubmarine aircraft, the P-8. As well, we are making more 
robust our facilities in Rota and some of the other Navy ports 
that we forward deploy to.
    As well--and it is indicative of this global problem--the 
Navy-Marine Corps team, your naval forces, as the global 
maneuver force, is that we are spending a lot more time in the 
European theater. And so career strike groups, for instance, 
that would just transit through the Mediterranean at maximum 
speed to get to the Middle East are now spending much more time 
in the Mediterranean, not only contributing to operations in 
Inherent Resolve, et cetera, but also working the Russian 
presence problem in the Eastern Mediterranean, Black Sea, 
Baltic, et cetera.
    So I think we are very focused on this, sir. We have flexed 
both from an investment standpoint and an operational 
standpoint.
    General Neller. We have had a Marine presence in Romania 
for many years. Special Purpose MAGTF that operates out of 
Moron, Spain, is a force that is available to both the 
Commander of AFRICOM and to EUCOM. We now have 300 Marines up 
in Norway, and although you would think 300 Marines are not a 
big deal, I am sure that Mr. Putin is well aware that they are 
there. Because we needed to get back in the cold-weather 
environment and take advantage of the gearset that we have 
there that we have started to rebuild.
    So right now today, Congressman, we have Marines training 
in Sweden, with the Swedes and the Finns. There is an amphib 
ship that just transited into the Black Sea that is going to do 
an exercise with the Romanians.
    We continue to train a Georgian battalion that goes to 
Afghanistan. The Georgians have no marine corps, but we have 
been doing this for years, and, quite frankly, they like having 
the Marines there. And I was just there recently, and the 
United States agreed to sell them Javelin missiles for their 
own self-defense. And I think we are going to do the same with 
the Ukrainians, because we hear the same thing.
    So that is not our area of strength. I mean, that is really 
a continental theater. And if you look at the National Defense 
Strategy, the Army is pretty much told to go there and do that. 
But we will continue to work that.
    There are contingency plans that are being drawn up where 
there is a sufficient Marine and Navy capability that would be 
involved if Russia were to violate Article 5 of the Washington 
Treaty of the NATO Alliance. So we are there, not in the 
numbers that you might like or others might like, but within 
our capacity.
    So I will tell you, this fall--and just close on this. We 
have done a lot of stuff--a lot of our allies in NATO have 
marine corps and amphibious capability: the Spanish, the Brits, 
the Greeks, the Italians. The Portuguese have a small 
capability.
    So, this fall, in October, there will be a large NATO 
exercise, probably the largest amphibious naval exercise that 
has been held since the height of the Cold War. It is called 
Trident Juncture. There will be 45,000 NATO servicemembers and, 
you know, tens, if not dozens and dozens, of ships and aircraft 
that will be exercising off the coast of Norway against a 
simulated threat. And I am sure there will be demarches and 
other things by the Russian Federation.
    But I think that is an indication of the seriousness that 
the strategy takes, that our NATO allies want to see us there 
and be committed to their defense.
    Mr. Rogers. Well, some of us are very much concerned 
about--as you are.
    As part of the building-partnership-capacity category of 
EDI, you are only requesting $3 million for multinational 
operations, compared to $22 million for Air Force, $56 million 
for Special Operations, $21 million for the Army, $200 million 
for security assistance to Ukraine.
    So I would hope we would--Mr. Secretary, I would hope that 
we would put more weight on the EDI, particularly in the 
Ukraine, Georgia, and that world between Western Europe and 
Russia.
    Ms. Granger. Thank you. That wasn't a question, right?
    Mr. Rogers. Right.
    Ms. Granger. So I will call on Mr. Visclosky.

                            SMALL BUSINESSES

    Mr. Visclosky. Thank you.
    Gentlemen, I have four or five questions. I will only ask 
two now, because we have colleagues and I don't know if we will 
go a second round.
    Just an observation before I begin.
    Secretary, I appreciate your interchange with Mr. Calvert 
about the four Ph.D.s. I never came close to getting one of 
those. But I appreciate the attentiveness to small-business 
people. My colleagues have heard me complain in the past that, 
while the Department has talked about fostering small 
businesses, I tend to doubt that they actually do it or have 
their heart in it.
    I have used a firm in my district that does cybersecurity, 
a very small group, startup, with a couple of people. And the 
board of directors had to invest more than $1 million in cash 
simply to qualify, to begin to bid on contracts they had no 
guarantee they were ever going to get. And I view that as a 
huge discouragement.
    So I appreciate your comments and believe your sincerity, 
as well as your colleagues', in fostering that.

                   OPERATIONS AND MAINTENANCE ACCOUNT

    General Neller, what I would ask about is your request in 
2019 for an increase of a thousand troops. Absolutely believe 
you need that. But also note that, for 2019, there is a 
reduction in the request for operations and maintenance.
    Could you explain, with additional troops, why you would 
have a reduction in the O&M account?
    General Neller. Congressman Visclosky, the thousand 
people--you know, there is always a bill out there that we 
never, ever reduce which we get from the operating force for 
what they call Table of Organization and Equipment Change 
Request. In other words, ``Hey, I need more people to do this, 
and I can't afford to give up other people.'' So we are always 
trying to buy that down.
    The Marine Corps force 2025 changes some of the capability 
sets that we need and some of the skill set we need. So those 
thousand people are already asked for in a number of different 
ways, whether they be cyber, more intel analysis, more security 
cooperation, ability people to do--advisers, different people 
here and there. Some are civilians.
    So, on the O&M side, we have looked at what we do on the 
O&M side, on the green side, and, quite frankly, we have had 
enough money to do the training that we need to do. And so we 
were able to take some risk and able to move it to that other 
account to buy these individuals, and we felt that that was a 
better use of our money at that time.
    So I think we felt that, if there was any risk, that risk 
was manageable. And that is why we did what we did.

                       ENVIRONMENTAL RESTORATION

    Mr. Visclosky. Okay.
    The second question I would have is on environmental 
restoration. There are a number of compounds--PFOSes, PFOAs. I 
couldn't begin to pronounce the names of these compounds. But 
both the Navy and Air Force have identified areas beyond their 
bases where the groundwater has been contaminated. It is an 
issue Department-wide.
    It is an issue in civil society as well. A number of us--
Ms. Kaptur is ranking on Energy and Water; Chairman 
Frelinghuysen and I both serve on Energy and Water--we see it 
at the Department of Energy.
    My sense is, every year, we invest in environmental 
restoration and cleanup, but I don't see the list getting 
smaller in any discernible way.
    Given the fact that you have taken over, Mr. Secretary, is 
there a matrix you are going to use? Is there some way we 
could, if we are having a conversation a year from now--and I 
realize these are each unique, very difficult--some way to 
discernibly know that the moneys are ensuring progress here?
    Mr. Spencer. The bottom-line answer is, yes, Congressman, 
there will be. We can do that and we can produce that for you.
    On the top of the wave, I will tell you, having been 
intimately involved with one major environmental impact program 
that is facing us out in Long Island, it is an ever-evolving 
issue. They are adding new chemical compounds to the list all 
the time.
    But the bottom line is the Navy-Marine Corps team is 
everybody's neighbor where they are living, and we will hold up 
our responsibilities to make sure that we are correcting issues 
that we caused.
    Mr. Visclosky. I would appreciate it if we could follow up, 
because both for our personnel, military and civilian, on those 
bases, around those, as well as civilians, we do have an 
obligation. And on the committee, it is not the first thing I 
think about when I get up in the morning, I have to admit that 
too, but I think it is very important.
    Mr. Spencer. Certainly.
    Mr. Visclosky. Thank you.
    Thank you, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Cole.

                           NATIONAL STRATEGY

    Mr. Cole. Thank you, Madam Chairman.
    I am going to build on the question that Chairman Rogers 
asked. I would like you to give us--I want to ask two questions 
and then give you as much time as you want to respond.
    First, since we have changed our national strategy to 
recognize we are in a new period of great-power competition, 
give us a quick description of the things that worry you most 
that the Russians and particularly the Chinese are doing now, 
the capabilities that they are developing that, both 
quantitatively and qualitatively, you are worried about.
    And, second, I would also ask you that, in addition to what 
we are doing to counter that, how much are our allies doing to 
be helpful, particularly the Japanese in the Pacific and, 
obviously, the European powers in the Atlantic?
    Mr. Spencer. Let me provide the 30,000-foot view from the 
Department of the Navy, and then I will ask the Commandant and 
the CNO to step in.
    But what keeps me up at night, there are two different 
organizations.
    If I look at Russia, one of the things that keeps me up is 
their underwater capabilities. They never let up on that, as 
the CNO referred to earlier. I am still flummoxed by their 
economic model, to see where they are putting their resources, 
and is that, in fact, sustainable when you look at the 
demographics of their society. But, nonetheless, in the 
immediacy, it does concern me.
    When it comes to China, the bottom line there is the 
checkbook, to be very frank with you, not only in the dollars 
and cents that they are writing to support their military 
expansion and their technological R&D work, but what they are 
doing around the globe that I know that you all are aware of, 
which is weaponizing capital, to be very frank with you. Going 
into Sri Lanka, redoing the port, putting an interest rate--not 
as aid, but as a total secured loan with a pretty hefty coupon. 
Debtor fails on that, and the asset owner comes and reclaims it 
and says, ``These are now ours.'' They are doing that around 
the globe. And so their open checkbook keeps me up at night.
    I would defer to both the CNO and the CMC as to their 
observations.
    General Neller. I kind of look at those like the near term 
and the long term. The Chinese are playing a long game. As the 
Secretary said, everywhere I go, they are there. They don't 
have a list. And I am just--you know, their concern with human 
rights is not there. They have big bags of cash.
    And if we have an issue with a host nation--I was just in 
Thailand, and, since the coup in 2014, they have not had a 
duly, democratically elected government. So, by law, I cannot 
have Thai officers attend our schools, which they have done for 
years and years and years and years. I met three Thai officers 
that I trained as a captain. They are now generals that lead 
their marine corps. So we don't need a lost generation of Thai 
officers like we had a lost generation of Pakistanis and 
Indonesians, in my professional opinion.
    So they are very clever. And they are in the Marianas. They 
are down in the Solomons. They are doing exactly what the 
Secretary said; they are going in and they are buying airfields 
and ports to extend their reach so that--they want to win 
without fighting.
    The Russians, I think, are a little more in your face. I 
don't think they want to fight us personally, but I think they 
want to be able to impose their will and use intimidation. I 
mean, they are capable. They have recapitalized their 
capability. I am not going to get into specifics, because that 
is really classified. But whether it be undersea, whether it be 
strategic weapons, whether it be their aviation, even their 
ground combat.
    And I believe they have used the Syria operation as kind of 
a live-fire evaluation for their systems and for their 
military, to get them--because the one thing they don't have, 
like the Chinese don't have, that we have, is they don't have 
17 years of war to give you the experience. Although the war we 
would fight with them is a little bit different than what we 
have been fighting.
    So we pay attention to it. You know, it is something we 
watch. And I think that is why we are here, and I think that is 
why the Congress has decided that the U.S. military, in order 
to compete against these so that we don't have to go to war, we 
want to be in a position to negotiate from strength and make 
sure our State Department folks and the President of the United 
States can negotiate where we are not being held hostage by 
somebody's capability.
    Admiral Richardson. Sir, if I could just close it up, I 
don't have anything to add to the Secretary or the Commandant's 
comments on Russia and China and their capability, anything 
more. I would be happy to bring you a classified brief on both 
of those situations.
    With respect to our allies, we continue--and I think the 
naval forces, in particular, continue--to partner with our 
allies. And some of those allies and partners can go to the 
pretty high end in naval warfare with us, and they have both 
the capacity, the capability, and the willingness to do that 
against some of these emerging threats. And we exercise with 
them routinely. You know, a lot of our exercises, while the 
funding may not be tagged for partner development, those 
exercises serve to do exactly that, as when we operate 
alongside our partners.
    And then the spectrum unfolds, right? So you go from the 
very high end down to allies and partners that are challenged 
to secure their territorial seas. And we help them with 
maritime domain awareness and those sorts of things.
    So there is a very coherent team approach. Our foreign 
investment strategy and our FMS programs are targeted towards 
that strategy. The important part is to enable 
interoperability.
    With respect to what keeps me up at night, the highest 
priority I think I could offer for myself is a return to normal 
order on the domestic side that allows stable, adequate funding 
on a predictable basis, that allows us to address these threats 
at pace, at tempo, to stay in competition.
    Mr. Cole. Thank you.
    Thank you, Madam Chairman.
    Ms. Granger. Chairman Frelinghuysen.

                             APPROPRIATIONS

    Mr. Frelinghuysen. Thank you very much.
    Mr. Secretary, I thank you for your service as Secretary. I 
also thank you for your service as a Marine. We know Marines 
never retire.
    Let me say, I have some rhetorical questions, but this is 
the House Appropriations Committee, and once we get our bill 
passed for 2018, you are going to have a lot of money to deal 
with. And this is a rhetorical question, but perhaps you want 
to--how are you going to spend it in the time that you have 
between now and October 1st?
    Let me ask a few other questions.
    And will you be using some of this money to deal with the 
coming strike fighter and submarine mission shortfalls? And 
apropos of Mr. Diaz-Balart, how quickly can the Navy reduce its 
depot maintenance backlog? These are the type of questions that 
I think deserve some responses.
    And may I say, apropos of the comments relative to what 
China is doing in the South China Sea in terms of denial, I 
mean, it is sort of parallel to what the Chinese are doing with 
One Belt, One Road. They are in a commanding position.
    And we have talked about it. Numbers matter, the size of 
the fleet. I mean, what are shipbuilding's prospects as a 
result of this influx of money for 2018, which will hopefully 
be done shortly, and the 2019 funds, which go up to $716 
billion to be shared by all the services?
    Mr. Spencer. Mr. Chairman, excellent question and front of 
mind.
    If I was to relay to you how I approach the Secretary of 
the Navy's position in Title 10, it is running a business. We 
are now coming out of a period of doing more with less, and we 
have been in the backward crouch, so to speak, in that regard. 
We now have the resources to stop analyzing the threat and be 
the threat. But that is going to take some new muscle 
movements, and we are going to have to really make sure that we 
are on game for this.
    We are putting the tools in place to monitor how we are 
going to put the resources out. In my weekly meetings with FMC, 
we are monitoring what we are doing now on the CR curve. And we 
will step up into 2018 when the bill is approved, ready to step 
to 2019.
    We would ask--and I totally understand the role of the 
Appropriations Committee, and I understand the control, which 
is warranted. I would ask if we could find any relief in--
    Mr. Frelinghuysen. Well, we are addressing the whole issue 
of flexibility.
    Mr. Spencer. It would be greatly appreciated, sir.
    Mr. Frelinghuysen. Obviously, the committee has its 
interest in jurisdiction, and oversight is important. Sometimes 
when you get a huge bucket of money, people say, ``Well, this 
is the gold mine.'' But the committee still, I know, under Ms. 
Granger's chairmanship, wants to make sure that all of those 
dollars are spent responsibly. So I think we have worked out a 
path forward to provide that degree of flexible you and the 
other services are looking for.
    Mr. Spencer. Outstanding. We welcome that with open arms. 
We will not do any sort of, quote/unquote, ``foolish 
spending.'' We can't afford to.
    I will tell you that we have programs racked and stacked. 
We have our contracting people already gearing up, because it 
is going to be a task. But we will come before you when, in 
fact, we see some difficulties to see if we can make you 
completely aware and transparent of where we stand.
    Admiral Richardson. Sir, if I could just add, you asked how 
were we going to spend the money. I would say from a top-level 
perspective, we are going to spend the money responsibly, we 
are going to spend the money in a way that is completely 
auditable, and we are going to spend the money in a way that is 
fully transparent and cognizant of the oversight 
responsibilities of this committee.
    And so, while you have given us great resources, we 
pledge----
    Mr. Frelinghuysen. We weren't happy about--none of us 
here--about the series of continuing resolutions. We know that 
does terrible things to the services, and it is an 
embarrassment to the appropriations process, that we had to go 
through this. I won't say, you know, we weren't part of the 
problem, but sometimes you can blame the higher-ups or you can 
blame the other body, but it was inexcusable that we went 
through this process.
    But now you have, I think, some degree of stability for a 
couple of years, and----
    Admiral Richardson. There is no doubt about it. The request 
for additional appropriations in 2017 stopped the bleeding, got 
us onto a path of health. 2018 and 2019, those figures 
absolutely will do a tremendous amount to cure that.
    With respect to the industrial base, which you touched on 
in your question, the numbers do count. We are at 282 ships in 
the battle fleet. By 2023, we will be at 326. And so we are 
building ships. We are building ships in a balanced way that 
not only builds the platform but builds the weapons, builds the 
system, the people, the infrastructure, the whole, you know, 
naval-power enchilada to make sure that we deliver naval power 
and capability.
    Also, as we talked about earlier, investing into the 
industrial base, both the shipbuilders and the ship 
maintainers, on the public and private side.
    Finally, we are fully funding our readiness accounts. And 
so, whether that is in ship maintenance, aircraft maintenance, 
whether that is parts, whether that is flying hours, steaming 
hours, all of that.
    And if we run into issues with executability, we will be 
back here first to make sure that we identify that to you, and 
we will have a solution for where we can spend that money to 
great effect.
    Ms. Granger. Thank you.
    Mr. Frelinghuysen. Thank you.
    Thank you, Madam Chair.
    Ms. Granger. Following up, I would remind you that I think 
you still have a goal of reaching 355 ships by the mid-2050s. I 
had the great opportunity of visiting some of the shipbuilders, 
and they were very concerned that they don't have the 
workforce. It is generational. Many times, it is families. And 
so keeping up with that will be very important.
    We are going to have a very quick second round. If you can, 
limit it to one question that can be asked quickly. And we are 
going to start with Mr. Ryan.

                             RAILGUN SYSTEM

    Mr. Ryan. Thank you, Madam Chair.
    Briefly, I have a question on the railgun, again, talking 
about a technology, a railgun system for our U.S. ships. My 
understanding is these weapons can fire projectiles at 
extremely high speeds with a range exceeding 100 miles once 
fully operational.
    I know China has demonstrated a capability for shipboard 
railguns. And, you know, I am just concerned, again, that we 
are maybe falling short here. Can you give us an update on what 
we are doing to increase the rate of fire?
    Admiral Richardson. Fully invested in railgun. We continue 
to test it. We have demonstrated it at lower firing rates and 
smaller ranges, shorter ranges. Now, we have to do the 
engineering to sort of crank it up and get it at the designated 
firing rates at the 80- to 100-mile range that you describe.
    That involves a number of technologies. The barrel itself 
is probably the limiting case, the engineering on that; the 
materials required to sustain that power pulse, and the heat 
and pressure that is involved in launching those projectiles, 
and we are doubling down on that. But, also, sir, as you know, 
you know about directed-energy types of capabilities. The power 
system to generate that power pulse is another thing. And then 
integrating it into ships the size of a destroyer is the final 
piece.
    We are very conscious of the recent reports about Chinese 
progress in that area, following that very closely.
    It has a benefit too--of the program, the railgun program. 
We have developed a projectile, high-velocity projectile, which 
is actually usable across the fleet in a number of different 
applications, not only in the railgun. And so it is a very 
fruitful program that we continue to invest in.
    Mr. Spencer. And, Congressman, since both of your questions 
were technology-oriented, let me say that, when it comes to the 
secretariat level, running the R&D enterprise under the thesis 
of portfolio management, we are linking that to the NDS 
implementation. And, while classified, I can tell you we are 
aligned in where we are putting our dollars. In the two buckets 
that you spoke about, there is alignment there. And we are 
focusing where our dollars are going in a much more keen 
fashion in portfolio management.
    Mr. Ryan. Great. Thank you. Well, given your background, we 
are counting on you to make this happen. Thank you.
    I yield back.
    Ms. Granger. Thank you.
    Mrs. Roby.

                          JOINT STRIKE FIGHTER

    Mrs. Roby. Thank you, Madam Chairman.
    Just real quickly, as the chairman stated, numbers matter. 
Words matter too. So I just want to clarify for the record 
that, as it relates to LCS, the issues that I was specifically 
referring to are those that have been created due to a lack of 
predictability in funding, specifically, as I have referenced 
and you have heard others of our colleagues talk about, as it 
relates to the industrial base. And that has been said several 
times.
    So, just real quickly, Admiral Richardson, as the 
President's national security strategy is laid out, the U.S. 
military and associated policies are increasingly focusing on 
our near-peer threats. These near-peer threats are also 
proliferating offensive and defensive systems to places such as 
Syria, making operations in the Middle East with the fourth-
generation aircraft much more challenging.
    And so, with the F-35 fifth-generation capabilities, talk 
to us about how it will help the Navy fleet in whole being more 
lethal, survivable, and capable.
    Admiral Richardson. I am happy to do that, ma'am. And I 
know that the Commandant wants to talk about Joint Strike 
Fighter as well.
    I will tell you, they call it a different generation 
because that is exactly what it is. And the early flight 
demonstrations show that it is delivering on the capability, in 
terms of its sensor suite, its ability to process information 
on board, its stealth capability, all of that. It really brings 
us to a new regime in terms of aviation capability.
    We are generating that capability in the Navy with the F-
35C, as you know. We have the squadron out of Lemoore. We are 
making steady progress towards IOC in 2021. We are looking to 
do the first deployment on an aircraft carrier. And so we are 
marching down there.
    The Marines are sort of the early adopters here, and so if 
I could just turn it over to General Neller to provide some 
more.
    General Neller. We have our first prep for deployment 
undergoing in the Pacific right now. You may have seen pictures 
in the paper of the F-35B landing on an LHD. There will be 
another ARG/MEU, Amphibious Ready Group/Marine Expeditionary 
Unit, deploying off the West Coast later this year with the 
same ship.
    And we are also working with our U.K. allies on possibly 
deploying with them. So, other allies: The Norwegians have a 
couple planes. The Israelis have a couple planes. The Italians 
are training up. Others are looking. There is a large 
consortium.
    So, as the CNO stated, without getting into the details, 
the airplane has capabilities that we expected it to have. 
There are other things about the airplane that we are still 
figuring out. And we decided to go early because we didn't buy 
Hornet E and F, and we needed to replace the old iron we had.
    So we are going to learn. Capability-wise, though, it is 
doing what it says it does. Talking to the aircrew, they can do 
things they couldn't do with other aircraft.
    The concern you expressed about what is going on in the 
Middle East with certain air defense systems, I would rather 
talk to you about that in a private setting.
    But we will learn, and we will find out. And that is why I 
will be anxious to see when the--because the MEU going off the 
West Coast this fall is going to the Middle East. So I am sure 
there will be an interesting welcoming party for them when they 
get there.
    Mr. Spencer. Congressman, I would be remiss if I didn't 
bring up the fact that we still have quite a bit of work to do 
with the F-35 when it comes to cost control and what we expect 
out of it. It is a major focus of the whole Department of 
Defense, i.e., because the Air Force, the Navy, and the Marine 
Corps are all in on the A's, B's, and C's.
    It is front and center in my window as to how we are going 
to purchase this effectively, efficiently, and how we are going 
to sustain it. And we are working with industry and having some 
very sober conversations on where we are going on price.
    Mrs. Roby. Thank you.
    And thank you all for your service and that of your 
families as well.
    Thank you.
    Ms. Granger. Thank you.
    Ms. Kaptur.

                         NUCLEAR POSTURE REVIEW

    Ms. Kaptur. Thank you, Madam Chair.
    I wanted to ask Admiral Richardson, the new Nuclear Posture 
Review has been characterized by some as a very large shift in 
our country's nuclear posture. And I am interested in your 
comments on its potential impact on deterrence, particularly 
related to the additional funding you are seeking for the new 
sea-launched cruise missile, which some say sounds like the old 
nuclear-tipped Tomahawk that was retired in 2010, and then also 
on the proposed new submarine-launched ballistic missile that 
is planned to be a modified version, we think, of the W76, 
which is presently being modified.
    So what do you think the impact on deterrence will be? And 
do you agree with the characterization that this is a major 
shift in our nuclear posture?
    Admiral Richardson. I think that it is a shift in the 
nuclear posture. It provides a broader range of deterrent 
options to national decisionmakers.
    And with respect to the programmatics, we are just getting 
started, as the Secretary said. We will probably be able to 
address the low-yield warhead sooner than we will the sea-
launched cruise missile. We really have to bring that program 
back from scratch.
    So we have started to formulate our thinking in those areas 
and are moving out briskly to fulfill the new tenets of the 
Nuclear Posture Review.
    Ms. Kaptur. And what potential impact do you think it will 
have on deterrence?
    Admiral Richardson. I think it will enhance deterrence.
    Ms. Kaptur. Thank you.
    Ms. Granger. Mr. Diaz-Balart.

               OFFICE OF COMMERCIAL AND ECONOMIC ACTIVITY

    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    Actually, first, a comment, which is: Whenever we have 
these meetings, we always hear about the potential threat of 
China and Russia, and yet there seems, a lot of times, to be a 
disconnect between the political and particularly the 
commercial relationship with China and attitude versus the 
threat that they potentially have. And that is something that I 
think we need to really spend a little bit more time on one of 
these days.
    And I know you probably won't be able to answer this now, 
but we have all seen Mr. Putin's presentation and the video of 
him, in essence, nuking Florida. And so it might be interesting 
to get, in potentially a classified brief, information as to 
how threatening this potentially new technology that the thug--
or that Mr. Putin has been talking about.
    I yield back, Madam Chairwoman.
    Mr. Spencer. I would just like to bring up one thing, 
Congressman. You hit the nail on the head on an issue that 
specifically the Navy and the Air Force is funding called OCEA, 
the Office of Commercial and Economic Activity. And it is 
specifically looking at the commercial intertwine of China and 
the United States.
    Just the other week, we let a contract for Military Sealift 
Command, with a prime who I won't mention here. And as we 
drilled down, we found out that a joint venture partner of 
theirs was Huawei. Huawei is on the NSA list for ``don't 
touch.'' We have stopped that contract. We have asked the prime 
for the governance documents of what the joint venture looks 
like.
    This is the kind of attention we are going to have to have 
going forward.
    Mr. Diaz-Balart. And I appreciate that. And, again, we have 
to do more of that, but, also, I think in general, not dealing 
with the military, not even dealing with procurement, just in 
general. We kind of assume that China is a, you know, trading 
partner like India, when, in fact, they are not.
    So thank you, Madam Chairwoman.
    Ms. Granger. Thank you.
    Mr. Ruppersberger.

                     HYPERSONIC MISSILE DEVELOPMENT

    Mr. Ruppersberger. Yeah, I am going to get to the 
hypersonic, Admiral Richardson.
    It appears we can't go a week without having conversations 
or news about a hypersonic missile development. President 
Putin, earlier this week, revealed a new Russian hypersonic 
missile that supposedly boasted some impressive capabilities. 
And the Department of Defense stated in, I think, 2010 that 
China has developed a hypersonic land-based antiship missile 
based on the DF-21--I don't know what that is--DF-21. It is no 
secret that these weapons could potentially threaten the Navy's 
largest power-projection platforms and our aircraft carriers.
    My questions are: While I understand this is an 
unclassified setting, I believe that speaking publicly about 
the hypersonic threat is important. And can you share with the 
committee a general update on any progress that we have made in 
developing credible defense against hypersonic weapons?
    And considering the threat that hypersonic weapons play, do 
you see the role of our aircraft carriers changing, 
specifically when it comes to operating in anti-access/area-
denial environments?
    Admiral Richardson. Sir, thank you for the question.
    I think there is a technological--a bit of a race going on, 
in terms of hypersonics. It is a tremendous capability. It 
reduces transit times of warheads from hours to minutes. And so 
there is a lot of attention being paid on that around the 
world, including here in the United States, where there is, I 
think, a recent renaissance in terms of getting after this with 
some dedicated focus. And that is across the Department.
    With respect to defense against those types of 
capabilities, just as the capability is emerging, it is the 
chess game that manifests itself. And so we will be generating 
defenses and responses to that.
    The aircraft carrier in an A2AD environment continues to be 
relevant. I will tell you that this is not just a one-sided 
thing either. This gets at classified levels very, very 
quickly, and so we will need to find the appropriate room to 
talk about that.
    Mr. Ruppersberger. And that is why I said that.
    Admiral Richardson. Right. But I can tell you that we have 
confidence that that carrier delivers decisive capabilities in 
some of the high-end conflicts, even in these environments, 
that we wouldn't want to go into combat without.
    Mr. Ruppersberger. Well, I suggest that this is a high 
priority, because it seems that is where the new weaponry is 
going, both with China and Russia.
    Admiral Richardson. The Department sees it the same way.
    Mr. Ruppersberger. And you see it the same way.
    Mr. Spencer. Congressman, just to add, too, when I talked 
earlier about what the three services are doing together on 
S&T, this is exactly in that area.

                             SEQUESTRATION

    Mr. Ruppersberger. And you are going to have some money now 
to deal with it.
    Speaking of money, I know I have tried to ask this question 
for years, when we passed that terrible law, sequestration, and 
it really has done a lot to hurt our military. And almost every 
four-star who comes in this room--I mean, General Neller, you 
have said it before, and Admiral Richardson, how sequestration 
is doing so much to hurt us and weakens our military.
    Now we have a 2-year hiatus, so to speak, and we are having 
some money come in. But I would suggest that all of our four-
stars continue to put pressure on Congress and let the public 
know that sequestration makes us weaker and allows Russia and 
China to become stronger.
    General Neller. Will do, sir.
    Ms. Granger. Thank you.
    I have asked for a classified briefing on the most recent 
advances in China and Russia, and you will get a notice very 
quickly.
    Judge Carter.

                        READY RELEVANT LEARNING

    Mr. Carter. I thank you, Madam Chairman.
    When we talked about our shipwrecks we have had--the 
McCain, the Fitzgerald, and others--the answer we got in those 
hearings was: Sequestration has prevented us from being able to 
do adequate training, and, therefore, mistakes were made, 
commanders have been relieved, et cetera.
    We talked about a big pot of money. It is coming your way. 
Tell me about enhanced training you have planned for incidents 
like this and making better sailors and Marines.
    Mr. Spencer. Let me provide the 30,000-foot view, if I can, 
Congressman.
    Out of the accidents that happened over in the Seventh 
Fleet, you might remember we had the comprehensive review stood 
up by the CNO, and I stood up the strategic readiness review. 
The 90-plus-some recommendations are now being handled by our 
oversight committee. We are well along the way. I am looking at 
14 different items here, which have some items that are already 
engaged in awareness and training, the way we handle equipment 
on the bridge.
    And then we have my strategic review, which is dealing more 
with culture and structure and C2. We have a brief, the CNO and 
I are sitting down here on our C2 discussions here momentarily. 
We are also addressing the way forward for the career path of 
the surface warfare officer.
    Specifically, when it comes to training, let me defer to 
the CNO.
    Admiral Richardson. Sir, the training enhancements really 
leverage what has been almost a renaissance in understanding 
how people learn. And you harness that along with the sum of 
the really high-end technologies--a lot like a game, but a game 
that teaches you rather than just a game. And we have found 
that these have tremendous impact, you know, orders-of-
magnitude improvement in terms of getting people to learn how 
to do their job.
    Some of this was already underway in a program that we call 
Ready Relevant Learning, where we harness these technologies, 
we package them in blocks, and deliver them right before time 
of need so that that they are most relevant there. And that 
whole program has been enhanced by what we have learned to the 
tune of about $600 million over the 5-year defense program, to 
focus those specifically on the surface warfare challenges that 
we saw in the Pacific.
    Ms. Granger. Thank you.
    Mr. Visclosky.

                         BUY AMERICA PROVISIONS

    Mr. Visclosky. Thank you, Madam Chairman.
    Secretary, there is a dance that administrations of both 
parties play with Congress on Buy American provisions in the 
Department of Defense. Every year, when the budget comes up, 
there are no provisions. Every year, when the budget is 
completed, there are five provisions, basically. I assume that 
will hold true for fiscal year 2018.
    Also, there are no waivers to those pending that I am aware 
of. So I would simply make the observation that, should the 
Department feel at some point in the future that a waiver might 
be necessary from the Department's perspective, that, in the 
future, I would also hope that the Department looks at those 
requests as to how they could be avoided in the future, whether 
or not Congress would accede to it or not. My sense in the past 
is administrations--and, again, both parties--have just been 
gratuitous. ``We are going to ask for it, and we don't care if 
the problem is ever fixed.''

                 FACILITY SUSTAINMENT AND MODERNIZATION

    The one question I would have, in conclusion here, though, 
is on facility sustainment and modernization. It is my 
understanding that, in the 2019 request, the Navy's request is 
under a model, as I am told, is at about 78 percent; the Marine 
Corps at about 80 percent.
    For any of you on the panel, though, concerns you have as 
far as just your basic facilities that we should have a focus 
on?
    Mr. Spencer. I will start, Congressman. And I will back up 
real quickly on an earlier question.
    One of the things that we are focusing on in the Department 
of the Navy, specifically on the acquisition side, is 
management of our supply chain. That is a key, critical 
enhancer for us, and it really hasn't been--a lot of light 
hasn't been shined on that. If we manage our supply chain 
correctly, we should be able to manage the situations like 
that.
    Mr. Visclosky. And I appreciate you saying that, because I 
was going to acknowledge, because a number of members have 
talked about that. And I do, again, believe people's sincerity 
on the panel of managing that industrial base. I am sorry for 
not saying that.
    Mr. Spencer. No, not at all. I just wanted----
    General Neller. On the facilities, sir, you know, I would 
say our facilities are probably as good as I have ever seen 
them, but that doesn't mean that we are 100 percent.
    And one thing about building a new facility is, in a few 
years, you have to maintain it. And in order sometimes to build 
it, you have to tear things down. And that is not a cheap 
thing, because a lot of the old facilities have environmental 
issues and they have to be properly disposed of, et cetera.
    So we are always accepting risk with facilities, because if 
we had to pay a bill or do something in the past, particularly 
under sequestration and a CR, the facilities and the training 
ranges and the things like that always, kind of--they were the 
first ones to take the hit. So we think we have found a balance 
here. You are never going to get all the new stuff as fast as 
you want, and you are never going to get all your facilities to 
be brand-new. But we watch that, because we have to maintain 
what we have.
    And there are some things, quite frankly--there are some 
areas we end up spending money to maintain things, or people 
use things that would be better if we just tore them down and 
we didn't have to deal with them. And so that is all part of 
our overall plan to get our facilities right-sized.

                                  BRAC

    Mr. Visclosky. And, General, I might just mention that I 
think Congress is part of the problem. It would be my 
anticipation in the fiscal year 2018 bill we will have 
prohibition on even considering how to approach the issue of 
BRAC. I realize the political sensitivity. I am not completely 
naive. On the other hand, I think it is very foolish public 
policy not to study issues to gain knowledge to make an 
informed decision. And I think sometimes we forced these costs 
on you by not at least seeking knowledge as to what makes sense 
with the taxpayers' dollars and what you need to utilize for 
your efforts.
    So thank you very much.
    Thank you, Madam Chairman.
    Ms. Granger. Mr. Cole.

                         GLOBAL MANEUVER FORCES

    Mr. Cole. Thank you very much, Madam Chairman.
    Just a quick question, Admiral Richardson. A couple years 
ago, the then-current Commander at PACOM was appearing before 
us, and I just asked him, what was your greatest concern? He 
said, my greatest concern was last year we went 135 days 
without a carrier in the Pacific over the course of a year, at 
different points in the year.
    Do you envision any kind of gap like that going forward?
    Admiral Richardson. Sir, I think we will be putting more 
carrier strike groups to sea.
    But where I am going with this, sir, is a bit of a shift. 
And it goes back towards this idea of naval forces as global 
maneuver forces. So I will tell you that, if in any particular 
spot I don't have a carrier, I am just not very long away from 
getting it there, right? And so it is just a matter of what are 
the warning signs that are associated with any crisis that may 
go up. And this is the really unique thing about your Navy-
Marine Corps team, is that we are just a week or so away from 
being where we need to be. We are that dynamic.
    And so, moving away from the thinking where it is a one or 
a zero, I am either there or I am not. It is really moving 
towards thinking, what is my tether to get there, and how does 
that compare to the strategic warning for that situation?
    A little bit of a long answer to your question, sir, but I 
will tell you that, overall, the situation is improving.
    General Neller. I would just add, Congressman, I think the 
way--and to pile on with what the CNO said, I mean, the 
advantage that our maritime force has is we can change our 
position. We don't need host-nation approval. We don't need to 
go talk to anybody diplomatically. We use the sovereignty of 
the seas to move that force.
    And we are looking now at a different posture of our force 
as we set the globe in a different way. And you are going to 
have fifth-generation aircraft on an amphib deck, which we 
never had before. So that is going to cause our adversaries to 
have to look at it in a different way.
    So it is not a carrier. It is only going to be six 
airplanes. It is not a carrier air wing. But it is a 
capability. And then, when you combine that with other surface 
action groups and other things, and even land-based aircraft, I 
think we are going to put ourselves in a different posture and 
force our adversaries to look at us in a different way.
    Mr. Cole. Thank you very much.
    Thank you, Madam Chairman.
    Ms. Granger. Chairman Frelinghuysen.

                              ALIS SYSTEM

    Mr. Frelinghuysen. The Navy should point with pride that 
Admiral Harris will soon be wearing an ambassadorial hat. We 
like to marry the power of diplomacy with the power that all of 
you represent.
    I couldn't leave here without asking whether--the landing 
on the Wasp of the F-35, was the ALIS system deployed in that 
maneuver? Because this has been a focus and concern of mine.
    General Neller. Yes, Chairman. I mean, I know we have 
talked about that. And we are still working through that. I 
have not heard anything about--I mean, those are kind of the 
initial bounces to get the aircraft qualified to land there. I 
don't believe they deployed the whole squadron there.
    I know that the squadron that sourced that aircraft 
operates out of Marine Corps Station Iwakuni, where also now 
the carrier air wing that supports the Japan-based carrier is 
moving down. They are working the ALIS system. And there are 
some things that are new as we work through that.
    Although the real issue for part support there and supply 
support there has to do not solely with that but the fact that 
we are in a foreign country. And I would say, for example, I 
know that squadron deployed to Alaska for an exercise, and 
because they were in the United States and didn't have to deal 
with some customs issues, their support was probably a little 
bit better than it was, because we are in a host nation and we 
go through the rules and regulations there.
    So we work that every day. In fact, we were at an event 
last night and saw some folks from that vendor, and we had a 
nice discussion about support. And, as the Secretary said, you 
know, I will say, having been in this office coming up on 3 
years, having a DEPSECDEF and Ms. Lord and Mr. Spencer and 
other people that are involved in the business world, that has 
changed our discussion on how we see things. And I think it is 
going to make us much more cost-conscious and more cost-
effective.
    And, as the Secretary said, with all the people that 
provide capability, we are making sure that we get value for 
the dollars that the United States taxpayer spends on the gear 
that we are going to operate, which is very effective.
    Mr. Frelinghuysen. Well, please keep all of us posted on 
your work. I mean, obviously, it is the critical investment. 
And it has been around for a while. So sometimes when things 
have been around for a while, they have some vulnerabilities. 
So I am sure in your discussions those issues will be 
addressed.
    Thank you, Madam Chairman.
    Ms. Granger. Thank you.
    For our last question, Ms. Kaptur has asked for a brief 
last question.

                           DRUG/OPIOD CRISIS

    Ms. Kaptur. Thank you, Madam Chair, very, very much.
    I just wanted to raise awareness, though you may not view 
this as your major mission, obviously, but the issue of the 
drug/opioid/heroin crisis in our country is so extensive. Ohio 
now is the number-one State for deaths per capita. This is not 
just troubling, it is terrifying, what is going on.
    And we don't have enough doctors in our country to meet the 
need. We certainly don't have enough advanced practices nurses 
in the area of neuropsychiatric care and substance abuse.
    And within your departments, there may be a way for a 
shared defense-civilian medical program where we could help pay 
for the education of doctors that could then serve in the 
defense arena, our veterans hospitals, as well as the civilian 
sector.
    I would ask you to consider how we might use your 
experience and training in past decades to create a program 
where we can attract enough people into this specialty to serve 
both in the medical arena in defense--I know Special Forces 
told me that they were having difficulty, you know, recruiting 
behavioral specialists. We just don't have them. We don't have 
enough of them.
    And so there may be a program where, through your medical 
facilities and of the other departments, we could help to pay 
for the medical education of people, so we get people serving 
in the defense sector, and then they could rotate out perhaps 
for a few days in the civilian and serve both sides.
    I don't know quite the exact answer. All I know is the 
problem. And so I just wanted to place it on the screen for you 
as an arena for, perhaps, additional inquiry inside your 
respective departments. Thank you.
    Thank you, Madam Chair.
    Mr. Spencer. Congresswoman, just to comment there, what you 
will see coming out of the Strategic Readiness Review kind of 
fits into where we will be coming before Congress for some 
nibbling around the edges on DOTMA. And it is specifically, 
whether it be cyber or the example you talked about, the 
ability for our gray matter to cycle back through the civilian 
sector, whether to become current or remain current or add 
value to the equation, and have that ability to come in and out 
of service.
    So that is one of the things we are looking at. Duly noted, 
what you just said.
    And the fact that you brought up the earlier comment about 
drugs in the service, the Commandant hit the nail on the head. 
It is an area we are focused on. We are going down on the ramp 
there. But I will tell you one thing, as the Secretary of the 
Navy: We have services to support and take care of people who 
have a drug problem. I have absolutely zero tolerance for 
anyone distributing drugs in our Navy, and they will be dealt 
with in that light.
    Ms. Kaptur. Thank you.
    Ms. Granger. Thank you.
    As we finish up, I would like to compliment you on the way 
you work as a team. It is very important that your outreach, 
and particularly in small business--how important that is, and 
your coordination with Secretary Mattis.
    I want to thank our witnesses for testifying today, and the 
briefing of the subcommittee is adjourned.
    [Clerk's note.--Questions submitted by Mr. Rogers and the 
answers thereto follow:]

                                 CH-53K

    Question. The Marine Corps' new CH-53K King Stallion helicopter 
will replace the aging CH-53E Super Stallion, using proven and mature 
technologies and will deliver more than three times the capability of 
its predecessor. The CH-53K is designed to improve aircraft, aircrew, 
and passenger survivability; increase reliability; and significantly 
reduce operating and maintenance costs. The CH-53K will be the most 
capable heavy lift helicopter in the world today, and should meet the 
Marine Corps' warfighting requirements in the 21st century. The 
complete Program of Record for the CH-53K is 200 aircraft.
    Can you please describe the increase in capability that the K model 
CH-53 will provide the Marine Corps?
    Answer. The CH-53K immediately provides 3 times the lift capability 
of its predecessor. It will be the only fully marinized, heavy-lift 
helicopter capable of transporting 100 percent of the vertical Marine 
Air-Ground Task Force (MAGTF) required to fulfill our role as 
``contact'' and ``blunt'' layers per the National Defense Strategy 
(NDS). The King Stallion will be able to transport up to two armored 
High Mobility Multipurpose Wheeled Vehicles (HMMWVs), two HMMWV 
Expanded Capacity Vehicles (ECVs), or a Joint Light Tactical Vehicle 
(JLTV) out to 110 nautical miles (NM), enable the MAGTF to mass combat 
power, maneuver, and maintain resilient and agile logistics and 
maintenance while under persistent multi-domain attack.
    Questions. If this production ramp was to increase even faster, and 
you were directed to procure additional aircraft in FY 2019, could you 
support that?
    Answer. Yes, to a certain extent. Increasing the CH-53K ramp rate 
will allow the Marine Corps to transition its Marine Heavy Helicopter 
(HMH) squadrons to the CH-53K faster, but only up to a certain rate. 
The Marine Corps--and Sikorsky--could support two additional CH-53Ks 
(10 total) if they were included in the FY19 budget.
    Question. Would this increased production ramp result in a better 
per-unit cost?
    Answer. Any increase in aircraft ramp would impact the per unit 
cost in those specific years due to economic order of quantities and 
learning curve. If the ramp would continue to grow, a savings in 
Average Per Unit Cost (APUC) could be realized for procurement.

    [Clerk's note.--End of questions submitted by Mr. Rogers. 
Questions submitted by Mr. Aderhold and the answers thereto 
follow:]

                             LCS Workforce

    Question. Secretary Spencer, I will not repeat the question from my 
friend and colleague, Martha Roby, but I also want to express concern 
about how having only one LCS ship in the FY19 budget affects our 
workforce. As you know, a highly skilled and experienced workforce 
cannot be restored overnight once that workforce dissipates due to 
layoffs. Could you have some of your staff meet with industry and 
report back to the Committee on how many months will be needed to 
restore this workforce back to full operability, after the layoffs that 
the FY19 budget request-level will cause?
    Answer. There are four LCS planned for construction between FY 2018 
[3] and FY 2019 [1] that are not yet on contract. These ships provide 
sufficient work across the two contractors that, when combined with the 
13 LCS hulls that will still be under construction in FY 2019, provide 
for workforce stability and be competitive for the FFG(X) award in FY 
2020. The Navy is confident that the FFG(X) shipbuilder selected will 
be able to ramp up their workforce to meet the Navy's FFG(X) 
procurement profile.

                     New Force Structure Assessment

    Question. Both the National Security Strategy and the National 
Defense Strategy highlight increased significance in the maritime 
domain. The 30 year shipbuilding plan offers a path to a 355 ship fleet 
in the 2050s--yet it follows a very similar Force Structure Assessment, 
or FSA, to the last one submitted by the Obama Administration in 2016.
    The current LCS, and the follow-on frigate we are about to procure, 
offer an affordable option to be able to increase capacity across the 
globe, while taking the stress off of our bigger assets (the ships 
which have a larger role in our great power competition with Russia and 
China).
    Can we expect a new FSA to reflect the new strategies laid out by 
this Administration, and will it include a role for small, surface 
combatant ships as described above?
    Answer. A new Navy Force Structure Assessment (FSA) will account 
for National and Departmental strategic guidance to define the 
capability and capacity of the future Naval battle force. Small surface 
combatants, as part of the battle force, will be addressed in the new 
FSA.

                     IAMD Interoperability in AEGIS

    Question. In the recently released 2018 National Defense Strategy 
for the United States, Secretary of Defense, James Mattis, said 
regarding ``deepening interoperability:''

          ``Each ally and partner is unique. Combined forces able to 
        act togethercoherently and effectively to achieve military 
        objectives requires interoperability.''

    Is there a need for better IAMD interoperability in AEGIS to 
improve fleet defense in small operational areas, particularly to 
counter large-scale, coordinated raids by our potential enemies?
    Answer. Yes. The Navy continually strives to improve AEGIS 
interoperability as an urgent warfighting priority. The Strike Force 
Interoperability program and process, as an example, was expressly 
created for this purpose; it examines interoperability challenges 
within the Fleet and certifies ships as interoperable as a precondition 
before deployment. Similarly, the Navy AEGIS Speed-to-Capability 
(ASTOC) process takes advantage of the AEGIS Common Source Library and 
the open computing architecture design to pace emerging threats. These 
initiatives address the challenge of large-scale, coordinated raids by 
our potential enemies. As the number of partner nations possessing 
AEGIS combat systems continues to grow, the ASTOC process will enable 
them to pace the threat as well.

                   AEGIS Force-Level Interoperability

    Question. As such [relating to the previous question on AEGIS 
interoperability], what is the plan for introducing that capability in 
the near term to support our sailors? Finally, would you consider an 
AEGIS Force-Level Interoperability definition and analysis study to 
address maximum interoperability of AEGIS and related assets in a 
limited operating space?
    Answer. The Navy AEGIS Speed-to-Capability (ASTOC) process in use 
today is designed to rapidly and affordably develop AEGIS 
interoperability and warfighting capability improvements and get them 
to the sailors in the Fleet quickly. Utilizing the ASTOC process, an 
AEGIS update to address an emerging threat or add an identified high-
priority capability can be approved, developed, tested, certified, and 
fielded within a year.
    The Chief of Naval Research has sponsored a number of force level 
resource management and interoperability studies and projects in the 
past. The Navy sees the value of maximum interoperability of our ships, 
aircraft, and submarines as a force multiplier. No further studies or 
legislation is required to speed this program up.

              Conventional Prompt Strike/Hypersonic Weapon

    Question. The Navy has been assisting the Pentagon with the CPS, 
Conventional Prompt Strike, program. One possibility is to field a 
hypersonic weapon from a submarine. In each of the next five fiscal 
years, what dollar amount of Navy-budget funding (not OSD funding), 
separate and apart from the submarine development budget, is set aside 
for work specific to hypersonic weapon development; for example, is the 
development of a new booster motor being paid for by OSD funds 
entirely, or by Navy-budget funding (not OSD funding), separate and 
apart from the submarine development budget, have you set aside in past 
fiscal years for work specific to the development of a booster for the 
Navy's Hypersonic Weapon?
    Answer. Starting in FY19, the Navy has programmed $700M/FYDP for 
evaluating and integrating CPS on a number of candidate platforms. 
Beginning in FY20, OSD will transition $906M/FYDP from the defense-wide 
account to Navy for CPS weapon development, bringing the total 
investment to $1.6B/FYDP. At that point, the Navy will assume the lead 
for CPS efforts. In anticipation of FY20, the Navy and OSD have 
commenced initial CPS transition efforts, to include scoping the 
program, assigning a program manager, and early platform integration 
work.

    [Clerk's note.--End of questions submitted by Mr. 
Aderholt.]

                                         Wednesday, March 14, 2018.

        FISCAL YEAR 2019 UNITED STATES AIR FORCE BUDGET OVERVIEW

                               WITNESSES

HON. HEATHER WILSON, SECRETARY OF THE AIR FORCE GENERAL DAVID L. 
    GOLDFEIN, CHIEF OF STAFF OF THE AIR FORCE

                 Opening Statement of Chairman Granger

    Ms. Granger. The subcommittee will come to order. This 
morning, the subcommittee will continue our series of open 
defense posture and budget hearings with our military services. 
Today, we will hear from the Air Force leadership on their 
fiscal year 2019 budget request.
    This is the second in our series of hearings with the 
military services on the fiscal year 2019 budget request. We 
know that the Air Force has pressing needs for modernization 
across the board, and the National Defense Strategy demands an 
even greater pace of innovation. The subcommittee is prepared 
to help the Air Force meet that challenge.
    This is an open hearing, but if our witnesses would like to 
come back before the subcommittee in a different forum at some 
time to talk in more detail about the challenges the Air Force 
faces, please let us know.
    Before I introduce our witnesses, I would like to recognize 
our ranking member, Mr. Visclosky, for any remarks he would 
like to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. Chairwoman, thank you very much.
    I appreciate the panel being here today, your service. I 
look forward to your testimony.
    And, Madam Chairwoman, thank you for bringing us together 
today.
    Ms. Granger. Thank you very much.
    Allow me to introduce our witnesses, the Honorable Dr. 
Heather Wilson, Secretary of the Air Force; General David 
Goldfein, Chief of Staff of the Air Force.
    Secretary Wilson is making her first formal appearance 
before the subcommittee.
    Secretary Wilson, welcome.
    Secretary Wilson is appearing alongside the chief of staff, 
General Goldfein. General, thank you for your being here today. 
We look forward to hearing your views. Please proceed with your 
opening remarks.

                 Summary Statement of Secretary Wilson

    Ms. Wilson. Madam Chairwoman, I would like to enter my full 
statement into the record and just summarize a few comments.
    First of all, let me thank all of you for your work on the 
fiscal year 2018 Defense Appropriations bill. It makes a 
tremendous difference to the airmen whom we represent here 
today.
    And thank you to the members of the committee who have met 
with the chief and I over the last 3 or 4 weeks to talk about 
individual concerns. We very much appreciate your openness to 
do so.
    The Air Force budget proposal for fiscal year 2019 aligns 
with the National Defense Strategy. It recognizes that we face 
a more competitive and dangerous international security 
environment than we have faced in decades. We have returned to 
great power competition, and the central challenge to U.S. 
security and prosperity is one that we must meet.
    I would say that, in this budget, there are really two bold 
moves: The first is accelerating defendable space. We need to 
deter, defend, and prevail against anyone who seeks to deny our 
ability to freely operate in space.
    And you will notice in the defense budget for fiscal year 
2019, over the 5-year defense plan, we have an 18 percent 
increase for space over the plan that we presented to you last 
year at this time. And last year's was an increase over the 
year before.
    The second bold move that is included in our defense--
proposed defense budget for the Air Force this year is the 
shift to multidomain operations. We are proposing to change the 
way we do command, control, and communications on the 
battlefield, a mission that we perform for the Joint Force and 
particularly for the ground forces.
    So, while there are two bold moves, accelerating defendable 
space and the shift to multidomain operations, there is also 
one continuing effort, and that is to keep improving the 
readiness of the force to win any fight, any time. That is what 
you expect of your Air Force and of your Joint Force, and we 
are here to deliver.
    With that, I would ask the chief to join in here.

                 Summary Statement of General Goldfein

    General Goldfein. Thanks, Madam Secretary.
    Chairwoman Granger, Ranking Member Visclosky, distinguished 
members of the committee, it is an honor for Dr. Wilson and I 
to represent 670,000 airmen as we update you on the Air Force 
and our budget proposal for 2019.
    As Dr. Wilson stated, this hearing comes at a time of 
increasing global uncertainty. The security landscape we face 
has become more competitive, complex, and dangerous. In air, in 
space, in cyberspace, potential adversaries are rapidly 
leveling the playing field.
    As stated in the recently published National Defense 
Strategy, we face the reemergence of great power competition. 
And while we didn't seek this competition, let there be no 
doubt in this room and around the world, your airmen stand 
ready to defend the homeland, deter nuclear conflict through 
nuclear readiness, own the high ground in any military conflict 
with air and space superiority, and project global vigilance, 
reach, and power with our joint teammates, allies, and our 
partners.
    I saw it a few days ago in the faces of our defenders at 
Fort Bliss training side by side with their joint teammates as 
they prepare to deploy to CENTCOM and AFRICOM. We saw it in 
January, when Secretary Wilson and I walked with our airmen on 
the Korean Peninsula assessing our readiness and support of the 
Department of State-led pressure campaign.
    In January of 2018, this year, airmen flew 253 sorties 
delivering lethal effects in the air-ground campaign that has 
delivered a punishing blow to ISIS in Iraq and Syria, as we 
simultaneously apply pressure to the Taliban across 
Afghanistan.
    At the same time, our continuous bomber presence in Guam 
and the U.K. supported diplomacy in Korea and in NATO, as 
airlift and tankers flew 1,400 sorties, taking off and landing 
every 3 minutes, delivering 12 million pounds of fuel and tens 
of thousands of tons of cargo and personnel when and where it 
is needed.
    We remain a global power because of global mobility. 89,000 
total force airmen are deployed or forward stationed around the 
globe, representing a fifth of our Active Duty force. And here 
in the homeland, airmen executed space, nuclear, cyber, 
remotely piloted ISR missions 24/7, to include flying the GPS 
constellation used by billions worldwide every moment of every 
day.
    Airmen participate in some way in every mission the Joint 
Force performs. We operate from below the surface in a remote 
missile silo to the outer reaches of space and everywhere in 
between. And we can do all of this only with the unwavering 
support of the American people and the leadership and support 
of Congress.
    This Air Force budget request allows our Nation to confront 
today's threats and moves us toward the Air Force we need to 
face tomorrow's challenges. It builds on progress we will make 
in 2018 to restore the readiness of the force, increase 
lethality, and cost-effectively modernize.
    But most important, as Dr. Wilson stated, we assured budget 
alignment with both the National Defense Strategy and the 
Nuclear Posture Review as both were being developed. And this 
budget supports the greatest treasure in our Nation's arsenal: 
our airmen and their families.
    Madam Chairwoman, Ranking Member, distinguished members of 
the committee, thank you for your continued commitment to the 
force our Nation needs and deserves. And on behalf of our 
airmen, we stand ready to take your questions.
    [The joint written statement of secretary Wilson and 
General Goldfein follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              SPACE FORCE

    Ms. Granger. Thank you very much.
    Before we begin questions, you understand that we have the 
same limit on each member's questions and response, is timed to 
5 minutes.
    I am going to start with questions regarding something that 
has just happened, so I would like to start that, go to Mr. 
Visclosky. And then Chairman Rogers and Chairman Calvert both 
have hearings they have to go to, so we will have a different 
sort, and go to you all after that.
    Secretary Wilson, yesterday, the President made a statement 
suggesting that the administration supports the idea of a space 
force. I want to know what your understanding of the current 
policy is, and how do you interpret the President's remarks? 
And then both of you and Secretary Mattis have expressed 
concern about this in the past, could you please reiterate your 
reasons for opposing this idea?
    Ms. Wilson. Thank you, Madam Chairman.
    As the President said yesterday, the new National Defense 
Strategy for space recognizes that space is a warfighting 
domain. We appreciate the President and the Vice President's 
leadership on space. Nowhere is that leadership more clear than 
the President's budget, which the chief and I are here to talk 
to you about today.
    This budget accelerates our efforts to deter, defend, and 
protect our ability to operate and win in space. There are a 
number of different elements of this with respect to the space 
portfolio, but they really--it really starts to focus intensely 
on space situational awareness, the ability to command and 
control what is going on in space, and the ability to create 
effects in space in order to protect our assets on orbit. And 
it is a significant change in this President's budget.
    General Goldfein. Madam Chairwoman, I will just say that I 
am excited about the dialogue. In 2011 to 2013, I was deployed 
forward as the air component commander in Central Command, and 
one of my----
    Ms. Granger. Could you speak up a little bit louder, 
please?
    General Goldfein. Yes, ma'am.
    I was saying Hagel that, from 2011 to 2013, I was deployed 
forward with then-General Mattis as his air component commander 
in Central Command. One of my responsibilities for him was to 
be his space coordinating authority and to take those 
capabilities that we bring from space and ensure that they were 
connected to his operational planning.
    As a Joint Chief, I see that same responsibility as the 
lead Joint Chief for space operations, is making sure that we 
have those capabilities that the joint team requires. And so as 
the President stated openly, this is a warfighting domain. That 
is where we have been focused, and so I am really looking 
forward to the conversation.
    Ms. Granger. Anything to add?
    Thank you very much.
    Ms. McCollum.

                            PILOT SHORTAGES

    Ms. McCollum. Thank you, Madam Chair.
    Secretary, General, thank you for testifying here today. 
Thank you for stopping by in the office.
    So I am going to just follow up on the record and ask you 
to continue to work with the committee on dealing with the 
hypoxia issue, especially the psychological effects on our 
pilots.
    And, also, I asked the same question of the Navy--and I 
will with all the branches, have people who are flying--what we 
are doing to coordinate together to solve this problem because 
this is across-the-force problem.
    And I want to make sure that there is coordination, 
because, one, we will get the answer faster; two, it will save 
taxpayers money; and three, all the pilots in all our branches 
of the service will know that they are being equally looked out 
and after.
    And then we talked briefly about pilot shortages as well, 
and as I mentioned, we are experiencing that not only in the 
Department of Defense but in other agencies as well. What we 
can do as a committee to either help you with addressing the 
pilot shortage as well as what we, as a committee, if you need 
additional resources to deal with the pilot hypoxia issue.
    And, Madam Chair, I know sometimes we hear from the senior 
medical officers in a briefing, and if we do, I would like to 
ask them this question; if we are not, if that is not on the 
briefing schedule, I will be submitting some questions to them, 
as well.

                         NUCLEAR POSTURE REVIEW

    The question for today though is on the nuclear weapons 
recapitalization, and I wanted to ask you about the budget 
implications of this Nuclear Posture Review. The review states 
that the recapitalization and modernization of nuclear forces 
could require resources of over 6 percent--6 percent--of the 
Department's current budget going forward. The requirement in 
NPR could end up costing taxpayers well over $1 trillion over 
the next few decades. And at a time when we are struggling to 
meet domestic priorities for the people that we all represent 
in this room and my constituents are telling me that their 
needs are not being met, I find the budgetary implications here 
to be quite alarming going out to the future.
    The Department is also advocating for the modernization of 
our conventional forces. So I want to ask you both, given that 
the Air Force has responsibility for much of the Department's 
nuclear command, how does the Air Force prioritize 
modernization and recapitalization of our nuclear forces 
against the needs to modernize our conventional forces?
    And why are systems like the long-range standoff missiles 
necessary to maintain a credible nuclear deterrent? How are you 
going to prioritize to meet all your needs? Six percent of the 
Department's current budget going forward is quite a bite out 
of the budget?
    Thank you, Madam Chair.
    Ms. Wilson. Madam Chair, I will take on the first two of 
those and then turn to the chief for some additional 
elaboration.
    The Nuclear Posture Review reaffirms the importance of the 
triad and nuclear command and control and communication. And it 
says that it is our responsibility as the military to maintain 
a safe, secure, and effective nuclear deterrent.
    For the United States Air Force, that is two out of the 
three legs of the triad. We are moving forward in this budget 
with the recapitalization or the replacement of the Minuteman-
III missile, which has not been updated since the 1980s, and it 
is just too expensive to continue to maintain.
    The one that you mentioned, the long-range standoff 
munition replaces the air-launch cruise missile. I was out in 
Minot, North Dakota, with our maintainers there, and they were 
showing me why we need a replacement for the air-launch cruise 
missile for the airborne leg of the triad. The materials over 
time just--they just wear out, and we need to replace the 
system.
    You also mentioned nuclear command, control, and 
communication, and the Air Force has a significant part of that 
as well. And this budget focuses on recapitalizing nuclear 
command, control, and communication.
    There is one piece that you didn't mention, and it is not 
really an Air Force mission directly, although we operate part 
of it, which is ballistic missile defense, which is also part 
of the nuclear deterrent. Nuclear weapons have helped to keep 
the peace since the end of the Second World War, and the 
nuclear deterrent is a core mission for the United States Air 
Force, and one that we have shouldered willingly.
    I would add, your question about pilot shortages, this 
budget proposes to increase training to about 1,400 pilots a 
year for the Air Force to try to increase the way in which we 
absorb pilots into squadrons, which is actually one of the 
limiting factors, and then tries to retain more pilots. And the 
Congress has authorized us to do some things with respect to 
finances.
    But the most important thing that we can do, and Congress 
can help in this, is that we are too small for all of the 
missions that the Nation is asking of us, and I worry that we 
are burning out our people with deployment rates that are just 
too hard to sustain over time; and that, in the middle of their 
careers, airmen are often trying to make that choice of whether 
they can continue at that high of pace for deployments.
    And maybe I would ask the chief to answer the OBOGS 
question and whatever else.
    General Goldfein. Yes, ma'am.
    And I would just offer, on the nuclear, I would just--
Secretary Mattis had stated, and I agree, that, you know, at 5 
to 6 percent of the budget for the nuclear enterprise, the 
Nation can afford to defend itself. And I absolutely am with 
the Secretary when it comes to the loss of life that we 
experienced before nuclear weapons were introduced and then 
what has happened since then.
    When it comes to the kinds of weapons, the Nuclear Posture 
Review validated once again the requirement for three legs of 
the triad and then tie it together with the command and 
control. And then, as the service, they are responsible for 
two-thirds of that. We make it an extremely high priority in 
our budget.
    When it comes to those specific parts of the nuclear 
enterprise, you mentioned the long-range standoff missile. This 
is all based on supporting General Hyten as the Strategic 
Command Commander, or the STRATCOM Commander, and his plans 
that require us to be able to hold targets at risk. And all 
three legs of the triad and the munitions they carry all 
contribute to his operational plan, so that is what drives the 
actual requirement that was validated in the NPR.
    When it comes to the--you know, when it comes to the T-6 
and the oxygen generating system and the decision that the 
Secretary and I made to ground the fleet, we just had too many 
incidents that caused our concern. This is an aircraft that has 
been flying for years. We have got over 2 million safe flying 
hours.
    But we had a series of incidents that happened in a short 
timeframe that caused us to stop, ground the fleet, put a team 
of engineers and operators together to go in and look at the 
entire system, pull it apart. And what we found was that there 
were three parts of the system that were actually failing at a 
much higher rate than we had anticipated.
    And so we put our actions in place to go replace those 
parts. As those parts come in and we complete those actions, 
those airplanes are getting back in the air. We are on track 
right now to get to 275 this month aircraft back in the air of 
the 444, and we will have the remainder of them flying this 
summer.
    What I will tell you is, we learned in the F-22 that as we 
worked through the engineering piece of this, we lost the 
communication with our families. And so one of the things that 
we are doing aggressively in this T-6 is being really inclusive 
with pilots and their families to let them know every step of 
the way exactly what we are doing.
    And so, as we get back in the air, I am pretty proud of the 
team that has come together to make sure that we do this at a 
level that the Secretary and I are comfortable with.
    Ms. Granger. Thank you.
    Chairman Rogers.

                             PILOT SHORTAGE

    Mr. Rogers. Thank you, Madam Chairman.
    Madam Secretary and General, welcome to the subcommittee.
    We are especially delighted to see the Secretary back in 
her old haunts here on the Hill. We are proud of you, Madam 
Secretary, and we wish you and the general lots of good 
results.
    Let me talk to you briefly about pilot shortage, as has 
been mentioned so far. At the end of fiscal 2017, Air Force 
reported a shortage of 1,812 pilots. It has also been reported 
recently that the Marine Corps pilots are flying more hours 
than Air Force pilots.
    General Goldfein, perhaps you are best to answer this: What 
is the status of your pilot shortage now?
    General Goldfein. Yes, sir. And, first, just to correct the 
record, we went back and took a look at the actual number of 
hours that our folks are flying. And, in fact, we are pretty 
much in parity with other services and, in fact, our joint 
teammates in many ways. The average pilot was flying, in 2016, 
about 17.8 hours. We are on track now with investments we are 
making to get up to 20 hours per year--or 20 hours per month 
when it comes to the actual flying. So we are flying at the 
same rate as the Marine Corps, the Navy. All the services are 
flying the same.
    As we have dug into the details and analyzed the issue, it 
really comes down to two areas that we are investing in and 
focused on: One is how many pilots we produce; and then, two, 
how many pilots we retain, because you have to get both of 
those right.
    And we have identified a target that we have laid the money 
in for it to get us to 1,400 pilots per year that we produce, 
and we will achieve that in 2020. We are going to work our way 
into 1,200 pilots a year, 1,300 pilots a year, 1,400 pilots a 
year.
    We are going to be short of that this year, primarily 
because of the T-6 grounding, and so we are going to be about 
200 short of that. But we appreciate Congress' help in this, 
because the money that you laid in the budget is going to allow 
us to produce at the rate that allows us to sustain the force 
that we need.
    On the retention side of the house, we really appreciate 
what Congress has done to authorize us to increase the pilot 
bonus, but we are also finding that it is a combination of 
quality-of-service and quality-of-life initiatives that we are 
working on to increase retention of the force.
    We have over 66 initiatives that we are working 
simultaneously now that is looking at, you know, how do we 
produce more control over time? The Secretary talked about 
operational tempo. We are looking at assignment processes, how 
we can get people more time at one assignment. We are looking 
at talent management that we are doing.
    So we have a number of actions that we are taking that is 
looking at both production and retention going forward. And, 
right now, we believe we are on track to be able to get to a 
sustainable force model in 2020.
    Final point, while we are 2,000 pilots short right now, I 
think it is very important to know that we are not short in the 
operational field. We are manning the operational field in 
cockpits to 98 percent to 100 percent. Where we are actually 
managing the risk is on the staffs, where we have positions 
where we require pilots. So the staffs are short, but cockpits 
forward are full up.
    Mr. Rogers. I understand that you have been seeking retired 
pilots to return to Active Duty and that applications are being 
submitted. Is that correct?
    General Goldfein. Yes, sir, it is.
    Mr. Rogers. And how is that working?
    General Goldfein. Sir, right now, the authorization we have 
is for 1,000, and we are just in the early day--early months of 
that putting forward. We have had, on average, 15 or so folks 
who are coming back, and we are actually reaching out.
    I will tell you that my father, who is an 85-year-old 
retired fighter pilot that lives in a retirement community, is 
really excited about coming back. And I have had to tell him 
that, hey, Dad----
    Mr. Rogers. Old soldiers never die.
    General Goldfein. That is right. That is right. He has a T-
shirt that says, ``The longer I live, the better I flew.''
    Mr. Rogers. What is the reason that they are leaving the 
Air Force? Is it money?
    Ms. Wilson. Sir, I think it is--there is a variety of 
things. First, the airlines are hiring. The airlines--you know, 
it is mandatory retirement from the airlines at age 65, and 
they are hiring 4,500 pilots a year, is what the projection is, 
and that is not going to slow down. So there is an opportunity 
to be able to make a fair amount of money as a pilot in the 
private sector.
    The second thing is, is that--a recent change to the law in 
recent years that said you can't sign on with a regional 
airline until you have 1,500 flying hours. So the path to be 
able to get to be a commercial pilot is very limited. You can 
fly in the Air Force for 3 or 4 years and still, you know, you 
are finally at full-time flying, maybe get to 1,500 hours.
    But from the inside, for someone who comes in and serves 
for 10 years as a pilot, it is really not just about the money. 
People don't come to be an Air Force pilot for the money. They 
come to serve. But there is also that point it gets to where 
you think: You know something. Over the last 3 years, I have 
been deployed for 18 months, and even when I am home, I had 3 
weeks of TDY, or temporary duty, to red flag, and then I was up 
at Alaska, and then I--and I am--you know, 12 hours a day in 
the squadron when I am training here, and I missed the last 
three birthdays of my kids. Can I continue to do this? Can my 
family continue to do this?
    And so it gets to that point in life where some people are 
finding it difficult to keep that balance, and that is what we 
hear the most.
    Mr. Rogers. Thank you.
    Ms. Granger. Thank you.
    Mr. Ryan.

                    ADDITIVE MANUFACTURING INSTITUTE

    Mr. Ryan. Thank you, Madam Chair.
    So I want to talk about the Additive Manufacturing 
Institute in Youngstown and just share with you and the 
committee some of the things that have been going on, and the--
America Makes is the name of the institute in Youngstown, Ohio.
    This was one of President Obama's initiatives where he 
wanted to start 30 or 40 of these institutes to bring public/
private sector investment into newer technologies that could 
help in the area of defense in particular to bring down the 
cost, improve lead times.
    So we have the 910th Airlift Wing Reserve Unit that does 
the aerial spray in Youngstown; they are obviously a part of 
this. And through America Makes and through some of the 
research, this team has significantly reduced fabrication lead 
times and proved to be a huge benefit to the Air Force.
    In the case of the 910th Airlift Wing, the lead time for 
parts was reduced from 10 weeks to 4 weeks, and the cost per 
part was reduced by 30 percent. They are now moving onto F-18s 
and F-15s. They have three areas that they are working on: 
bellcranks, aircraft oil coolers, and fairings.
    Now, I am learning about this as we go, but for the example 
for the bellcranks, 30 percent reduction in lead time they are 
thinking they are going to get and 20 percent cost reduction.
    For the aircraft oil coolers, 30 percent reduction in lead 
time and improved productivity are expected. And for the 
fairings, which help smooth flight surfaces with good 
aerodynamics, they think they are going to reduce production 
time by up to 50 percent with a 30-percent cost savings.
    So this is the exact kind of thing I would hope we all 
could agree to keep investing in because it is reducing cost, 
improving lead times for these spare parts where we don't need 
necessarily a million of them; you may just need a few of them.
    So I want to thank you for supporting this and just ask you 
a question. The other point I would like to make is, when you 
see who is doing the research--so, for example, with the 
bellcranks, it is Youngstown State University, Pennsylvania 
State University, Lockheed Martin, Boeing, Youngstown Business 
Incubator, M7 Technologies--it is truly public/private 
partnerships in local communities. It also has a local economic 
benefit for us as well.
    So the question is, how is the Air Force developing this 
expertise to apply additive manufacturing in these other 
emerging advanced technologies for continued effective 
maintenance and sustainment of the legacy aircraft? And what 
steps are being taken with current or future contracts to allow 
Air Force access to the electronic design files that we would 
need?
    I know, Madam Secretary, we talked about that, so if you 
could just address those two questions.
    Ms. Wilson. Congressman, first of all, the Air Force is 
very interested in additive manufacturing and 3D printing of 
parts for a couple of reasons: One is the logistics problem is 
much less. If you can just take the raw material and build the 
part where you are rather than trying to have to go back to a 
supplier.
    Second is so many of the suppliers are no longer in 
business. I mean, you think about it: The A-10, the prime 
contractor doesn't even exist anymore, and we often have 
difficulty finding parts.
    You highlight the issue, and it may be an area where we 
need help from Congress, and that has to do with intellectual 
property. If we need a new handle or a fairing on an aircraft 
and the supplier is no longer in business and we can't get 
somebody to make the part for us, we don't always have the 
intellectual property to be able to do it.
    Now, we might be able to scan an old part and be able to 
use that, but the manufacturer may say, you know, we no longer 
make those, but we still hold the IP. This will be an 
increasingly contentious issue on contract negotiations going 
forward, but we also have huge numbers of legacy aircraft.
    If we want to drive down the cost of the Air Force and what 
we spend in terms of equipment, we really have to focus on 
sustainment. And it is going to be an area of increased 
emphasis. We had a meeting about it yesterday with our new 
Assistant Secretary for Acquisition, and we are looking at 
really, really moving forward in this area in a fast--in a very 
rapid way.
    Mr. Ryan. Great.
    Just so everybody is aware, so the--it is like a 3D printer 
that you have heard of. And it sits--the desktop style can sit 
on your desk and print the back of your case. They just get the 
material and it pumps into the, what looks like a printer--it 
is a printer, and it just prints. But they also have 
industrial-sized one that can print parts for aerospace and all 
kinds of cool things.
    But this is a game changer for us. And when I was in Kuwait 
last year, they had 3D printers, and it was the same thing, 
right in the middle of the base where they are printing this 
stuff out for smaller things.
    But we have got to solve this intellectual property issue 
so that we can access this stuff and be able to print these 
parts and save the government and the taxpayer a lot of money 
and get good quality parts for our planes and other aircraft 
and stuff.
    So thank you. Yield back.
    Ms. Granger. Mr. Calvert.

               EVOLVED EXPENDABLE LAUNCH VEHICLE PROGRAM

    Mr. Calvert. Thank you, Madam Chairman.
    Secretary Wilson, General Goldfein, thank you for being 
here, and thank you for your service to the country.
    As the committee knows, I have a particular interest in 
space, both in terms of access and maintaining superiority. I 
was pleased the Air Force has finally moved toward competition 
in space, and we see the costs are coming down. A few questions 
on launching capability--I have three--and then if you please 
could answer them.
    Can you give us an update on the Evolved Expendable Launch 
Vehicle program, the Air Force pursuit of two launched systems 
that will provide assured access to space while incorporating 
competition to keep costs down?

                          SUPERIORITY IN SPACE

    Two, while we build that capability, our adversaries in 
space are aggressively pursuing technologies to erode our 
superiority in space, as was mentioned. What steps are you 
taking to enable the Air Force to move more quickly with 
innovators in the private sector to win this contest?
    And, finally, considering the Air Force's past resistance 
to change in the status quo--I always think of the UAVs and the 
Air Force's slow movement into that technology--how are you 
pushing your workforce to aggressively pursue disruptive 
technologies and incorporate a new way of thinking?
    Ms. Wilson. Congressman, a couple of things. One of the 
things you may have noted in the press from our space 
acquisition arm, which is in Los Angeles, we led a $100 million 
contract for innovation in space. It is a consortium. We did it 
with other transaction authorities to be able to work with 
companies who wouldn't normally work with the Air Force, 
because we are often bureaucratic to work with.
    We are also moving forward with actually a significant 
realignment and reorganization of Space and Missile Systems 
Command out of Los Angeles to be able to move faster in order 
to innovate, to prototype, and do a variety of things.
    I think this budget on--particularly on space, there are so 
many different things that are over the 5-year period on space 
in this budget, but let me highlight a couple of them.
    Space situational awareness: We are accelerating our 
ground-based optical sensor system, our deep-space advanced 
radar system, and our next generation space surveillance 
satellite.
    With respect to missile warning, we chose to cancel space-
based infrared 7 and 8, which were large and largely 
undefendable, and to accelerate to next generation missile 
warning with smaller sensors on a large bus so that they can 
have extra fuel, and what we might generally call chaff and 
flares, to be able to defend missile warning on orbit.
    We have a number of areas, what we would call, space 
control, and be happy to come back. And I know the chairwoman 
has talked about showing you one of our space exercises in 
classified session so that you can see what you are seeing, 
what we project, and then what we have done about it in our 
budget to be able to defend in space.
    Chief, do you want to talk about the ELV and some other 
things.
    General Goldfein. Yes, ma'am.
    So, sir, you know, the direction we were given by Congress 
was really to accomplish three things during a transition 
period to do the following: First, to ensure that we had 
assured access to all the orbitology for any platform that we 
had to pick up into low or high or geosynchronous orbit; and 
while we did this transition, that we would come out the back 
end with two domestic competitors that would be able to provide 
launch services; and on the third was, as quickly as possible, 
get off of the Russian RD-180 engine. That was the direction we 
were given. And, right now, we are on track with all three of 
those to be able to complete the transition period, come out 
the back end with two domestic launch service providers.
    We have four other transaction agreements right now. We are 
working with four companies who are looking at propulsion 
systems, because as you know, when we started down this path, 
we were not actually looking to build a new engine. We were 
looking to contract a launch service.
    And I will just share that, you know, on the most recent 
launch of the SpaceX, the Delta Heavy, we were side by side 
with SpaceX with which--with a whole team of airmen during that 
launch. And that is just an example of how we have done this, 
you know, public/private, work together to ensure that we come 
out the back end and achieve what Congress told us to do.
    Mr. Calvert. Thank you.
    I would just point out that nowadays, it seems the private 
sector is, almost in every instance, is moving faster than 
government in innovation and new technologies. And I think 
today we just have to keep up with what they are doing and try 
to incorporate that into new weapons systems as we move forward 
and do a better job of accepting those technologies and dealing 
with it.
    So thank you, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Cuellar.

                           SUTHERLAND SPRINGS

    Mr. Cuellar. Thank you, Madam Chair.
    Sutherland Springs, as you know, it is in my district, and 
I know that you all have been working on improving the 
reporting. Can you tell us where we are on that particular 
situation and what you understand the Department is doing 
across the board also, besides the Air Force?
    Ms. Wilson. Congressman, we stood up two task forces to 
scrub all of the Air Force records back to 2002, two task 
forces of 30 airmen. They have been full time on scrubbing 
those records since the incident in Texas.
    It is actually taking longer than we expected to do--than 
we expected it to do. We have over 100,000 records that we have 
already reviewed back to 2002. As we identify those that should 
have been reported, we are working with the FBI to report them.
    At the same time, we are working with the other services so 
that we are sharing our lessons learned with the other 
services. And we are trying to fix processes and training going 
forward.
    So we are--in addition to doing that, fixes and processes 
and training, we sent the auditors out to each of our MAJCOMS 
and took no-notice inspections after the training was over for 
two bases in each MAJCOM to see, all right, is the training 
sticking, and if not, what is our next step to do additional 
training to make sure that, going forward, we don't have a 
reporting problem?
    I will say that it is taking us longer--initially, we 
thought we could get through all the records by May. It is 
actually taking us longer to get through all of those records 
looking backwards. So it is probably going to take us another 4 
or 5 months to get through everything and try to close out 
every case.

                             PILOT SHORTAGE

    Mr. Cuellar. Okay. Appreciate it if you all just keep me in 
the loop as to where we are.
    Let me see. Let me just ask you a little bit, the same 
question, I think, everybody has been asking about pilots, the 
shortage. I think we are, what, 1 out of 10 short. What 
specifically did you ask in your budget to address this issue?
    Because if you look at it, we are short, and Border 
Patrol--I think we are losing more Border Patrol than hiring 
Border Patrol. We are short in Secret Service. I mean, 
everybody is having a hard time because we know the 
demographics, a certain population is getting older and 
retiring.
    But what specifically--I know we have all been talking, but 
I want to know specifically, what are you asking that will be 
different from what other predecessors have done?
    Ms. Wilson. Sir, there is a couple of things: One is, we 
are increasing the number of people who are going through 
initial pilot training, so bring in more people. We actually 
don't have a shortage of people who want to come into the 
service to be Air Force pilots.
    We then have to absorb them and train them up in the 
squadrons. That is actually one of the limiting factors. You 
know, we are particularly short fighter pilots. We only have 56 
fighter squadrons. You can imagine that if a fighter squadron 
has half of its people who are brandnew pilots, it is hard to 
season them. It is hard to train them and absorb them. So that 
is a limiting factor.
    And then it is retention, and retention really is an 
everyday thing. It is not just at the 10-year point when they 
are wondering whether they are going to stay or leave. And the 
chief talked about some of our initiatives. There really are 
over 60 of them, everything from, you know, do we allow more 
flexibility and more control of schedules and lives so that you 
can choose to stay at your same base or you will take a remote 
and come back.
    We have reduced the number of pilot requirements that are 
forward, scrubbed every requirement that said we need a rated 
officer on a staff at Central Command, for example. Do we 
really need a rated officer for that? We have taken some of our 
365-day tours and said, can they be 180-day tours?
    So there is a variety of things that we have done. And 
then, of course, there are pilot bonuses that try to narrow 
some of the gap between what the airlines can offer and what a 
pilot makes for pay, but we also have to recognize: It is not 
about the pay; it is about the quality of service, the quality 
of life.
    Mr. Cuellar. All right.
    General Goldfein. Sir, if I could----
    Mr. Cuellar. And I will--well, go ahead, and then I want to 
give my extra time to Mario. No. I am just kidding.
    Yes.
    General Goldfein. Sir, just to add to the Secretary's 
point, you know, part of what Congress can do as well is the 
recognition that this is a national level challenge. The 
problem that we are finding ourselves in is that we, as a 
Nation, don't produce the number of pilots to adequately 
service at the same time commercial, business, and military 
aviation.
    And so, in each of your States, there are colleges and 
universities that are actually in the business of producing 
pilots. Any incentives that this committee or Members of 
Congress can put in place that could increase the numbers, that 
is going to help the overall challenge we have.
    Mr. Cuellar. Well, if you can give us some ideas, because--
I know my time is over. But even in Homeland, Air Marine is 
short, Chairman Carter. So, I mean, we are just short on 
pilots. So, if you have any specific ideas to work on this 
pipeline because it is a recruitment and then the retention, 
but any specific ideas, let us know.
    Thank you, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Diaz-Balart.

                         LIGHT ATTACK AIRCRAFT

    Mr. Diaz-Balart. Madam Chair, thank you very much.
    And, Henry, thanks for remembering that.
    General, thanks for a lifetime of service to our country.
    And those of us who have had the privilege of working with 
and knowing Secretary Wilson know that there is nobody who is 
tougher, who is more thoughtful, who is more honorable, who is 
more straight than this Secretary. So I think all of us were 
very pleased that the President made a great, great choice.
    Ms. Wilson. I bought your coffee this morning.
    Mr. Diaz-Balart. I want to go a little bit about--talk a 
little bit about the light attack aircraft. And so, in the 
final report on the experimental phase, my understanding is, 
last month, that it went really smoothly and that things went 
well.
    But I understand that the light attack procurement is not 
funded in fiscal year 2019, and so, even though the experiment 
is set to take place in 2018, so I think it would be helpful, 
and I think the committee would like to have an idea as to, you 
know, schedules and funding plan for this new mission and how 
it will potentially drive down flying hours and cost and 
potentially even pilot retention.
    So can you talk a little about the next phase of the 
experiment and what that will look like?
    Ms. Wilson. Yes, sir, I can.
    First of all, you know, kudos to the chief. Before I 
arrived, he signed out a memo that said we want to do an 
experiment, signed it out on the 5th of March. It was one-page 
long. We added four pages of explanation. So that was the 
length of this request for proposal, five pages, and said we 
want to look at light attack aircraft. That was in March.
    By August of last year--so 5 months?-- 5 months we had a--
four aircraft on the ramp at Holloman Air Force Base in New 
Mexico to test. This is the way the Air Force should be doing 
things, and we were able to do that because you gave us the 
authority to experiment. Just try it. We don't have a program 
of record.
    We got the first report. We are now taking two aircraft, 
the AT-6 and the A-29, and we are going to do some additional 
experimentation this year. We put a wedge in our budget of $2.4 
billion for the United States to buy light attack aircraft and 
create some squadrons.
    I have to tell you, depending on how this experiment goes, 
we may want to work with you on moving that money around in the 
5-year defense plan, but we put a wedge in there to do that.
    If we decide to move forward, I think we should move 
forward quickly, and we will work together with Congress to get 
the necessary authorizations and the plan that makes sense to 
do the acquisition.
    We believe that this needs to be coalition at the core. By 
that, I mean we are already reaching out to allies and partners 
who may want to purchase their own light attack aircraft and be 
interoperable with the United States of America. This is all 
part of a strategy to deal with the prospect of continued 
violent extremism at lower levels of U.S. effort with cost-
effective aircraft but also doing it with allies and partners. 
So it is aligned with the National Defense Strategy, and it is 
one other way in which our fiscal year 2019 budget and plan is 
well aligned with the National Defense Strategy.
    Now, I have to say: I got the short straw. The chief got to 
fly one of them when we were out in New Mexico, so you want to 
add anything, sir?
    General Goldfein. Ma'am, I think you hit it exactly right. 
The big idea here--because we often will get a question, is 
this replacing this, is this replacing that--this is directly 
tied to building competitive space in a new era of air 
competition to allow us to build the partners and the--allies 
and partners in their capacity to be able to drive this 
violence down to a point where it can be managed in individual 
countries.
    And so, when you think light attack--the Secretary said it 
exactly right--think allies and partners, because that is the 
big idea.
    Mr. Diaz-Balart. Actually, I see my time is winding up, so 
maybe in a second round. I yield back, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. First, Secretary Wilson, welcome back. 
We worked together in Intel on a lot of these issues, and I 
will take a dinner instead of coffee----
    Ms. Wilson. Deal.

                                 JSTARS

    Mr. Ruppersberger. The fiscal year 2019 budget submission 
funding about JSTARS, that you are going to eliminate that 
program, I understand at least part of the plan that the Air 
Force is discussing to replace JSTARS is the use of smaller 
network systems of sensors.
    However, as you know, there has already been significant 
Federal investment in the JSTARS recap program, especially in 
terms of the ground-moving target indicators, which is called 
GMTI--and I think, General Goldfein, you probably would answer 
this--system, which is a radar system.
    And, additionally, General Holmes of Air Combat Command 
recently stated that the GMTI radar was modular and had uses in 
the future. I have two questions: First, what is the Air Force 
plan for continuing to leverage the significant investment 
already made in the development of the GMTI radar system that 
the Air Force selected for the JSTARS recap program? And, two, 
given this modularity and open architecture, can you share your 
thoughts on how the previous investment made to this radar 
could be used in the new JSTARS plan?
    General Goldfein. Yes, sir. Thanks for the question.
    You know, I think it is important for the--to set the 
foundation, first, on the platform we are talking about, the 
Joint STARS aircraft, it was actually a test aircraft that was 
brought into being during Desert Shield to give a sense of what 
the ground maneuver was as Saddam Hussein was maneuvering his 
forces.
    And at the time, Captain Dave Goldfein was deployed to the 
Middle East for Desert Shield and then Desert Storm. And 
recently--and Dr. Wilson at the time was a recently graduated 
Rhodes Scholar who was working on President Bush's national 
security team.
    When we brought that weapons system on in 1990 to perform 
in 1991, you know, if you just think about it, we were still 
years away from even cellphone technology, let alone what we 
know today in terms of the internet and everything else we 
have. It has performed brilliantly over the years.
    And I will tell you: In 2011 to 2013, I employed Joint 
STARS in the surge in Afghanistan and in the withdrawal in 
Iraq. And once again, we needed to know what was going on on 
the ground and how do we manage the battle.
    The challenge is, if we had taken that same scenario and 
put it into a European scenario, any soldier, sailor, airmen, 
and marines who were actually on the ground wanting to know 
enemy activity in a contested environment would have been blind 
to enemy movement. Because we were part of the build of the 
National Defense Strategy, Secretary Wilson and I had the 
ability to continue to look at our budget throughout the 
building of that strategy to see where we were aligned and 
where we were possibly not aligned.
    As the strategy came together on focusing on peer 
competition, it became very clear to us that the 
recapitalization plan and the investment that we were making in 
a platform-to-platform solution would not survive in a 
contested environment. So we are choosing a different pathway.
    One of the most important things that allowed us to change 
this is our ability to fly the current Joint STARS longer than 
we thought we could because we did a deep dive. That gives us 
the time to actually look at an alternative approach to the 
future.
    Specific to your question, how do we leverage the 
investment that we have already made, we are going to use that 
investment and look at that technology growth across the system 
of sensors that we now have available to us that are coming 
from all domains and looking how we fuse that so we won't lose 
that investment.

                                 SPACE

    Mr. Ruppersberger. Real quick, because I am going to have 
to leave, but on space. You know, we are having some issues 
with Russia and China, and it is getting more dangerous, and we 
used to dominate. Now it is a lot different.
    Two questions: Have you looked to ensure the American space 
assets are still resilient and reliable? What do you believe 
are our greatest vulnerabilities? And, two, if there were any 
additional resources available, how would you prioritize the 
allocation to deal with these vulnerabilities?
    Ms. Wilson. Congressman, with respect to the threat that we 
face, I think--without going into too much detail, I think it 
is everything from jamming from the surface or a cyber attack 
to direct-ascent satellite weapons, either from Russia. And as 
you well know, when we were on the committee together, in 2007, 
they tested--the Chinese tested an antisatellite weapon and 
spread debris all over orbit.
    So I think the challenges and risks are those. I think this 
budget that we have proposed in front of you today does a whole 
variety of things, but one of them is moving faster towards the 
jam-proof GPS. So we are moving to the next generation of GPS.
    And if you think about it, GPS--the Air Force operates 30 
satellites in orbit just for GPS. We have about 76 satellites 
total, about three of them are GPS. And since 1992, the Air 
Force has been supplying GPS, paid for by the taxpayers, but to 
the users for free.
    So, if you, you know, got here to this hearing today by 
Uber or if you looked on Yelp last night for the restaurant 
nearby you, or if you just take out your phone and look at that 
blue dot, or if you got money from an ATM machine, all of the 
services, all of those services are provided by a squadron of 
less than 40 airmen in Colorado Springs, Colorado. We provide 
GPS to the world, to about a billion people every day. It is a 
pretty amazing capability. And we are going to keep it 
resilient for the long term.
    Ms. Granger. Mr. Cole.

                           SUSTAINMENT SYSTEM

    Mr. Cole. Thank you, Madam Chairman.
    And let me echo everybody's pleasure, Madam Secretary, at 
seeing you in your spot. I mean, none of us, on either side of 
the aisle, could have been more pleased. And certainly all of 
us that had the privilege of serving with you are delighted 
with the President's choice.
    I want to focus a little bit on an area that we don't spend 
enough time on although, my friend, Mr. Ryan, actually touched 
on some of this a moment ago. We spend a lot of time talking 
about a procurement and not a lot of time talking about 
sustainment, and the cost balance there is pretty great.
    So I would like to pick your brain a little bit and see 
what you are thinking about how we will keep the, frankly, 
excellent sustainment system we have and some things we can do 
to improve on it.
    I mean, you look at that workforce. It is an old workforce. 
A lot of them are like my dad, did 20 years in the Air Force 
and then 20 years at Tinker Air Force Base, so you always have 
a lot of pretty senior people that are within a few years of 
retirement.
    And every time we get a hiring freeze, I know what that 
does at Tinker Air Force Base to General Levy and just trying 
to maintain the workforce that he does to turn around these 
aircraft. So please give us some of your thoughts on what we 
can do to keep sustainment costs low and keep that workforce, 
which does such great things for us, intact.
    Ms. Wilson. Thank you, Congressman.
    One of the things to start out with is this budget fund 
sustainment to 90 percent, and that means about $15.1 billion 
in this fiscal year alone. You are also correct that one of the 
things that helps most with our civilian workforce is certainty 
on the budget.
    When the Air Force went through sequester several years 
ago, we lost 30,000 people in the wake of sequester and the 
reduction of the size of the force, but we also had a lot of 
civilians who were told not to come to work next week. And that 
furlough of civilians had a terrible effect on morale and the 
feeling of being part of the team. And I think you probably saw 
that pretty clearly at Tinker.
    I do think that there is a huge amount of cost in 
sustainment, and we probably haven't looked enough--and 
Congressman Ryan mentioned it--as a priority on, how do we 
drive down the cost of sustainment by taking advantage of new 
technologies and, particularly, advanced manufacturing? And I 
think there is a tremendous opportunity there, and it is going 
to be a real priority for us going forward.

                         INTELLECTUAL PROPERTY

    Mr. Cole. Well, I do too. And I agree very much with what 
my friend from Ohio had to say on that point.
    I would also ask you to pick up on the point he also made 
about the intellectual property as we are negotiating to 
procure it because getting the right to that is such a critical 
factor in keeping down the cost. And, you know, we are 
retaining airplanes that, as you pointed out in your own 
testimony, look, we don't even have the original contractors 
anymore. I mean, we are still running KC-135s, 400 of them 
plus, through Tinker.
    We are happy to do the work, but it is not predictable work 
anymore, and they literally have to--it is almost like artisan 
work. They have to literally strip it down and see, because 
they don't have any studies that tell you how long the metal is 
going to last and everything.
    So, if we don't own the ability, the right, if you will, 
when we procure that to reproduce that product at a reasonable 
cost, it is just going to drive the cost through the roof.
    So I would ask you, as you negotiate for a new weapons 
system, that we keep that in mind that you are negotiating for 
the intellectual property as well and you put that in our 
hands, since we are paying a lot of money for it, so that we 
can sustain those airplanes.
    General Goldfein. Sir, can I just add too that I give 
Secretary Wilson a lot of credit for--especially coming out of 
being president of a major STEM university to look at our labs 
and our science and technology and our research. And one of the 
things that you are going to see in our budget is a significant 
increase in what we are doing in the business of science and 
technology, how do we get things faster from the lab bench to 
the flight line?

               PARTNERSHIPS WITH CAREER TECH INSTITUTIONS

    Mr. Cole. The other thing I would ask you to look at--and, 
actually, Tinker is an excellent example. Again, they have 
built partnerships with our career tech institutions and with 
our higher ed institutions to try and let them know years ahead 
of time, okay, these are the kind of skills we need, these are 
the sorts of people that we want, so that there is tremendous 
opportunity there, and, frankly, increasing competition. When I 
was--20, 30 years ago, we didn't have anywhere near the number 
of contractors in the immediate vicinity of Tinker Air Force 
Base that we have today. And they are in competition with that 
base, obviously appropriately, for very skilled people. I mean, 
I think Tinker alone can hire almost every software engineer 
the University of Oklahoma and Oklahoma State produce right 
now, and they are competing with really good competitors at 
Boeing and at Northrop Grumman and what have you. So that--
thinking ahead, we are thinking a lot about pilots; we need to 
think about a lot about engineers and a lot about maintainers 
as well.
    Ms. Wilson. Congressman, though, let me just add a couple 
of things. With respect to maintainers, we are actually doing 
much better. We were really short of them 3 years ago, and now 
we are not quite so short although they are now apprentices and 
we have got to get them to be craftsmen and to be masters.
    With respect to engineers--hiring engineers and scientists 
and cooperation with universities, one of the things we also 
lost in the wake of sequester was the summer intern program, 
which is really the only way you are going to get an engineer 
or scientist right out of school is through internships, 
because they are in such demand.
    This summer, for the first time in many years, the Air 
Force has restarted its internship program. We now have 431 
summer interns so far that have signed up to be with the Air 
Force, three quarters of them engineers and scientists.
    We are working--and it is more of a localized issue--on, 
how do we get the tradesmen who are the craftsmen who are 
machinists and tool people? And we are working that issue as 
well, trying to partner with more local higher ed institutions.
    Mr. Cole. Thank you, Madam Chairman.
    Ms. Granger. Thank you.
    Mr. Aderholt.

                       DIRECTED ENERGY AND LASERS

    Mr. Aderholt. Thank you, Secretary Wilson, for being here. 
Good to have you back here on the House side, as has already 
been mentioned, and thanks for your recent visit to the office. 
We enjoyed our visit.
    General, good to have you here as well.
    We have been very interested in laser work in the U.S. 
military, and I just wanted to ask your opinion about whether 
you think that the budget meets that challenge that we have 
with the work that we are looking at.
    Ms. Wilson. Let me make sure I heard the word right. 
Directed energy, lasers?
    Mr. Aderholt. Lasers, yes.
    Ms. Wilson. Yes, sir.
    First of all, there is money in the budget for lasers, 
particularly several different tests that we are doing with 
lasers, and directed energy generally. And I will ask maybe the 
chief to elaborate a little bit.
    But we are also doing a--we launched a year-long review of 
the science and technology strategy for the Air Force to 
identify areas of high priority for the Air Force to do 
research in and also look at the way in which we conduct our 
research, as a lot of it had moved to be internal and not in 
partnership with industry or higher education.
    I would also say that the three service secretaries, we get 
together every other week for breakfast now, and----
    Mr. Aderholt. Which you mentioned was a new thing, that----
    Ms. Wilson. It is. It is. It is terrifying the staff. But 
one of the first issues we focused on was our research and 
development portfolios: What are the other services doing? What 
are we doing?
    One of the areas that we identified where we want to look 
at what each other are doing and how we can leverage each 
other's success or fill in gaps was directed energy.
    Mr. Aderholt. General, if you could continue.
    General Goldfein. Yes, sir. I will just add that, in 
parallel to the service secretaries meeting, we are at this 
point in our history where every one of the Joint Chiefs, you 
know, we fought together, and we all grew up under this guy 
named General Mattis. So the camaraderie and the dialogues that 
are happening at both the service secretary level and at both 
the Joint Chief level, and I give General Dunford a lot of 
credit for how he has pulled this team together.
    We are looking at our levels in investment in places like 
directed energy, hypersonics, quantum computing, all those game 
changers, and looking for ways to ensure that we can put the 
most resources against the problem so we can swarm against the 
problem with the resources available and get the best possible 
end state coming out of that.
    I think Dr. Griffin met with him this week. This was a part 
of our discussion. He grew up in the labs. He understands how 
they work. I think he is going to be very helpful in this 
dialogue, so I think the conversations we are having are very 
helpful.

                      ELV LAUNCH SERVICE AGREEMENT

    Mr. Aderholt. Okay. Let me jump off to my next question 
since time is limited. We talked a little bit about the ELV 
launch service agreement, and thank you for giving us an update 
about the status of that. Just--the bottom line is just, is 
there sufficient funding to keep up with the schedule that you 
are on now?
    Ms. Wilson. Yes, sir, we think there is.
    Mr. Aderholt. And, I guess, one of the--another question I 
have, if one of the providers decides for some reason that it 
decides to get out of the launch business after fulfilling the 
contract, what rights are secured for the government to 
continue using that launch vehicle?
    General Goldfein. It is actually written into the contract 
that there is a fee associated with not competing for launch, 
so we have thought through that in terms of how we constructed 
the contract.
    And we have written into the contracts as well ownership of 
data rights to ensure that we have more control over the actual 
data and the IP, the intellectual property, as we go forward, 
so we did think through that.
    Ms. Wilson. Sir, if I could just add one thing. You know, 
back in the 1990s and 2000s, we were thinking, what the heck 
are we going to do? We have got to keep national access to 
space, and the launch industry had collapsed, and how are we 
going to recover.
    I have to give credit to predecessors and their ability to 
work with industry to develop and support a competitive launch 
industry. And it is now not just dependent on the U.S. 
Government. And the cost of launch is plummeting. You have 
multiple choices. And the size of payloads is also going down.
    So we are getting to a point where the cost of launch is 
enabling business plans to close in space that never were 
possible before. The result is we are getting more and more 
launches because--and that keeps the price going down.
    This next year--last year, I think, we had 29 space 
launches that we did out of the Cape. It is an Air Force-
operated facility. We were driving to 48 launches a year, and 
the Air Force is changing the way in which we partner with 
industry to enable American leadership in space launch. And it 
is really kind of an exciting time.
    Mr. Aderholt. Thanks, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Carter.

                 A-10 AIRCRAFT AND CLOSE GROUND SUPPORT

    Mr. Carter. Thank you, Madam Chair.
    And thank you both for being here.
    Secretary Wilson, really pleased to see you. You were a 
source of information for me when we were Members of Congress 
together. I learned a lot from you, and I want to thank you for 
that, back when I was young and stupid. Still may be.
    Okay. I got Fort Hood in my district. I am about ground 
forces. And two sergeant majors that have served in my office 
have told me that the most welcoming sight to any soldier in a 
really bad fight is an A-10 on the horizon, that close air 
support is--it puts a smile on every soldier's face and every 
marine's face.
    That being said, let's look at the future of close air 
support. What does it look like in this more contested 
environment we are in? We are now in a global war on terror, 
and in addition, we are pivoting over to great power 
competition.
    What is the future of aircraft use for close ground 
support? Can you talk about the efficiencies of how we match 
our close air support capabilities to the enemy we face, both 
now and the one we are thinking about?
    Ms. Wilson. Sir, let me start out and then I will let the 
chief fill in. But with respect to the A-10, the fiscal year 
2018 budget, which I think you all are trying to wrap up, would 
restart the line for redoing the wings of the A-10 and would 
buy probably the first four sets of wings for re-winging, in 
addition to the 174 or so that are already done.
    And then the fiscal year 2019 budget has $80 million in it 
for more wings. Now, well, that gets you somewhere between 8 
and 12 probably. So the A-10 is expected to stay in the 
inventory through 2030.
    In addition to that, and it is really--you know, this is 
one of the things that has really changed since I was a young 
officer in the Air Force in the 1980s, is that we can do close 
air support off of a variety of platforms. So it could be off 
of an unmanned platform. It could be off of a--you know, we are 
doing close air support off of aircraft that were never 
intended to be anything other than strategic aircraft.
    But I would absolutely agree with you, the sound of those 
whining engines on the A-10 is welcome to those on the ground, 
and it is one of the things we take seriously. The last time an 
American soldier or Marine was killed on the ground by enemy 
aircraft, the last time was April 15, 1953. That was a long 
time ago. And so, as the chief likes to say, whenever an 
American soldier or Marine hears jet noise, we want them to not 
even look up because they know it is us.
    General Goldfein. Sir, it'd be helpful if those sergeant 
majors know that this chief has been fighting side by side with 
the Army my entire career, and this is nothing short of a moral 
obligation.
    Let me just give you a vignette to put in perspective 
perhaps what the Secretary talked about in terms of how we mask 
different kinds of capabilities to ensure that we have the 
right attributes over the battle space to be able to support 
the ground force commander.
    So, as the air component commander during the surge in 
Afghanistan, we divided Afghanistan into regional commands. And 
in each of the commands, there was a different terrain and 
there was a different scheme of maneuver that required 
different attributes that then I would place overhead to 
support the ground force commander.
    In RC South, Regional Command South, there was really flat 
terrain, and so I needed something that had persistence over 
the battle space that--and so, you know, I would really heavily 
push, you know, MQ-9 Reapers over the top of that battle space.
    And RCEs in the north, very heavily mountainous terrain, 
optimized for being able to get into those valleys, and so an 
A-10 was absolutely spectacular. At an RC West, because of the 
distances that were involved and because of the range of 
weapons I needed, a B-1 was perfect for RC West. And then I 
would have F-15Es that I would place in RC South.
    If I had gone to those ground force commanders and said, 
``Hey, listen, I am going to pull the A-10s out of here and 
place them over here,'' they would tell me the attributes are 
misaligned. So part of what an airmen does is we understand the 
ground force scheme of maneuver and what we are trying to 
accomplish and then we place the right asset or family of 
systems overhead to be able to provide the fires, because when 
you are on the ground and you require the air components, every 
second counts. And I want to make sure that when that call 
comes, that we are there and that they hear jet noise; they 
know it is the sound of freedom coming to help them.
    Mr. Carter. And thank you very much for that description of 
how you map out what you have to do. That is very helpful. And 
I hope we can keep that date you have given us into the great 
and future battles, all the battles we have.
    And you do a wonderful job of air support for our ground 
forces, and they really do appreciate it. They are very proud 
of the fact that the Air Force is up there for them, believe 
me, and they tell me that all the time.
    So thank you for what you do on behalf of Fort Hood.
    Ms. Granger. Mrs. Roby.

                    PROFESSIONAL MILITARY EDUCATION

    Mrs. Roby. Thank you so much, Madam Chair.
    And, Secretary Wilson and General Goldfein, thank you so 
much for your leadership, for being here with us today.
    Let me start by just saying that the men and women of the 
187th in Montgomery, Alabama, could not be more thrilled for 
the extraordinary opportunity that you have given them to host 
the F-35 mission in a few short years from now. But thank you 
for recognizing their professionalism and their capability. And 
the River Region in the State of Alabama is very, very excited 
about this opportunity. So thank you for that.
    Let me also say, Secretary Wilson, thank you so much for 
the time that you spent in my office yesterday. We covered a 
lot of ground, and I appreciate your taking the time to speak 
to George, my son. So thank you for that. You were big, big 
hits on Instagram yesterday--you were a big hit on Instagram 
yesterday.
    So, look, I just want to bring a few things up and then I 
will let both of you respond. I mean, of course, our State and 
particularly Alabama's Second District shares a very close 
relationship with the United States Air Force. We have a large 
footprint, as you know.
    And things that are important to me that I would like for 
you to touch on as far as the budget is concerned, a couple of 
things: rotary wing training, of course, at Rucker. We talked 
about this a little bit yesterday. Just want to let you know 
that it is on our radar, and we are watching it, and we would 
love to have any additional information. I know you are in the 
initial stages of taking a look at that, but just want to stay 
informed about any decisions or information that pertains to 
that moving forward.
    Professional military education, we talk about a lot of 
shiny objects in this room, and PME often gets left out of the 
discussion. I am going to take this opportunity every time to 
bring it up. It is very important to what our military looks 
like in the many years to come.
    And so I don't ever want it to get glossed over that 
professional military education is such an important component 
of what we do. And so many of you in this room have come 
through Maxwell and Air University and the War College and all 
of the other educational components that exist there.

                           STAR-BASED PROGRAM

    I do want to touch on one thing in light of a question 
about STEM education. The STAR-based program at Maxwell is so 
great. It is a coordination with the public school system in 
the River Region to bring elementary school-age children to 
Maxwell for a course to expose them at an early age. This is 
something that the Department of Defense is doing across all--
Fort Rucker has a similar program in the summertime for 
underserved communities.
    So I just want--I want to just bring that up because I know 
it is something that is dear to you, and we appreciate the 
partnership at home. So professional military education, the 
rotary wing component at Fort Rucker, and then also the 
information technology at the Gunter Annex.
    We have talked about in this room as well the fact that IT 
and cyber moves at such a fast pace; sometimes the 
appropriations process doesn't keep up with the changes in 
technology. And so I would love for you to talk about those 
things for the committee.
    But, again, let me just say this and then I will be quiet: 
Thank you to you and your families for your service and 
sacrifice. It certainly means a lot, your dedication to our 
country and to the Air Force. We really just appreciate it. So 
thank you all, both, for being here today.
    Ms. Wilson. Thank you, Congresswoman.
    I will start out on a couple of things. First, with respect 
to professional military education, of course, and everything 
that we do in Montgomery and beyond, one of our obligations and 
major goals is to develop exceptional leaders to lead the 
world's most powerful teams. And a lot of that is done through 
professional military education, and we are deeply committed to 
it.
    With respect to Fort Rucker and training, we have sent out 
a request for information. It has to do with how do we train 
helicopter pilots, and it gets back to, you know, the pilot 
shortage. All right, if we are going to train 1,400 fixed-wing 
pilots, do we somehow separate out how we start out helicopter 
pilots so they don't start out in the same flow so that we can 
use that to expand the pipeline even further. So we are just at 
the information-gathering stage with respect to that.
    I will let the chief expand on some of the others. But I 
will just say that, while we make decisions based on basing, 
based on the criteria that we set, and we try to be very open 
with everyone and just, you know, note them on the scales, just 
make the best decision we can for the Air Force and for the 
mission, it was a great pleasure to make sure that the 187th, 
the famed red tails of the Tuskegee Airmen will have some F-35s 
to put some red tails on. Thanks.
    Ms. Granger. Thank you.
    We will now go--it will be Graves, Frelinghuysen, then 
Visclosky.

                          JSTARS RECAP PROGRAM

    Mr. Graves. Thank you, Madam Chair. And thanks again for 
being here with us today, for your clear and direct responses 
to a lot of questions. I know--I appreciate you touching on the 
JSTARS recap program.
    We have had robust discussions about that here many, many 
times, and so I have one quick just sort of followup on that. 
And it is really on behalf of one of my colleagues, Austin 
Scott, who has just been a phenomenal champion for the Robins 
Air Force Base in Warner Robins, Georgia, which JSTARS are 
hosted now.
    And but there has been some, I don't know, discussions, we 
understand, within the Pentagon that there are still openness 
or combatant commanders still want this type of platform 
manned. Can you confirm whether or not there is still open 
discussions about this? Or is it truly closed out and moving 
onto the additional options that you spoke of earlier?
    General Goldfein. Sir, I will just tell you that, as we go 
down this path, the opening conversations I had was, first of 
all, with my fellow Joint Chiefs, specifically Chief of Staff 
of the Army Mark Milley and Commandant of the Marine Corps Bob 
Neller to make sure that they understand because they are going 
to have to explain it to their force, right, that this is not 
in any way, shape, or form the United States backing an inch 
off of supporting them.
    The challenge we have with the current recap is that, if 
their marines and soldiers and our airmen, who are often 
embedded with them, are in any kind of a contested environment, 
they will be blind to enemy activity with what the previous 
plan was, and we can't go there.
    So the dialogues we are having--and I had conversations 
this week with General Scaparrotti, General Votel, General 
Waldhauser--I am having with each of the combatant commanders, 
and everyone I talk to, as I explain it and lay it out for 
them, they see the value of the new approach we are taking 
because it is going to help them in all of the potential 
conflicts and the operational plans they are responsible for.
    Ms. Wilson. Sir, I would just add to that: What a combatant 
commander wants is eyes on. They don't care where it comes 
from. So it doesn't really--I think it is not about the 
platform that it is on or where it comes from.
    In fact, you know, when you are listening to the radio--the 
chief and I were forward in the Central Command area authority; 
we were in Iraq on the morning that the Tal Afar battle kicked 
off, and we were in the tactical operations center. People 
talking on the radios, you have no idea whether whoever is 
talking to you on the radio is in AWACS or JSTARS or on the 
ground. You have no clue. So what they need is the information 
and the site picture about what is going on on the ground so 
that they can win. They don't really care what platform it came 
off of.
    Mr. Graves. Right. And I don't disagree. You are absolutely 
right.
    One quick additional question, and maybe you could, before 
you answer the additional question, just describe the 
difference between contested and noncontested, and will the new 
platform you are discussing or options take care of the 
noncontested arenas as well?
    The subcommittee has been very supportive of Compass Call, 
the crossdeck program. And, yet, the current plan that you 
proposed in 2019 shows a replacement rate of one airframe per 
year.
    Can you help us understand, would there be additional 
savings to this subcommittee and your efforts if we did two 
airframes per year? And if you could just give a little 
description. Should we be doing more, or is one sufficient?
    Ms. Wilson. Sir, if I could take that one for the record, I 
will go back and look at what the schedule is and so forth.
    Mr. Graves. Okay.
    Ms. Wilson. Unless, Chief, you know and can bail me out?
    [Clerk's note.--The Air Force is working directly with Mr. 
Grave's office to address this question on the topic of Compass 
Call.]
    General Goldfein. No, because the one-per-year is actually 
not tracking. So I just want to make sure we have--if we can 
take that one for the record to make sure that we have exactly 
what the schedule is, we will come back to you.
    Very quickly, contested versus uncontested: Uncontested 
would be very much like the Middle East, where I can actually 
place any aircraft I have in the inventory anywhere I want and 
fly it for as long as I want because there is nothing that can 
actually take it out or threaten it. That is the uncontested 
environment that we have enjoyed for the most part in the 
Middle East now. A contested environment would be a scenario 
that the National Defense Strategy tells us to focus on, which 
would be a China or a Russia, where they have a fairly 
significant threat array. They have watched over the years how 
we fight. They know what our asymmetric advantages are, and 
they have invested in capabilities that take those away from 
us.
    So a contested environment would be those where the threat 
is significant. We tend to call it anti-access/area denial is 
the terminology we tend to use within the Defense Department. 
But it is their ability to hold us off at ranges where we can 
either no longer perform our mission or it is more challenging.
    One thing I will tell you is that no country on the planet 
can actually put a block over its country and deny us access. 
The very best they can do is put Swiss cheese over the top 
because there are holes there, and my job is to find out how to 
exploit them and hold targets at risk for the Commander in 
Chief.
    Mr. Graves. And so your plan would be to use this new 
platform in contested and noncontested areas? That is----
    General Goldfein. Actually, no, sir. Thanks for the 
question because, actually, we are not looking at a platform. 
We are looking from a platform solution, which is where we 
were, to an integrated set of platforms and capabilities that 
we can now fuse together so I can provide the capability for, 
you know, General Votel in an uncontested environment, what he 
needs, while at the same time, on day 1, I can give General 
Scaparrotti and his folks what he needs because I have got to 
do both. I don't have the luxury of doing one or the other.
    Mr. Graves. Great. Thank you.
    Ms. Wilson. If I could just elaborate on that a little, 
because it is--and we often think about platforms. And what we 
are talking about here is that almost everything that is flying 
today and everything in space is a sensor. So you have got 
space sensors. You have got manned and unmanned platforms. You 
have got things on the ground, things at sea, radars, and, you 
know, the F-35 has a radar on it.
    We have got unmanned platforms with radars on them or 
cameras on them and the same in space. The trick is to fuse all 
of that data to give you a much more comprehensive picture on 
what is going on on the ground.
    Ms. Granger. Thank you.
    Before we--you think I have lost my mind. I have left 
Chairman Frelinghuysen and Mr. Visclosky to the last. They 
asked for that, the gentlemen that they are, so I will now call 
on Chairman Frelinghuysen.

                       NATIONAL DEFENSE STRATEGY

    Mr. Frelinghuysen. Great. Welcome back, Madam Secretary, 
General. I note that you were a year apart at the Air Force 
Academy. I am not sure whether you knew each other back then, 
but we are very proud of both of your accomplishments.
    I asked the question of Secretary Spencer of the Navy last 
week--I think it maybe ruffled a few feathers. You are going to 
have a windfall of money here. At some point in time in the 
near future, we are going to get our 2018 bill passed, and then 
we are going to move fairly rapidly into 2019. What are you 
going to do with all this money, in one case, in a relatively 
short period of time and then looking towards 2019?
    So I sort of asked sort of a rhetorical question or perhaps 
not so rhetorical. What are your priorities? We have--space 
dominance is an issue; we have remaking the Air Force; and what 
has been touched on very lightly, the huge sustainment costs of 
the F-35. I am a supporter of it, but, you know, the tale of 
that plane.
    And then I read in defense news all the complicated 
platforms you are putting in there, all of which tie in through 
very sophisticated means. You have had some problems with some 
of the less sophisticated means, which is ALIS and ALS. What 
are your priorities specifically as they relate to sustaining 
this--really the plane that is going to be--is jointly, you 
know, run and of such value to us and to our allies?
    Ms. Wilson. Thank you, sir.
    The overall priority in this budget is really to align with 
the National Defense Strategy. We accelerate the move to 
defendable space. We also shift to multidomain operations. And 
we really focus on continuing the emphasis on readiness.
    We are in this budget proposing to purchase the next 48 F-
35 aircraft. So we are continuing with the purchase of the new 
aircraft. Of course, the F-35 is now operational. We have 272 
of them in the Air Force today, over 100,000 flying hours on 
the F-35, and it is performing well.
    You point out one of the issues, which is the cost of 
sustainment of the aircraft. And the Air Force is--of course, 
this is a joint aircraft, so the Under Secretary of Defense for 
Acquisition and Sustainment, Ms. Lord, and the Joint Program 
Office are the ones that are primarily doing the negotiations 
and focusing on this.
    But the Air Force, as the biggest customer, has a strong 
interest in continuing to drive down the cost of sustainment. 
That means negotiating very hard with the suppliers to reduce 
costs but also to bring in competition for those parts.
    Mr. Frelinghuysen. Well, is there the possibility that the 
cost of sustaining this remarkable aircraft could compete with 
your other, you know, your other needs here? I mean, this is a 
big--and then you are adding, as we should hope you would, 
additional assets to these aircraft here.
    And I worry, just in the sense of the vulnerabilities of, 
let's say, some of the planes we have now. If we can't even get 
the system of systems working now, and we add more, you know, 
is there a distinct possibility that those who we view as our 
adversaries could find some vulnerabilities.
    General Goldfein. Sir, I will just tell you, I give 
Secretary Mattis a lot of credit for the team he has pulled 
together. And so whether you want----
    Mr. Frelinghuysen. Can you speak up a little bit, General?
    General Goldfein. Yes, sir.
    Mr. Frelinghuysen. Thank you.
    General Goldfein. I give Secretary Mattis a lot of credit 
for the team he has pulled together. Secretary Lord, who comes 
from industry, has taken on sustainment and has put together 
teams who are actually wire-brushing and driving down the cost 
of sustainment across all of our weapons systems, beyond the 
United States Air Force. He has brought in a Deputy Secretary, 
who also comes from industry, who understands how to produce 
large weapons systems and how to sustain it. So the team he has 
brought into place that is helping us as Joint Chiefs to be 
able to drive down the cost of sustainment is rather 
significant.
    And as an international air chief, I look at this through 
the lens of not only what we do inside the Air Force, but how 
our allies and partners that are a significant part of this 
strategy can leverage what we do to drive down sustainment 
costs, because if we are paying more, they are paying more.
    Mr. Frelinghuysen. Yeah, just a last comment. I know the 
Air Force is in very competent hands. I am just saying: You are 
going to get a flush of money here, and you are going to get a 
flush of money, you know, representing, you know, what, $716 
billion in the Defense Department is--wide. And, you know, 
after that, you know, anything goes. I mean, it could be a 
relatively dry hole. And I am just hoping--and I am sure that 
you are assuring us--that whatever the money is coming down the 
pipeline that it is going to be well spent, because in the 
future, we may not have the--you know, we may not have a caps 
deal that has embraced, I think, rightly our future defense 
needs.
    Ms. Wilson. Sir, I understand you completely. And our job 
is to get $1.10 of value out of every dollar that we spend in 
the Air Force, because somebody earned that dollar. So it is 
cost-effective modernization. It is driving down the cost of 
operations. It is making sure that every person that we put 
towards a job is a job best put in that place and not in some 
other place. And so I agree with you completely.
    Mr. Frelinghuysen. Thank you, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Visclosky.

                           NEW NUCLEAR POLICY

    Mr. Visclosky. Thank you very much.
    I have three questions. The first question--and recognizing 
this is an open hearing and just want to broach the issue--is 
on the new nuclear policy. There is a discussion about a 
variable yield warhead for the cruise, and very concerned, not 
being a military or foreign policy expert, about the 
uncertainty, issues such as hypersonic weapons, varying yields 
create relative to our adversaries, recognizing they are 
working along the same lines, but that, as the Secretary 
pointed out, we have not had a troop killed from aircraft since 
1953. We have not had someone die in a nuclear incident since 
1945. I don't want that to happen.
    What are the opportunities and challenges because of those 
variable warheads? And, again, I have two more questions. 
Just--if you just touch on the subject, we can follow up later.
    Ms. Wilson. Sir, the variable yield is something more for 
the Navy than for the Air Force. Historically, we have had 
variable yields on different nuclear weapons for different 
kinds of targets, but the specific item I think you are 
referring to probably is maybe better addressed by the Navy.

                          SECURITY CLEARANCES

    Mr. Visclosky. Navy.
    Second question, following up on Chairman Rogers' question 
about the pilots shortage, and Mr. Cole talked about civilian 
retention: Secretary, you have talked about the quality-of-
life, quality-of-service pay, and I absolutely agree with you. 
Another question, are you finding a problem retaining people 
after they get their security clearance? Because as you point 
out, the taxpayers are paying for GPS, because the government 
can't do anything right, and the government pays for those 
security clearances, and then someone comes in, and they are 
gone. And I also wonder about morale, that I am an eager, young 
person, bright, can't wait to work for the Federal Government. 
And my fellow employee says: Just wait until you get your 
clearance because you are going to double your money and you 
can leave Federal service.
    Ms. Wilson. Sir, actually, we don't find a problem 
retaining people who have clearances. We have, in some areas--I 
mean, pilots is the biggest issue or air crew generally is the 
biggest issue. We do have some difficulty because cyber 
professionals are also in very high demand.
    I would say that our biggest challenge with security 
clearances is getting them through the process in the first 
place. Our backlog for security clearances over the last 18 
months has almost doubled to 79,000 backlog waiting to get 
their security clearances.
    Mr. Visclosky. Seventy-nine?
    Ms. Wilson. 79,000 people in the Air Force waiting to get 
their security clearances.
    Mr. Visclosky. What do you attribute that to, if I could 
ask? Because that is horrific.
    Ms. Wilson. Sir, we don't do the security clearance 
background checks ourselves. There is a process through the 
Office of Personnel Management. And it has gone from--the 
backlog has gone up from 48,000 to 79,000 for the Air Force.
    We are partnering with them and putting hubs for the 
interviews. We have asked them to change their processes to be 
able to do interviews over Skype rather than person to person. 
But it is a major issue for all of the services.

                           BUDGET CONTROL ACT

    Mr. Visclosky. Last question, following up on Chairman 
Frelinghuysen, passing up on 2018 and 2019, Congress in its 
infinite wisdom has not dealt with the Budget Control Act for 
the last 2 years, 2020 and 2021. What problems does that 
present you as far as looking ahead? Because I know you are 
working on 2020 and the outyears now.
    Ms. Wilson. Sir, budget certainty is one of the most 
important things that the Congress can do for us. And nothing 
did more damage to the American Air Force in the last decade 
than sequester. Sequester did much more damage to the Air Force 
than anything our adversaries have done.
    General Goldfein. Sir, can I just offer that, in many 
areas, we still have not recovered from the last time we went 
through the sequester because we made some decisions that were 
not--irreversible. And so as we go through and look at this, 
when you have got to find an upwards of $10 billion in a single 
year, then you make some rather significant decisions and 
trades that are then irreversible.
    So the last time we went through this, you know, we 
grounded, you know, two-thirds of the Air Force that stopped 
flying, because if you weren't getting ready to go to the 
Middle East or you weren't coming back from the Middle East, 
you stopped flying.
    And so you don't recover that readiness. It is not linear. 
Because not only the air crew lose their readiness but the air 
traffic controllers, the munitions builders, all those folks 
that are not participating in a flying operation.
    And all I will just tell you is that morale and readiness 
of the force are inextricably linked. If you walk the line 
today at Bagram or Gunsan in Korea, what you will find is 
morale is very high because they are manned at 100 percent, 
they have the parts on the shelves, they have got the 
supervision they need, and they have got a mission, and they 
are focused.
    The billpayer, to get them to that level of readiness, are 
the sourcing wings from back home in the CONUS. And when you 
walk those lines and you see less than full number of parts, 
less than the number of people, less than the right amount of 
supervision, you will find that morale is much lower.
    And if we are going to keep this force, our investment that 
you are seeing in our budget in improving readiness is perhaps 
going to be most of the important work that we do to keep the 
force in.
    Mr. Visclosky. One of my great regrets, and my wanting 
today is not going to change a thing, is that three separate 
elected Congresses have set aside 6 of the 8 years of the 
Budget Control Act, but we haven't dealt with the last 2. And I 
have hit my head with a hammer three times, and I am going to 
do it again. And in the meantime, there is lasting damage.
    Thank you, Madam Chair.
    Ms. Granger. That concludes today's hearing.
    I would like to remind the subcommittee members that our 
next hearing is tomorrow at 10 a.m. I will be on time. The 
subcommittee is adjourned.
    [Clerk's note--Questions submitted by Mr. Rogers and the 
answers thereto follow:]

                  European Deterrence Initiative (EDI)

    Question. The Air Force should continue to prioritize its EDI 
efforts to promote stability in Europe.
    Can you please describe how the Air Force's 2018 EDI requests 
assist us in deterring Russian aggression in Europe? And is there more 
that the Air Force could be doing?
    Answer. The AirForce 2018 EDI request reflects support for the 
European Command implementation plan's five elements:
     1. Increased Presence--Increased presence efforts include Theater 
Security Packages, 5th Generation Fighter Training Deployments and 
Periodic Bomber Deployments.
     2. Exercises and Training--Air Force participation in NATO Joint 
Exercise Program; regular bilateral exercises and training, and EUCOM 
sponsored joint exercises.
     3. Enhanced Prepositioning--The Air Force's European Contingency 
Air Operations Set (ECAOS) program provides for prepositioning of 
logistical, communications, and medical support gear required to 
operate at remote airfields. ECAOS extends the Air Force's ability to 
deploy air power capability to locations throughout the EUCOM AOR where 
we have little-to-no historical experience.
     4. Improved Infrastructure--The ECAOS program includes over $1B in 
infrastructure upgrades to airfields throughout Europe in coordination 
with allies and partners--including cost sharing.
     5. Build Partnership Capacity--Through EDI, the Air Force assists 
allies and partners with technical, material and training assistance 
that will allow them to deter and defend themselves more effectively; 
and, in the event of conflict, integrate more effectively with U.S. 
air, space and cyberspace assets.
    As with many of the Air Force's assigned missions, more can be 
accomplished if high demand/low density resources were available in 
greater numbers. The demand on 5th generation fighters, bombers, 
Command and Control systems, and ISR assets often make us unable to 
fill the requirements of Combatant Commanders. These air power systems 
have proven to be especially critical to effective deterrence in the 
European theater.
    Question. As part of the ``Building Partnership Capacity'' category 
of EDI, the Air Force is requesting $8.4 million for the European 
Partner Integration Enterprise. This initiative consists of 
collaborative ISR processing, exploitation and dissemination activities 
with European allies. Can you provide additional detail about this 
initiative?
    Answer. The European Partner Integration Enterprise (EPIE) 
initiative is hosted on the U.S. Battlefield Information Collection and 
Exploitation System (BICES), which connects all NATO and several non-
NATO European partners. EPIE provides a capability to integrate and 
exploit multiple U.S. and allied sources of intelligence data and to 
provide the exploitation to coalition partners as well as U.S. users. 
As of March 2018, there is a permanent long-term presence in Germany at 
EPIE-Ramstein by Italy, the Netherlands, Belgium, and France, with 
Denmark participating on a rotational basis and Spain expected to 
commence a long-term presence later this year. Latvia, Lithuania, 
Estonia, Poland, and Romania have participated in orientation sessions. 
EPIE enables collaborative ISR processing, exploitation, and 
dissemination as well as engagements to expand the number of 
participating partner nations.
    The FY19 funding requested for the EPIE initiative includes: (1) 
$1.8 million in military personnel appropriations to fund air reserve 
component personnel to provide partner nations with expertise and 
orientation on all aspects of the ISR mission and to conduct forward 
deployed activities in Baltic and Eastern European locations using two 
deployable processing nodes; and (2) $6.6 million in operations and 
maintenance funding to support: (a) hardware lifecycle replacement and 
contract support for EPIE system architecture and software, including 
connectivity with BICES and other U.S. Classified networks in 
accordance with Defense Information Systems Agency standards; (b) 
travel for personnel for expertise-sharing with partners as well as 
participation in forward deployed activities; (c) deployment of U.S. 
Air Force tactical satellite communications capabilities supporting 
forward operations; and (d) EPIE project management.

                    Superiority in Space Operations

    Question. Due to advanced threats from China and Russia, the United 
States must prioritize efforts to maintain superiority in the space 
domain.
    Has the Air Force engaged with U.S. launch providers to address 
these problems with innovative solutions, post-satellite deployment?
    Answer. The Air Force is developing innovative solutions to address 
these problems. As an example, the Air Force awarded a $114.6M contract 
on 11 December 2017 for an advanced payload adapter, known as the Long-
Duration Propulsive Evolved Expendable Launch Vehicle Secondary Payload 
Adapter (LDPE). The LDPE will maximize rideshare opportunities to space 
and improve operational flexibility by adding power and propulsion to 
the payload adapter, which would otherwise just be orbiting space junk. 
The first LDPE has a planned launch date in June 2019 and we are 
exploring options for a second and third unit. The Air Force is also 
engaging with DARPA's Robotic Servicing of Geosynchronous Satellites 
and Orbital ATK's Mission Extension Vehicle to provide innovative on-
orbit solutions post-satellite deployment.
    Question. There is technology in development that would allow us to 
repurpose otherwise useless spent uppers stages in a way that may allow 
us to counter Russian and Chinese aggression. Is the Air Force 
fostering and developing these technologies and others like them?
    Answer. No, the Air Force is not currently developing systems to 
repurpose spent upper stages.
    On 11 December 2017, the Air Force awarded a $114.6M contract for 
an advanced payload adapter, known as the Long-Duration Propulsive 
Evolved Expendable Launch Vehicle Secondary Payload Adapter (LDPE). The 
LDPE will maximize rideshare opportunities to space and improve 
operational flexibility by adding power and propulsion to the payload 
adapter, which like the upper stages would otherwise just be orbiting 
space junk. LDPEs can host future experimentation payloads to both 
mature technology and refine Concept of Operations to counter Russian 
and Chinese aggression. The FY19 budget request includes funding for a 
family of modular resilience payloads to support threat warning and 
protection options for high-value satellites.
     Question. In terms of specific investments for FY2019, the Air 
Force is prioritizing Next Generation Infrared and GPS 3. Can you 
please explain how these, and the other investments you are making, 
ensure that the United States can maintain superiority in the space 
domain?
    Answer. The Air Force is pursuing multiple programs and 
capabilities to maintain space superiority, including GPS and missile 
warning. The GPS III Follow-on satellites are the next increment of 
capability improvement for the GPS system and will include multiple 
enhancements such as Regional Military Protection. This will augment 
current Military-Code signals with a high-power, regionally-focused 
signal to targeted areas, improving our ability to operate through 
contested environments. The Next-Generation Overhead Persistent 
Infrared program is the successor to Space Based Infrared System and 
includes strategically survivable missile warning satellites and a 
modernized ground system.

                     Agile Combat Employment-China

    Question. Due to increased ranges of Chinese cruise missiles, the 
Air Force has proposed leveraging divert airfields and Agile Combat 
Employment in the case of conflict with China.
    Can you please provide a bit more detail in how you foresee 
implementing this tactic?
    Answer. The Air Force operational concept of Agile Combat 
Employment uses traditional basing constructs for global and regional 
airpower projection and leverages divert/austere airfield use to 
increase resiliency and effectiveness in contested environments. This 
concept would be implemented by deploying, dispersing, and maneuvering 
air forces across a range of bases and locations that are both close 
to, and far from, the area of conflict within the contested zone. The 
concept is nested under USPACOM's strategy for joint force resiliency 
and seeks to dynamically employ airpower from a range of locations--
varying from robust to austere airfields. Logistics, manpower, 
infrastructure investmeM and Ally and Partner access are critical 
enablers of this concept to ensure survivable joint access and maneuver 
in the global commons.
    Question. Are you comfortable with the current number of potential 
divert locations you can operate from in the Indo-Pacific?
    Answer. No. As the Air Force postures to ensure viable military 
options in the Indo-Pacific (in-line with National Defense Strategy 
guidance on great power competition) the Air Force must expand access 
and agreements with Allies and Partners in the region. Expanding the 
capability and capacity of U.S. airpower basing, at all levels from 
robust to austere airfields, will strengthen our relationships and 
coordination with regional Allies and Partners to expand the 
competitive space today and better prepare for conflict tomorrow.
    Question. And especially when it comes to divert locations in 
foreign countries, do you have the tools you need to work with these 
countries to reach the kind of agreements you need to use their 
airfields? Does the State Department have a role in these processes?
    Answer. Current authorities permit authorized Department of Defense 
personnel to negotiate and conclude a variety of international 
agreements with respect to use of airfields. The nature of the 
agreement is specific to each country: some agreements authorize U.S. 
forces to use airfields freely, with submission of the flight plan and 
advance divert clearance; other agreements are more restrictive and 
limited to emergency (force majeure) scenarios. The Department of State 
is consulted prior to negotiating and concluding any international 
agreement. The Secretary of State determines whether an international 
agreement is required to be transmitted to Congress in accordance with 
the Case Act.

               Contracting Adversary Air Training Support

    Question. The Air Force should assess whether it should seek 
additional competition as it contracts for adversary air training 
support for air operations training.
    The FY19 USAF budget request includes $131 million for the Nellis 
AFB adversary air training contract. The original adversary air 
contract was awarded to a sole source that has been subsequently 
renewed on a sole source basis for two successive years. The next phase 
of the contract adversary air training will be competitively procured, 
but only a single competitor will be selected.
    Answer. This is correct. A competitive source selection is under 
way to replace the sole source Nellis ADAIR I with Nellis ADAIR II. 
This competitive contract is intended to satisfy the Nellis adversary 
air requirements until performance start on the Combat Air Force 
Contracted Air Support (CAF CAS) strategic multiple award contract 
currently in the requirements development stage.
    Question. Would the selection of more than one contractor for this 
new industry give the Air Force greater assurance that the adversary 
aircraft performance requirements are met and that these contract 
providers will continue to invest in their aircraft capabilities to 
assure that the Air Force pilots training experience near-peer aircraft 
performance and tactical challenges over the life of the contract?
    Answer. The selection of more than one contractor does give the Air 
Force greater assurance that requirements are met and that contractors 
will continue to invest in their aircraft capabilities. Industry 
indicates they are actively pursuing technological upgrades to meet 
advanced adversary air training requirements. The current CAF CAS 
program acquisition strategy plans for multiple contract awards across 
the 22 locations.

    [Clerk's note.--End of questions submitted by Mr. Rogers. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow:]

                     EELV Launch Service Agreements

    Question. I follow the national security launch business closely 
and have not seen that reusability of rockets has resulted in lower 
prices for NASA. In fact, cargo launch prices went up. Will the EELV 
Launch Service Agreements require a lower launch price when a provider 
utilizes a used rocket?
    Answer. It is too early to tell if reusability will alter the cost 
of future EELV missions. The EELV procurement strategy to follow the 
Launch Service Agreements is still in the review and approval process. 
The Air Force currently plans to use a dual-source strategy based on 
the best value to the Government. Potential vendors will need to make a 
business decision to include or not include reusable launch vehicles 
and propose a solution that balances price and risk and provides the 
best value.

    [Clerk's note.--End of questions submitted by Mr. 
Aderholt.]


                                          Thursday, March 15, 2018.

          FISCAL YEAR 2019 UNITED STATES ARMY BUDGET OVERVIEW

                               WITNESSES

HON. DR. MARK T. ESPER, SECRETARY OF THE ARMY
GENERAL MARK A. MILLEY, CHIEF OF STAFF OF THE ARMY

                 Opening Statement of Chairman Granger

    Ms. Granger. The subcommittee will come to order.
    This morning, the subcommittee will continue our series of 
open defense posture and budget hearings with our military 
services. Today, we will hear from the Army leadership on their 
fiscal year 2019 budget request.
    Since 2001, the Army has risen to the challenge of fighting 
counterinsurgency campaigns in Iraq and Afghanistan. Even as 
such conflicts continue, the Army must also prepare for a very 
different kind of fight under the new National Defense 
Strategy. The subcommittee is prepared to help the Army 
modernize and restore readiness for the full spectrum of 
conflict.
    Before I introduce our witnesses, I would like to recognize 
our ranking member, Mr. Visclosky--I am sorry, I am moving 
fast--for any remarks he would like to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. Gentlemen, I appreciate your service and 
your testimony. I look forward to it.
    Chairwoman, thank you very much for holding the hearing.
    Ms. Granger. Thank you.
    Allow me to introduce our witnesses: The Honorable Dr. Mark 
T. Esper, Secretary of the Army; General Mark Milley, Chief of 
Staff of the Army. Secretary Esper is making his first formal 
appearance before the subcommittee.
    Secretary Esper, welcome.
    Secretary Esper is appearing alongside the chief of staff, 
General Milley.
    General, thank you for being here today and all the work 
that you do.
    We look forward to hearing your views. Please proceed with 
your opening remarks.

                  Summary Statement of Secretary Esper

    Secretary Esper. Chairwoman Granger, Ranking Member 
Visclosky, distinguished members of the committee, good 
morning, and thank you for the opportunity to appear before you 
today.

                               READINESS

    Let me say up front that the Army's readiness across its 
formations is improving, and if called upon today, I am 
confident we would prevail in any conflict. This is due, in 
part, to the increased funding Congress has provided recently. 
For this, I would like to say thank you. However, if we are to 
continue increasing our readiness to desired levels and 
modernize the force, we require predictable, adequate, 
sustained, and timely funding.
    The Army's mission is to defend the Nation--the Army's 
mission to defend the Nation has not changed, but the strategic 
environment has. We have returned to an era of great power 
competition that makes the world ever more complex and 
dangerous.
    While the Army must be ready to deploy, fight, and win 
anytime, anywhere against any adversary, the National Defense 
Strategy has identified China and Russia as the principal 
competitors against which we must build sufficient capacity and 
capabilities. Both countries are playing a more aggressive role 
on the world stage and either possess or are building advanced 
capabilities that are specifically designed to reverse the 
tactical overmatch we have enjoyed for decades.
    The Army has a comprehensive plan, however, to ensure its 
long-term dominance. Fiscal uncertainty, though, has done a 
great deal to erode our readiness and hamper our modernization 
efforts. Late appropriations challenge the Army to execute 
funding well, which is why we are seeking increased flexibility 
to spend these precious dollars when funding is delayed.
    To address the challenges mentioned above, I have 
identified three focus priorities for the Army: readiness, 
modernization, and reform. Readiness is the top priority 
because only a ready total Army--Regular Army, Guard, and 
Reserve--can deter conflict, defeat enemies, and enable the 
joint force to win decisively. And while the quality, training, 
and esprit of our soldiers are what make the U.S. Army the most 
ready and lethal ground combat force in history, this 
superiority is enabled by the best weapons and equipment we can 
provide them.

                             MODERNIZATION

    As such, the second priority is modernization, or future 
readiness. To ensure overmatch on future battlefields, the Army 
is now increasing its investments in modernizing the force. We 
are also laying the groundwork for more increases in the coming 
years. The Army's modernization strategy is focused on one 
goal: Make soldiers and units far more lethal and effective 
than any adversary can imagine.
    The establishment of the Army Futures Command this summer 
is the best example of our commitment to the future lethality 
of the force. Army Futures Command will address the key 
shortcomings of the current acquisition system, providing unity 
of command, effort, and purpose to the modernization process.
    The Army has also identified its top six modernization 
priorities for the coming years. Each of these priorities is 
detailed in our written statement and is the purview of a newly 
established cross-functional team. The purpose of these CFTs is 
to determine the requirements of needed capabilities, to ensure 
all stakeholders are at the table from day one, and to focus 
Army resources on accelerated experimentation, prototyping, and 
fielding.

                                 REFORM

    My third priority is reform, freeing up time, money, and 
manpower to enhance readiness, accelerate modernization, and 
ensure the efficient use of the resources provided to us by the 
American people. Our reform efforts, particularly with the 
acquisition system, are long overdue. While Futures Command is 
probably the boldest reform we are pursuing, other Army reform 
initiatives owe much to the acquisition authorities delegated 
to the services in prior legislation. With these authorities, 
we are reinvigorating the Army Requirements Oversight Council, 
moving major Defense acquisition programs back to the service, 
and using other transactional authorities to accelerate 
fielding in limited situations.
    Although a ready and modernized Army is critical to defend 
the Nation, we must not overlook what makes us remarkable. For 
this, I have outlined three enduring priorities. First, taking 
care of our soldiers, civilians, and their families; second, a 
servicewide recommitment to the Army's values, especially 
treating everyone with dignity and respect; and finally, 
strengthening our allies and partners by building stronger 
ties. I look forward to discussing these with you as time 
permits.
    With that, let me thank you again for this committee's 
continued support of the Army and specifically the funding 
increases requested in fiscal year 2018 and the fiscal year 
2019 budgets. I look forward to your questions and appreciate 
the opportunity to discuss these important matters with you 
today. Thank you.
    Ms. Granger. Thank you.
    General Milley.

                  Summary Statement of General Milley

    General Milley. Chairwoman Granger, I want to thank both 
you and Ranking Member Visclosky and all the distinguished 
members of the committee for the opportunity to testify today. 
And although he is not here right this minute, I do want to 
acknowledge and recognize former Chairman Frelinghuysen for his 
great support to the United States Army over the last couple of 
years since I have been the chief and for many, many years of 
dedicated service to our Nation.

                              COMBAT-READY

    As you all know, for the past 17 years, the U.S. Army has 
continuously provided trained and ready forces to both Iraq and 
Afghanistan and elsewhere as we simultaneously meet the needs 
of the combatant commanders around the globe. And today, as it 
was throughout the year and last year, we have approximately 
about 180,000 soldiers serving in 140 countries around the 
world. And that represents, broadly speaking, about 50 to 60 
percent of combatant command demand comes to the Army to 
support.
    Congress' support has allowed the Army to become 
significantly more combat-ready today than we were 2\1/2\ years 
ago when I became the chief of staff of the Army. We have 
increased the number of combat training center rotations. We 
have improved equipment readiness rates. The spare parts, we 
have replenished our Army preposition stocks. We have increased 
our personnel end strength and started to fill some of the 
holes in our operating units. And significantly, we have 
improved both our munitions shortfalls along with some of our 
critical infrastructure.
    We must be ready, though, not only now, but in the future. 
And we have to maintain a decisive overmatch to achieve 
victory, as the Secretary said, against any adversary, anytime, 
anywhere. The tyranny of the present has consumed us for the 
past 16 years, while our competitive advantage against peer 
threats has eroded.
    And advances by our adversaries are very real. This is not 
a classified hearing, but I will be happy to illuminate those 
advances in a classified hearing, specifically with respect to 
Russia and China as they continue to assert regional influence 
in their development of advanced weapons and technology. 
Likewise, Iran is attempting to expand its regional influence. 
And as we all saw last week in the recent positive turn of 
events regarding North Korea, it is very welcome and I remain 
cautiously optimistic, as Secretary of Defense Mattis said.
    But we, the Army, we must remain ready. We must remain 
ready to present options to the President for his 
consideration, if required, and we will do that.
    The current battlefield is already lethal, and the future 
battlefield is likely to prove more lethal than anything we 
have ever recently experienced. So the time is now for the Army 
to modernize, to both stay ready today and to build the future 
force of our Nation. That is going to require a modern Army. 
The Army needs predictable, adequate, sustained and timely 
funding, and you know that and you all agree with that.
    The Army's fiscal year 2019 budget request reflects our 
priorities: to grow and maintain a highly capable force today; 
to modernize and build the future force; to take proper care of 
our soldiers, family members, and civilians; and all the while 
being good stewards of the generous money of taxpayer money 
that the Congress has given us. We recognize the American 
taxpayer entrusts us with a significant amount of money to meet 
these demands, and we will be diligent stewards of our 
resources and we will enforce accountability to make effective 
use of every single dollar.
    Your support for the fiscal year 2019 budget will ensure 
the soldiers of the United States Army remain ready to fight 
tonight as we prepare for any unforeseen conflicts of tomorrow. 
Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The written statement of Secretary Esper and General 
Milley follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger. Thank you so much.
    Before we begin our questions, in the interest of time and 
fairness for our witnesses and all the members, we limit the 
question, including the response, to 5 minutes per round, 
trying to have--I think we should be able to this morning--have 
two rounds. But if you would watch, there are green, yellow, 
and red lights, and red means you are over. So I am a former 
teacher; I watch them, and I hope all of you will, because we 
really want to hear from you. This is a very important hearing.
    We are going to have questions. I am going to call on Mr. 
Visclosky first.
    Mr. Visclosky. Madam Chair, I will defer at this point.
    Ms. Granger. Thank you.
    Mr. Calvert.

                               READINESS

    Mr. Calvert. Thank you, Chairman.
    Secretary Esper, General Milley, thank you for being here 
today and thank you for your service to our country.
    Over 16 years of combat and contingency operations have 
compromised the military's readiness to conduct high-end 
warfighting missions. The new National Defense Strategy focuses 
on nation-state conflict with a peer adversary, which is the 
Army's domain.
    All of us here have heard about the readiness shortfalls in 
the United States Army. Only 5 of 58 brigades are combat-ready 
to fight. The Army's operational tempo has not slowed down, and 
additional units, equipment, and military personnel have been 
deployed to eastern Europe to deter and defend against Russian 
aggression. The fiscal year 2019 request seeks to restore 
training and maintenance shortfalls by requesting additional 
funds to prioritize readiness across the Army.
    Can you please detail the Army's primary readiness efforts 
that we will execute as a result of the fiscal year 2019 
President's budget? Specifically, how many combat teams are 
currently rated ready for combat and how many do you expect 
will be rated ready for combat after executing the fiscal year 
2019 budget? Do you expect to increase training rotations at 
the National Training Center at Fort Irwin, California, and the 
Joint Readiness Training Center at Fort Polk, Louisiana? And 
how do you intend to integrate simulation and next-generation 
augmented reality into your traditional deployment readiness 
exercise in the coming years?
    General Milley. Thanks, Congressman, for the question. What 
I can do is provide a very detailed classified briefing on the 
complete readiness. In this session, let me say this: When I 
became chief 2\1/2\ years ago, there were two brigades combat-
ready. Today, we are significantly more combat-ready, and I 
need to provide you an update on the actual numbers, because 
the numbers that you mentioned have been improved since those 
numbers were given to you.
    And I can assure you that the United States Army has 
sufficient readiness to take on whatever adversary that the 
United States meets today or tomorrow. And I am very confident 
of that. I wasn't confident of that 2\1/2\ years ago. I am very 
confident of that today.
    That is not to say we are where we need to be. The 
objectives we set out, the unclassified objectives for 
readiness, is we want to attain 66 percent, two-thirds, 
roughly, of all of our brigade combat teams in the Regular 
Army, in the active Army, at the highest level of readiness. 
And for the Reserve component and the National Guard, we want 
to attain a readiness level of 33 percent. That is what this 
budget, fiscal year 2019, is built around, is those two metrics 
of success. And we are not at those numbers today, but we are 
on a glide path to achieve them.
    A couple of challenges. First challenge is time. Units 
aren't built just overnight and their readiness is not built 
overnight, as you well know. So it takes time and it takes 
repetition. It takes a lot of reps on a sled to get units to a 
level in order to fight the high-end fight against near-peer 
threats or regional threats.
    The second thing, as you mentioned, the demand. There is a 
global demand. It is significant, and a lot of that demand is 
met by the United States Army. Right now, for example, we have 
got several brigades involved in train, advise, assist missions 
inside the Middle East, and we need to recoup those brigades 
and get them trained for what their organizational design is to 
do. So demand plays a big role in that. I expect that demand 
will, hopefully, stay steady or come down slightly, and we will 
recoup some of that.
    And the last and most important thing, in terms of 
readiness, and you have been more than generous in your giving 
it to us, is a budget, and that is really significant. So time, 
demand, and money are what is key to readiness.
    You asked for when we think we would achieve the readiness 
levels. What we are saying in our analysis, if the 
international environment stays the way it is right this 
minute, we think, on the glide path we are on, we will achieve 
the readiness objectives complete by somewhere around the 2021-
2022 timeframe.
    Secretary Esper. And if I can, I will answer two of the 
specific questions you raised, Mr. Calvert. The fiscal year 
2019 budget allows us to maximize throughput through the three 
training centers at NTC, JRMC in Europe, and the JRTC, and we 
will be doing that with a combination of Active and Guard. So 
16 Active units will go through and then four Guard. So it is 
exceptional training. I have been to two of those training 
sites in the 3-plus months I have been on the job, and they are 
doing high-end training against likely threats we would 
anticipate, consistent with the National Defense Strategy.
    On your question with regard to synthetic training, virtual 
training, it is an initiative that is captured under one of our 
soldier lethality cross-functional teams. It is an important 
endeavor because it promises to give soldiers many, many 
repetitions at home station before they actually go on a 
deployment. So they are not engaging the enemy for the first 
time, if you will, on a real deployment, but actually can 
rehearse over and over again at home station. So it is a very 
important initiative to us, and we are putting money into that 
cross-functional team, as provided in the fiscal year 2019 
funding.
    Mr. Calvert. Okay. Thank you. Thank you, Chairman.
    Ms. Granger. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you for being here. So far, I 
think you have done an outstanding job in your leadership of 
the Army.

              FUTURES COMMAND AND ARMY RESEARCH LABORATORY

    Secretary Esper. Thank you, sir.
    Mr. Ruppersberger. I am fortunate enough to have Aberdeen 
Proving Ground in my district and, by extension, the impressive 
capabilities of the Army Research Laboratory. As you know, the 
Army Research Laboratory is our Nation's premier laboratory for 
land forces. The Army relies on the Army Research Laboratory to 
provide the critical link between science and warfighter. And 
today, the Army Research Laboratory helps the Army to 
understand the implications of technology on doctrine and 
future capabilities and translates these applicable science and 
technologies in ways to ensure Army dominance.
    That being said, I have been following the Army's intent to 
stand up Futures Command with great interest, and I am very 
interested in how its creation will impact the Army Research 
Laboratory.
    And I guess, Secretary, or either one, how do you envision 
the Army Research Laboratory contributing to this new 
modernization initiative?
    Secretary Esper. Yes, sir. Well, thank you for that 
question. First of all, our science and technology base is 
absolutely critical to the modernization of the force. And so 
in the last several months, what we have done is aligned 80 
percent of our S&T funding actually toward the six priorities 
that have been outlined. So that is everything from long-range 
precision fires through next-generation combat vehicle all the 
way through soldier lethality. We are looking to move over a 
billion dollars as well over the fit-up to do the same. And so 
clearly, the S&T, the Army research labs that are part and 
parcel of that are critical to the future.
    Now, the other piece of that with regard to Army Futures 
Command that will continue the transformation, if you will, of 
the acquisition process, what we envision is that we would 
achieve what we call unity of effort and unity of command by 
having a single senior officer, a general officer in charge of 
the entire acquisition, big A acquisition process, all the way 
from concept through requirements through the acquisition and 
testing process.
    What that would mean for the labs is that we would most 
likely just rewire the boxes differently so that they are 
reporting into the Army Futures Command. We don't anticipate 
any changes in locations or changes of jobs at this point, but, 
really, how do we rewire the boxes--because currently they are 
all over the Army--so we achieve that unity of command, unity 
of effort that promises us to be able to deliver to soldiers 
the tools, weapons, and equipment they need, when they need 
them, and at the best price for the taxpayer.
    Mr. Ruppersberger. Madam Chairman, schoolteacher, I yield 
back.
    Ms. Granger. Mr. Diaz-Balart.

                 NEXT-GENERATION VERTICAL LIFT PROGRAM

    Mr. Diaz-Balart. Madam Chairwoman, thank you very much. 
Gentlemen, a privilege to have you here.
    First, let me applaud the Army on the plan to acquire the 
ground mobility vehicles. I am actually really happy to hear 
that you are leveraging the experience of the SOCOM vehicles to 
get this critical equipment out to the force as soon as 
possible.
    Madam Chairwoman, I was lucky enough in Florida to drive 
one of these vehicles, which were incredibly versatile and, 
actually, I kind of want one after I drove it, I will tell you. 
So, again, I want to commend the Army for setting an example 
for a smart and fast acquisition decision and saving taxpayers 
money. And so, again, I saw that firsthand.
    Let me talk to you a little bit about the next-generation 
vertical lift. So I have read some conflicting reports on the 
status of this program. The Defense News suggests that the 
Future Vertical Lift program has appeared to, as they said, 
slow-rolled. Now, I also know that Under Secretary McCarthy 
recently said that the program is on track.
    And so I do understand that it is included in your 2019 
budget, which is great, but I am hoping to get some 
clarification on the Army's intentions and support for the 
program since, again, I have read conflicting reports.
    General Milley. Thanks, Congressman. I didn't read the 
particular article that you are referring to. First of all, it 
is a joint program. It is a DOD program, because it is Army and 
Marine equities. Army has a heavy equity in it. So the 
decisions are actually not Secretary of the Army's or the 
Army's. It is actually a DOD thing.
    Secondly is the request for proposals and all of that is 
going to be decided sometime in the early fall. So it is on 
track to meet those timelines.
    The third thing is, what do we want out of Future Vertical 
Lift? What do we want tactically? You know, what do we want out 
of this thing? The helicopters we have today, the Apache, the 
UH-60, the 47--the 47 has been around a long, long time, since 
Vietnam--they are great helicopters. They are good helicopters. 
They are capable. The guts have been all redone, and we are 
going to continue to invest in those in the foreseeable future.
    But the future operating environment is going to be 
significantly different, we think, especially if it is against 
a near-peer competitor, than the current operating environment. 
So we need an aircraft that can, first, survive. We also need 
an aircraft that is dual-purposed that can both be manned and 
possibly autonomous and unmanned, a robotic helicopter. We need 
an aircraft that can fly faster and further than any existing 
rotary wing aircraft today. And we need an aircraft that is 
agile, both while in flight to avoid enemy air defense and at 
what we call it the X or at the landing zone, in order to evade 
and survive any of the intense ground fire that will be coming 
on a hot LZ. Those are pretty stiff requirements.
    So the discussion with industry is ongoing right now, and 
there is a variety of possibilities out there from a 
technological standpoint. We will know more throughout the 
summer and as we get into the fall to make some hard decisions. 
But there is no intent, and the Secretary and I are not going 
to stand for delays. This is an urgent need. We need to get it. 
It is third in our--we have six priorities in the Army, six 
modernization priorities. This is the number three. If you 
think about what an Army does, an Army fights and wins in 
ground combat. And the first thing you got to do is be able to 
shoot long-range precision fires, and then you got to be able 
to move, and we move by the ground and we move by the air.
    So this is a very important priority for the Army. We are 
committed to it, and we are going to try to keep this thing on 
track.
    Mr. Diaz-Balart. Thank you, General.
    Secretary Esper. And I would just add that, building upon 
what the chief just said, what we are doing right now reflects 
the different approach to acquisition that we are taking. In 
this case, we have two demonstrators. One has flown. I think 
one will be flying later. Both are largely funded by industry 
as prototypes with some Federal dollars.
    And so it just reflects a whole new approach where we 
prototype, we test, we fail, we learn, we prototype, and we 
repeat until we narrow the requirements and we get on a much 
quicker trajectory to get to the end state that we want.
    Mr. Diaz-Balart. I appreciate the very clear answer.
    Thank you, Madam Chairwoman.
    Ms. Granger. Thank you.
    Mr. Cuellar.

                       FINANCIAL STATEMENT AUDIT

    Mr. Cuellar. Thank you, Madam Chair.
    Mr. Secretary and, again, General, thank you for your 
service and your time.
    Just one question. The Department of Defense is currently 
going through this financial statement audit, as you know, 
verified count/location/condition of military equipment, real 
property, inventory, testing security vulnerabilities, and our 
business assistance, validating the accuracy of personnel 
records. It is going to take a while to get this hopefully 
clean audit.
    The financial statement audit will help drive, we hope, 
improvements in standardized business and process and basically 
know what we have, you know, because, as you know, half of the 
discretionary funding goes into the Department of Defense.
    Mr. Secretary, and I guess for both of you, but especially 
you, Mr. Secretary, tell us your experiences and the views of 
this Department of Defense audit and tell us, even though this 
is an initial review, if any actions have been taken by the 
Department that has helped the Department of the Army.
    Secretary Esper. Yes, sir. Completion of the audit is a top 
priority for me. Having been through audits in the private 
sector, I recognize the value of them, in terms of what they 
teach you, what you can learn from them, how they can help you 
think better in terms of how you employ your resources and 
manage your resources to accomplish your mission. In this case, 
it is readiness and future readiness.
    And so the Army is off to a good start. We are looking at 
what needs we need to make. So over the previous few years, we 
have made a number of changes to improve our audit ability, 
whether it is better documentation control, improving our IT 
systems, capturing data better. So we are proceeding along. I 
get updated on this monthly. And at every meeting I ask, what 
do you need from me, what support do you need from me to make 
sure that we complete our audit on time?
    And, again, as you rightly said, I don't anticipate we will 
get a clean opinion this year. I think it is a process, but I 
am confident we will continue to learn. At the end of the day, 
we need to be able to account for everything that we have and 
what we do, and I am fully committed to that.
    Mr. Cuellar. And you said it right. You have been in the 
private sector, so this is key and we have got to do the same 
thing for government.
    Secretary Esper. Yes, sir. And part of it is making sure 
the attitude is one of--it is a learning event, not a grading 
event, per se, because there is a lot that can be learned from 
an audit that helps leaders really manage all of your resources 
better, whether it is people, equipment, dollars, obviously. It 
is important that we complete this.
    Mr. Cuellar. Well, following the question you ask your 
folks every time you meet with them, anything we can do to help 
you?
    Secretary Esper. The Congress has been more than generous 
with the fiscal year 2018 and fiscal year 2019 mark. So I think 
we really appreciate the funding at this point. As we go, we 
will be sure to keep the Congress apprised if anything comes up 
with regard to the audit piece. So thank you, sir.
    Mr. Cuellar. I yield back the balance of my time.
    Ms. Granger. Judge Carter.

                       NATIONAL DEFENSE STRATEGY

    Mr. Carter. Thank you, Madam Chairman.
    Secretary Esper, General Milley, thank you for being here. 
I think you make a great team in taking care of our Army, and I 
appreciate you very much.
    We are talking about a new National Defense Strategy. It 
raises a new whole section of thinking on warfare with the 
Army. And we are looking at dealing with near-peer aggression 
or potential aggression and how we would face it, while 
continuing an insurgency war which we have been fighting now 
for 16 or 18 years. It takes a whole new outlook and it takes 
evaluation of our near-peer enemies and what we are going to 
do.
    So my question is, give us an overview, if you could, about 
the changes in the Army relative to the near-peer enemies, and 
then as we continue, how will we continue to deal with 
insurgency and that issue too.
    And one of the things I am very interested in is, because 
there at Fort Hood, we have a lot of Abrams tanks and a lot of 
Bradleys, and they have done a great job for us and been great 
for our Army, but they are old. They are old vehicles. And it 
is my understanding from some of my reading that our potential 
enemies have looked at how we fight and have made improvements.
    I would like for you to also talk about equipment 
improvements as you look down the road for this dual task we 
are going to have. It is kind of a big question. But if you 
could outline it quickly, give us some kind of idea of where 
you are. I think it is important that everybody understand it.
    Secretary Esper. I will take first stab at that, and I am 
sure the chief will have a lot to contribute as well. As you 
rightly outline, Mr. Carter, with what the NDS presents, we 
have to now deal not only with the high-end, very complex 
threats, strategic competitors of Russia and China; we still 
have to be prepared to deal with the Irans and North Koreas, 
and at the same time deal with irregular warfare. So unlike 
maybe what had happened in the post-Vietnam era when I entered 
the service, we don't have the luxury of just focusing on one 
threat. So, instead, we have to now maintain that core 
competency.
    At the same time, as we open up our aperture to deal with 
the high-end threats, there are a number of things that we are 
doing to make sure we are ready. So we talked earlier about 
fully maximizing the throughput of units to the combat training 
centers. That is number one.
    Second, relevant to today's discussion about the budget, we 
are converting an armored brigade combat team. We are, by the 
end of 2019, building another armored brigade combat team, 
again, to deal with the high-end threat. We are upgrading our 
Strykers, Bradleys, and vehicles, Bradleys and Abrams, making 
them more lethal, making them more survivable. We are investing 
in our aviation fleet. So all these things we are doing to deal 
with the high end.
    And then, of course, we have mentioned several times our 
six priority areas for modernization. It begins with long-range 
precision fires, making sure we have the ability to reach out 
and touch the enemy at greater distances so that we can help 
the Air Force, for example, with the suppression of enemy air 
defenses all the way down through, as you mentioned, building 
the next-generation combat vehicles. Because we are reaching 
the point in time, certainly with the Bradleys, where we are 
out of power, if you will. They are getting too heavy to do 
some certain things. So that is why next-generation combat 
vehicle is another one of our priorities.
    General Milley. Thanks, Congressman. I would just add that, 
you know, you rightly point out the National Defense Strategy. 
It is a solid document, by the way. You know, I don't know how 
many know the background of it, but that is very much Secretary 
Mattis' document. His voice is in it. He penned it. He pretty 
much singularly authored that document. We, the Joint Chiefs of 
Staff, have had a lot of input to it. Many other staffers have 
had. We think it is a solid document and accurately outlines 
the way ahead for not only Department of Defense but to 
extrapolate to the Army, specifically, the reintroduction, I 
suppose, of great power competition at both levels below 
outright war and then potentially in conflict.
    So we have got to shift gears as a Department of Defense 
and a Department of the Army, and we intend to do that. At the 
same time, we have to sustain the levels of effort, fighting a 
counterinsurgency and a counterterrorist fight against a very 
aggressive nihilistic enemy that wants to destroy Americans and 
their interests. So we have to be able to do both 
simultaneously, and we think that this budget helps us to do 
that.
    And in order to do that, we have to improve our readiness 
for today's fight and we have to modernize for tomorrow's. And 
we think that this strategy is balanced that is in the 2019 
proposals, and we think we can get there in pretty good shape, 
barring unforeseen events in the international environment.
    Mr. Carter. Thank you. I yield back.
    Ms. Granger. Ms. McCollum.

                      ARMY AVIATION MODERNIZATION

    Ms. McCollum. Thank you, Madam Chair. And thank you, 
gentlemen, for being here today and your service to our Nation.
    I would like to get your thought on a few things. We have 
been talking a lot about the new National Security Strategy, 
and that also includes the Guard and the Reserve. And I would 
like to dig in a little more about the Army's aviation 
modernization program and how that all fits together.
    So we know with the increased global requirements and high 
operating tempo that it has put a strain on readiness and 
modernization efforts, especially with respect to aviation, and 
some of the questions have related to that. And part of that 
has been past funding by this Congress and timely budgets, 
which we are beginning to address.
    So I would like to know, as you describe what is in the 
fiscal year 2019 budget for the Army aviation modernization, 
how the Army plans to go forward in the decade, especially now 
that we are going to have the funding, hopefully, at least for 
the next 2 years, better in place.
    There has been concern from Reserve components that the 
Army's direction here may leave them without the funding needed 
to complete the modernization efforts for the UH-60 Black 
Hawks. And I also, from the Army Times, November 9, 2017, was 
concerned when I read that the Army's goal for training flights 
per hour per crew is 14.5 hours to reach collective readiness 
at the battalion level, but the service's Active component is 
only getting 10.8 hours, while the National Guard is getting 
6.4, and the Reserve is getting 7.8.
    So could you gentlemen tell me, with the increased funding 
and how we are moving forward, how the Active component will, 
you know, as it continues to rely and rely heavily on the 
Reserves and Guards as an operational force, how are you going 
to ensure that they also see the full benefits of this 
modernization program?
    General Milley. Thank you, ma'am, for the question. On 
aviation, the last couple of years, Congress has been very 
generous to us, and we put a lot of money into aviation, both 
in 2017 and 2018. And for 2019, for this request, we are asking 
for money to remanufacture another, I think it is 48 Apaches, 
to buy 12 additional new Apaches. We are asking for additional 
moneys to procure additional UH-60s and to modernize the UH-60 
fleet as well as the CH-47 fleet.
    Aviation is the biggest and most expensive, outside of 
MILPER, outside of the payroll, it is the most expensive part 
of the Army budget. And we think that we are putting an 
adequate amount of money into aviation for both the Active and 
the Reserve and Guard in order to make sure that they are 
properly equipped with the best--this is barring Future 
Vertical Lift. This is the current systems.
    The second piece you mentioned about the training, the 
flight hour program, we think, historically, that 15--14, 15 
hours is about what is necessary to maintain the highest level 
of combat readiness for a rotary wing aviator. That would 
apply, those numbers would apply to Active component, because 
that is where you want to get them to what we call C-1. So we 
want them at the highest level of readiness.
    The National Guard and Reserve are not resourced, nor are 
they planned, to be at C-1 prior to mobilization day. They are, 
by design, planned to be at a lesser level of readiness prior 
to mobilization day. And then upon mobilization, there is a 
period of time for each unit--and we have it by unit--we have a 
period of time for them then to reach C-1 prior to them 
deploying into combat.
    Ms. McCollum. Madam Chairwoman, because my time is up.
    I would like to see that breakdown----
    General Milley. I will be happy to.
    Ms. McCollum [continuing]. Because I am very concerned 
about with the OPTEMPO, sometimes the shortness in deployment.
    General Milley. Sure.
    Ms. McCollum. And especially with the equipment that they 
are operating with. So if you could provide that to our staff, 
I would appreciate that.
    General Milley. I will be happy to give you all the detail 
on it, absolutely.
    Ms. McCollum. Thank you very much, gentlemen.
    General Milley. Thank you, ma'am.
    Ms. McCollum. Thank you, Madam Chairwoman.
    [The information follows:]

        IFR #1--Aviation Readiness and Flying Hours by Component

    (1) In FY18 the Army programmed $1,579 billion for the Flying Hour 
Program in the President's Budget broken out as follows; $1,188 billion 
for the Regular Army, $333M for the Army National Guard (ARNG) and 
$57.8 million for US Army Reserve (USAR). The preponderance of this 
funding goes to Combat Aviation Brigades (11 Active/10 Guard/2 Reserve) 
but the Active Component also funds undergraduate and graduate flight 
training (flight school) for all three components.
    This funding provides for company to battalion level collective 
training readiness in the Regular Army and Platoon level collective 
training readiness in the Reserve Component prior to mobilization. The 
Regular Army builds and sustains their readiness over one year while 
the Reserve Component builds their collective training proficiency over 
five years due to the number of available training days in each year. 
The following chart breaks out the funding and how many hours per crew 
per month each component can be expected to fly with their programmed 
resources.

----------------------------------------------------------------------------------------------------------------
                                               ARNG Hrs/crew/                    USAR Hrs/Crew/
     Active Hrs/Crew/Mo.        10.6 hours*          Mo.             7 Hrs             Mo.            6.5 Hrs
----------------------------------------------------------------------------------------------------------------
MTOE Rotary Wing funded (11         $803,446  10 eCAB.........        $308,412  2 eCAB..........         $50,521
 CAB).
TDA Rotary Wing, Fixed wing,        $385,460  TDA + FW........         $24,749  TDA + FW........          $7,349
 UAS.
    Total Funding ($000K)...      $1,188,906  ................        $333,161  ................         $57,870
----------------------------------------------------------------------------------------------------------------
MTOE: Modified Table of Organization and Equipment (Primary combat units)
TDA: Table of Distribution and Allowances (Staff and support units)
*Note, due to pilot manning shortages in the Regular Army, on-hand air crews are flying 12 hours or more a
  month. In FY18, all Aviation units are meeting their readiness objectives.

    (2) It takes a Reserve Component unit approximately 30 training 
days post-mobilization to achieve Battalion level proficiency and 60 
Days to achieve CAB level proficiency.
    (3) Aviation modernization is ongoing in every Army component and 
across our aviation fleets. Currently, UH-60 Blackhawk A, L and M model 
aircraft are operating in both the Regular and Reserve Components. The 
Army continues to execute plans to modernize our UH-60 aviation fleet 
which includes replacing all UH-60As in COMPO 2 by FY 23 and in COMPO 1 
by FY25. This modernization effort includes upgrades, which will result 
in a combination of UH-60L, M and V aircraft. The Reserve Component has 
received their full authorizations of CH-47F aircraft, the most modern 
model in the Army inventory.

    Ms. Granger. Chairman Rogers.

                            KOREA PENINSULA

    Mr. Rogers. Korea, we have some 24,000 troops on the 
peninsula, including 15,000 Active Army. In view of the unusual 
activities in the last few months, i.e., North Korea, what 
changes have you made, if any, in preparation for what may 
come? Mr. Secretary.
    Secretary Esper. I will take first stab at this. The chief 
in his joint chief 's role is probably more fluent on this. I 
could tell you that with regard to Korea, we hope for the best, 
but prepare for the worst.
    And so one of my first trips on the job was to Korea, where 
I spent about 2 days on the peninsula meeting with our 
commanders all the way from Seoul down to the southern end of 
the peninsula to get a good feel for our readiness. And I can 
tell you that everybody is working hard to ensure that we are 
ready, that we are doing what is necessary to strengthen the 
hands of our State Department, our diplomats, if you will, and 
to make sure that we have all options available for our 
decision makers.
    Mr. Rogers. General.
    General Milley. Congressman, I don't want to do a cop-out, 
but I would like to actually come by and brief you in a 
classified session on the details of what we are doing. The 
headlines, I suppose, or the brief version in unclassified, we 
continue to do and we will continue to do a significant amount 
of training for contingency operations on the Korean Peninsula, 
both on the peninsula itself with the units that are stationed 
there, but also the units in the region. We have got, roughly 
speaking, 70,000 Army soldiers in the PACOM AOR, and another 
30,000, depending on exercise schedule. So training is key.
    And then in the continental United States, about, I guess 
it was a year, 18 months ago, we gave out guidance to our units 
that we would designate selected units to increase their 
readiness training, specifically oriented towards high-end 
combined arms warfare, not specific necessarily to Korea, 
although it would be applicable to Korea. And we have been 
running those units pretty hard, getting them to a much higher 
level of readiness that I can explain in some detail to you.
    In terms of equipment, we have ensured that all of the 
prepositioned stocks are full up. We have worked hard at 
replenishing munitions. I can give you the details of those in 
a classified session as well. And then we have made sure that 
we have increased the personnel fill for the units that are 
both there and the units that are expected to first respond.
    But we, the Army, have done a tremendous amount, in 
coordination with the U.S. Army Pacific, with Admiral Harris in 
PACOM, and General Brooks, who is the commander on the 
peninsula, we have done a tremendous amount over the last 12 to 
18 months or so in preparation for any possible contingency so 
that the President has the widest latitude for options, if 
needed.

                 MILITARY RELATIONSHIP WITH SOUTH KOREA

    Mr. Rogers. How would you rate the current state of our 
military relationship with South Korea?
    General Milley. It is very good with the ROK Army. Our Mil-
to-Mil relationship with the Republic of Korea is excellent. 
And I go over there probably every 4 or 5 months. We have had a 
long-term 70-year relationship with the ROK Army, and we are 
very, very solid. We are shoulder to shoulder with the Republic 
of Korea.
    Secretary Esper. And I have had the chance to meet, when I 
was there, with the minister of defense and with ROK generals. 
My assessment was the same, and it was the assessment also 
given to me by our commander there, General Brooks.

                    155-MILLIMETER ARTILLERY SHELLS

    Mr. Rogers. In closing and quickly, I noticed that you are 
requesting a huge increase in 155-millimeter artillery shells. 
2018 was 16,500. The request now is 148,000. I am an old 155 
artillery guy in the Kentucky Guard, so I have got an affinity 
for 155 shells, but what is going on here?
    General Milley. Well, as I survey as chief of staff, as I 
survey the world situation--and there are lead times to 
procurements--I want to make sure that the United States Army 
has sufficient ammunition stocks, not just 155, but the other 
types of preferred munition and Precision-Guided Munition, et 
cetera, but 155 in particular because the United States Army 
has been and still is a fires-based Army in order to create 
opportunities for maneuver and movement.
    So artillery is fundamental to our ability to do that. And 
in the event of a contingency, artillery munition consumption 
rates would be really high. So I want to make sure that the 
ammunition stockpiles are significant enough to withstand any 
contingency. Hence, the significant amount of 155.
    Mr. Rogers. It is 10 times what you did in 2018.
    I yield back.
    General Milley. That is correct, Congressman.
    Ms. Granger. Thank you.
    Before we call on Mr. Womack, we will be calling your 
office to set up a classified briefing. Everyone on the 
subcommittee will be invited, because I know we all have 
questions that you, very respectfully, need to be in a 
classified briefing, so----
    Mr. Womack.

                               PERSONNEL

    Mr. Womack. Thank you, Madam Chair.
    And my thanks to the Secretary and to the chief, who are 
doing remarkable work. And, of course, I am kind of partial to 
the Army, so I like what they are doing.
    And congratulations, by the way, on bringing the Commander 
in Chief 's trophy back to the Army side. I know my Navy 
friends are probably, and even my Air Force friends, probably a 
little bit chagrinned about that, but it was about time, and I 
know it is particularly important to the Secretary.
    I want to talk about manning for just a minute. Even though 
we have got a lot of technology, a lot of really cool stuff 
that we use, that the warfighter is able to take advantage of, 
and more on the way, we are still a people business. And my 
concerns have always been about the amount of money that we 
spend and let's just say invest in our people, from entry level 
to some of these mid grades, and then how we lose them in the 
retention battle.
    And my concern is even enhanced a little more now that we 
have got a Tax Cut and Jobs Act bill passed. And there is 
clearly a movement in the economy to bring more jobs back home, 
and that is going to put pressure on wages. Wages are going to 
go higher, I believe strongly, and that is going to be an 
incentive for people who might be predisposed to joining our 
military to take a job in the civilian sector.
    So, Mr. Secretary, if you would, just kind of let me know 
what your thoughts are on these issues and if my concerns are 
founded.
    Secretary Esper. Yes, sir. It is a very good question, and 
I like your choice of words: ``invest.'' It is how we need to 
think about how we access soldiers and officers into our force.
    I think on the first part, with regard to our enlisted 
ranks, as you know, this bill will help us grow end strength, 
which is critical to meet the demands out there. But one of the 
challenges we have, which are widely reported, is that we have 
anywhere between only 25 to 30 percent of America's youth could 
be eligible to serve, and less than 5 percent probably are 
eligible and have an inclination, proclivity to serve. And so 
that makes things more challengeable, which makes it all the 
more important that once we get them into the service, that we 
do our darn best to retain them.
    And so there are a number of things we need to do. Of 
course, is invest in their professional development. We need to 
be sure to take care of their families, which is why one of the 
priorities we have highlighted is taking care of their 
families.
    But another part of this, and I think you and I may have 
spoken about it previously, is I have stood up what I call a 
Talent Management Task Force to really look at how do we manage 
people differently in the 21st century. So rather than the 
typical up-and-out type of system we have now, how do we manage 
people based on their knowledge, skills, and behaviors, marry 
it up with their preferences, and make sure we look at them 
more as individuals as we manage them through their career so 
that we can retain them longer, particularly in that critical 
period between the 6- and 8-year mark, where, at least for mid-
career or for officers, they may think about getting out 
because they are looking for other opportunities or, like you 
said, the job market is better.
    So we have to be more flexible on that side as well in 
terms of allowing lateral movement in and out of service, maybe 
to the Guard and Reserve, and thinking about different career 
path options. This is most specifically outlined when we talk 
about the cyber force. So a number of things we could do, but 
you have hit the nail on the head. We have to think about 
people as investments.
    Mr. Womack. General Milley, on that same subject, we have 
been engaged in a type of conflict that has been driven 
primarily by the small unit leader, which has been really good 
for the development of our small unit leaders. Now, a lot of 
these leaders are matriculating up through their field grade 
and on into general officer positions. And I would just kind of 
throw the same question out to you. Do you ever get concerned 
about losing some of this great talent that has been so vital 
in the war fight so far that we could lose them to private 
sector opportunities?
    General Milley. I am always concerned about that, 
Congressman. We want to retain the best and brightest of 
talent. And you are correct that there is a tremendous amount 
of institutional experience now at the small unit level in 
combat fighting. So the short answer is yes, we are always 
concerned about it. We monitor it very closely.
    So what we have seen so far is we do not in the junior 
officer level have a, quote/unquote, brain drain. There is a 
normal attrition at about the 4- or 5-year mark where a lot of 
officers choose to pursue another form of employment. Many go 
into the Guard, many go into the Reserve, and then they seek 
civilian employment, and others just get out. But there is not 
some dramatic pause from or break from the path in terms of the 
normal trend lines.
    What is interesting, though, is those officers and 
noncommissioned officers and soldiers who actually have the 
most deployment time in theatre, in the combat zones of Iraq, 
Afghanistan, Syria and elsewhere, they tend to reenlist, 
actually, at a higher rate. And that is an interesting fact 
that has come out in the last 14, 15, 16 years.
    So the idea that they are being driven out of the military 
for some reason, I don't believe that is the case, based on the 
data I have seen, but we are always concerned about it. We want 
to retain the best in our formations.
    Mr. Womack. I thank the gentlemen for their service.
    Madam Chair, I yield back.
    Ms. Granger. Thank you.
    Mr. Graves, and then Mrs. Roby.

                   SECURITY FORCE ASSISTANCE BRIGADES

    Mr. Graves. Thanks, Madam Chair.
    And thanks again for joining us and for your responses 
today. And I really just want to get your feedback a little bit 
on the Security Force Assistance Brigades, one of which, the 
1st brigade is housed in Benning, in Georgia. And no doubt that 
advising and assisting our allies is a key part of the mission.
    Can you just share with us a little bit about what you have 
learned and what you expect and what you hope to see in the 
future in using these various brigades?
    General Milley. Thanks, Congressman, for that. It is our 
assessment that we are going to be in the train, advise, assist 
of indigenous partner nations' militaries for some time to 
come. We have been doing it pretty regularly as a Nation for 
well over a century. If you think back at the big ones, the ROK 
Army, the Korean, South Korean Army, the Army of South Vietnam, 
and many, many other armies around the world have been advised 
by the American Army over the years. So it has always been a 
fundamental mission of the United States Army.
    Many times it is defaulted to the United States Army 
Special Forces, because they have excellent expertise in 
foreign internal development and advising. But in today's 
world, we think that the mission profile of train, advise, 
assist exceeds the capacity of Special Forces. They are running 
at a very, very high OPTEMPO. So Special Forces is primarily 
now, not exclusively, but primarily involved in training and 
advising host-nation special forces, and we need to fill the 
gap to advise the host nation conventional forces.
    And what we determined, what we have been doing for 16 
years is ripping apart our Regular Army or National Guard 
brigade combat teams that are designed or combined now as 
maneuver, we have been ripping them apart to feed an advisory 
mission. So, for example, today, we have got five brigades in 
the Middle East doing that, we have got five preparing, and you 
got five just coming home. So about 15 out of, you know, 30 
brigades in the active or 58 in the total are wrapped up in 
that mission profile.
    We need those brigades to train them on their design 
mission. So what we decided to do is we wanted to produce a 
better product of adviser rather than just sort of an ad hoc 
approach to it by ripping units apart, create a professional 
advisory unit, and we are calling it an SFAB. And it is all 
about the people. They are individuals who are highly vetted. 
They are meeting the same entry requirements that you have to 
meet to get into the Ranger Regiment. They are getting full 
background checks. And significantly, they have already served 
in the duty position they are serving as an adviser. So they 
are on their second company command, their second battalion 
command, their second brigade command, second time as a first 
sergeant and so on. They are not coming--we are not ripping 
them out of the units. This is after they have completed their 
assignment in a regular unit.
    So you are getting a high-quality product, and I think we 
will see over time for the indigenous conventional forces a 
better adviser capability, and we will recoup the readiness 
value of bringing the current brigades back home to get them 
trained for their organizational design mission.
    And a third big strategic benefit of these Security Force 
Assistance Brigades is that they are built upon the inherent 
chain of command of an infantry brigade without all of the 
soldiers. So they are E-6s and above, they are all NCOs and 
officers, and they are designed to look like a chain of command 
of a brigade.
    So in a national emergency, if the United States needed to 
rapidly expand--we are creating five of these in the Regular 
Army, one in the Guard. If we needed to rapidly expand by, say, 
six brigades, five or six brigades, we would take soldiers 
through basic training and AIT, shove them underneath there. 
And you will have a brigade in relatively short order, about 
one-third of the time it would take to create a normal brigade.
    So you get these three big strategic benefits from these 
outfits. The first one, as you noted, is stood up at Benning. 
It deployed last week or 10 days ago or so. They are in the 
midst right now of getting into their battle space. And the 
second one is going to stand up at Bragg. We haven't determined 
yet the stationing for the third, fourth, and fifth and so on.
    But we think it is a good idea. It is a good program. We 
think that they are getting good training and proper equipment. 
And we think that their concept of employment is sound, and we 
think it will reap a significant amount of benefit in the years 
to come.
    Mr. Graves. Great. Thank you. Thank you for that 
explanation.
    And, Madam Chair, I yield back. Thank you.
    Ms. Granger. Mrs. Roby.

                             ARMY AVIATION

    Mrs. Roby. Thank you, Madam Chair.
    And to both of you, thank you for your service to our 
country. We appreciate it very much. Thank you for your candor 
here with us this morning.
    As you know, I represent southeast Alabama, and the people 
of southeast Alabama are very proud of the home of Army 
aviation at Fort Rucker. So a couple questions, and then I will 
let you respond.
    And I appreciate, Mr. Secretary, the visit by phone the 
other day, and I kind of laid this out for you, so, you know, 
we can talk further about it. But I am real concerned about why 
the President's fiscal year 2019 budget request for aircraft is 
$3.8 billion versus the actual spent in fiscal year 2017 of 
$4.9 billion.
    We continue to also be concerned about retention of Army 
aviators, and also want to make sure that the budget is a 
reflection of what needs to be done at Rucker to keep up with a 
student load that will then help with whatever missions we 
have. I mean, clearly, we don't deploy without Army aviation, 
so we want to make sure that student load is a reflection of 
the needs of the Army.

                                STRYKERS

    And then my second question is, I am concerned about the 
funding for the Stryker vehicle in the Army's fiscal year 2019 
request. It is my understanding that the Army also has 
operational requirements for additional brigades of improved 
Strykers. And so a lack of funding for that would certainly put 
the industrial base in jeopardy.
    And so those are my questions, and I will be quiet and let 
you all respond. But, again, thank you so much for your service 
to our country and for being here today.
    Secretary Esper. Thank you, Mrs. Roby. I will take the 
first one, aviation budget. I know the chief can speak to the 
retention piece, then we will move to the Stryker.
    I did track down the number. So you are right, the fiscal 
year 2019 request for aviation is $3.8 billion. The fiscal year 
2017 enacted was $4.9 billion, but what we requested in fiscal 
year 2017 was $3.6 billion. So the data reflected the 
additional generosity of the Congress to put money in. So that 
is why it looks like a--so it is not a plan decrease by the 
service. What we had planned was a steady increase, if you 
will, to continue to invest in aviation assets. That is number 
one.
    Number two is, we find at this point, because of the 
investments we made in previous years, the bump-up in 2017, 
that Army aviation across the board is in pretty good shape, 
certainly relative to our armor, our Strykers, et cetera, et 
cetera. So we find ourselves in good footing. We are getting 
very close to meeting our aviation objectives in terms of the 
fielding goals.
    And then the other thing--I think this is due, again, to 
the folks at the Pentagon doing the acquisition--is they made 
some good decisions. So, for example, on UH-60, the procurement 
is a multiyear procurement of aircraft, which saved us as a 
result over a half billion dollars. And so that meant we didn't 
have to invest that upfront.
    So a number of things are impacting both why you see the 
trending line as you read it, but also the solid state of 
aviation funding. And then, of course, as we have talked today, 
one of the things we are trying to do in the 2019 budget is 
really, consistent with the National Defense Strategy, make 
sure we are investing in conversion of the Army, of the armored 
brigade combat teams. We are looking to create another one. We 
are trying to fill our prepositioned stocks of the brigade 
combat team. We are doing upgrades to our Bradleys, Abrams, and 
other vehicles, because they are just not in as good a shape, 
if you will, as the aviation fleet.
    General Milley. Congresswoman, for the pilots, what I have 
seen is not so much a retention issue as a production issue. We 
are short by our pilots, but we are at 94 percent on warrant 
officer pilots for rotary wing aircraft. So we are actually not 
in that bad a shape. However, that 94 percent means we are 
short several hundred pilots. So we are not where we would like 
to be, which is 100 percent, but it is not so much a retention 
as a production issue.
    And you rightly point out the student base down at Fort 
Rucker. We are filling all the scheduled seats and we are 
monitoring all of that very, very closely. And we are very 
sensitive, because of the amount of training that goes in to 
train a pilot, and we know that there is a heavy investment in 
that and we want to continue to make sure that we don't drop 
off on it. I know some of the other services with fixed wing 
pilots are challenged on retention, but ours is not so much 
retention as it is a production issue.
    On the Stryker piece, it is our intent to continue the 
Stryker upgrades. However, what you see reflected in the 
budget, what we did last year was put money in there for the 
Stryker lethality upgrade. And now what we want to do is we 
want to get the feedback from the pilot program that we are 
running right now over in Europe. We want to get all the 
feedback from the testing and the prototyping and so on and so 
forth and then adjust based off of that. We expect that 
feedback sometime over the summer, and then we will adjust and 
determine which way we want to go on the remaining Stryker 
brigades.
    Mrs. Roby. Thank you.
    Ms. Granger. Thank you.
    Ranking Member Visclosky.

                       STATE PARTNERSHIP PROGRAM

    Mr. Visclosky. Thank you, Madam Chair.
    Secretary, first of all, I want to thank you for your 
comments on the audit and audibility that Mr. Cuellar brought 
up and the fact that you are very serious about it. And as I 
have said many times in this room, it is not the audit itself, 
it is the ability it gives you to make informed decisions. But 
very much appreciate your addressing that.
    Secretary Esper. Thank you, sir.
    Mr. Visclosky. I have, if I could just set these out for 
the two of you, three questions. And, again, would not want to 
take time. Chairman Frelinghuysen is here, Mr. Aderholt.
    The first is, we are all very proud of our National Guard 
organizations. Indiana has partnerships with two different 
countries. Relative to the European Deterrence Initiative, how 
do the Guards in the State Partnership Program cooperate, play 
into what the Army is doing in Europe?

                                  ASIA

    Second, when we look at Asia, I think too often we think of 
maritime, Navy, Air Force, but the Army has a clear role. 
Setting aside the Korean Peninsula, any particular activities 
you would draw our attention to that you are involved in?

                            DEFENSE STRATEGY

    And the last--and, again, if you could just touch on 
these--is, with the new defense strategy that I am pleased the 
Department has initiated, we talk about Russia and China. We 
talk about Iran and we talk about North Korea, and then it is 
other very important issues. Has it put stress on the Army in 
particular as far as its activities in Afghanistan? Are there 
problems that has created as far as a sense of priority? Thank 
you.
    Secretary Esper. Thank you, sir. If you don't mind, I will 
take the first one, and maybe the chief can take the second 
two.
    So, as you know, my 21 years of service, 10 were on Active 
Duty and the remaining 11 were in the Guard and Reserve. So I 
have a great affinity for the Guard as a former guardsman 
myself.
    And I will tell you, when I went to Europe, I think it was 
in January, I was able to visit Belgium, Germany, Poland, and 
Ukraine. And in Poland, I was very impressed because there was 
a Guard unit there from Illinois, of all places, training, 
conducting training there, and they were well welcomed and 
doing an incredible job. I found the same thing, by the way, 
when I went to Ukraine. It was actually the New York National 
Guard that was training the Ukrainians on better tactics, 
techniques, and procedures, if you will, consistent with what 
we do with NATO.
    So the Guard is performing a critical role. From the time I 
left Active Duty in 1996, they have moved certainly from a 
strategic Reserve to an operational Reserve to an operational 
force. And everywhere I go--and I am always reminded of my 
visit to Afghanistan just before Christmas, where I sat around 
with a leadership team of a brigade combat team. And you 
wouldn't know it unless you looked at their patches, but they 
were from all three components, but seamlessly integrated, each 
performing their roles side by side, but there were Active, 
there were Regular Army, Guard, and Reserve. And so they are 
doing a tremendous job.
    And I guess further to your point, what I found is where 
States have these particular partnership programs with other 
countries, that has been particularly helpful, because there is 
a longstanding relationship in many cases where they have been 
working together for many years. And so there is a great ease 
when they have to deploy and they already have a relationship 
built up. And I know I had that conversation with the Poles in 
particular where there was just an easy transition as our 
guardsmen were working in Poland on our deterrence initiatives 
there.
    General Milley. I would echo all of that. Congressman, the 
State Partnership Program, as you know, has been a long-term 
program. It started in the early nineties, and the States have 
affiliations with various countries around the world. A very, 
very successful program, particularly in Europe, as a subset of 
the broader EUCOM command of General Scaparrotti's engagement 
strategy in order to build partner capacity.
    For the EDI, the European Deterrence Initiative, the Army 
plays a significant role in that. Of the $6-plus billion that 
it has been increased from last year's budget, I think the Army 
has allocated $4 billion, $4\1/2\ billion of that. That is 
significant. The purpose of the whole thing is to deter further 
Russian territorial aggression in Europe. We saw Georgia. We 
saw Crimea. We saw what they are doing in eastern Damas.
    So a strategic decision was made to deter any further 
territorial aggression. In order to do that, it requires a 
joint force. So there is elements of the Navy and the Air Force 
and Marines as part of the EDI as well. But the Army has a big 
chunk of that, because the best form of deterrence, frankly, is 
the deterrence that you can see on the ground. And if you know 
you can't achieve your objectives on the ground, then you are 
likely not to try to attempt to get those objectives.
    Mr. Visclosky. If you could address Asia.
    General Milley. I am sorry.
    Mr. Visclosky. If you could address Asia.
    General Milley. As I understood, the question was, is the 
China issue impacting or increasing stress on----
    Mr. Visclosky. I wouldn't even say China. It is just we 
think of Navy, we think of Air Force, because of the 
projection. Setting aside the Korean Peninsula, just to 
highlight some of the other activities and important duties 
or----
    General Milley. Well, in the Pacific, again, we are a 
global power and the United States Army is a global Army. So we 
are not committed to one theatre versus the other, and we have 
to retain capabilities as a Nation as long as our strategies 
remain as they are, to be able to engage worldwide.
    So in the Pacific, we have got, roughly speaking, as I 
mentioned earlier, about 70,000 or so U.S. Army soldiers 
forward-stationed in Korea, forward-stationed in Hawaii. We 
have soldiers up in Alaska, and then we have a large 
significant amount that come out of the operational force in 
FORCECOM in the event that we need to surge forces into the 
Pacific.
    So there is a very significant Army capability in the 
Pacific. The purpose of that is stability, building partner 
capacity, assuring our allies, and deterring any particular 
opponent. The Pacific is heavily weighted towards naval 
capabilities and air capabilities, as it rightly should. 
However, the Army plays a very, very significant role, as you 
know, in the Pacific.
    Mr. Visclosky. Well, my sense is the assurance to our 
allies is a very key role there so no one gets nervous.
    General Milley. It is absolutely critical.
    Mr. Visclosky. If I could just turn you to Afghanistan and 
with the new defense strategy, if you would, any stress or 
pressure as far as what you are doing in Afghanistan, 
budgetarily or personnelwise?
    General Milley. Well, in Afghanistan, you know, the numbers 
that we have in Afghanistan, and we are putting in the 1st 
Security Force Assistance Brigade the other day. Our strategy 
in Afghanistan is to continue to train, advise, assist, enable 
the indigenous military force of the Afghan Government, so the 
Afghan National Security Forces. That is important. It is not 
in and of itself the only solution, but it is important.
    The other parts of this are economic development, rule of 
law, good governance. Those are outside the purview per se of 
U.S. military forces. Our job is to assist the ANSF in order to 
protect and stabilize the internals of the government. It has 
been a challenge for a considerable length of time, as you 
know. President Trump has recommitted in this strategy to 
sustaining the U.S. level of effort.
    Key to the overall strategy, of course, is what is going on 
on the other side of the border with Pakistan. It is a very 
complex situation, but we the military and we specifically the 
Army play a very, very heavy role in train, advise, assisting 
our Afghan partners. We think we are able to do that now, and 
we think we are going to be improving on that here in the 
coming year.
    Mr. Visclosky. Thank you very much.
    Ms. Granger. Thank you.
    Mr. Aderholt, I apologize, I didn't see you come in.

                     LONG-RANGE HYPERSONICS WEAPONS

    Mr. Aderholt. No problem. Thanks.
    Thank you all, as my colleagues have said, for being here. 
We appreciate your service.
    And when you think back on the days of muskets, it would 
have been a surprise, I guess, to a lot of the servicemembers 
back years ago to imagine a rifle that is accurate up to 875 
yards, as we have today. But in this time of increasing long-
range threats from our adversaries, I don't think any of our 
services should be excluded from a mission simply because of 
its range.
    But the concern that many of us has is about the frequency 
of hypersonic testing from Russia and China. Also concerned 
about the speed at which North Korea might prepare a missile 
for launch. Our own future systems may include weapons in the 
Air Force and missiles launched from submarines, but some of 
that work might take 20 years to actually field. In the past 2 
years, our combatant commanders have confirmed the positive 
potential of long-range hypersonics weapons of our own.
    General, let me pose this question to you. It is an 
operational question. If the Army were provided sufficient 
resources and were asked to prepare a long-range hypersonic 
weapon launched from U.S. territory, could you build upon our 
two successful hypersonic flight tests done through cooperation 
between SMDC and the Navy and prepare an early operational 
land-based capability by 2022, which is directed in the fiscal 
year 2018 NDAA?
    General Milley. Thanks for that question. It is an 
important area of S&T and R&D that we are pursuing very 
quickly. As you rightly point out, two significant adversaries, 
China and Russia, are moving out in the development of 
hypersonic weapons. We acknowledge that.
    We, the Army, have as our number one priority for 
modernization long-range precision fires. A subset of that is 
the hypersonic piece to it. It is in S&T and R&D. I don't want 
to say 2022, because I haven't seen the results of the S&T and 
R&D yet.
    But I do believe that it is technologically possible, and I 
believe we will be able to test and then acquire and procure 
long-range precision weapons that go significantly longer in 
range than any existing artillery system in the Earth today. We 
are pursuing that, and I believe it is possible. I don't want 
to confine myself to a date of 2022, though. I haven't seen the 
research yet. A hard date.
    Secretary Esper. I would add I was at SMDC a few weeks ago. 
Very impressed by what they are doing. They are very confident 
in the promise of hypersonics. And as I came back, as you may 
have heard, I meet frequently with my fellow service 
secretaries, and this is one of the technology areas that we 
discuss, about how we can collaborate to make sure that we all 
have the--we can share that same information to get to the 
solution quicker, because there is so much promise in 
hypersonics.
    Mr. Aderholt. Mr. Secretary, there have been various 
opinions expressed in recent years about what is treaty 
compliant and what is not, as well as whether our adversaries 
have already broken the treaty, such as the INF.
    If I understand correctly, part of the equation is whether 
a weapon goes into exoatmospheric. Can you provide to the 
committee in the next few weeks a statement at the secret/TS 
level on what, if any, changes to U.S. law or treaties are 
necessary to field a long-range hypersonic weapon launched from 
U.S. territory?
    Secretary Esper. Yes, sir, I will do that.
    Mr. Aderholt. Thank you. I yield back.
    Ms. Granger. Chairman Frelinghuysen.

                          ARMY FUTURES COMMAND

    Mr. Frelinghuysen. Great. Sorry to be a little late, Mr. 
Chairman.
    Congratulations, Mr. Secretary, on your process through the 
Senate.
    And, General Milley, I was so late I missed a few nice 
comments you said about me. Thanks so much.
    Thank you both for, you know, the remarkable things you do 
to look after our men and women and all of our military for, as 
you may know, I for a number of years, almost my entire time on 
the committee, I was sort of the Army guy on the committee. 
Everybody had their own people, Marines and the Air Force. I 
remember, you know, Jack Murtha and everybody had--but I was 
sort of the Army guy. I don't apologize. We were always on the 
short end of the stick in terms of money and things of that 
nature.
    So I have had a chance to sort of take a look at some of 
the systems we have invested in, and I think the figure is like 
$32 billion we have invested in a variety of things: Comanche, 
Crusader, Future Combat Systems. I can remember General Odierno 
saying, well, it is only seven more years. And I would say, 
yes, I am right behind you.
    I know you have got a different sort of mode of operation 
you are moving towards, what we call the Futures Command, which 
I think conceptually is supposed to sort of get us out of the 
bureaucratic restraints. You are going to be--and I have said 
this to the other Secretaries, Secretary Spencer, and Heather 
Wilson was in yesterday. I don't like the expression that you 
are going to be flush with money, but you are going to have a 
lot of money. I know you have indicated before I got here you 
are appreciative of the flexibility we are giving you to spend 
it. But these would perhaps be some of the best times you might 
have. How can you assure the committee that these dollars are 
going to be spent wisely?
    Secretary Esper. Yes, sir. Thank you. It is a great 
question. And we certainly, as you said, appreciate what we are 
seeing in the 2018 and 2019 appropriations, and recognize that 
this is a moment in time that we have to capture and make very 
good use of, not only because it may only be the moment, but we 
need to build--we need to build confidence with Congress and 
with the American people. At the same time, this is a chance to 
also, not only change our processes within the Army, but change 
the culture as well as we look at acquisitions.
    So, to that end, that is why the Army Futures Command is a 
critical component, but we are impatient and speed is critical, 
which is why we have these cross-functional teams stood up now 
across these six areas, beginning with long-range precision 
fires, to include Next-Generation Combat Vehicle, actively 
working, either testing prototypes we have right now, such as 
Future Vertical Lift, or developing prototypes so we can 
quickly get the requirements down.
    Part of what we want to do is get requirements down from 5 
years to 12 months. And we want to get back to an era where it 
didn't take us 10 to 15 years to build a platform, but it takes 
us 5 to 8 years. And so this is the time. As you see from our 
budget, we contribute--or we invest over 18 percent of our 
funding in procurement to get that way, to begin the 
prototyping.
    At the same time, recognizing the current challenges of 
readiness, we are upgrading our armored brigade combat teams, 
making them more lethal. Same with the Stryker vehicles. We are 
converting an ABCT and we are building another one. So a lot of 
investments across the board to deal with the near-term 
challenges, but begin now making those downpayments on the 
future force, a more modern force, and in a much quicker 
timeline.

                             SPECIAL FORCES

    Mr. Frelinghuysen. I don't think there is a great enough 
appreciation for the work of our Special Forces. And often we 
invoke the Special Forces, and they do remarkable things around 
the world. We often invoke them that they are not hindered or 
restrained by some of what the big Army is restrained by. I 
hear it today even that they are more encumbered than they used 
to be.
    Would you sort of talk about that dynamic? I mean, is there 
anything that they are doing in the way of procurement that 
relates to how you are designing the Futures Command? 
Obviously, you are impatient. You have got to break the 
culture. But is there anything you are building into the 
dynamic that relates to their ability to get things off the 
shelf and cannibalize systems to get more effective, you know, 
weapons and increase lethality?
    Secretary Esper. I will just make a quick comment, then I 
will defer to the chief, because, having served in Special 
Forces, he may have special insights. But I will tell you that 
in many ways we are trying to borrow if not mimic some of the 
procurement practices that we have seen in SOCOM, for example.
    Along the same lines, what we have established in the past 
and then last year with either the Rapid Equipping Force or 
Rapid Capabilities Office are two other ways that we have tried 
to leapfrog a very bureaucratic process to get tools, 
equipment, weapon systems to the troops much, much quicker than 
we have in the past.
    That is why I am encouraged by the CFTs. We have already 
prototyped and want to begin buying these next-generation night 
vision devices, for example. And we are moving through on a 
designated marksman rifle. Things that we can do much more 
quickly, mimicking what we have seen in the past from the 
Special Operations community.
    Mr. Frelinghuysen. Chief.
    General Milley. Congressman, thanks. You know, 2 years ago 
when we first conceived of this Futures Command idea, one of 
the things we set out to do was to inform ourselves of what is 
out there today. So there were two models that we looked at 
intensively. One was the SOCOM model and the other was the 
Navy's model under Admiral Rickover, to be candid, going back 
in the day. So we looked at those and we drew the best 
practices.
    In the SOCOM model, one of the things that makes them so 
successful--and by the way, they operate under the exact same 
laws, exact same rules. So there is nothing special that is 
done for SOCOM in terms of law or rules or authorities, but 
they do things slightly differently. Number one, they have a 
smaller scale. So they are authorized under their title to 
develop equipment that is unique to Special Operations, and the 
rest of their equipment comes from either the Navy, the Air 
Force, or the Army.
    But in that bin of special equipment, they link the 
operator, the user directly with the combat developer, directly 
with the program manager, and they link them all to a 
commander, a commander at SOCOM, and his designated 
representative, the acquisition executive, and that speeds the 
process up.
    So we mimicked that in today's, what we have now is six 
cross-functional teams. That is exactly what we did. And they 
are achieving great success. And the cross-functional teams are 
a bridging strategy until we can get Futures Command fully 
stood up, and then they will be embedded within Futures 
Command. So we are taking the best practices lessons learned 
that have been out there in terms of efficiency and 
effectiveness.
    The key to the whole thing at the end of the day, though, 
to ensure that the taxpayer's money is spent properly, in my 
view, is accountability. And we must hold ourselves accountable 
throughout the entire system. And anyone out there who violates 
law, statute, intent, policy, regulations and so on in the 
manning, training, or equipping the United States Army's forces 
must be held accountable. We can't just turn a blind eye to it.
    And that is another beautiful thing about Futures Command 
is there will be accountability, because you will have unity of 
command and unity of effort under one command that will do all 
things modernization for the Army. And that will be important, 
because it is such a diffuse effort right now, when something 
goes wrong, you say, how did it go wrong, who did this, and you 
start getting fingers going all over the place and who is on 
first, what is on second. Those days are over.
    So by the establishment of Futures Command, there will be 
unity of command, unity of effort, and, most importantly, there 
will be accountability.
    Mr. Frelinghuysen. Glad to hear it.
    Thank you, Madam Chairman.
    Ms. Granger. Thank you very much.
    We have enough time left for another round, and I would 
like to do that. Just be aware that you need to keep your 
questions succinct. And we will start with--so it would be Mr. 
Diaz-Balart.

                                SOUTHCOM

    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    You know, sometimes the Western Hemisphere is kind of 
overlooked until things blow up. The constant bright spot has 
always been SOUTHCOM, and it often gets overlooked by, 
obviously, more high-profile commands just because of 
conflicts, et cetera. But clearly, its hands are always full. 
And whether it is counterdrug or transnational threats, they 
are always, obviously, incredibly busy.
    So can you talk a little bit about how you intend to 
support SOUTHCOM's operations in the fiscal year 2019 budget?
    General Milley. Well, operationally, SOUTHCOM demand, as 
you rightly point out, is significantly lower than other AORs, 
or areas of operation, at this time. And that changes from time 
to time. Earthquake in Haiti, for example, placed a tremendous 
demand on the United States military. Army, Navy, Air Force, 
Marines, everyone contributed to that relief effort. So it is 
an episodic thing.
    As a regional engagement plan, we are supporting Admiral 
Tidd's regional engagement plan. We have got Joint Task Force-
Bravo that is currently located in Honduras. Special Forces, 
specifically 7th Special Forces group, does a lot of work in 
Central and South America in building partner capacity and 
assuring our allies.
    And then you have got, as you know, a lot of 
counternarcotic kind of drug trafficking operations within the 
maritime service. A lot of that is done by the Coast Guard. So 
there is a significant engagement in the SOUTHCOM AOR. Mexico 
is also important, but that comes under NORTHCOM. But we 
routinely engage and work very closely with the Mexican Army on 
things like border control and border operations, counterdrug 
and counternarcotics and so on.
    So there is a significant amount of engagement, not only by 
the U.S. military, but by the Army throughout the Caribbean, 
throughout Central and South America, and also in Mexico. And 
we will continue to do that as budgeted, but it is 
significantly less than what you would expect from other 
COCOMs.

                         NETWORK COMMUNICATIONS

    Mr. Diaz-Balart. I just want to make sure that--and I know 
that you are aware of it, but I just want to make sure that 
there is enough emphasis there. I don't have to tell you that 
tens of thousands of Americans die every year because of 
narcotics, and so it is a threat.
    And I see I have a little bit more time. Let me just--so 
the Army submitted a modernization plan to Congress for its 
network communications, but there are very little details about 
specific systems in the plan for the 2019 request. So can you 
explain a little bit about your timeline for the plan? Does the 
Army intend to use streamlined acquisition procedures for this 
or is it considering using solutions already in the Army's 
inventory? Just, again, some further explanation.
    Secretary Esper. And, Congressman, you said with regard to 
communications?
    Mr. Diaz-Balart. Yes.
    Secretary Esper. So where we are going with regard to 
communications falls under the network cross-functional team. 
It is one of the six that we have described. And what they are 
doing is building upon some of the current programs that exist. 
So one example is we are moving forward on a variety of 
tactical handheld radios, manpack, other radios to make sure at 
the cutting edge, at the front edge of the battlefield that our 
troops have the type of communications they need for that type 
of fight.
    At the same time, as you know, the strategy we put forward 
is to halt, fix, pivot on WIN-T Increment 2. And what that will 
enable us to do is to make sure that we can adapt Increment 2 
for the infantry brigade combat teams to make sure they have 
sufficient communications for the fight we see ahead.
    At the same time, what the cross-functional team for the 
network is doing is looking at what is available in the 
commercial market, preferably software-based, because what we 
need to do as we look ahead in terms of the network, the 
tactical network, is make sure that we can keep up with the 
pace of commercial technology. This is something we have been 
unable to do, and unless we get on that type of wavelength, we 
will be forever chasing this.
    So what the cross-functional team is looking at, what is 
happening out there in the commercial marketplace, how can we 
then take it, adapt it to our tactical network, and make sure 
that we are in a position where we can continually upgrade. The 
network is critical to long-range precision fires, to 
everything else we do across our modernization priorities.
    General Milley. May I make a comment on that, Congressman, 
if I could? We have spent the better part of almost a year and 
a half now doing an intensive internal look at the, quote/
unquote, network, of which WIN-T is just one component. And it 
was my conclusion, our conclusion, the Army's conclusion that 
the network, as designed, works fine for a counterinsurgency, 
counterterrorist type fight where you are fighting primarily 
from static FOBs and COPs out there in the battle space, and it 
more or less works okay at echelons below, say, battalion 
company.
    However, as the NDS points out, we are in an era of great 
power competition. And if you need a system that can operate 
against a near-peer competitor, a Russia or a China, or someone 
using their equipment, who has significant electronic warfare 
capabilities, who has significant cyber capabilities, who have 
incredible powers of observation through a variety of means, 
who have incredible fire support capabilities that can deliver 
fires, it is our estimation that the system that we were buying 
would not survive contact with that type of enemy on a mobile, 
highly lethal battlefield against those enemies.
    So we said, okay, what in the system doesn't work? And 
whatever it is we found that didn't work, we halted it. What in 
the system doesn't work but can work, we decided we would 
identify those subsystems and fix them. And then we needed to 
move on to a new procurement strategy.
    In the world of information technology, the commercial 
world is operating at light speed compared to the way the U.S. 
Government can do acquisition and procurement. They are light 
years ahead of us.
    So the network's design and requirements were written years 
and years and years ago. The commercial world has advanced way 
beyond anything we wrote years and years and years ago. So that 
is the pivot part of it. We need to change our fundamental 
procurement strategy of all things information.
    So that is what is behind all of this. And I know it is 
controversial out there. I know a lot of people are up in arms 
about it, so to speak. I got that. But we cannot fund a system 
that we know ahead of time is unlikely to work against the type 
of threat that we have been charged to plan against in the 
National Defense Strategy.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    Ms. Granger. Thank you.
    Mr. Ruppersberger.

                                 RUSSIA

    Mr. Ruppersberger. Earlier, we discussed the need for a 
modernized Army to deter future adversaries and thoroughly 
overmatch them should a fight become necessary. That is 
certainly the right call, especially considering the advance of 
technology and the Army's need to have a long-term strategy to 
maintain a decisive edge in great power competition.
    Now, I am very worried about the here and now, the current 
and short-term investments the Army is making to maintain 
dominance in today's threat environment. Today, Russia is 
increasingly belligerent and aggressive and has demonstrated 
more of a willingness to use its ground forces to further 
Putin's goals. We also have issues involving China.
    My question, in the fiscal year 2019 budget, I am happy to 
see funding for measures such as European Defense Initiative 
have increased from $4.7 billion to 2018, $6.5 billion this 
year. In addition to this effort, what other near- and short-
term investments do you see in your budget plan that can deter 
Putin from testing our resolve?
    Secretary Esper. Mr. Ruppersberger, there are a number of 
things we are doing, so I will talk about armored brigade 
combat teams. As I said, we are converting a 15th armored 
brigade combat team and plan on building a 16th. At the same 
time, we are looking to build up our prepositioned stocks in 
Europe so that in the case of a contingency, we can quickly fly 
in and fall in on those types of stocks, a brigade combat team.
    At the same time, we are making sure that in Europe, those 
stocks have mobile short-range air defenses that have enhanced 
multiple rocket launcher capabilities. We spoke earlier about 
the Strykers, because the Strykers are playing a critical role. 
When I was in Poland, I actually visited a Stryker unit and 
talked with their commanders, and that is why, at their 
request, we are up-gunning them with 30-millimeter cannons and 
we are looking at increased survivability with the hulls.
    At the same time, we are, as you know, doing these heel-to-
toe rotations with an armored brigade combat team going back 
and forth every 9 months. That has given us two things. That 
has allowed the Army to practice deploying again, and that is a 
critical skill in a theatre like that, where you can actually 
move your unit from continental United States to Europe and all 
the critical tasks it takes to get into your optimal battle 
position. So we are rotating, and we are rotating very highly 
trained units that are coming right out of the National 
Training Center and are prepared. So that gives you a great 
deterrence capability as well.
    And so that is just kind of a sampling of things that we 
are doing to make sure that we maintain the deterrence 
initiative.
    We are also working very closely with the Poles to make 
sure that they improve their training areas, both in the 
northeast and the northwest of the country, that will allow us 
to maintain our readiness. We see them participating in 
exercises with U.S. Forces in Germany. In fact, when I was 
there in Germany, I visited the joint maneuver readiness center 
at Hohenfels, Germany. And it was a Polish brigade going 
through training there with U.S. units, Italian units, U.K. 
units, et cetera, reporting up to it, exercising in a 
multinational endeavor against a likely threat they might see 
from the east.
    So all these things, whether it is the training, whether it 
is the equipment upgrades, et cetera, all adding, I think, 
building to the deterrence that we need in order to keep any--
--
    Mr. Ruppersberger. I know there is some unrest with some of 
our key allies in that European area around the Russia area. 
Are we doing anything to make them feel better and working with 
them and helping them?
    Secretary Esper. We are training extensively with all of 
our NATO allies in Europe. But, like I said, when I was there, 
I saw everybody from the Germans, Poles, Estonians. We had 
these enhanced force packages running all the way from Estonia, 
Latvia, Lithuania, down to the U.S. presence in Poland, and a 
lot of assurance happening there.
    And as I mentioned earlier as well, I was in Ukraine where 
we have a presence there, training Ukrainians. So I think we 
are doing a lot on that front. I don't know if the chief may 
have something to add on this issue.
    General Milley. Thanks, Congressman. In terms of assurance, 
I think the United States does a lot for NATO and our allies, 
from a military perspective. And from the Army's perspective, 
we are. We are doing a tremendous amount of training. We have 
got units cycling through a wide variety of exercises that 
General Scaparrotti has planned, and now General Cavoli. So 
that is important.
    We are increasing our APS-2 stocks in this budget from what 
is currently about a brigade set to a division set. That is 
important. We are continuing, as the Secretary said, the 
rotation of the armored brigade combat team, the combat 
aviation brigade, and other enablers, in addition to the forces 
that are already there.
    I would mention manning that is both in this budget and the 
previous budgets. Congress has been very generous, and the 
Secretary of Defense and President have allowed us to modestly 
increase our end strength. That is important because the 
readiness of the force rests upon good people and having enough 
people in the right ranks and skill set. So increasing our 
readiness by the end strength in the Regular Army, increase of 
another 4,000 this year. We increased last year, et cetera. 
That will be important in improving the readiness.
    So in the here and now, our readiness glide path bottomed 
out 2\1/2\ years ago. That is when it hit bottom. And because 
of the great effort of Congress, OSD, and many, many others, we 
are on an upward trajectory. It is unambiguous, an upward 
trajectory of readiness. It needs continued sustained funding, 
and that will take care of the here and now.
    And simultaneously with that, we want to pivot and ensure 
tomorrow's readiness, modernization. And that is what those six 
priorities are. That is what Futures Command, CFTs are all 
about. Again, maintaining and sustaining and continue to 
improve the foxhole of today's readiness, while at the same 
time building tomorrow's readiness.
    Mr. Ruppersberger. Thank you.
    Ms. Granger. Judge Carter.
    Mr. Carter. Thank you, Madam Chairman.

                                 WIN-T

    I hate to go back to a sore subject, but on WIN-T, we have 
invested $6 billion in that, and it is what I would have 
classified as a failed early project. It didn't do well at all. 
It flunked in multiple categories relative to what the chief 
just talked about.
    Now, as you go forward in this area, I hope you are 
impressing upon those that are going forward that we don't need 
any more $6 billion early fails in communications. And let's 
let the Army lead the whole Federal Government because, in 
reality, the environment of the Federal Government is slow and 
tedious when it comes to technology.
    And I agree with the chief. We have got to get up to light 
speed, because I used to try cases where we would have 
intellectual property cases, and we would settle them because 
by the time we got to court, it had changed. That was 6 months 
of time.

                               IRON DOME

    Shifting over to another thing that is out there, we are 
looking to build a range-based, ground-based defense system for 
projectile threats. The Israelis, we have given them and 
assisted them with $1.5 billion to help them in building Iron 
Dome. There are those in the Pentagon that have talked about we 
should look at off-the-shelf projects of things that are out 
there. Iron Dome is battle tested, seems to work. Is there any 
reason why we are not looking at Iron Dome rather than spending 
$51 million on a slow research and development process that 
maybe will put us online by 2022 to have this system, when the 
Israelis are using it today and I am sure they would be glad to 
sell us one? A question.
    General Milley. We are looking at Iron Dome. I think what 
you are talking about--I think, Congressman, what you are 
talking about is IFPC, which is inside the budget. And you are 
looking at a ballistic missile defense capability, but not just 
ballistic missiles, short-range missiles in addition to 
aircraft.
    Iron Dome, however, is designed against a different threat 
than IFPC. So we are working with and we are examining multiple 
alternatives. It has to be mobile. Iron Dome is not mobile 
right now, tactically mobile. But we haven't ruled out or ruled 
in anything in the area that you are specifically talking about 
right now. And all options are still on the table for that, and 
we are exploring all those options.
    So Iron Dome is not in or out. We are looking at it. We are 
looking at IFPC. We are looking at the requirements. And we 
want to make sure, with industry, that we get what we need as 
fast as we can get it, because that particular area, you know, 
shoot, move, communicate, protect, so it is in our priorities 
there as the fourth priority. That has to do with fixed wing 
enemy aircraft, rotary wing enemy aircraft, ballistic missile 
defense, short-range missile attack. And our Army needs to fill 
that gap and do so quickly. So we are looking at all the 
options.
    Mr. Carter. Thank you.
    Ms. Granger. Chairman Frelinghuysen.

                  ENGAGING WITH SOLDIERS AND FAMILIES

    Mr. Frelinghuysen. I would just like to note for the record 
that General Milley went to a very fine New Jersey institution 
for graduate studies. And we note, of course, Secretary Esper 
is a graduate of West Point.
    This is sort of an odd question, but you are both graduates 
of the 1980s, and I was going to ask this of Heather Wilson and 
her colleague, the Air Force chief. How do you get input from 
the younger generation, you being obviously in positions of 
major responsibility? Obviously, no soldier wants to go into 
combat with the Army chief one-on-one. How do you actually take 
input and ideas from soldiers? How do you make sure that the 
chain of command knows sort of the reality of social networking 
and the things that sort of tie their incredible missions to 
the real world we are in?
    Secretary Esper. Yes, sir. I have two sources, first of 
which are my three kids, who range between 18 and 25. And 
knowing them and their friends, I got a good feel for what is 
happening at that age group, and that is roughly the age group 
from which we recruit. And it gives you good insight into what 
they do on social media, you know, how they interact socially, 
the skills they take to any role.
    But more importantly, though, is every time I have 
traveled--and I have been in the job now 3\1/2\ months. I have 
traveled more than half that time, mostly overseas. I spend 
almost every lunch and sometimes a breakfast sitting down with 
a group of soldiers: E-2s, E-3s, E-4s.
    Mr. Frelinghuysen. We do that too and actually, in reality, 
sometimes the bigger brass likes to hone in and sit right next 
to them.
    Secretary Esper. Oh, no, sir. I keep them far away. And so 
we just have a very candid discussion about what is on their 
mind. And I typically come back with notes as soon as I get 
back that I divvy out to the staff. And it is any range of 
issue, whether pay issues, or if you are in the Guard, it is 
how soon or how late you were notified on an issue. It could be 
what does the next Army PT test look like? So I get a full 
range of questions out there with regard.
    I have also been privileged to have my wife join me on 
these trips, and she meets with their wives, the spouses, the 
husbands, on these trips as well. And so I have, I guess, a 
third source of input there as well with regard to what is 
happening with regard to the schools, the daycare facilities, 
the clinics, et cetera, et cetera. So I try and draw from 
multiple sources as I head out on the road.
    Mr. Frelinghuysen. It is interesting, and this is not to 
drive the point home, the number of people that have a Fitbit, 
and then we get a report in The New York Times that maybe in 
some forward operating base somebody is lifting weights or they 
are doing something, and we identify where the hell they are, 
to the very aggressive, you know, enemies that are in that COM. 
It is a concern, and you are assuring us that there is an 
opportunity for input.
    General Milley. Very similar in many ways. You know, we 
call it battlefield circulation or going around and engaging 
with soldiers and families and civilians around the Army. Do 
that all the time. Constantly on the road doing it. Been doing 
it for 40 years. So you get a lot of feedback that way.
    In addition to that, though, formally, we do a lot of 
surveys, we do a lot of scientifically based analyses of 
various people's opinions.
    Thirdly, we run a thing called a Captain Solarium, where I 
go out, we assemble a representative group of captains. It is 
run by Fort Leavenworth annually, and they go out and they do a 
whole seminar the last couple weeks. And then I go out and meet 
with them, and they give me back briefs on a wide variety of 
topics that we think are of interest to them.
    The sergeant major is important in this regard too. We 
have, I personally think--and I have known a lot of sergeant 
majors and I love them and respect them all, but I personally 
think Dan Daly is one of the finest noncommissioned officers 
the Army has ever produced, and I think he is the best sergeant 
major in the Army the Army has ever had. This is a man who has 
massive amounts of energy. He has a natural connective tissue 
sort of with the younger generation and the troops out there, 
and he gets out there. So I talk to him frequently, get a lot 
of unvarnished sort of opinions.
    The other thing too that is key for both the Secretary and 
I and anybody operating at these levels is to remain open-
minded, accept bad news, don't go ballistic if it happens to be 
bad news at a moment in time, but remain open-minded and fresh 
to new ideas.
    This is a different generation. It is a remarkably talented 
generation of young people that are out there in our military. 
They communicate in different ways. Staying active on Facebook 
and Twitter, we get all kinds of ideas and feedback from those 
lanes as well. But I think being open to fresh new ideas.
    We know in the world of science, the most brilliant 
mathematicians, they were most brilliant in their twenties. 
Einstein and many, many others, the passing of Stephen Hawking, 
they did some of their most brilliant work in physics and 
mathematics early in their life. And that is true, I think, of 
the military or any other area that requires innovation.
    The innovation is with the youth, and that is important, 
that we at the top who work with Congress on the resources and 
the budget, we remain open-minded to fresh new ideas to solve 
age-old problems.
    Mr. Frelinghuysen. Thank you both.
    Thank you, Madam Chairman.
    Ms. Granger. Mr. Visclosky.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you very much.
    You have already addressed the issue with Chairman 
Frelinghuysen, so I don't need a response. I just feel 
compelled to emphasize again--and I appreciate your positive 
response--that the additional moneys the Department is going to 
receive in 2018 are significant. It is Congress' fault that we 
have shaved 5 months off of your year, but the fact is the 
increase the Department is going to have is greater than the 
total spending of five different subcommittees on this 
committee. So I appreciate the care.
    Second thing that the chairman brought up about younger 
people, and one of my faults on this subcommittee is I do not 
travel enough, I do not visit enough bases, do not talk to 
enough enlisted people and appreciate the efforts you have gone 
to. I still remember, and it was very moving, we cleared out 
all the adults, talked to the children at the school at Fort 
Campbell. And it was moving. After about 15 minutes, then you 
realize you actually want to listen to them. And so I 
appreciate that.
    I would suggest, and don't need a response, trust you are 
also with the women enlisted, clearing all the men out of the 
room and having a conversation with them as well. So, again, 
appreciate your service.
    And thank you very much, Madam Chair.

                  Closing Remarks of Chairman Granger

    Ms. Granger. Thank you.
    I have just one last thing. Along with that significant 
amount of money goes a significant amount of confidence in the 
abilities of the U.S. Army. We never forget that.
    Also, I had a wonderful conversation yesterday in my 
office. And I want to tell you one of the things that will 
always stay with me, and I wish I had said this at the 
beginning because it is for the whole subcommittee. You are 
very clear about what 16 years of war did to our Army, and that 
is something that we need to always keep in mind. So you are 
catching up in a different way than others that we work with.
    Also, the SFAB program is a fascinating program. Be sure 
and keep us up to speed on that, because I see that it has 
great possibilities.
    Thank you both for all your service, and we are adjourned. 
I think I was supposed to say something about that. Hold on.
    That concludes today's hearing. The subcommittee is 
adjourned.
    [Clerk's note.--Questions submitted by Mr. Rogers and the 
answers thereto follow:]

Army Efforts To Deter Russian Aggression in Europe Through the European 
                      Deterrence Initiative (EDI)

    Question. The Army should continue to prioritize its EDI efforts to 
promote stability in Europe. Can you please describe how the Army's 
FY2019 EDI requests assist us in deterring Russian aggression in 
Europe?
    Answer. The FY2019 European Defense Initiative (EDI) provides the 
necessary resources for the U.S. to demonstrate its combat power in 
Europe, improves interoperability with NATO allies, integrates the 
Total Army, and allows for the rehearsal of relevant war plans. The 
Army continues to collect and develop requirements for Europe in 
coordination with U.S. Army Europe (USAREUR) and has submitted proposed 
enhancements in OSD's FY19-23 Program Budget Review for improvements 
with Short Range Air Defense (SHORAD) Battalions (FY20), Combat Service 
Support Brigade Headquarters (FY19), and Corps Headquarters (FY TBD). 
Additionally, EDI enables the Army's efforts to build partner capacity 
for newer NATO members and increases the capability of USAREUR through 
the provision of more than 1,000 man-years of mobilized Reserve 
Component Soldiers (10 USC 12304b authority).
    There have been significant changes in Europe over the past three 
years as a result of EDI investment. The Army is using this money to 
fund the full time rotation of an Armored Brigade Combat Team (ABCT) 
with enablers, a Division Mission Command Element (MCE), combat 
aviation assets to augment theater aviation providing a full Combat 
Aviation Brigade capability, and fulfill our responsibilities as the 
framework for NATO's Enhanced Forward Presence (eFP) Battle Group in 
Poland. This funding is also being used to enhance and modernize 
prepositioned equipment, including ABCTs, critical air defense 
launchers, and long range fires artillery. When combined with the 
rotational ABCT, the 2 x ABCTs in the European Set of Army 
Prepositioned Stocks, provide USAREUR the armored division capability 
necessary to deter Russian aggression in Europe.
    Question. One of U.S. EUCOM Commander General Scaparrotti's biggest 
EDI-related priorities is increasing C4ISR capability. Though the other 
services contribute as well, can you please discuss the ISR-related 
Army EDI investments?
    Answer.
                                 ______
                                 
    Question. The debate between rotational units and permanently-based 
units in Europe continues. While cost is obviously a factor, can you 
both please discuss your thoughts on this issue?
    Answer. Rotating forces from the U.S. to Europe versus forward 
stationing these forces allows the Army to build capability in two 
ways. First, it provides greater flexibility to shift forces to meet 
the greatest need. Under the current National Defense Strategy, the 
Secretary of Defense requires an increasingly flexible force that can 
be employed proactively, while deterring aggression in multiple 
theaters. Rotational forces enable the Army to dynamically surge forces 
wherever the threat emerges and provide proactive, scalable options. 
Second, it increases our institutional agility by exercising the 
systems involved in the mobilization and deployment process. While 
forward stationing increases assurance to our allies, the institutional 
agility that the Army demonstrates by rotating units builds combat 
credible deterrence and offers strategic flexibility.
    When deciding whether to forward station or rotate units, the Army 
carefully measures cost factors and operational impacts. For example, 
transportation and operational costs are significant for rotational 
units while soldier travel, family housing, schools, and cost-of-living 
allowances are considerable cost factors for forward-stationed units, 
an impact magnified by expensive land, facilities, and construction 
costs. While the Army's analysis has often supported rotating major 
force elements over forward stationing, the Army has sought forward 
stationing in specific situations. Forces are considered for forward 
stationing if there is an enduring requirement and a limited pool of 
available forces with that specific capability. Additionally, units 
must be stationed in areas that allow them to build and maintain their 
readiness and provide the flexibility necessary for global employment. 
In this case, forward stationing allows the Army to free up units for 
global assignment rather than rotating to Europe.

                National Guard State Partnership Program

    Question. The National Guard State Partnership Program continues to 
provide great value in U.S. efforts to build partner military capacity 
with allied countries.
    Can you please discuss the role that the National Guard State 
Partnership program provides to our country's national security?
    Answer. The State Partnership Program (SPP) is a DoD security 
cooperation tool used by the geographic combatant commanders to advance 
their security cooperation goals and support national security 
interests in 80 countries, covering all six geographic combatant 
commands around the globe. This is accomplished by conducting over 
1,000 SPP events each year. These events leverage two distinct 
advantages the National Guard offers: the ability to foster enduring 
relationships due to the connection of many Guardsmen to their 
respective states for the lengths of their careers and the ability to 
leverage the civilian skill sets of our citizen-Soldiers and Airmen. 
Moreover, while SPP partner nations are paired with one state or 
territory, they have access to all 54 and their respective National 
Guard capabilities, a feature which affords the United States a better 
understanding of partner nation capabilities. No other program can 
offer these advantages to the DoD or the United States.
    Question. For FY17 and FY18, Congress has added additional funding 
for SPP--about $8 million per year. If Congress did so again for FY19, 
can you please discuss the value this would provide?
    Answer. The State Partnership Program (SPP) received $8M in 
Congressional Adds in FY17 and FY18. However, for FY17 and FY18, four 
total new partnerships were added to SPP, and for FY19 several 
geographic combatant command countries have been nominated for new 
partnerships. Any additional money in FY19 will be used to address the 
continued growth of the program in both the number of SPP engagements 
per year and the number of new partnerships.
    Question. The Army may not be conducting the most efficient process 
for the procurement of its Soldier Borne System nano-UAV program.
    On 19 January 2017 the Army Requirements Oversight Council validate 
a requirement for the Soldier Borne Sensor program and recommended a 
multi-year minimum procurement of 2423 systems while approving a 
program cost of approximately $56 million. Based on information 
provided by the Department of the Army to the Subcommittee on 15 August 
2017, the Army plans to do a one-year acquisition (Tranche 1) followed 
by a multi-year procurement of SBS.
    Given that the Army's initial procurement plan includes a one-year 
acquisition, has the Army re-baselined this program? And if so, please 
provide the committee with the total projected program cost to achieve 
equivalent volumes.
    Answer. Yes, the Army is updating the Acquisition Program Baseline 
for the Soldier Borne Sensor (SBS).
    On 19 January 2017, the Vice Chief of Staff of the Army (VCSA) 
approved the SBS Capability Production Document (CPD), which specified 
the procurement of a total of 7,175 SBS systems over a ten year period 
from Fiscal Year (FY) 2018-2028, for a total program cost of $141.5M.
    Concurrently, the VCSA approved the procurement and fielding of the 
first tranche of 2,423 SBS systems by FY2021 at a total cost of $47M. 
Currently, the Army estimates that it will cost $48.5M to procure and 
field the first tranche of 2,423 systems based on actual price quotes 
received in response to the FY2018 Defense Logistics Agency Request for 
Quotes. The estimated unit cost per SBS is $15,923.
    Question. The FY18 Army budget documents project acquisition of 200 
systems at approximately $10,260 per unit cost. The FY19 budget 
documents project acquisition of 1,084 systems at $15,923 per unit. 
Please explain the rationale for significantly different per unit costs 
with a higher volume.
    Answer. The FY2018 P-40 exhibit for the Soldier Borne Sensors was 
based on initial market research from FY17 that identified a unit cost 
of $10,260 for a maximum possible quantity of 200 systems.
    When Defense Logistics Agency (DLA) submitted the Request for 
Quotes (RFQs) for FY2018, the Army learned that the unit costs had 
increased from the initial market survey information from FY17.
    In FY2018, the Army shifted its contracting strategy from a Lowest 
Price Technically Acceptable (LPTA) to a Best Value competition (with 
performance as the most important criteria). That, coupled with DoD's 
discovery of vulnerabilities in the Small Unmanned Aircraft Systems 
(SUAS) supply chain (which eliminated some of the lower cost vendors), 
drove the cost increase seen in the industry response to the FY2018 DLA 
RFQ.
    The FY2019 budget documents incorporate the additional information 
received from industry's responses to the DLA RFQ. The Army estimates 
that FY2019 funding ($21.68M) will procure approximately 1,084 systems 
at a unit cost of $15,923. However, pending the outcome of the full and 
open, best value competition scheduled for a third quarter FY2019, we 
anticipate that competition could drive down the prices.

    [Clerk's note.--End of questions submitted by Mr. Rogers. 
Questions submitted by Mr. Calvert and the answers thereto 
follow:]

                                Training

    Question. The FY19 budget request funds additional rotations at the 
Combat Training Centers (CTCs) and plans the introduction of Synthetic 
training at all locations starting in late FY20 or FY21. Given the 
technology challenges to achieve accurate simulation of small arms 
weapons and augmented reality to deliver a virtual fighting enemy, it 
could take several years to achieve the full vision of Synthetic 
Training Environment.
    What is the Army planning to do in the meanwhile to rapidly 
increase the quality, availability, and utilization of live 
instrumented training at Home Stations and Deployed Forces to build 
readiness before reaching the CTCs?
    Answer. The Synthetic Training Environment (STE) Cross Functional 
Team (CFT) has identified many promising technologies that are already 
demonstrating the ability to accelerate the timeline to deliver 
capability to the force. For example, the Squad and Soldier Virtual 
Training is very close to being realized and the Army plans to expand 
delivery of the first increment of this capability as early as FY19. 
This capability has already proved very valuable by U.S. Army Europe to 
enhance small arms marksmanship skills, as well as train small unit 
(Squad/Team) collective maneuver.
    The maneuver combat training centers have set the precedent and 
standard for the use of instrumentation to provide objective data on 
unit performance during force-on-force maneuver training. Based on that 
precedent, the Army has fielded instrumentation systems to enable 
force-on-force training at home stations with common components and 
capabilities. They use Instrumentable-Multiple Integrated Laser 
Engagement System (I-MILES) coupled with player units to track Soldiers 
and vehicles. Systems can monitor voice and digital communications and 
record live audio and video of the training event. This data is 
consolidated through a computerized Tactical Analysis Facility, where 
the unit's performance can be assessed and feedback provided via After-
Action Reviews.
    The Army Home Station Instrumentation Training System (HITS) is 
designed to enhance training by instrumenting force-on-force live 
training exercises for battalion level and below. Thirteen HITS suites 
have been fielded to Active Army unit locations and two suites have 
been allocated to U.S. Army Reserve locations.
    To support Army National Guard (ARNG) training, the ARNG fielded 
FlexTrain, a rapidly deployable, global positioning system (GPS)-based 
instrumentation system that interfaces with Army MILES. FlexTrain 
supports live force-on-force training and live fire training at the 
brigade level and below through the ARNG's eXportable Combat Training 
Capability (XCTC) program. The XCTC is a programmed home station, 
commander-driven event that cycles all 27 ARNG Brigade Combat Teams 
(BCT) through scheduled training. ARNG BCTs receive external 
evaluations from First Army and Regular Army Division partners at 
echelons from platoon to brigade.
    To support units deployed or stationed in Europe, the Army fielded 
the Deployable Instrumentation System Europe (DISE) which is a Soldier, 
vehicle and building GPS and radio tracking system combined with an 
exercise control cell and can be located with the supported unit within 
training areas. The DISE system is located at Grafenwoehr Training 
Area, Germany and is deployed to locations across Europe to support 
unit collective training with Multi-National partners.
    To support units stationed or deployed in the Pacific, the Army 
fielded Joint Pacific Multinational Readiness Capability 
Instrumentation System (JPMRC-IS). The JPMRC-IS system is an enhanced 
HITS capability located at Scofield Barracks, HI and deployed to 
locations across the Pacific to support unit collective training.
    The Army recognizes the benefit of synthetic training environment 
and will look to leverage and improve the capabilities discussed.
    Question. The Army's emphasis is on Training & Readiness across the 
total training continuum from individual training to large unit 
collective training, at home station, CTC and while deployed. ``Ready 
for Combat Training'' must be a continuous cycle that avoids readiness 
degradation following training events.
    Has the U.S. Army conducted a holistic capability needs assessment 
to evaluate existing training capabilities that are linked to 
requirements across the training continuum that inform training gaps 
and address the sustainable readiness model?
    What was the conclusion and what are the key enablers to accelerate 
learning, increase throughput, improve learning retention, and provide 
end-to-end assessment to alleviate the constraints on training that 
exist today and improve overall training effectiveness?
    How do resource informed requirements (Programs of Record) fit into 
the current OTA informed methodology between Milestone A and Milestone 
B? Part 2 of this question--As it pertains to training & readiness, it 
seems that there would need to be an increase of funding to sustain the 
existing Programs of Record while developing and introducing new or 
improved alternatives. Does PB 19 account for funding existing programs 
in parallel with the OTA efforts?
    Answer. The Army recently conducted a holistic capability needs 
assessment that identified critical gaps in training capabilities 
required to allow the Army to successfully execute cross domain 
operations in accordance with the Army Operating Concept. U.S. Army 
Training and Doctrine Command (TRADOC) completed an Enhancing Realistic 
Training Capabilities Based Assessment, as well as a New Generation 
Warfare Study focused on a near-peer threat which identified further 
gaps in the Army's ability to generate and sustain training readiness. 
The Army also supports the Department of Defense (DoD) Close Combat 
Lethality initiative which identified further training readiness gaps 
at the small unit and collective training level.
    These assessments identified training gaps captured in the Army 
Collective Training Environment (ACTE) Initial Capabilities Document 
(ICD) approved by the Vice Chief of Staff of the Army (VCSA) on 8 March 
2018. The ACTE ICD lays the foundation for the Synthetic Training 
Environment (STE) and the Soldier and Squad Virtual Collective Trainer 
(SSVT) as potential solutions and identified other science and 
technology initiatives needed to close training readiness gaps in our 
ability to replicate the operational environment for multi-domain 
operations in the strategic environment for 2020 and beyond.
    The Army currently has capabilities being developed under the Other 
Transaction Authority (OTA). These are the Army Training Information 
System (ATIS), which is a defense business system program of record, 
and the Synthetic Training Environment (STE), which is currently being 
developed through a Cross Functional Team (CFT) approach. Both ATIS and 
STE are resourced with Research, Development, Test, and Evaluation 
(RDTE) funds to develop a materiel solution through prototyping. The 
current PORs that both ATIS and STE replace do require sustainment 
while ATIS and STE are under development; however, the Army is assuming 
an acceptable level of risk by reducing these legacy program 
improvements as the means of resourcing ATIS and STE.

                         Home-Station Training

    Question. The Army continues to build on a major initiative with 
the Non-System Training Device (NSTD) program to introduce realistic 
and effective training devices into the individual and unit training 
setting. These devices bring into play many aspects of the combat 
environment. This effort includes the acquisition of training 
capabilities that support force-on-force training, force-on-target 
training, engagement simulation, and classroom instruction to allow 
soldiers, leaders, and units to train tasks and missions that would be 
unsafe or too resource intensive to conduct with actual weapons, 
weapons systems, and ammunitions or if done in the actual environment. 
The Army procures a variety of NSTD items such as the Home Station 
Instrumentation Training System (HITS). In fact, General Milley 
recently validated the need and importance for Home-station training.

          ``While combat training centers are invaluable and remain 
        important venues for validating home-station training, Milley 
        said synthetic training environments at home-station can 
        provide a wider variety of training scenarios than Combat 
        Training Centers can, and can do so with multiple repetitions 
        at reduced cost.
          --General Mark A. Milley before the Association of the U.S. 
        Army (January 17, 2018)

    With increased investment in the home station training environment 
can the Army accelerate expansion, upgrades and enhancements to your 
force-on-force training systems to provide more realistic training at 
home station?
    Readiness has been identified as a priority. Would the Army find 
increased funding for home station training capabilities to modernize 
instrumentation and simulation be useful in building readiness across 
the total force?
    Answer. The Army's requirements for home station instrumentation 
and simulations are contained in the Army's budget request for FY2019.
    Increased investment in the home station training capabilities and 
science and technology initiatives, as identified in the Army 
Collective Training Environment (ACTE) Initial Capabilities Document 
(ICD), would provide solutions to improve the ability to replicate the 
operational environment in order to enhance realistic collective 
training and conduct combined arms operations in support of multi-
domain operations. In particular, increased investment would enable 
Army to accelerate readiness through training across all domains in a 
contested complex environment that includes cyber, electronic warfare, 
space, chemical, biological, radiological and nuclear (CBRN) and dense 
urban environments. The Army Synthetic Training Environment (STE) and 
the Soldier and Squad Virtual Training (SSVT) will provide capabilities 
critical to upgrade and enhance the force-on-force training systems to 
provide more realistic training at home station. The STE CFT focus is 
primarily on enhancing the virtual force-on-force training capability 
while providing limited upgrades to live instrumented training at home 
station. Opportunities to accelerate live force-on-force capabilities 
are available and can be integrated into our current capabilities 
development methodology.

                         Yakima Training Center

    Question. The Army FY18 UFR requested additional funding for a 
second brigade of upgunned Stryker's to increase lethality. The FY18 
NDAA provided the authorization.
    How does the FY19 President's Budget request prioritize Stryker 
lethality?
    Answer. The Chief of Staff of the Army (CSA) recently completed an 
assessment of Stryker program priorities and directed that all six 
remaining Flat Bottom Hull Stryker Brigade Combat Teams convert to the 
Double V-Hull Al configuration, which prioritizes mobility and 
protection over lethality. The Army will make a decision in early 2019 
on Stryker lethality materiel solutions based on the results of 
training and evaluation of the 30mm Stryker vehicles and CROWS-Javelin 
systems being fielded to the 2CR in Germany beginning in FY 2018.

    [Clerk's note.--End of questions submitted by Mr. Calvert. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow:]

               Tactical Communications Network Solutions

    Question. My question has to do with Tactical Communications 
Network solutions. I am thinking specifically of systems which could 
support a Brigade Combat Team operating across GPS-denied environments, 
including subterranean environments. One solution would be to spend 
hundreds of millions of dollars developing such a system. However, I 
understand there are existing, commercial technologies, some of which 
are currently used by the FBI and U.S. Special Forces. This may require 
an independent written assessment, but I am wondering if you could 
provide this Committee in a few weeks some feedback on the possibility 
of testing existing, commercial systems to determine their possible, 
broader use for Brigade Combat Teams?
    Answer. The Army's Network Modernization strategy is focused on 
employing commercial solutions as well as those systems already in use 
by other services, agencies, and special operations forces (SOF) to 
meet Army communication requirements in a congested or contested 
environment. As part of this strategy, we will leverage the Network 
Cross Functional Team rapid prototyping, experimentation and 
demonstration efforts. The Army plans experimentation in Infantry, 
Stryker, Armor, and Security Force Assistance Brigade formations to 
assess suitability, security, and scalability of systems to determine 
their possible, broader use in a variety of tactical environments The 
Army plans to evaluate a vast array of technologies to include: Mobile 
Adhoc Networks (MANET) incorporating advanced multi-input, multi-output 
(MIMO) solutions for operations in dense urban terrain and subterranean 
environments.

                             RDT&E Funding

    Question. Given the Administration's requested budgets of $169 
Billion and $182 Billion for FY18 and FY19, as well as the 
Administration's focus on modernization, I would think that we would 
have seen a more significant investment in the RDT&E account for FY19. 
Will the requested level of funding in FY19 be able to address all of 
the efforts as described in the Army's Modernization Strategy? 
Additionally, what percentage or dollar amount of the FY19 RDT&E Budget 
Request is allocated to create the new Modernization Command?
    Answer. No, because the Fiscal Year 2019 (FY19) request was 
completed only a few weeks after the Cross Functional Team (CFT) 
charters and scopes of work were approved. While the Army was able to 
quickly realign some of the FY19 request to meet the Army's Six 
Modernization Priorities, there is still work to be done. As the Army 
continues to refine requirements under the Modernization Strategy, we 
look forward to working with Congress to realign any necessary 
resources.
    In regard to your second question, and for the same reason outlined 
above, there are no Research, Development, Test and Evaluation monies 
in the FY19 budget request specifically aligned for the Army Futures 
Command.

                           High Energy Lasers

    Question. A recent article suggested that the Army could have an 
objective solution to the SHORAD capability gap within the next 5 
years. Can you discuss the progress that has been made with regards to 
high energy lasers? What are the timelines for IOC and what are the 
limiting factors in providing this capability to the warfighters 
earlier than the current timelines?
    Answer. There are currently two efforts ongoing with regard to High 
Energy Lasers (HEL). The Army is developing a pre-prototype 100 
kilowatt-class laser system on a Family of Medium Tactical Vehicles 
(FMTV) to meet the Indirect Fire Protection Capability Increment 2-
Intercept (IFPC Inc. 2-1) program of record requirements to defeat 
rockets, artillery and mortar (RAM) threats at fixed and semi fixed 
site. This effort, the High Energy Laser Tactical Vehicle Demonstrator 
(HEL TVD) effort began in FY2016 is scheduled to culminate in FY2022 
with a Technology Readiness Level 6 (TRL6) demonstration against a RAM 
target set. In 2017, Lockheed Martin built a 60 kilowatt-spectrally 
combined fiber laser which has been integrated into the High Energy 
Laser Test Truck in preparation for a 50 kilowatt-class demonstration 
against RAM and UAS threats in late FY2018. This risk reduction 
demonstration will provide key knowledge points for HEL TVD.
    In FY2018, the Army began a 6.4 Research, Development, Test, and 
Evaluation (RDT&E) Technology Maturation Initiative (TMI) project to 
demonstrate a Multi-Mission High Energy Laser (MMHEL) using current HEL 
sub-system technology. Through the MMHEL project, the Army will 
integrate and conduct an FY2021 demonstration of a prototype 50 
kilowatt-class HEL weapon system integrated on a Stryker platform that 
is able to maneuver with operational forces and counter Maneuver Short 
Range Air Defense (M-SHORAD) threats such as UAS, RAM as well as Rotary 
and Fixed-Wing aircraft. In addition to the air defense capability, the 
MMHEL will provide the Brigade Combat Team organic intelligence, 
surveillance and reconnaissance as well as precision targeting 
capabilities. The MMHEL operational demonstration (TRL 7) will inform 
requirements and reduce risk for M-SHORAD.
    Limiting factors are industrial base to mass produce laser and beam 
control subsystem components and a full understanding of the laser 
vulnerability modules for M-SHORAD threats. Army S&T continues 
collecting, investigating, and developing laser vulnerability modules 
for those targets.
    [Clerk's note.--End of questions submitted by Mr. 
Aderholt.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, April 11, 2018.

                  U.S. STRATEGIC COMMAND (USSTRATCOM)

                                WITNESS

GENERAL JOHN E. HYTEN, COMMANDER, U.S. STRATEGIC COMMAND

                 Opening Statement of Chairman Granger

    Ms. Granger. The subcommittee will come to order. Now that 
the committee has wrapped up its work on the fiscal year 2018 
budget, we can turn our full attention to the President's 
fiscal year 2019 budget request. To that end, this morning, the 
subcommittee will continue its series of Defense Posture and 
Budget hearing. Today we will hear from General John E. Hyten, 
Commander of United States Strategic Command.
    Before we proceed, I would like to recognize the ranking 
member, Mr. Visclosky, for a motion.
    Mr. Visclosky. Madam Chair, I have a motion pursuant to the 
provisions of clause D of section IV of the rules of the 
committee. I move that today's hearing be held in executive 
session because of the classification of the material to be 
discussed.
    Ms. Granger. So ordered, thank you.
    United States Strategic Command employs nuclear, space, 
global strike, joint electronic warfare and missile defense 
capabilities that deter aggression, and decisively respond to--
if deterrents fail. In particular, the President has forecasted 
the need to significantly increase spending on our nuclear 
capabilities as reported in the recently released 2018 Nuclear 
Posture Review. We thank General Hyten for joining us this 
morning to discuss this in further detail.
    Before I recognize our witnesses, I would like to recognize 
our ranking member, Mr. Visclosky, for any remarks he would 
like to make.
    Mr. Visclosky. Madam chair, I just appreciate you holding 
the hearing today. General, I look forward to your testimony. 
Thank you very much.
    Ms. Granger. Thank you, Mr. Visclosky.
    Before we begin, I would like to remind those in attendance 
that this is a classified hearing at the top secret level. You 
may not discuss the topics covered during this session beyond 
this room, even though you may see some addressed in the media.
    Now allow me to introduce our witness, General John E. 
Hyten, the Commander of the United States Strategic Command. 
General Hyten making his first official appearance before the 
subcommittee. Welcome, please take 10 minutes to set the stage 
with some opening remarks and then we will proceed to 
questions, thank you.
    [The written statement of General Hyten follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    [Clerk's note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                          Thursday, April 12, 2018.

                 FISCAL YEAR 2019 NATIONAL GUARD BUREAU

                                WITNESS

GENERAL JOSEPH L. LENGYEL, CHIEF, NATIONAL GUARD BUREAU

                 OPENING STATEMENT OF CHAIRMAN GRANGER

    Ms. Granger. The Subcommittee on Defense will come to 
order. This morning, the subcommittee will hold a hearing on 
the National Guard and Reserve Components. Today's hearing will 
consist of two panels. During panel 1, we will discuss topics 
related to the Army and Air National Guard and Guard joint 
initiatives.
    Our witness for panel 1 is General Joe Lengyel, the Chief 
of the National Guard Bureau and member of the Joint Chiefs of 
Staff.
    Welcome to the subcommittee. We appreciate your being here 
today to share the status of the Army and Air Guard and to 
allow members to gain knowledge from your expertise about this 
area.
    I continue to reiterate as chairwoman of the subcommittee 
that it is vital to the members of the committee that we hear 
from our military leadership in order to make decisions 
regarding funding and the future direction for our national 
defense.
    Additionally, General Lengyel, the committee wishes to 
recognize the sacrifice of two officers and two enlisted air 
guardsmen who died on March 15 when their helicopter crashed in 
western Iraq. Also, a regular Air Force officer and two Air 
Force reservists died in that crash. Our deepest sympathies to 
the families of the victims.
    There is a lot to cover today with two panels, but I wish 
to highlight that the Guard continues to be deployed around the 
world. And the most recent national news related to Guard 
deployment is the President's recent announcement to use Guard 
troops to defend the border between the United States and 
Mexico. The committee has many questions, and I hope we are 
able to address all of those today.
    But, first, I would like to call on the ranking member.

                  Opening Remarks of Mr. Ruppersberger

    Mr. Ruppersberger. Well, first thing, thank you for being 
here. I have been taught years ago that if you are ahead, be 
quiet and move on, so I will defer back to the chairwoman. And 
by the way, I will be leaving here soon because we have--the 
last 2 days we have been having our defense hearings three in a 
row, so after my question I will probably be moving on. So I 
hope there is some Democrat that shows up.
    Ms. Granger. The slight attendance has nothing to with your 
appearance and the importance of the issues. The people on this 
subcommittee are on usually three other--three subcommittees 
total, and they are very experienced, and so they will try to 
be here, and then their appointments and their questions are 
important in another committee too.
    So, General Lengyel, would you like to make opening 
remarks? And then we will move on to questions. If so, please 
proceed.

                  Summary Statement of General Lengyel

    General Lengyel. Chairwoman Granger and Ranking Member, 
thank you very much for having me here today. Distinguished 
members of the subcommittee, it is a pleasure for me to be here 
today. And at this time, I would submit my full written 
statement for the record.
    The National Guard consists of 343,000 citizen soldiers in 
the Army National Guard and 106,000 airmen of the Air National 
Guard. They represent the finest National Guard in our 381-year 
history. And I am honored to represent them, along with the 
families, communities, and employers who support them.
    In the National Defense Strategy, the Secretary outlined 
the priorities for our military to deter war and protect the 
security of our Nation. In supporting the National Defense 
Strategy, my focus remains on our three primary mission sets: 
the warfight, defending and securing the homeland, and building 
enduring partnerships.
    The Guard is tremendously appreciative for this committee's 
support in enabling us to accomplish these missions. On any 
given day, approximately 20,000 men and women of the Army and 
Air National Guard work seamlessly as part of the joint force 
in protecting our Nation's interest on every continent.
    With approximately 850,000 deployments since 9/11, Guard 
soldiers and airmen conduct complex operations around the globe 
supporting commanders in every geographic combatant command. 
Your continued support allows us to leverage our years of 
combat experience to help confront current and future security 
challenges. In the homeland, your investment supports on 
average about 8,000 Guard soldiers and airmen everyday 
conducting domestic and homeland security and defense 
operations.
    As you know, the Department of Defense is assigning our 
guardsmen, under the command authority of their State 
Governors, the mission of supporting the Department of Homeland 
Security with its border security mission. Your Air National 
Guard fighter wings are protecting our Nation's skies in 15 of 
16 aerospace control alert sites, including the skies over the 
Capitol today.
    The Guard has over 60 percent of the Department of Defense 
chemical, biological, radiological, and nuclear response forces 
that are strategically positioned throughout the United States. 
Our cyber force will grow to 59 units across 38 States by 
fiscal year 2019 in addition to the existing 54 Army National 
Guard defensive cyber operations elements.
    Soldiers and airmen in our Counterdrug Program in 
coordination with law enforcement agencies and other partners 
detect, interdict, disrupt, and curtail drug trafficking across 
our Nation, and Army National Guard ballistic missile defense 
battalions defend the Nation against intercontinental ballistic 
missiles as we speak.
    On top of all this, the National Guard stands ready to 
respond to emergencies, such as hurricanes, wildfires, 
flooding, as well as assist law enforcement during times of 
civil unrest, missions the National Guard performs with little 
or no notice. This past year, over 45,000 men and women of the 
National Guard responded to Hurricanes Irma, Harvey, and Maria, 
while simultaneously supporting wild land fire fights across 
the numerous States.
    The National Guard was called 255 times and served more 
than 1.8 million man days, responding to the homeland 
emergencies in fiscal year 2017. Our presence in our 
communities around the Nation uniquely postures us to respond 
when our communities need us. The same investment that enables 
the National Guard's success in the warfight and homeland 
operations also helps build enduring partnerships with 
international, Federal, State, and local partners.
    The National Guard, through the State Partnership Program, 
currently partners with 79 nations. This low-cost, high-return 
program builds enduring partnerships based on mutual trust and 
generates contributions to coalition efforts around the world. 
On the Federal, State, and local level, our deep partnerships 
with the National Guard unique authorities ensure a speedy 
response with unity of effort during times of domestic crisis.
    Our Nation is currently facing ever-evolving security 
challenges. I am thankful for this committee's recognition and 
support of your National Guard's role, both in the homeland and 
abroad. For instance, this committee's support of the National 
Guard and Reserve equipment account allows our force to improve 
its ability to perform across the broad spectrum of 
contingencies here at home and overseas.
    Today's operational National Guard requires concurrent and 
balanced modernization and recapitalization with our Active 
Components. This committee's commitment to modernization and 
recapitalization on platforms such as F-35s, and KC-46s, and C-
130Js, Black Hawks, and Humvees, ensures that the National 
Guard is a seamless, interoperable total force partner 
supporting the National Defense Strategy.
    Finally, programs such as the State Partnership Program and 
Counterdrug Program allow National Guard to leverage its unique 
attributes to strengthen relationships overseas and aid 
domestic law enforcement and counter illegal drugs.
    Again, I am honored to be here representing the men and 
women of the National Guard and the families who support them. 
Thank you very much for the continued support, and I look 
forward to your questions.
    [The written statemernt of General Lengyel follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
                        BORDER SECURITY MISSION

    Ms. Granger. Thank you so much. I want to make members 
aware, of course, that we will be using a timer and each member 
will have--we are going to start off with 5 minutes and we may 
have to go down to a smaller number because we have two panels. 
It sort of depends on how many people come in. You will have a 
yellow light on the timer, for the witnesses, and when it shows 
that you have 1 minute remaining, it will be yellow, and it 
will turn to red.
    General Lengyel, thank you for your opening remarks and 
reminding all of us about the unique duties and 
responsibilities of the Guard. We visited yesterday, you were 
kind enough to come to my office and talk about some of this. 
And they have--because they are people who are working in other 
jobs most often during the time, so it takes a great deal of 
commitment from those in the Guard, but also from their 
employers. So it is unique, and I know that we all appreciate 
them so much because, in our own communities, we have seen what 
they have done so many times.
    I would like to start with a question that is probably most 
on people's mind right now having to do with the Guard. So I 
would like you to give us an update on the recent announcement 
the National Guard will be support at the border. And if you 
know this, how many forces are we talking about, where would 
they be deployed, what kind of role they would play, and would 
this role comply with our applicable laws? And, finally, what 
is the Pentagon's plan to pay for these forces?
    I know that you can't, or I would be surprised if you could 
answer all of those because you don't have all of that 
information, but if you could, answer what you can, and let us 
know how to prepare for the future.
    General Lengyel. Yes. Chairwoman, thank you for the 
question. It is important and it does convey kind of a unique 
capability that the National Guard has in the homeland. Last 
week, on the 4th of April, the President had a proclamation 
suggesting that the National Guard would be used in a title 32 
status to help the Department of Defense assist the Department 
of Homeland Security in the border security mission.
    The border security mission effectively is a national 
security issue, and the Secretary of Defense, in coordination 
with the Secretary of Homeland Security, are working together 
to increase the security on the southwest border using the 
National Guards of the States. And right now, it is only the 
States along the southwest border--Texas, New Mexico, Arizona, 
and perhaps soon to be California--to deploy their National 
Guard in a title 32 status under the commanding control of the 
Governors to assist the Customs and Border Protection Agency 
with security at the border.
    As of right now, the way it is working is CBP is providing 
requirements through DHS to the Department of Defense. The 
Secretary of Defense has created a border security support cell 
in the OSD staff that is validating those requirements. Once 
those requirements are validated by the Assistant Secretary of 
Defense for Homeland Security--Homeland Defense and Global 
Security, which chairs this border security cell, they are 
relayed to the National Guard in the States to be filled with 
National Guard soldiers and airmen who can assist CBP in 
accomplishment of the security.
    The missions and roles that they are playing on the border 
security are things that assist and free up the Customs and 
Border Protection agents to actually go to the border and do 
law enforcement. The National Guard is doing things such as 
surveillance, such as maintenance, such as engineering 
activities, such as transportation and aviation alike, to free 
up the badges, if you will, to put them on the border.
    Things the National Guard is not doing: The National Guard 
is currently not doing direct law enforcement themselves. They 
are not doing hands-on work with migrant issues as they come 
across the border and are apprehended--but not by the National 
Guard. The National Guard is not doing any of that.
    As I speak to you today, there are 782 National Guard 
soldiers identified that are actually on the border assisting 
CBP in their border security role, and the preponderance of the 
those are in Texas and Arizona. It is unknown what the total 
number will grow to be. They are capped by the Secretary of 
Defense action memo to a level no higher than 4,000 total 
soldiers in support of the mission.
    With regards to funding. The funding of this is it is 
unknown exactly how long it is going to last, how big it is 
going to be, and what the total funding operations required to 
support it will be. In the Secretary of Defense action memo on 
the 6th of April, he tasked the comptroller of the Department 
of Defense to ascertain sources of funding to support this 
effort, to make him aware of issues with respect to funding 
that may impact the mission sets, and, if required, to notify 
him of any reprogramming actions that may be necessary to allot 
proper funding into the right places so that we can conduct the 
mission and maintain the readiness of the force.
    And, you know, I would ask that this committee look 
favorably on any reprogramming actions that would come this 
direction to use the funds that the National Guard has 
appropriated for the readiness of the force, such that we can 
use them to make the force ready for the longer term.
    Ms. Granger. Thank you so much. There might be others that 
will have questions about that. We will now go to Mr. 
Ruppersberger.

                            TASK FORCE ECHO

    Mr. Ruppersberger. Usually I try not to knock our 
President; I don't think you get anywhere with it. But when I 
totally disagree, I do want to make a statement, and then I am 
going to get into what my real question will be, if I have 
time. I really think this is really a waste of time for our 
National Guard to be there.
    Unfortunately, our President seems to rule more on his 
instincts than he does on planning. And I would hope that the 
Secretary of Defense and the Secretary of Homeland Security 
will be able to persuade him where the role is. If you look at 
the numbers as far as immigration, those numbers are really 
down. What the real issues are on the border, in my opinion, 
are drugs and fentanyl, and these are the issues we have to 
deal with. And I would rather see him take more DEA agents and 
put them there than National Guard. I think there are other 
things that you could do than just being there in support. With 
that said, I just thought I had to say that.
    I am going to talk about the issue of Task Force Echo. And 
this is a groundbreaking Army National Guard task force 
supporting U.S. Cyber Command at Fort Meade, which Chairman 
Frelinghuysen will tell you is in my district. At least he 
reminds me of that.
    Task Force Echo has proven very successful, and it is my 
understanding that this mobilization will be continued by a new 
iteration of Guard members. I applaud the decision to extend 
this mobilization to conduct critical national cyber missions. 
This is the first of its kind. Mobilization has brought 
soldiers from seven different States to conduct missions for 
U.S. CYBERCOM. Not only does the continuation of Task Force 
Echo make our Nation more secure, it enhances partnerships 
between our Guard and Active Components, and, in addition, 
benefits States and industry as well.
    The Task Force Echo initiative has certainly benefited from 
the inclusion of experienced Guard soldiers with diverse 
technical cyber backgrounds. My questions are, first: Using 
Task Force Echo as an example, are there other similar 
initiatives that you are considering in that field? And what 
are the challenges you face of supporting such critical 
national needs?
    General Lengyel. Thank you, sir, for that question. I mean, 
across a cyber enterprise, I think the National Guard is able 
to be a force provider and contribute greatly to the cyber 
defense of the Nation. Task Force Echo is a great example, sir, 
of what is going on in Maryland National Guard. I think that 
the contribution that this task force will make and has made at 
U.S. Cyber Command is recognized----

                       STATE PARTNERSHIP PROGRAM

    Mr. Ruppersberger. And I point it out because it is very 
important to move forward and having National Guard involved. 
The other question I have, General, as you know, the National 
Guard plays a critical role in deterring Russian aggression.
    Now, Maryland's State Partnership Program, for example, has 
created a top-notch cyber capability in Estonia. I have visited 
them in Estonia. In August of 2017, the Estonian defense forces 
and the Maryland Army National Guard conducted a joint cyber 
defense exercise entitled Baltic Jungle. I believe these 
operations are critical to showcase to Russia that our National 
Guard cyber units are just as effective as those in the--as the 
Active Component of our military.
    My question, in your opinion, what is Russia's assessment 
of our National Guard's cyber units? What challenges do you 
have in recruiting soldiers to fill these roles? I will say I 
believe you have 500 people in Estonia right now dealing on 
this cyber issue, and it is very successful.
    General Lengyel. Sir, I think the Russians look at the 
National Guard in cyber as they do across every other piece of 
military operation that we do. They see us as part of the 
United States Army and part of the United States Air Force with 
similar capabilities. And I think that the National Guard cyber 
capability--to bring special cyber relationships that they have 
and in the State Partnership Program with Estonia is hugely 
successful.
    Mr. Ruppersberger. I yield back. Thank you. Oh, do you have 
more to say?
    General Lengyel. No. Thank you.
    Mr. Ruppersberger. Okay. Good. I yield back.
    Ms. Granger. Thank you. Chairman Frelinghuysen.

              COSTS OF DEPLOYMENT TO THE SOUTHWEST BORDER

    Mr. Frelinghuysen. Thank you, Madam Chairwoman. Certainly, 
on behalf of the committee, thank you for the remarkable things 
the National Guard does around the world. I know that there is 
bipartisan support for what we call the NGREA accounts. And I 
think over the last 2 or 3 years and certainly under the 
chairwoman's leadership those accounts have been robust, and 
hopefully the equipment that you have requested is--we are 
meeting some of your needs. We are also meeting just the issues 
of readiness that affect obviously the regular force as well as 
the National Guard.
    I, too, have some questions on the deployment. The 
Secretary of Defense was specifically authorized under title--
under title 32, section 502(f), is it authorization for 4,000?
    General Lengyel. It is up to 4,000 yes, sir.
    Mr. Frelinghuysen. It is a little unclear to me, maybe 
because this is a recent announcement, who is paying for what. 
You are making a plea for reprogramming, which--who is actually 
paying for what?
    General Lengyel. Chairman, to be clear, as I haven't made a 
plea for reprogramming yet because, as I said in my remarks, I 
hope to make it clear that we don't know yet what the total 
financial cost of this operation is going to be.
    So, under 502(f)-502(f) authority, title 32, is federally 
funded and temporarily using the accounts of the National 
Guard, O&M and personnel accounts, to fund this operation on 
the border. And that is money that I have. So the National 
Guard will use those funds to fund the validated requirements, 
it is validated by OSD, and authorized to the States to put on 
the border, and so that is who is paying for this.
    Mr. Frelinghuysen. So, actually, what people are doing--so 
is there the width and breadth of what people are allowed to do 
now?
    General Lengyel. Yes, sir.
    Mr. Frelinghuysen. Are there limitations? I know there are 
limitations that your personnel cannot conduct civilian law 
enforcement activities. Is that right?
    General Lengyel. Yes, sir. In 502(f) status, the actual 
action memo says specifically that, without explicit consent 
from the Department of Defense from Secretary Mattis, that they 
will not do law enforcement activity on the border.
    Mr. Frelinghuysen. There is that term that the National 
Guard--and this is actually not just in this instance, but in 
the past, correct me if I am wrong, that the National Guard has 
performed what are often referred to as other duties in support 
of Department of Defense missions. Is that--do you anticipate 
other duties being given to you? And have they been given to 
the Guard in the past?
    General Lengyel. We have performed duties in 502(f) before. 
If you use as an example, after 9/11, when they put National 
Guard soldiers into the airports to do security, they were 
federally funded but yet managed and under the control of the 
Governors in the States with which they perform that duty. It 
is a similar situation here with which they are being provided 
Federal resources, again, in support of the Department of 
Homeland Security and CBP, in areas that CBP realizes that they 
need assistance, such that their agents can be freed up to do 
more direct law enforcement-type operations.
    Mr. Frelinghuysen. So is the border control, is the 
Department of Homeland Security likely to reimburse you for 
that, or is that something you are going to be carrying as an 
ongoing cost?
    General Lengyel. I believe this is--reimbursement is not 
mandated from the Department of Homeland Security for this 
particular act. But I would--I would get back--request to get 
back with you if that is it, but I do not anticipate any 
reimbursement from the Department of Homeland----
    Mr. Frelinghuysen. Obviously, this is a policy that they 
laid down. I think more information rather than less 
information as it comes to you would be extremely beneficial to 
all of us here. Thank you, Madam Chair.
    Ms. Granger. Ms. Kaptur.

                       STATE PARTNERSHIP PROGRAM

    Ms. Kaptur. Thank you, madam chair. Welcome, General, and 
all your colleagues. I am a big supporter of the Guard, and I 
represent many of those soldiers that fight for us at home and 
abroad. Thank you for your work. I am going to focus just on 
two areas initially, one is the State Partnership Program, 
which for Ohio means Hungary and Serbia, but I am quite 
interested in California's partnership with Ukraine.
    And my question really attends really to the funding levels 
in that program. If you could focus on that. What you have 
requested compared to the current fiscal year. And also a 
suggestion, because I have just returned from Ukraine, and if 
we are going to win that battle and somehow blunt Russia's 
propaganda, which is 40 times what the West pumps in there, we 
are going to have to deal with the soldiers in the field in a 
more effective way.
    One of the things I discovered is that many of Ukraine 
soldiers have PTSD, those who are currently serving, younger 
soldiers, and also soldiers who fought under Soviet mandate in 
Afghanistan from years ago. My question really is, how could 
you, in your leadership role, provide apps and devices where 
soldiers who have these illnesses could literally self-treat as 
opposed to having nothing in the field?
    Do you have the capability using the defense health 
capabilities that exist within DOD and the Guard to use 
California or other States who have Ukrainian-language-speaking 
health professionals to try to get apps down into people who 
literally are facing a third deployment to the front, and they 
have PTS with no help? How do we deal with that issue?
    General Lengyel. So, Congresswoman, thank you for that 
question. So the State Partnership Program, as you know, in 
California is very engaged in Ukraine. And they have, you know, 
a wide range of opportunities to help integrate and assist the 
Ukraine military forces in a wide number of ways, all through 
the combatant command. So I think that should they decide that 
the combatant commander decides that that is a good opportunity 
and good use of State Partnership Program, then those 
activities could be proposed and part of State Partnership 
activities.
    Ms. Kaptur. Could you get somebody back to me on that, 
please?
    General Lengyel. Yes.
    Ms. Kaptur. I would greatly appreciate that. And I would 
like to know if there is funding to do that, if you are asking 
for sufficient funding to accommodate something like that if it 
proves beneficial.
    General Lengyel. Yes, ma'am, I will get back to you. I do 
not have funding that I am aware of to develop apps and use 
them in the Ukrainian system. That would probably require some 
additional funding levels. In general, with regard to the State 
Partnership Program funding, we get about $16 million a year 
for State Partnership funding. We get about 8 of that through 
the Army and the Air Force, and the rest is a congressional add 
that we get.
    Sometimes it is hard for us to use all of the congressional 
add because of the timing of the actual budget when we get the 
appropriation. We feel like we need about twice that total 
amount, about $29 million totally, to get all of the State 
Partnership activities. The State Partnership has grown now 
since Ukraine was one of the original 13 members, and now it 
has grown to 80 partners and funding commensurately has not 
grown. So I would make a pitch to say that----
    Ms. Kaptur. Thank you for pointing that out, General. Thank 
you. I also wanted to add----
    Mr. Visclosky. Would the gentlewoman yield for a second? I 
just want to make sure--you would yield?
    Ms. Kaptur. I am pleased to yield.
    Mr. Visclosky. If I understand correctly, just so we are 
clear, you are at $16 million in that account today, General?
    General Lengyel. Yes, sir.
    Mr. Visclosky. And under optimum circumstances, given the 
demand in increase requests for partnerships, you would need 
$29 million?
    General Lengyel. Yes, sir.
    Mr. Visclosky. Thank you very much.

                   NATIONAL GUARD COUNTERDRUG PROGRAM

    Ms. Kaptur. I thank the gentleman for clarifying that. I 
also wanted to move to the National Guard Counterdrug Program. 
Obviously, Ohio is heroin alley and fentanyl alley in my 
district, right near where I live actually. About a week ago, 
enough fentanyl was discovered to kill everyone in my district 
five times over, and it is just staggering.
    So my question really is, what are you doing on this front 
in cooperation with localities or at our ports of entry in 
order to try to stem the flow and deal with the crime 
associated with this? I sort of mimic Mr. Ruppersberger's 
comments, if we are going to send anybody to the border--the 
three buzzards who did this in our district came from Houston, 
and they drove up. And it was just--I can't tell you what an 
impact it has had across our community, just the worrisome 
nature of all of this.
    General Lengyel. Yes, ma'am. The Counterdrug Program 
throughout the National Guard provides a lot of great 
assistance to the local, State, Federal, Tribal law enforcement 
agencies that try to deal with this issue across the Nation. 
Every State has a different problem set in their individual 
States, as determined whether it is--where the crime comes 
from, what the specific problems is, the origination of what it 
is. But what has grown across the Nation is the opioid crisis.
    Ms. Kaptur. General, could I ask you somehow to have--
provide me a summary of the funding that you are asking for in 
this account, what currently exists, what could exist, your 
best practices across the country. I am specifically interested 
in Ohio, selfishly, but it is connected to points of entry in 
Texas and California and so forth.
    So I would like to know your broader perspective? Who is in 
charge of the program? I really would like to meet with those 
people.
    General Lengyel. Yes, ma'am. Well, I can come to your 
office and make sure that you get the right people. But the 
money that we need----
    Ms. Kaptur. Yes.
    General Lengyel. The total program to run the Counterdrug 
Program as we do right now is $200 million, plus $20 million 
for the five schools, and that is the total number that we need 
to----
    Ms. Kaptur. $220 million.
    General Lengyel. $220 million.
    Ms. Kaptur. And that is at current levels?
    General Lengyel. Current levels. Yes, ma'am.
    Ms. Kaptur. All right. Thank you.
    Ms. Granger. Mr. Rogers.

                 RECRUITING REGIONAL TRAINING INSTITUTE

    Mr. Rogers. Thank you, Chairwoman.
    Let me follow up with Ms. Kaptur's line of questioning on 
counterdrug activities. This is an epidemic we have not seen 
the likes of before, as you well know. We are losing around 
60,000 Americans a year on prescription pill and heroin 
overdoses. Now we have the sinister new twist to that: As we 
have begun to successfully crack down on pills, heroin becomes 
cheaper and more available, and now it is being laced with this 
God-awful sedative, fentanyl.
    At least with pills you knew the dosage, but with the 
heroin-laced fentanyl, you have no idea what the power of a 
dosage is. And I am sure it is having an effect on your 
recruiting, is it not? The use of drugs?
    General Lengyel. Sir, recruiting is becoming more of a 
challenge for us, and people are excluded from joining military 
because of previous drug convictions and the like. It is having 
an impact. I can't tell you how much, but it is having an 
impact.
    Mr. Rogers. Well, to follow up on Ms. Kaptur's questions 
about your counterdrug budget items, you mentioned the five 
regional centers. Some are criticizing those centers that the 
instructors are retired law enforcement people instead of 
National Guardsmen. What do you say to that?
    General Lengyel. Well, sir, I think we run the schools. It 
is a combination of people who understand how to blend the 
military and the law enforcement capacity together. I think our 
goal is to provide the best instructors, regardless of what 
their background is and where they come. Some are National 
Guard soldiers and airmen, and others are contractors. And I 
think that is what we try to do is keep them filled with the 
best possible instructors to get the best instruction to the 
field that we can get.
    Mr. Rogers. Tell us what those centers are for and what 
they do and who runs them and why?
    General Lengyel. So there are five separate centers and 
their job--they exist to use our expertise in law enforcement, 
and many of our Guard members are, in their civilian lives, law 
enforcement officers and the like and professionals, and they 
provide specific up-to-date current instruction on tactics, 
techniques, procedures, operational issues related to opioids, 
related to fentanyl, opioid trafficking and the like, so that 
we can better detect, interdict, stop the flow of narcotics and 
illegal drugs across the Nation.
    Mr. Rogers. Are the centers aiming at stopping the use of 
drugs by National Guardsmen, or is it a local law enforcement 
effort that----
    General Lengyel. It is a law enforcement effort, sir. They 
don't focus specifically on preventative issues. That is not 
the role of the National Guard or the counterdrug program. It 
is to facilitate the law enforcement activities to actually 
stop, find, interdict illicit drugs and trafficking.
    Mr. Rogers. Well, I mean, we have DEA. We have got local 
State Police. We have got local police. We have got all sorts 
of people who are devoting themselves entirely to the 
counterdrug operation. Why do we need these schools that 
apparently are trying to do the same thing as we have forces 
already there for it?
    General Lengyel. Sir, I am told these schools are extremely 
capable and have valuable instructors. I haven't been to one 
myself, but if you would like, I will go to one and come to 
your office and give you a more indepth report on the specifics 
of these schools.
    Mr. Rogers. Well, we are spending a good deal of money on 
these five different regional centers, whose purpose I have no 
idea what it is, and why the National Guard is running these 
training centers, supposedly. Why is that so?
    General Lengyel. Sir, I think that the individual States 
that run these, you know, as I said again, the law enforcement 
agencies that attend them say that the product is a useful 
product, and it is a valuable school for the law enforcement 
agencies that go. And I really don't have a better answer for 
you than that.
    Mr. Rogers. Well, could you get me something about it?
    General Lengyel. I will, yes, sir.
    Mr. Rogers. There is no one--all of us are deeply concerned 
about this horrendous epidemic that is sweeping the country 
unabated, and we have got to marshal our forces to tackle every 
element. And these training schools may be very critical. I 
don't know. I hope they are, but we need to know whether or not 
they are doing their job, and why they are there, and is it a 
wise investment of our dollars?
    General Lengyel. Yes, sir.
    Mr. Rogers. Thank you, sir.
    Ms. Granger. Mr. Visclosky.

                               READINESS

    Mr. Visclosky. Thank you very much, Madam Chair.
    General, we continually talk about readiness in the 
subcommittee, and it means something to the Guard as well. 
Could you, given the approximately 344,000 soldiers in the 
Guard, 60,000 of which are Active Guard and Reserve, tell us 
what readiness means to you? And relative to making sure you 
are in top form, is there a need to change that ratio, if you 
would, to more full time so you are prepared? What does 
readiness mean to you in that regard?
    General Lengyel. Yes, sir. I think that for us to quantify 
the readiness of our units and our formations to do our wartime 
mission is the most important thing that we do. So do we have 
the right people? Do we have the right equipment? Have we got 
the right training and to do our military job so that we are 
assessed as capable to bring what the Army and the Air Force 
need for us to bring?
    I would tell you that, from a readiness perspective in the 
National Guard, if we are to make our readiness better and 
higher, some of the things we have already done to make this 
operational force more ready are to add additional training 
devices. Like the Army has added from two combat training 
center rotations a year to four combat training center 
rotations a year. That will help grow more ready brigade combat 
teams for the United States Army.
    But more fundamentally, the force that generates that 
readiness so that, when they go to the combat training center, 
they can actually do the training at this high level of 
collective training that they are doing, it requires full-time 
support inside the Army National Guard to build the 
foundational levels of readiness that we do--that we need.
    So, right now, that full-time number, that is close to what 
we have--about a little less than 60,000 is what is inside the 
Army National Guard--that is about, of the total force, it is 
about 16.5 percent of 343,000 people. I would offer to you that 
I think that to increase our readiness, we need to raise the 
level of full-time support inside the Army National Guard.
    Mr. Visclosky. Have you made a specific request in your 
budget submission to us as to what that number should be and 
what the additional cost would be?
    General Lengyel. So what we have asked for this year is a 
relatively small number; it is 440 additional recruiters, such 
that we can go recruit more people in.
    Mr. Visclosky. Let me ask you this, because I have a couple 
other things, and we have some other members. Over and above 
those recruiters, if you had the resources for more Active 
Guard and Reserve for that readiness, could you effectively and 
efficiently use it, and, if so, could you provide the 
subcommittee with that number?
    General Lengyel. Yes, sir.

           NEW POLICY FOR USE OF NATIONAL GUARD ON THE BORDER

    Mr. Visclosky. The next question I have, and I would ask it 
for the record, could you tell us what day you were informed of 
the new policy relative to the use of the National Guard on the 
border?
    General Lengyel. What day?
    Mr. Visclosky. I don't need it now, but when were you told 
about this change in your responsibility on the border? Just 
what day. And, secondly, were you consulted and asked for your 
advice as to the design of this new policy before that day?
    General Lengyel. Okay.
    Mr. Visclosky. I would be curious, were you?
    General Lengyel. I was not.
    Mr. Visclosky. I would not ask you to go further. I would 
simply say that I respect your service to this country. I 
respect the position you have as Chief of the Reserve. And I 
speak only for myself, if I am going to make a change of 
policy, I would at least talk to you. I have no further 
questions.
    Ms. Granger. Mr. Graves.

                          CYBER MISSION TEAMS

    Mr. Graves. Thank you, Madam Chair.
    General, good to see you again and thanks for taking care 
of the good people in Georgia. We have got a great team there 
of men and women led by Joe Jarrard, and I know you have been 
working hand-in-hand there, and we thank you for that.
    My question is more related to the cyber mission teams and 
the objectives coming up, and I just want to get your thoughts 
and understand a little bit more about the road map and your 
plan to reach the full operational capability, which is 
scheduled for 2024.
    Is the Guard's goal to stand up each of these full 
operational capabilities planned at one time simultaneously, 
all 11 teams, or is there sort of a plan to stagger that out? 
And maybe you could just share with us some of the challenges 
that you face and whether or not you are currently on track to 
meet some of your objectives for 2024.
    General Lengyel. Yes, sir. I think that the 11 teams will 
stagger over time. We will build them over time. Part of the 
reasons for that is the allocations of school slots that we get 
in order to get the folks that we need and to train them to 
become these cyber warriors. I think we are on track to be--my 
latest number is actually 2022 I think is when we thought we 
were going to have all 11 teams up and trained and ready to go 
for the National Guard.
    Great examples of innovation in Georgia is standing up a 
cyber cell at Augusta University, and this new Cyber Center of 
Excellence standup there paid for by Georgia is giving the 
National Guard a piece in there to actually recruit some of the 
men and women who are going to school in the cyber field there. 
So I think we are on track. I think cyber continues to be a 
growing part of everything that we do. And in our full spectrum 
competition across the globe, we are under attack every day in 
the cyber domain. So I think that is important.

                            SURGE CAPABILITY

    Mr. Graves. Well, that is good news on the progress. And 
thank you for your partnership with the State, and I know the 
State has committed a lot of dollars to help out there. So 
thank you for your work with them.
    And then Admiral Rogers recently described the Guard's 
cyber contribution as providing a surge capability.
    Can you explain the specific missions where the surge 
capability would be used? Just give us a little--maybe what 
your forecast would be for the future?
    General Lengyel. So, I mean, the Army and the Air use their 
cyber mission forces differently. The Air Force has always two 
cyber mission teams on duty all the time, cyber protection 
teams, for a 6-month period, and then they come off and two 
more will go on. The Army doesn't do business that way. So the 
Army looks for opportunities or requirements to surge the 
force. Once they have all 11 cyber protection teams built and 
trained, as requirements dictate, they will call those forces 
to duty and use them.
    Mr. Graves. Great.
    General Lengyel. As the situation dictates.
    Mr. Graves. And then, lastly, are there any cyber missions 
the Guard could contribute to that are more routine and 
enduring in nature, as you look ahead? Anything we can help 
with and anything you can maybe give us a little direction on.
    General Lengyel. So, you know, every State has a cyber 
defensive--cyber operation team. It is a small team. Some 
States are experimenting with looking at how to use those teams 
more broadly as a State Active Duty asset that is under the 
command of the Governor. So some States, in preparation for 
election cycles, have used their cyber operations elements to 
actually check the security of their State dot-gov networks.
    I think that there is room to grow there in the unique 
space that the National Guard has as a State asset as well, is 
to take these trained cyber folks and use them to help the 
State in keeping their network secure as well. So there is work 
going on there as well, sir.
    Mr. Graves. Great. Well, thanks for your service, and 
thanks for your commitment and investment in this area, it is a 
very new and growing and intense theatre, I am glad you are 
getting engaged in it. Thank you very much, General.
    General Lengyel. Yes, sir. Thank you.
    Ms. Granger. Ms. McCollum.

                     AVIATION MODERNIZATION PROGRAM

    Ms. McCollum of Minnesota. Thank you, Madam Chair.
    Good to see you here, General. Thank you for all you do. I 
am going to go from one extreme to another. I am going to talk 
about modernization, and then I am going to talk about 
recovery. They both have something in common, and that is 
making sure that our servicemen and women have what they need.
    So I would like to get your thoughts on the Army's Aviation 
Modernization Program. Since the Active Component continues to 
lean on the Reserves as an operational force globally, I think 
it is important that the Guard benefit from the modernization 
and the aviation that is happening.
    So I would like to hear your thoughts on the necessity for 
our Reserve Components to benefit from modernization. You 
talked about readiness and training, but there is also the 
hardware that goes with the men and women we call up to serve. 
So, in the fiscal year 2019 budget that addresses Army aviation 
modernization, I would like to know what the plan going forward 
is to ensure that the Guard shares in this Army modernization 
plan.

                              PUERTO RICO

    And then, on recovery, as you know, Puerto Rico is still 
recovering from the devastation that his from Hurricane Maria 
last year. I was just down on the island, Madam Chair and 
Ranking Member, looking at recovery work that is being done by 
EPA, Fish and Wildlife, our National Park Service, and when 
driving to the park assets, I went--I drove by the National 
Guard.
    I didn't have an opportunity--I didn't have enough time in 
my schedule to be in meetings with the Guard, but I did meet 
Guard and Reserve members who proudly serve and are very 
instrumental in the recovery effort. So I would like you to 
tell the committee what critical resources you don't have in 
Puerto Rico, still running on generators. Vieques is probably 4 
years out from having electricity, and it is not due to the 
willpower of the people of Puerto Rico. It just has to do with 
years of neglect in working together with our territory in 
Puerto Rico to make sure that they had what they needed to be 
self-sufficient and resilient.
    Puerto Rico's economy was hit really hard by the Great 
Recession. They haven't recovered from the hurricane yet. The 
next hurricane season is on the way, and they know about it. So 
I would like to know how the economic situation is affecting 
your servicemembers? Some of them are still without power, and 
they still have drills and things to do.
    And unemployment is a significant concern. And I am 
wondering if you are seeing a drop in recruitment and retention 
because of the economy there but also because of the strain 
that the hurricane has really put on a lot of the people in 
Puerto Rico taking care of their family, their communities, and 
then being able to proudly serve in the Reserve and Guard 
Components.
    General Lengyel. Thank you, ma'am, for those questions. 
With respect to modernization, and aviation modernization 
specifically, as I said in my opening remarks that the 
difference with today's operational National Guard and really 
operational Reserve Component is we used to modernize the 
Active Component and cascade all the old stuff into the Reserve 
Component, and that is the way it worked.
    That model, I would advocate, does not exist--does not work 
anymore. We are continuously deployed with our Active 
Component. We train with our Active Component. When the Active 
Component gives all the old stuff to the Reserve Component, it 
tends not to be maintained, logistically supported, less 
deployable.
    So, you know, it is that--as the Army modernizes its fleet 
of helicopters and tanks and everything in the Army, I advocate 
inside the Pentagon with the Army that they modernize the Army 
National Guard in a concurrent and balanced manner. Sometimes 
it is hard to do that, I mean, the Army is a big organization 
and has modernization priorities and does it, but we are 
getting Black Hawks--new Black Hawks, I flew in one just last 
weekend that had 120 hours of brand new--or Black Hawk M model. 
And they are modernizing some of our older ones into Victor 
models, and we are getting some new Chinooks as well.
    I think readiness of the force and modernization of the 
force is important. You know, the Apaches in the Army National 
Guard are not manned at 24 Apaches like the Army should be. 
Even some of the Army battalions don't have 24 Apaches. So that 
makes it difficult for the Army National Guard to be as ready 
in the Apache business as we may need to be. Should they need 
to use all of our Apache battalions at once or in short order, 
they would not be as ready as we would want them to be because 
they simply don't have enough iron to be ready.
    So, you know, in general, we are part of the Army's 
modernization plan. And when they do--for future vertical lift 
analysis and what is that going to look like, we have a member 
of the National Guard on that team, and so when they figure out 
what that is, we will be part of it, and my advocacy will be to 
modernize the National Guard in a concurrent manner with the 
Active Component.
    With respect to Puerto Rico, I too was down there numerous 
times, and Hurricane Maria devastated the place, it just 
absolutely devastated the place, and it will be years before 
they are completely recovered and have done it. How long it 
will be before all of the people have power, I can't tell you, 
that is that. And there is MILCON required to repair the 
destroyed National Guard facilities and the like. There are 
still hundreds of Puerto Rico National Guard soldiers that are 
on Active Duty to mitigate the impacts from that disaster.
    So I think that it is going to be a long time before they 
recover, and you know, we continue to assist them every way we 
can to make sure that they recover from that devastation.
    Ms. McCollum of Minnesota. Madam Chair, I think we should 
maybe ask if there is anything that this committee should be 
doing to support the National Guard down there. They are the 
first line of defense. It takes a long time to get down there. 
Our Park Service, Fish and Wildlife, EPA, you wouldn't believe 
the way that the Federal team stood up down there with doing 
things, but they are still running on generators, and we need 
to make sure before the next season that they have everything 
that they need at the National Guard.
    Ms. Granger. Thank you for that. And I completely agree 
with you. Thank you for taking the trip to see that. I think we 
are sort of out of sight, out of mind on some of that, and when 
you hear they are on generators after this period of time, it 
is really significant. Mr. Diaz-Balart.

                       STATE PARTNERSHIP PROGRAM

    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    General, again, thanks for your service. Let me focus on 
this State Partnership Program, which has been a great tool to 
develop relationships with our neighbors, and particular in the 
Western Hemisphere, Central America, South America, the Florida 
National Guard has partnered with the Virgin Islands, with 
Guyana--Guyana and others. And so it is also an important part 
of what--frankly, with SOUTHCOM's mission is, right? Is to 
develop those relationships, and I think a lot of folks don't 
understand your role and the National Guard's role, and it is a 
key role.
    So just--you know, do you have the adequate funding to 
continue that, what I believe is a vital mission? And if you 
could just pretty much talk to us a little bit about what you 
are doing and what some of your activities are because I don't 
think a lot of folks know that it is the direct involvement of 
the National Guard. And you go down and see it--you see it. So, 
thank you, General.
    General Lengyel. Yes, sir. An incredibly important program. 
The National Guard is growing now to more than 80 partnerships; 
soon to be announced, several more will take us over 80. And we 
run the gamut from full spectrum combat operations to disaster 
response and civil control of the military and everything in 
between. Growth of our NCO corps and the NCO development of our 
partner nations to peacekeeping operations, humanitarian 
assistance operations, all of those things, and we do it all 
over the world.
    We build what--really the product of this is trust and 
relationships between nations, and never more evident than 
across Europe as Russian aggression in Crimea and the 
partnerships in the Baltics and former Soviet bloc countries 
were absolutely instrumental in assuring our partners and 
allies that we were there and part of them.
    More than 80 times we have had codeployments to the war 
where a partner nation will deploy to Afghanistan or Iraq with 
a codeployment with our partner nation. So it couldn't be more 
cost-effective. It is a very high leverage, low-cost program. 
The Department of Defense will spend more than $3 billion in 
defense support, security cooperation.
    This program right now is funded at a level from all 
sources at about $16 million. And earlier I mentioned we need 
$29 million to continue the level of activity, to build those 
meaningful relationships, and to do meaningful training across 
the spectrum in accordance with and under the direction of the 
COCOMs where these countries are, the combatant commands. 
Amazingly important product. Unique in the Department of 
Defense, really it is a thing that brings nations closer 
together to do things together. Thanks for the question.

                                SOUTHCOM

    Mr. Diaz-Balart. Thank you, General.
    And, Madam Chairman, I want to thank you for--because, you 
know, SOUTHCOM, as I always mention, is one of those that, 
since there aren't a lot of public issues that come up in the 
hemisphere, and we kind of tend to forget about SOUTHCOM until 
something happens in the hemisphere. But I want to thank you, 
Madam Chairwoman, for always not forgetting SOUTHCOM and for 
your leadership there in general.
    I agree with you: We may have some--even when we have some 
difficult relationships, the military-to-military relationship 
is crucial and in some cases even more crucial when we have 
some iffy partners, right?
    General Lengyel. Yes, sir.
    Mr. Diaz-Balart. And I just wanted to, again, I don't know 
if a lot of our colleagues outside of this committee know the 
importance not only of these programs--I think they know that--
but that the National Guard is a big part of that.
    So, thank you, Madam Chair, and thank you, General.
    Ms. Granger. Thank you very much.
    Thank you very much to our first panel. We are going now to 
Mr. Ryan and Mrs. Roby, and then we will go to the second 
panel.

                   SECURITY FORCE ASSISTANCE BRIGADES

    Mr. Ryan. Great. Thank you, Madam Chair.
    First, thank you so much. The European deterrence 
initiative is critical, and I think the more we see the level 
of threats that are facing our democracy here in the United 
States, as well as what is going on in Europe, to continue to 
read and dive into some of these issues, it is absolutely 
incredible that most Americans don't really understand the 
level of threat that we are under right now. So I appreciate 
what you are doing and what the Guard is doing.
    I have a question. I know the Army plans to stand up six 
Security Force Assistance Brigades, the SFABs. Five are going 
to be Active Duty. One is going to be National Guard. Can you 
give us an update on that and what it is looking like from your 
end?

                      RYAN EDI FUNDING RECRUITING

    General Lengyel. Yes, sir. The single Security Force 
Assistance Brigade is standing up across five separate States: 
Indiana, Illinois, Ohio, Florida, and Georgia, I believe, are 
the five States. Ohio will get a share of that SFAB. And it is 
about 65 people, I believe. And we are, I think, on track for--
I think it is--I have to get back with you on exactly when it 
is supposed to be up and running. It is not in my brain here 
right now, but I will get back with you on exactly when we 
expect to be up and operational, but part of that is coming to 
Ohio.
    Mr. Ryan. Thank you. On the EDI, go over those numbers that 
you mentioned again when Mr. Diaz-Balart was talking--asking 
you. How much money goes to the Guard for EDI?
    General Lengyel. EDI is different than SPP.

                  EUROPEAN DETERRENCE INITIATIVE (EDI)

    Mr. Ryan. I know, I am going backwards.
    General Lengyel. Right. I would have to go look. We have 
lots of National Guard forces who are mobilizing into Europe 
with European----
    Mr. Ryan. The EDI?
    General Lengyel. Yes. I can't give you that number here, I 
would have to go figure it out.

                        RECRUITING AND RETENTION

    Mr. Ryan. Okay. I just want to see a comparison of the two, 
so we will get that. On the issue of the recruiting and 
retention, one of the issues that keeps becoming an issue, has 
been an issue, is the issue of fitness and the ability to 
recruit.
    Can you talk to us a little bit about meeting the standards 
and any changes you may have seen over the past few years for 
our inability to kind of meet some of these numbers because of 
the fitness goals aren't being met?
    General Lengyel. Yes, sir. I mean, just, in general, across 
America, there tends to be a less fit general younger 
population than there once was. Fitness standards to be in the 
military are, you know, they are what they need to be. So it is 
getting harder for not just the Army National Guard or Air 
National Guard to find people that meet recruiting standards--
and it is not just fitness; it is across the spectrum of 
education and suitability and the like.
    So, this year, I would offer that the National Guard, the 
Army National Guard, may actually not meet our end strength at 
the end of the year that we had at 343,500. We are going to 
struggle to meet that total number. For the past 5 years, the 
National Guard has failed to meet our recruiting goals of how 
many people. We met end strength because we were able to retain 
more of the current force.
    Mr. Ryan. Right.
    General Lengyel. But I think we are going to see that as 
more broadly a problem that would require changes to how we 
market, changes perhaps even in increased resources, to how we 
market more recruiters. Different approaches to try to get 
people to fill our ranks.
    Mr. Ryan. Thank you.
    Madam Chairman, I just think this is a broader discussion 
that we need to have because this is an issue that keeps coming 
up, keeps coming up. The demands are greater. And I don't know 
if we need to do some kind of national initiative led by the 
military about general health, but it is--it has really 
diminished our ability to recruit the kind of soldier and 
airman and seaman that we need.
    And, again, we get locked in these little silos of it is a 
defense problem; it is also a societal problem, and the two 
interface with each other every single day. So that may be part 
of a broader conversation we need to have.
    I yield back.
    Ms. Granger. Thank you.
    The good news and the bad news, General Lengyel, is there 
is lots of the interest in what you are in charge of; the bad 
news is you get to come back.
    So Mrs. Roby.

                                 F-35S

    Mrs. Roby. Thank you, Madam Chairman.
    And thank you, General, for being here, and as always, we 
appreciate your service to our country and that of your family 
as well, and for all of the guardsmen and women that you 
represent all across our country.
    As you are aware, we discussed this yesterday. We, in 
Alabama, are very, very excited about the Air Force's decision 
to field the F-35s at Dannelly Field for the men and women of 
the 187th. It is a fighter wing. We are very proud of their 
capability. We know, at the end of the day, it was those men 
and women that contributed to that decision. Of course, the red 
tails also have a storied combat record, and the River Region 
is extremely proud and supportive of our Air Force and our Air 
National Guard.
    I just thought this would be a good opportunity for you to 
provide us an update as it relates the F-35 rollout, maybe a 
more definitive timeline as you see it as it relates to these 
Guard units that have just been given the opportunity to field 
that mission.
    General Lengyel. Yes, ma'am. Well, congratulations to 
Alabama. I wish I could take credit for that, but the Air Force 
has a very defined process which analyzes basing criteria, and, 
you know, Dannelly Field came out in appropriate manner at the 
top of that process for Air Force. I believe that, you know, 
there is no change from what you have heard before that I am 
able to really update you. I think that 2024, is that the 
timeframe that----
    Mrs. Roby. 2023 is what we were told the aircraft might 
arrive.
    General Lengyel. To my knowledge, that has not changed for 
Alabama. But if it has changed, I will look into it and provide 
you an update immediately if anything changes.

                            PILOT SHORTAGES

    Mrs. Roby. Well, we appreciate that. And, again, look 
forward to continuing that conversation. But, again, just on 
behalf of the men and women of the 187th, we are all very 
thrilled.
    One of the things that comes up in all of our discussions 
across all of our militarywide is the issue of the pilot 
shortages. I don't know if you have already addressed this. I 
apologize; I came in late. But I just would like for you to 
tell us, from your perspective, as it relates to the National 
Guard, how you are being affected by pilot shortages. And then 
really provide us, if you can, and maybe not at this time, but 
any opportunities that you see on the policy side how we can be 
helpful on that front?
    General Lengyel. Yes, the nationwide issue with regard to 
having the number of pilots that our Nation needs both in the 
commercial sector and in the military is impacting the National 
Guard. It is not impacting us as much as it is impacting the 
Active Component. The good news for the Reserve Component is 
you can be both an airline pilot and a military pilot.
    With respect to how our individual units are done, I would 
say that our total pilots we are short about 15 percent of what 
we need. In general, and these are broad terms, I can get you 
exact terms if you wish, but in broad terms, we are actually 
able to maintain and recruit all of our part-time force. We 
have a lot of people who are leaving the military, want to stay 
involved in military aviation, so, in many cases, not in all, 
there are some areas where that is not true, but broadly, we 
are able to keep the part-time force.
    Where we are having trouble keeping people is qualified 
instructor pilots, the full-time force, who actually want to 
be--for the full-time people, more specifically, it is the 
technician full-time force that is very, very hard to retain. 
We simply can't pay them enough. People tend to want--if they 
are going to be full time, they want the opportunity to retire 
after 20 years of service, and perhaps have a follow-on 
military career. So that particular aspect of our full-time 
force is harder to keep.
    The Active Guard Reserve slots in the full time, there are 
many people in the Active Component who decide that they don't 
want to move as much anymore, but they don't want to be an 
airline pilot, so they will move and live in Montgomery, 
Alabama, and be a full-time pilot in the 187th fighter wing, 
just like similar status of Active Duty Air Force and retire at 
20 years and keep the benefits and the like.
    So, if there as policy issue that could help us, it would 
be to help us increase the Active Guard Reserve billets versus 
the technician billets across the force. In general, I think as 
our force is migrating towards this operational force, you will 
see a request from us. In fact, we submitted a report through 
OSD to Congress on the analysis of our full-time force. You 
will see us move more towards a request for an Active Guard 
Reserve force, I think, as opposed to a technician full-time 
force. We still see that as a valued resource in some ways, but 
over time, that will be something we may ask you for.
    Mrs. Roby. Well, again, thank you for your service. We 
appreciate you being here today.
    And I yield back.
    General Lengyel. Thank you.
    Ms. Granger. Mr. Womack.

                        RECRUITING AND RETENTION

    Mr. Womack. Thank you, Madam Chair.
    I apologize for being here late. As I told the 
distinguished chair here that chairing the House Budget 
Committee is just jerking all my time away from me, and I miss 
sitting here on this dais engaging in military discussions. So 
I want to associate myself with the remarks of my friend Tim 
Ryan over here about medical fitness. I encountered that as a 
commander. Medical fitness is a critical problem across the 
spectrum of society but certainly with regard to the military 
because we have certain standards that we have got to have. And 
if they don't have them, we can't take them.
    I want to ask you a question about retention--recruiting 
and retention. It is my belief that, as our National Guard and 
Reserve Components are utilized more and more in our national 
defense posture, and I know General Kadavy has talked about the 
Guard 4.0 or whatever his term is for it.
    General Lengyel. Yes.
    Mr. Womack. And the notion that we need to increase the 
training days available to a lot of the people, particularly 
those going into the box, that sort of thing. I get all of 
that. There has got to be a sweet spot in there somewhere 
though, with our employer support to the Guard and Reserve, 
with our families. We are talking about recruiting problems 
right now and not being able to meet mission. I would guess 
that improved economic conditions in this country are causing 
people to have better jobs, and the need to be in the part-time 
military may not be as attractive as it once was.
    So do you have those concerns about the other elements of 
society that have an impact on our ability to recruit and 
retain people into our Guard structure?
    General Lengyel. Yes, sir. I do have those concerns. You 
know, the demand on the part-time force and, you know, that the 
Reserve Component brings an immense amount of combat capability 
to the Department of Defense at a lower cost because we don't 
get paid when we are not being used, and that is value in that. 
As long as we keep them ready and then they are properly 
equipped, then they can go to war and provide combat capacity 
when we need it.
    I think that General Kadavy is spot on. The Army National 
Guard is different now than when you or I was actually a young 
officer in the military. There is more exception to be used. We 
have a different force, though, the force that has gotten into 
the National Guard expects to be deployed; they want to be 
deployed. They are willing to training 45, 50, 60 days a year, 
provided it is predictable, provided that when they do train 
that, at the end of that, there is a meaningful reason why to 
deploy them. So, whether they deploy to the Sinai or whether 
they deploy to Bosnia or Kosovo or whether they employ to ERI 
in Europe or to Pacific Pathways in the Pacific, there is a 
reason for the employer to see that this soldier or airman is 
actually contributing to the national defense. There is a sweet 
spot in there where we will break it. And if we get past the 
point where the employers don't support our members, and right 
now--I had met with the president of ESGR 2 weeks ago, and 
while there are pockets of people where employers are getting 
weary, overall, we still broadly have great support from our 
employers.
    So it is incumbent on us to be predictable when we can and 
let people see the meaningful impact that this work does for 
the national defense of the United States.

                             PILOT SHORTAGE

    Mr. Womack. There was some discussion about pilot shortage, 
and I want to be careful I don't run out of time here. Have you 
considered this title 32, title 5 exchange program--I guess it 
is what--I don't know what the percentage is of the mix, but 
have you considered using any of the personnel that could be 
used in that title 5 force mix as an enhancement to addressing 
some of this pilot shortage?
    General Lengyel. So, sir, I don't--in the National Guard 
case, we don't see the title 5 as a good resource to put as our 
aviators, our combat-coded unit type codes that actually deploy 
and go to war. We see the best use of title 5 resource in the 
National Guard case as those that don't necessarily have 
deployed operational requirements to go do. So I don't see the 
title 5 resource helping us in that regard with respect to the 
title 5 issue.

                            COMBAT AVIATION

    Mr. Womack. And then, finally, a question about combat 
aviation. We have had a long discussion about it over the last 
several years. So where are we on making sure that we continue 
to have at least that force mix in the Reserve Component?
    General Lengyel. So, in accordance with the National 
Commission on the Future of the Army, we have stationed now at 
long last the four Apache battalions that are in the Army 
National Guard. They went to North Carolina, South Carolina, 
Utah, and then they split between Texas and Mississippi. That 
is where they are. The stationing decision has been made.
    Also, in that same report, it said: Hey, you are going to 
have 18 Apaches in each one of those battalions. And a little 
bit later in the report it said: Hey, if there is--an 
opportunity presents itself, you should find a way to plus 
these up to 24 Apaches per battalion.
    And where we are right now is, right now, as we deploy a 
battalion, we are scraping from the other three battalions iron 
to make sure that they are ready to go and have their full 
complement of aircraft. So it is challenging. Should we ever 
have to deploy more than one at a time, it could be challenging 
to the mission.
    Mr. Womack. Before I yield back, were you happy with NGREA 
in this last omni?
    General Lengyel. Thank you for NGREA. $420 million in each 
Army and Air was substantial. Thank you very much to the entire 
committee.
    Mr. Womack. Thank you for your service.
    I yield back.
    Ms. Granger. Thank you. We will have a closing comment from 
Mr. Visclosky, and then panel 2 will prepare to take over.
    Mr. Visclosky. Thank you, Madam Chair. I would ask for the 
record, because I know we have to go, in followup to Mr. 
Womack's question, and again, this would be for the record. How 
many complaints or actions have the employers for Guard and 
Reserve dealt with for employers not working with guardsmen and 
deployment?
    Mr. Visclosky. And the last observation I would make, as a 
former seminarian, I would quote one sentence from another 
former seminarian, the Governor of California in his letter of 
yesterday, where he said: I agree with the Catholic bishops who 
have said that the local, State, and Federal officials should 
work collaboratively and prudently in the implementation of 
this deployment--talking about the border--ensuring that the 
presence that the National Guard is measured and not disruptive 
to community life.
    General, I do have a profound respect for you, and I know 
that is how you will conduct yourself, and you will ask the 
Guard to conduct themselves, and I thank you for that.
    Thank you, Madam Chair.
    Ms. Granger. This concludes panel 1.
    Thank you, General Lengyel, for your attention here and 
what you are doing here.
    General Lengyel. Thank you, Chairwoman.
                                          Thursday, April 12, 2018.

                       FY 2019 RESERVE COMPONENTS


                               WITNESSES

LIEUTENANT GENERAL CHARLES LUCKEY, CHIEF OF ARMY RESERVE
VICE ADMIRAL LUKE MCCOLLUM, CHIEF OF THE NAVY RESERVE
LIEUTENANT GENERAL REX MCMILLIAN, COMMANDER, MARINE FORCES RESERVE
LIEUTENANT GENERAL MARYANNE MILLER, CHIEF OF THE AIR FORCE RESERVE

                 Opening Statement of Chairman Granger

    Ms. Granger. We will now move to panel 2, and they will be 
introduced.
    If you will be seated, we will be begin. Our witnesses for 
panel 2 are Lieutenant General Charles D. Luckey, Chief Army 
Reserve; Vice Admiral Luke M. McCollum, Chief of Navy Reserve; 
Lieutenant General Rex C. McMillian, Commander Marine Reserve; 
Lieutenant General Maryanne Miller, Chief of Air Force 
Reserves.
    Welcome to all of you here. We appreciate it very much.
    We appreciate your being able to share your information.
    General Miller, in panel 1, the committee noted the recent 
death of two Air Force reservists who died on March 15th when 
their helicopter crashed in western Iraq. The committee 
recognizes the sacrifices that these two reservists, the Active 
Air Force officer, and four air guardsmen who also perished in 
this crash. Please express our deepest sympathy to the 
families.
    We look forward to your testimony and responses. And 
because of our limited time, please make your opening 
statements as brief as possible.
    And we will ask for the members of the subcommittee, we 
will limit your questions and the answer complete to 4 minutes. 
And you will see there will be lights. Green means they will 
start speaking. When it goes to yellow, it means you have 1 
minute left, and then to red.
    General Luckey, we will start with you.

                  Summary Statement of General Luckey

    General Luckey. So, Chairwoman Granger and Ranking Member 
Visclosky, it is an honor to be back here with you. It has been 
about a year. In the interest of time, I am not going to go 
through my prepared remarks. Out of courtesy to the committee, 
I would rather answer questions as appropriate for the 
committee.
    I would just like to say, for all the distinguished members 
who are here, how much I appreciate the support of this 
committee and the House of Representatives and the Senate as 
well, for the support over the last year for America's Army 
Reserve. I want to specifically highlight the NGREA funding 
that we received last year and give this committee and the 
Congress of the United States a high level of assurance that 
that money is being put to extraordinarily good use, to include 
modernizing some systems. We purchased some JLTVs, which we 
will be getting in the fall. And as you well know, that is a 
new capability for the Army, and it is a capability that the 
Army Reserve needs to start training on. So we have done that.
    We are also using that funding and we will continue to look 
to use that funding to help us build more resilience. Candidly, 
I have learned a lot over the last year, particularly in 
response to the situations both in Puerto Rico and the Virgin 
Islands, Florida, and Texas, as it pertains to Harvey, Irma, 
and Maria. So, again, we are using that money wisely and 
prudently, but also it gives me tremendous flexibility 
operationally. I appreciate it very much. I appreciate your 
continued support.
    Just very quickly, just to update you, our Ready Force X, 
RFX constructs, is coming along well. I am happy to answer any 
questions the committee has about how that is going, the 
balance between readiness and the force, but also stress on the 
force. And I would also acknowledge that, as I said last year, 
I need the committee's continued support in messaging the 
messengers in America, using your voice to influence those 
influencers out there, and encouraging them to continue to 
remain in a partnership with America's Army Reserve as it 
pertains to sharing the best talent in America. So I am talking 
to employers, whether it be in academia, private sector, public 
sector, employers that are continuing to assure their talent 
with us on behalf of the national security of the United States 
of America.
    And last, but not least, by any means, thanks again for the 
committee's support and continued concern about our families, 
who, as we all know, support this team day in and day out. In 
fact, as soon as I leave here today, I will be going to Fort 
Leavenworth, Kansas, this afternoon, to the talk to the pre-
command course and then on to Minneapolis-St. Paul to talk with 
the team leaders that support our family support programs and 
making sure they are getting support and schooling that they 
need. And my wife, Julie, will be joining me on that trip as 
well to support them. So, again, I appreciate your support. I 
look forward to your questions, and I yield the rest of my 
time.
    [The written statement of General Luckey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you.

                 SUMMARY STATEMENT OF ADMIRAL MCCOLLUM

    Admiral McCollum. Chairman Granger and Ranking Member 
Visclosky, thank you very much. And for the sake of time, I 
will also have brevity in my remarks. Just to point out, just 
like my colleagues to my right and left, right here as we sit, 
we have our men and women serving around the world, and when 
they serve around the world, that means they are absent from 
their employers, and they are also absent from their families. 
And supporting them--the unwavering support we have been given, 
we are very grateful for.
    They are force multipliers. As we look at how the 
contribution of not only from unique skill sets but also 
credible combat capability, and your very generous support in 
supporting them from programs such as Yellow Ribbon, 
redeployment support, family programs, and certainly the 
training dollars, the readiness dollars, to allow them to do 
that.
    Mobilizations continue. And our guidance to our force is to 
be ready, and we focus on generating readiness and do that in 
various forms, from individual readiness to joint readiness 
with groups at the unit level and at the combat level, 
integrated force. Just yesterday, the Harry S. Truman Strike 
Group departed for deployment, and this afternoon the Carl 
Vincent Strike Group returns from a deployment.
    So, in that portfolio, it is very symbolic of how the 
Reserve Component supports the integrated force. The Navy 
Reserve uses discretionary RPN, and that is how we generate our 
readiness, individual readiness, and then sets and reps, as we 
call it, for integrated readiness. And your continued support 
there is very appreciated.
    NGREA funding is another tool and lever that we use to have 
niche purchase power where we can, in broad scale, support our 
sailors broadly. And your continued support there in a flexible 
fashion is very much appreciated.
    Finally, one last point in a piece of our hardware 
portfolio is our Strike Fighter F-A18s. We do operate the 
legacy aircraft. We are asked to do integrative ops, adversary 
flyings to certify our battle strike groups before they deploy, 
and in that regard, interoperability is key. And so we look 
forward to future conversations with Congress as we begin to 
recapitalize those assets.
    And, finally, I would just say, in spite of the many 
challenges that we have in managing operations, personnel, and 
other things that a commander has to face, one of the greatest 
privileges we have is to lead and serve with and serve our men 
and women, and to be with them--as a matter of fact, I will be 
leaving this afternoon to go and spend time into operations to 
witness this. It is our greatest privilege. And with your 
support, we will continue to do that. And, again, it is our 
honor to be here and look forward to answering any questions.
    [The written statement of Admiral McCollum follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
                 Summary Statement of General McMillian

    General McMillian. Chairman Granger, Ranking Member 
Visclosky, and distinguished members of the subcommittee, thank 
you for the opportunity to appear before you today to testify 
on behalf of the Commandant of the Marine Corps about your 
Marine Corps Reserve. I am honored to be here with my fellow 
Reserve Component service chiefs, and I will be brief.
    I have been at the helm of Marine Forces Reserve for 2\1/2\ 
years, and I am pleased to inform you that your Marine Corps 
Reserve is thriving. Morale remains high, as evident by Reserve 
Component end strength climbing to 99 percent of our total 
requirement. Our reenlistment rate increasing over 25 percent 
during the past 3 years, all while the demand for reserve 
support to combatant commanders requirements continues to rise.
    The responsibility that we carry in the Marine Forces 
Reserve is to be able to respond tonight and on a moment's 
notice with fully manned, trained, equipped, and superbly led 
compatible units that can instantly and seamlessly plug into 
Active Component formations. The critical capabilities provided 
by Marine Forces Reserve to the total force increases the 
lethality of the Corps and contributes to the competitive 
advantage maintained over our adversaries.
    At any given time, Marine Forces Reserve stands ready to 
provide a brigade-sized element of Reserve marines and sailors 
fully trained for combat operations to support the Active 
Component in order to form a total force fight-tonight 
capability while the remainder of our force remains poised to 
augment and reinforce, given amounts of predeployment training 
based on their wartime mission assignments.
    I would like to leave this distinguished body with two 
thoughts on how continued support from Congress can result in a 
more lethal Marine Corps Reserve force, number one. Reserve 
marines have 38 training days per year, and every scheduled 
event is preparation for combat. Missed training opportunities 
are often unrecoverable in terms of personnel, material, and 
training readiness, while morale and retention of the force 
suffers.
    During the shutdown on January 20, almost 8,000 personnel 
across 62 units had their drill weekend canceled or reduced, 
resulting in lost training opportunities. I cannot afford to 
lose 1 minute of training for our Nation's most precious 
assets, our young volunteer men and women that make up your 
Marine Corps Reserve. Therefore, I cannot overemphasize how a 
lapse of appropriations negatively impacts readiness across the 
Reserve force. And I thank you in advance for your continued 
support through timely appropriations.
    Number two, the Marine Corps Reserve benefits from the 
National Guard and Reserve equipment appropriation. I want to 
extend my gratitude for your continued support of NGREA and 
would appreciate greater spending flexibility within this 
appropriation in order to procure critical shortfall items and 
modernized equipment and systems. I appreciate the opportunity 
to be here today, and I look forward to your questions.
    [The written statement of General McMillian follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you.

                  Summary Statement of General Miller

    General Miller. Chairwoman Granger, Ranking Member 
Visclosky, and members of the subcommittee, I am honored to be 
here today to have the opportunity to report on the state of 
America's Air Force Reserve. Today I am joined by Command Chief 
Master Sergeant Erica Kelly, Command Chief for the Air Force 
Reserve.
    At any given moment on any day, there are over 6,500 Active 
citizen airmen stationed stateside and deployed around the 
world, all supporting our Nation's defense. There is no 
distinction between our Active Guard and Reserve airmen. We are 
lethal, and we are privileged to defend this great Nation. We 
are honored to serve alongside our joint partners and our 
allies and ready to make the ultimate sacrifice for our 
country.
    During last year's posture hearing, I spoke about the pilot 
and maintenance retention challenge that we faced. During the 
fight line--today, the flight line manning for our part-time 
force of citizen air remains very strong. It is nearly 100 
percent. However, the steady demand on airline pilots and 
civilian industry aircraft maintainers continues to impact 
retention for our full-time technician force.
    In response to these challenges, we continue to pursue the 
use of bonuses, incentive pays, and special salary rates for 
our pilots and our maintenance force. Though this approach has 
positively impacted retention, it may not be sufficient for the 
long term--for the long-term solution. We need to continue to 
discuss either full-time options with you all and incentives 
with your staff, and we need to garner support for these 
options to improve our manning over time.
    Our Nation's Air Force Reserve is a strong resilient force 
of airmen, civilians, and contractors. We are postured to 
ensure we preserve our foundational strength, providing that 
daily operational capability and strategic depth for which our 
Nation demands. We will continue to sharpen our edge for the 
fights and improve our readiness to win any time, anywhere.
    We are focused to recruit critical talent and retain 
critical skills to expand our competitive edge across all 
missions. America's Air Force Reserve continues to treasure and 
to strengthen the bond between the citizens of our Nation and 
the airmen who answer the call to defend our freedoms.
    I am honored to represent all of our airmen and their loved 
ones today. And I thank this committee for your enduring 
support. And I look forward to your questions. Thank you.
    [The written statement of General Miller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Granger. We will start with Ms. McCollum.

                              PUERTO RICO

    Ms. McCollum of Minnesota. Thank you, Madam Chair.
    I know people will ask about readiness and modernization 
and will submit that for the record for all of you, but I want 
to follow up on a conversation I just had with the National 
Guard in Puerto Rico. And, by the way, when you come to 
Minneapolis-St. Paul, the forecast will be 38, but it will be 
sunny. We still have snow on the ground.
    General Luckey. I heard it is getting colder, too.
    Ms. McCollum of Minnesota. Yeah. You don't want to come 
Sunday. So, General Luckey, if I could just talk to you for a 
second about Puerto Rico. I had the opportunity of being with 
the Fish and Wildlife and EPA, but I was also with the Park 
Service and the Forest Service. And I was with a gentleman from 
the Forest Service who is going to be retiring shortly but also 
continues to serve in the Army Reserve, and so we had a great 
conversation, and I made it about personal struggles that they 
are having in Puerto Rico being in the Guard, being in the 
Reserve, and at the same time, the Federal responsibilities 
that Fish and Wildlife, Park Service, EPA; you wouldn't believe 
what our Federal employees were doing down there to help with 
the recovery.
    Park Service, actually, at one of the forts had people, 
supplies, and some of the police from Puerto Rico had their 
equipment in there to protect it. So I want to make sure that 
you have what you need because we have another hurricane season 
coming up. Generators, supplies, equipment, equipment that 
might be on a wish list to help with some of the things going 
down there.
    And so, along with the economy, the stress on the Reserve 
Components down there, not only taking care of their family, 
their community, and then fulfilling their responsibilities as 
they are called up to help their fellow American citizens. Can 
you just kind of tell me what we need to be doing down there to 
help you be ready? Hurricane season is coming quickly. I think 
this needs to be a priority.
    General Luckey. So, Congresswoman McCollum, thanks for the 
question, and it is great to see you again. So just to sort of 
level--I was in Puerto Rico last weekend for a couple reasons, 
one of which was to go back--as you know, I was there about 6 
weeks after Maria hit, and so I have been keeping a very close 
eye on the situation. As you know, we have thousands of Army 
Reserve soldiers, family members down there.
    Also, one of my installations, as you know, Army Reserve 
installations, Fort Buchanan is there and, frankly, played a 
key role as a platform to support a lot of activities there 
very early on. So let me assure you, first of all, that I am 
paying very close attention to this situation both in terms of 
how we are recovering from what happened and also preparing for 
what is possibly going to happen next.
    In fact, the ranking member and I talked about this 
yesterday briefly. So, from an investment strategy perspective, 
in terms of reconstituting resilience and capability, as I 
touched on a minute ago in my opening remarks, looking at 
investment strategy to not only reconstitute particularly the 
spot power generation and water-purification capabilities--to 
some extent, we have stressed mightily, as you well know, over 
the last 9 to 10 months--but, in addition, to reconstitute but 
actually increasing the capacity of us to be able to reassemble 
and surge that capability on even a larger scale than we did 
last year.
    As you know, in the course of literally weeks following the 
storm, the senior leader on the island for the Federal 
perspective, the senior military leader on the island, was an 
Army Reserve general. I don't know if you met General Dusty 
Schultz, when you were down there. She commands the 1st MSC. 
We, under my command authorities as the commanding general of 
the Army Reserve, placed all forces in both the Virgin Islands 
and Puerto Rico under her control so she could retask, organize 
as required to get after things, acknowledging that, in some 
cases, our soldiers were so--their lives were so disrupted that 
they didn't have the ability to help their neighbors because 
they had to help themselves. But over half of the force that we 
had in Puerto Rico was able to rise to the challenge and help 
their partners out.
    So, from the financial perspective, I think I am okay, 
frankly, thanks to your help. Thanks to this committee's help, 
I have been able to reprioritize, within the NGREA funding that 
we had, to prioritize some funding to get back at that 
resilience, particularly in Puerto Rico and the Virgin Islands.
    I would acknowledge the Virgin Islands were devastated very 
much, as you well know. I am confident that we are paying very 
close attention. One more thing, and I don't want to take all 
your time, but one other thing I want you to know. I am also 
very cognizant of the fact that, as we continue to pursue 
Federal missions--so, for instance, the 210th RSG, Regional 
Support Group, that is going to be going to Fort Bliss, Texas, 
this fall to support an Army mission at Fort Bliss. I am very 
cognizant and I talked to a lot of family members who are very 
concerned about if another storm hit, would their servicemember 
be able to come home? I reassured them that we would manage 
every one of these issues one soldier at a time, one family at 
a time. But you have my strongest assurance that I am paying 
very close attention to the situation. I am very sensitive to 
the concerns that you raised.
    Ms. McCollum of Minnesota. Thank you, Madam Chair.
    My next stop is the Virgin Islands. I didn't want to--not 
focus on each one together, but individually. So thank you, I 
will follow up before I go there with you.
    Ms. Granger. Mr. Diaz-Balart.

                               READINESS

    Mr. Diaz-Balart. Thank you very much, Madam Chairman.
    It is good to see all of you and thank you for your 
service.
    I want to talk a little bit about--the chairwoman, when she 
began, she mentioned the tragedy, right, that took place 
recently. And so there have been some reports that potentially 
there is a connection between some of the accidents taking 
place and, frankly, the inadequate funding that was taking 
place.
    So I would really kind of like to hear from you about 
whether you think that there is a potential connection between 
inadequate funding to things like these--some of these tragic 
accidents that have taken place, and also your impressions of 
where we are now with the 2018 omnibus--and, obviously, we are 
already starting the 2019 bill--and where do you see the 
potential for readiness, for training, et cetera. So if you 
would just--and I don't know who wants to--maybe start with the 
Air Force since that is the most recent tragedy.
    General Miller. Yes. Thank you, Congressman.
    I do not think it is related to the budget stress. We--
actually, the Air Force Reserve is going to be the 
investigating officer on that accident in Afghanistan.
    And, thank you, Madam Chairwoman, for your response or your 
condolences to Bill Posch and to Carl Enis and his family, so 
thank you for that.
    I don't think it is connected. We are looking in--as an Air 
Force and an Air Force Reserve, we are looking at--there has 
been a slight increase in category C mishaps, which are the 
lesser mishaps due to the cost threshold, and are looking into 
that, just digging a little bit deeper as to why.
    But I don't think that the crash in Afghanistan is related 
to the budget stress that we have had. And I think, you know, 
readiness overall, if you look at 2018 compared to 2019, you 
know, 2018 was that boost that we needed. And thank you very 
much for all of the money that came to us in the 2018, in this 
execution year to get after readiness. We are making incredible 
strides at the unit level. We have 47,000 folks in the unit, 
getting after the mission every day, across every mission set, 
and we have used every dollar that we have been given to 
actually get up on the plateau as fast as we can. And for the 
remainder of 2018 and the increase in funding that we are 
getting for 2019, we will continue that climb toward lethality, 
which the National Defense Strategy demands from us.
    So the airmen are excited about actually being able to do 
the job that they signed up for. We have actually told them: 
You can stop doing certain--for the next 6 months you can put 
these things aside and you can get after readiness.
    So thank you for the increase in the 2018. 2019, as I said, 
just gets us further down the path of readiness. In the Air 
Force Reserve, we have $50 more million dollars for flying 
hours, particularly in the C-17 and the C-5, which helps 
tremendously for the readiness.
    WSS, we are funded at 76 percent baseline; 83 when you add 
OCO. So thank you for that OCO boost to get us up there. We 
will fully execute that 83 percent. And then we are focusing on 
recruiting the critical talent that we need and of course 
retaining the critical skills. So it is all about recruiting 
retention and the readiness. So thank you for the money.
    Our concern is really the next 2 years. We look at it as 2 
years of money, and then we are going to do everything we can 
full throttle, as our Secretary says, to get after the 
readiness now, because in 2 years, we are not sure what that is 
going to look like, so we are giving it everything we can right 
now. So thank you, Congressman.
    Ms. Granger. Mr. Ryan.

                                C-130JS

    Mr. Ryan. Thank you, Madam Chair.
    Thank you for your service. We know what an essential part 
of the team you all are, and we want to thank you for your 
service over the last couple of decades. We know how much 
strain has been put on you in sequestration, and we apologize 
for that.
    General Miller, as my favorite panelist, because you are 
from Ohio. I have a couple questions, and I want to first say 
thank you for being so engaged with the air base in Youngstown, 
Ohio, and our mission there, the aerial spray mission that is 
essential for the Reserve.
    Can you talk to us a little bit about the--of course, I am 
going to ask about the C-130Js, and if you could give us a 
little bit of your analysis on where we are and kind of where 
we need to be, and maybe what the demands are?
    General Miller. Yes. When you look at the overall Air Force 
tactical airlift numbers, 300 is what we need. And the H's-- 
the current structure that we have is 300. We are programmed to 
keep 300. And the Air Force right now--we do not have J models 
built into the program to recapitalize the H's. We have put 
money into increment 1 and 2--amp 1 and 2. And we are 
progressing very well with that. Amp 1 is actually completed 
funded. Amp 2 is actually funded in the FYDP also.
    So we are getting after all the amp 1 adjustments that need 
to be completed by 2020, and then, by 2028, all the amp 2 will 
be done. So the H's will be fully ready to fly, fully capable 
of flying anywhere in the world to do their mission.

                            PILOT RETENTION

    Mr. Ryan. Two quicks question. One for you, General Miller, 
and one for Mr. Luckey on retention. I am worried about the 
pilot retention issue, and I am worried about the cyber talent 
retention and recruitment that we need.
    So, General Miller, if you could go first and talk a little 
bit about the challenges you may be having with a very 
competitive commercial pilot industry competing with the men 
and women we are trying to go after.
    General Miller. For the Air Force Reserve, our pilot 
manning on the part-time force, which is the majority of 
airline pilots. I mean, that part-time force, I would say 98 
percent of them fly in the airlines. We are manned at 96.5 
percent.
    So I have the pilots on the part-time force to go do the 
mission if we are called. It is the full-time force that we are 
stressed. We are manned at 68 percent. I have brought that 
manning up to 72 percent on the full-time side. So to get after 
the full-time deficit that we have, the gap, I am looking at 
putting a different full-time status in many of our mission 
sets, and that is called Active Guard and Reserve. So that AGR 
status is different than the Air Reserve technician status 
because it allows USERRA return rights.
    So an airline pilot can go fly with the airlines for a 
couple of years, come do us for a couple of years, and then 
return back to the airlines. So there is a great opportunity 
for them to just continue full time in both and just share time 
over a period of a couple of years. So I am making that 
adjustment in the full-time support. I think that will bring 
the full-time support pilot numbers up into the low 80s, mid 
80s, potentially, on the full-time side.
    Mr. Ryan. Great. Thank you.
    General Luckey.
    General Luckey. Congressman, very quickly, thank you for 
the support.
    First of all, from a flying perspective, only 94 percent 
[inaudible] I am frankly not concerned about that.
    On the cyber thing, I will turn it a little. I actually 
think that the Army Reserve presents a tremendous opportunity, 
and I think I talked about this last year. We are actually 
moving forces up to recapture talent, both from the [inaudible] 
perspective in force but also to retain those soldiers coming 
off Active Duty who typically--as you touched upon--who are 
going to find much more financial incentive to go into the 
private sector and continue this work. And great opportunity 
[inaudible]--we are moving force structure to a different--I 
call it the digital [inaudible] Training in America where we 
capture and retain that talent and keep it as part of the force 
on a part-time basis, and it is very----
    Mr. Ryan. Great. I yield back.
    Admiral McCollum. Congressman, if I could just add one 
other point, if I may. We know that pilots are the happiest 
when they having flying hours and platforms to fly in. The Navy 
Reserve is very focused on maintaining a viable 
recapitalization to allow that so we can capture that return on 
investment if an Active pilot leaves to the Reserve, somewhere 
$8 million to $9 million at the 8-year point. So we are very 
focused, viable platforms recapitalized to give them the 
opportunity to continue to serve.
    Mr. Ryan. Thank you, Admiral.
    Ms. Granger. Mrs. Roby.

               RESPONSE AUTHORITIES TO NATIONAL DISASTERS

    Mrs. Roby. Thank you, Madam Chair.
    And to the whole panel. A big thank you to each of you and 
your families for your great service to our country. We 
appreciate each of you. So thank you for being here this 
morning.
    General Luckey, clearly as a Nation, I know it has been 
touched on a little bit, we have endured major national 
disasters since you were here last year. Hurricanes have 
ravaged Texas, Louisiana, Florida, the Virgin Islands, Puerto 
Rico, and even parts of Alabama. So, in the wake of Katrina, 
Congress took action to provide immediate response authority to 
response forces.
    So I wanted to see if you would be willing to comment on 
those authorities, and do we have it right in terms of 
providing the Reserve with the necessary authorities to provide 
domestic disaster response in a timely basis?
    General Luckey. So, Congresswoman, first of all, thanks for 
the question. I got my mike on now; I apologize for that. 
Absolutely. This has been--I think it has been a game changer, 
and one very quick vignette, and I don't want to take all your 
time on this. But as Harvey gathered energy in the Gulf, I saw 
it literally--my wife Julie saw it on the iPad. She commented. 
We were driving across the country, going out to check on my 
brother who had been injured, and called the TAG at Texas to 
ask them what they needed, and the TAG told me they needed 
hoist capable aircraft, which--and I have 38 of them in the 
Army Reserve.
    So, based on that conversation, I was able to preposition 
aircraft in the Fort Worth area out of sort of the path of--the 
predicted path of the storm, proximate enough to the disaster 
site to immediately mass effects on that target area. So we 
moved aircraft--as an emergency deployment readiness operation, 
we moved aircraft, hoist aircraft from Colorado, we moved them 
out of Olathe, Kansas, CH-47s. We were able to move those 
capabilities, have them proximate and immediately be delivering 
effects, both in terms of rescuing folks, moving critical 
medical supplies, all kinds of commodities around that space.
    Similar scenarios, although not so much aviation intensive, 
in both Puerto Rico and the Virgin Islands and Florida and 
Louisiana, as you touched upon.
    It is a tremendous opportunity, frankly, for our soldiers, 
sailors, airmen, and marines to be able to respond where they 
live and/or move to support people in other places in the 
United States. So I think it is a game changer in terms of our 
ability to message and achieve effects immediately. So I 
appreciate it very much.

                          OPERATIONAL RESERVE

    Mrs. Roby. Thank you. And for the panel, and I don't have a 
whole lot of time left, but for the panel, given now that we 
have an operational reserve, I want to keep a close eye on the 
operations tempo for our Reserve forces.
    Can you please comment on your assessment of the mission 
requirements for your service versus the size of our forces? Do 
we need a bigger Reserve? And what is your philosophy on the 
Individual Ready Reserve? Are we providing incentives and 
professional opportunities for people to stay? That is for 
whoever wants to jump in.
    General Miller. So I will start first here at this end. The 
operational reserve that we have today is, as you say, we are 
deeply in the fight all over the world. So the Reserve is 
really a strategic force that we have leveraged for the last 25 
years as an operational force. The Reserve Forces Policy Board 
has done great strides in putting the right authorities in 
place, building the definition of an operational reserve, and 
lines of effort that go to identifying what an operational 
reserve is.
    The piece that I think that I need--that we have yet to 
complete, is a little bit of full time on top of the strategic 
base that we have, because we are dipping in everyday to that 
strategic base and making demands on their time, which is 
great, which is what we do. But after 25 years, our folks are 
getting stressed.
    So I am manned at 17 to 25 percent full time; I need a 
little bit more. The Guard is roughly at 32 percent. So, across 
my Air Force Reserve, I am putting enablers in the support and 
the operations piece to get after that full-time support. 
Otherwise, we are in a good position.
    General McMillian. Ma'am, if I could weigh in here for just 
1 minute. In we are right sized in the Marine Corps Reserve. 
The number one question that I get from my Reserves: When do we 
get to go to that fight, whatever that fight is? So they are 
motivated, and they are ready to be engaged in operations.
    Ms. Granger. Thank you.
    Ms. Kaptur.

                         F-35 FOR THE RESERVES

    Ms. Kaptur. Thank you all for being here today.
    I wanted to be begin with General Miller. During the last 
round of F-35 fielding, the State of Ohio narrowly missed the 
F-35 cut. Is the Air Force intending to begin another round of 
F-35 fielding to the Reserves, and if so, when will that occur?
    General Miller. Yes. Currently, we have a preferred 
alternative of Fort Worth, and then our alternative bases--if 
Fort Worth is not selected, it would be either DM Homestead or 
Whiteman. So our four bases are firmly in the plan for the F-
35. In 2019, the chief and Secretary will make the decision on 
if Fort Worth is that preferred alternative, if that is the 
base that we put them.

                 HEALTH SERVICES AND BEHAVIORAL HEALTH

    Ms. Kaptur. All right. I just wanted to say, across the 
spectrum this morning, I have read all of your testimony, and I 
believe General McMillian has the most complete section dealing 
with health services and behavioral health.
    So I wanted to ask you, representing some Reserve 
Components myself, the 983rd Army was just deployed to the 
Middle East. How does your suicide rate compare to the military 
average, up or down, especially over the last year?
    General Luckey. So let me jump on that first, if I may, 
Congresswoman. The suicide rate in the Army Reserve, frankly, 
has just recently ticked up above the Army average. And I will 
tell you--so, first of all, I can't prove this, but I will tell 
you, one my concerns is that the financial aspect of stress on 
families is, in many cases, particularly acute for those 
families or soldiers that have had multiple deployments, may 
have stressors with their employers, and have come back from 
deployments and either be unemployed or under employed. So we 
are targeting our private-public partnership program to ensure 
that those soldiers who are identified as at-risk financially 
get additional support in finding jobs.
    I can't prove that there is a nexus between financial 
stressors and self-destructive behavior, but I am targeting 
that population specifically to get after the challenge.
    Ms. Kaptur. One interesting fact I learned this morning, if 
you go to many of our large bases, even in this country--and I 
am not talking about Reserve Components--but you will see 
predatory lenders all wrapped around the bases. And this 
financial issue is really a very critical one that I think we 
need to--we would welcome your recommendations based on what 
you know.
    Could I ask, General McMillian, what about the Marine 
Reserve?
    General McMillian. Yes, ma'am. Thank you for the question. 
Last year, we had 12 suicides in the Marine Corps Reserves. 
This year, we are at five, so not quite at 50 percent, but 
trending in that direction. The majority--the vast majority of 
our suicides occur in a nondrilling status, in between drill 
weekends when we don't have eyes on them, when the Marine 
reservist is out in the community with their families and 
working in their civilian jobs.
    We do an indepth analysis after each suicide, and we have 
come to the conclusion that each one of those suicides touches 
one of three areas: number one, financial problems in the 
civilian sector; number two, relationship problems; and, number 
three, legal problems. Some of those all together; some of 
those by themselves. But each one ties into that.
    So, when we see them on our drill weekends, we have what we 
call kneecap-to-kneecap, eyeball-to-eyeball leadership and 
mentoring sessions with them, and also we stay in touch with 
them in between their drills to see how they are doing. We are 
exercising that small unit leadership to Nth degree to try to 
keep them on the straight and level, so to speak, ma'am.
    Ms. Kaptur. I appreciate your careful monitoring of who 
they are. And I would just suggest, if it--it could help us 
help you, in Special Forces with the chair a few months ago, we 
saw where Special Forces had embedded behavioral specialists in 
each unit, and they had brought their suicide rate down to the 
military average.
    Reservists are scattered all over the place. They come home 
often to no base. Maybe they report into a headquarters, but 
then they are off somewhere.
    Admiral McCollum, you talk about mobile technologies within 
the Navy--Naval Reserve being available for different things. I 
really have been wondering about mobile technologies where we 
could take the best medicine we have or they could take apps or 
we would connect them so they wouldn't be so far away from 
care.
    I have actually have been present at a Reserve base where 
units come home, and I have seen soldiers that are in need of 
care immediately. It isn't available. So it is kind of messy 
when it gets back to the local level. I would appreciate your 
summary for us, or meeting with those of us who care about 
this, how we can better bring that care to them and whether we 
need to fund additional behavioral specialists within the 
Reserve or pay for the medical education, but it is a need 
across the military.
    I even want to take the technologies, if we have them, to 
the Ukraine, because I see what is happening at the front there 
with soldiers there. And I don't think we have got this thing 
pinned down completely, and we could do much better. But you 
have got elements of the solution within your testimonies today 
and from your own personal knowledge.
    So, Madam Chair, I wanted to highlight this arena of 
behavioral health, and in 5 minutes, you can't even touch the 
surface. But is there any way that you could summarize what you 
know and report back to us on ways in which we could better 
help you help the soldier? Thank you.
    Ms. Granger. Thank you.
    Mr. Visclosky.

                        HOSTILE WORK ENVIRONMENT

    Mr. Visclosky. Thank you, Madam Chair. I just want to talk 
for a few minutes about a societal problem that at this late 
date remains breathtaking, I think, to all of us. It is also 
evident in the military, but I think the military has a special 
responsibility, and that is sexual assault and hostile work 
environment.
    We are all familiar with these statistics, particularly the 
one that reporting has increased 240 percent, according to a 
fiscal year 2016 report, since 2004, which would indicate 
potentially that people are more comfortable coming forward.
    The question I have for each of you, though, is, with more 
people coming forward--I regret they have to--I am very worried 
about retaliation. We talk to people about forms of 
retaliation, and sometimes it is very ham-handed, and sometimes 
it is very subtle. How do each of you in your commands work 
down to that level that, listen, this is not too be tolerated 
and if somebody comes forward, they should not be the ones who 
are going to be punished here?
    General Luckey. So, Ranking Member, if I may take that on. 
Just two thoughts. One, from a senior leadership perspective, 
obviously, it starts with me. So just be assured that this is--
on multiple occasions, I have made it very clear. I am on 
Facebook, although I am not so sure I should be on Facebook 
anymore----
    Mr. Visclosky. Well----
    General Luckey [continuing]. And I am on Twitter, and I am 
on all these different social media. They are platforms that I 
use to try make sure that this message--so, in addition to the 
website for the Army Reserve, constantly messaging. I think it 
fairly stridently frankly. My position, our position: not in 
our squad, not in this team, not in America's Army Reserve.
    I will tell you, from an assessment perspective, I watch 
this pretty carefully. This is the month for awareness, both 
sexual assault and sexual harassment. I just recently finished 
another climate survey for both my headquarters at Fort Bragg 
for the Army Reserve Command and also for the Office of the 
Chief of the Army Reserve here at Fort Belvoir and the 
Pentagon. I don't want to come across as overconfident about 
this, but I will tell you, statistically, of the things that I 
am concerned about in terms of inappropriate behavior, I would 
say the one that I keep a close eye on is nothing as explicit 
or as obvious as actual out and out assault or demeaning 
behavior; it is sort of more inappropriate language that sort 
of opens up the aperture for other sort of more--I don't want 
to say predatory, but just more inappropriate behavior, that 
somebody thinks it is okay to do this or okay to do that. I am 
very cognizant of that. I think we are attacking it fairly 
aggressively.
    As to your reprisal concern, you know, I am always here to 
learn and come up and get better techniques, and I get them 
from my colleagues all the time. I will just tell you the most 
important thing I think I can do as a senior leader of the Army 
Reserve is message every day in every way that anybody who has 
anything that concerns them needs to bring this up to somebody 
that they trust in the chain of command or, not in the chain of 
command, but a sexual assault/sexual harassment adviser.
    Admiral McCollum. In the Navy Reserve, it is similar to 
General Luckey's comment, every morning, I review any report 
where we have knowledge that a sexual assault has occurred. And 
in those discussions and in those reports, it is important for 
me to know, number one, the victim's situation. Do they have an 
advocate assigned?

                              RETALIATION

    Mr. Visclosky. I understand on assault, but just, as the 
general said, you know, just language, the--but I am worried 
about retaliation. What happens after somebody reports? And are 
you worried about somebody--and again sometimes it can be very 
subtle. So it is just the retaliation. I----
    Admiral McCollum. It is important that we know that--so 
retaliation itself is--what mechanism does the victim have, 
what tools to be protected against any indication of 
retaliation? They have an advocate that is assigned. I look by 
name who their advocate is. And then, in that context, is it--
how restrictive, it is the victim's choice. Is it 
unrestrictive? It is the victim's choice. And with that 
awareness and with those dialogue, we can find out quickly if 
there is a profile of retaliatory, and we act on it, including 
if they request to be moved to another command.
    Mr. Visclosky. So somebody would be assigned to them to be 
supportive and helpful----
    Admiral McCollum. That is correct.
    General McMillian. Sir, in the Marine Corps, it starts with 
the Commandant, and we all get underneath the Commandant, and 
we are asked to provide--we are asked to provide superb 
leadership and morale in all of our units. If we are not doing 
that, then we are not doing our job. So everybody that is 
underneath me, I task them, their number one priority is to 
provide superb leadership and ensure all of our units have 
great morale. And if they can't provide that, then I call them 
accountability as the Commandant holds me accountable to 
provide that. We want to ensure that we have the trust and 
confidence of our Nation's most precious assets, which I 
mentioned in my verbal testimony, that we are charged with 
taking care of.
    Now, tied in with that, we have found out through command 
climate surveys how our units were doing, and across the board, 
I think we are doing very well. It shows that they have trust 
and confidence in their leadership, and to tie that into sexual 
harassment and sexual assault, our reporting is up, and that is 
a good thing. And we see that as having trust in the leadership 
to investigate all of those claims and then hold people 
accountable. And we are going to do that for you. I am doing it 
for the Commandant, and I am sure he will--when he comes in to 
testify, he will tell you he is doing the same thing.
    Mr. Visclosky. Is there someone that is, if you would, 
assigned to that person who comes forward?
    General McMillian. Yes, sir. They get a direct assignment 
to take care of their issue. Yes, sir.
    General Miller. Yeah, very similar to the Marine Corps, you 
know, it is about trust. And the victim needs to understand 
that we are there to support them and care, take care of them. 
If there is an issue or a perceived issue of retaliation, 
either one is important, and we need to jump on it and take 
care of it and hold the, you know, member accountable for that.
    Mr. Visclosky. Thank you very much.
    Thank you.
    Ms. Granger. Ms. Kaptur.
    Ms. Kaptur. Yes, I just wanted to place a figure on the 
record. Though this is the Reserve panel, the prior panel on 
the Guard, last year, in the Guard, 132 soldiers committed 
suicide. The vast majority were Army Guard. So I would hope we 
would have the same figures. And that, by the way, is an 
increase. A very important issue. Thank you.
    Ms. Granger. We have run out of time. I have an ask of you, 
not a question you need to answer today. But, you know, we have 
expressed some concern--there is such admiration for our 
Reservists and our Guard, and that is in every city that we are 
in and across the Nation and to make sure that they are cared 
for and that they have the support that they need. But the 
other thing we have heard about some employers who won't hire 
members of the Guard or Reserves because of the possibility of 
missed work due to their deployment. And as I have said early 
in the last panel, it has to be a respect and a contribution 
from employers and the employees who want to work and also 
serve in the Reserve or Guard. And so, if there is something 
else that needs to be done to mitigate this to make sure they 
are not discriminated in the workforce, would you please let us 
know that? And if there is anything else that Congress needs to 
do to help support our Guard and Reserves in their quest, it is 
very--the work they are doing is keeping us safe, and it is 
very important. So if you would get back with us, we would 
really appreciate that very much.
    That concludes today's hearing. The subcommittee stands 
adjourned.
    [Clerk's note.--Questions submitted by Mr. Aderholt and the 
answers thereto follow:]

              High Mobility Multipurpose Wheeled Vehicles

    Question. Currently, more than half of National Guard units' High 
Mobility Multipurpose Wheeled Vehicles (HMMWVs) are 15 years or older 
and beyond their useful life. Since FY2013, the Army National Guard 
HMMWV Modernization Program has been a partnership between the Army, 
National Guard Bureau, and industry which has delivered more than 2,600 
modernized, like-new HMMWVs to National Guard units including 140 to my 
home State of Alabama. Does your FY 2019 Budget include funding to 
continue this program?
    Answer. Yes, the Army National Guard (ARNG) anticipates that the 
Army will invest $50M towards our HMMWV Modernization Program in FY 
2019.
    This funding level will bring the total modernization level to 
approximately 56% of the HMMWV fleet by the end of FY 2019 including 
100% of both HMMWV Ambulances and TOW/ITAS variants.
    The ARNG modernization strategy aligns with the Army's overall 
Tactical Wheeled Vehicle (TWV) strategy.

                                 C-130H

    Question. It is my understanding that the majority of the DoD's 
aging C-130H fleets are being replaced with newer C-130Js. However, 
while Air Mobility Command, Air Force Special Operations Command, Air 
Combat Command, U.S. Air Force Europe, U.S. Air Forces Pacific, the 
U.S. Marine Corp, U.S. Coast Guard, and the U.S. Navy all have plans to 
replace their aging legacy C-130 fleets with new C-130Js, the Guard and 
Air Force Reserve combat delivery fleet replacements are being deferred 
with no plans for replacements until these H models are 60+ years old. 
Do you have any concerns about how legacy Air National Guard and Air 
Force Reserve H model units will be maintained as the Total Force 
transitions towards ensuring interoperability through proportional and 
concurrent fielding of the latest equipment?
    Answer. Having the Active Component but not the Reserve Component 
completely recapitalized in the C-130J creates challenges as logistical 
and training needs must still be supported for the Guard and Reserve 
fleet. The National Guard Bureau supports full recapitalization of its 
C-130H fleet with C-130J's but is aware that, given the significant 
cost associated with full recapitalization, that continuing ongoing 
modernization of the Air National Guard's legacy C-130H's is necessary 
in the interim.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

                            Employer Actions

    Question. In recent Fiscal Years, how many complaints or actions 
have the Guard dealt with for employers not working with Guardsmen and 
deployment? Please provide a summary of the final outcomes for any 
actions taken against employers in that time frame.
    Answer. The National Guard Bureau does not handle complaints 
regarding employers. Those are handled either by the Employer Support 
of the Guard and Reserve (ESGR) Ombudsman Services, the Department of 
Labor, or through private legal action.
    ESGR is the lead DoD agency handling complaints about those 
employing Guard members. ESGR initiates mediation cases at the request 
of Service members who are experiencing a uniformed service-related 
conflict with their civilian employer. ESGR provides informal, neutral 
mediation in an effort to resolve employment-related conflicts before 
they escalate to the level of a Department of Labor investigation. 
However, ESGR does not have an enforcement role in regards to the 
Uniformed Services Employment and Reemployment Rights Act (USERRA) and 
therefore does not take any type of action against employers as a 
result of informal mediation. As a result, ESGR does not track outcomes 
for actions taken against employers. The Department of Labor may track 
this information.
    The attachment details the number of requests for mediation 
services received by the ESGR National Customer Service Center from 
National Guard members for FY 2017 and thus far in 2018. These 
mediation cases are initiated at Service members' request.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           Full Time Support

    Question. Please provide the subcommittee with a breakdown of the 
manning levels for soldiers and airman on Active Guard and Reserve 
Status for the Army and Air Guard. If additional full time support is 
required, please provide the subcommittee with a detailed budgetary 
proposal.
    Answer.
                          army national guard
    Congress authorizes and funds 30,155 ARNG soldiers on Active Guard 
and Reserve (AGR) status and 27,107 Military Technicians and Title 5 
National Guard Employees to organize, administer, train, maintain, 
recruit and instruct Army National Guard units. This is about 64% of 
the 89,559 full-time manpower requirement set by the Army for the Army 
National Guard.
    Additional full-time support is needed to achieve Army readiness 
goals. The FY19 President's Budget includes a request for an additional 
440 AGRs, which would alleviate recruiting shortfalls. The 440 AGRs 
will cost $23,529,000 the first year and $47,059,000 per year in 
subsequent years.
    Over the long term, growing ARNG full-time support to 80% of the 
manpower requirement and focusing that into key units will facilitate 
interoperability with the Total Force and build readiness. If such an 
increase were spread over ten years, it would require adding 
approximately 1,000 AGRs per year at a cost growth of about $120 
million per year. The National Guard Bureau continues to work with the 
Army to right-size full-time support programs to provide ready units to 
support global and domestic requirements.
                           air national guard
    Full-time requirements on ANG Unit Manning Documents are only 87% 
funded in the FY19 budget request across the ANG; this results in 6,785 
unfunded requirements. An additional $104M per year would raise funding 
from 87% to 95% of the requirement and address critical training and 
readiness gaps across the ANG.
    Additionally, the ANG is reshaping its fulltime mix of AGRs and 
Technicians. ANG's budgetary proposal for FY19 converts 3,190 (14%) of 
programmed ANG dual status technicians to AGR (272 Officers/2,918 
Enlisted). The ANG's submission is a targeted, disciplined approach 
aimed at solidifying our competitive advantage (e.g., primary focus: 
aircraft maintenance, cyber support, intel and operations), which 
aligns with the National Defense Strategy. In addition, the conversions 
from technician to AGR make the ANG a more attractive option to cross-
component transfers because former active duty and/or new AGR members 
would experience no change in benefits or compensation from active duty 
status, thereby benefiting the Total Force's capability and capacity.

                     National Guard Border Mission

    Question. General Lengyel, what day were you informed of the new 
policy relative to use of the National Guard on the southwest border?
    Answer. Sir, I was notified of the desire to augment Customs and 
Border protection with National Guard troops on 4 April 2018. 
Immediately after that notification the National Guard Bureau was a 
full participant in DoD working groups and meetings to execute the 
guidance from the President and meet the needs of the Department of 
Homeland Security.

      [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Mr. Cuellar and the answers 
thereto follow:]

                      Southwest Border Operations

    Question. What is the scale and scope of the ``call up'' expected 
to meet the presidential mandate of sending troops to the Southwest 
Border and what kind of troop activities can be expected for the 
National Guard presence on the border?
    Answer. Up to 4,000 National Guard personnel have been authorized 
to support the Department of Homeland Security Customs and Border 
Protection (DHS/CBP) through September 30, 2018. Just over one half of 
the total authorized personnel have been approved for deployment in 
support of requests for assistance (RFA) from DHS/CBP. The Department 
of Defense vets the types of activities performed based on DHS/CBP 
RFAs. Approved activities so far include: light helicopter support; 
motor transport operations; motor transport maintenance; heavy 
equipment operations; vegetation clearing; surveillance support 
(Aerostat surveillance system with crew and camera operators); 
geospatial and criminal analysis; training administration and 
operations planning; administration/clerical; paralegal administration; 
radio communications.

                         Readiness and Training

    Question. What kind of Readiness and Training opportunities will 
this (Southwest Border Mission) provide for National Guard troops? Will 
this fill any critical training requirements not currently being met?
    Answer. The Department of Homeland Security (DHS)/Customs and 
Border Protection (CBP) Southwest Border (SWB) security mission 
provides training opportunities at the individual and crew levels. 
National Guard volunteers supporting the DHS/CBP SWB security mission 
will be afforded additional training and practice in the logistics, 
engineering, intelligence, operations/planning, administration, 
training, and command and control functions.

                 Southwest Border Deployment Schedules

    Question. General Lengyel, as with most operational support, units 
strive for predictability. This allows for a more sound training and 
maintenance schedule and has proven to have a positive effect on 
morale. What this focus on predictability, are these supporting 
Southwest Border Operations units going to follow a deployment cycle? 
How long will these units remain in place once deployed to the border?
    Answer. Support to the Department of Homeland Security/Customs and 
Border Protection Southwest Border (SWB) security mission is being 
sourced on a voluntary basis. The Secretary of Defense has authorized 
up to 4,000 National Guard personnel through September 30, 2018. The 
length of individual SWB support will vary up to 179 days. At this 
time, the SWB security support is only authorized through September 
30th.

                               Readiness

    Question. It's been said that the Services have been spread pretty 
thin when trying to cover too much ground. With the recent Omnibus, the 
DoD is able to rebuild the manning levels but this will take time. How 
well will the National Guard be able to adapt at supporting Southwest 
Border operations, continue to provide combat-ready troops and support 
to the Combatant Commanders in the Middle East, and conduct disaster 
relief when called upon?
    Answer. There are currently over 445,000 members in the National 
Guard (NG). The 4,000 National Guard members authorized to support the 
Department of Homeland Security's (DHS) border security mission 
represents less than 1% of the NG. Each of the requests for assistance 
from DHS are reviewed for their readiness impact to the Department of 
Defense global missions. Since NG personnel volunteer for the border 
mission with the consent of their respective governors, each state can 
retain the personnel necessary to respond to emergencies. Should 
States' response capabilities be overwhelmed, they may seek a 
presidential emergency or major disaster declaration, and the Federal 
Emergency Management Agency (FEMA) will coordinate Federal support, to 
include DoD support, to the affected State(s).

            Southwest Border Inter-Departmental Integration

    Question. Does the Guard anticipate issues, like Command and 
Control, and mission creep with DHS (for the Southwest Border Mission)? 
Does this create a problem with inter-departmental integration?
    Answer. The National Guard Bureau has worked closely with the 
Department of Homeland Security (DHS)/Customs and Border Protection 
(CBP) to ensure that Requests for Assistance (RFAs) comply with the 
guidelines set by the Secretary of Defense's Border Security Support 
Cell and the Joint Chiefs of Staff Execution Order. All RFAs for 
National Guard (NG) support are approved by the Secretary of Defense. 
This will ensure that the NG role in this mission appropriately 
fulfills DHS/CBP requirements, thus enhancing inter-department 
integration while guarding against mission creep. Local command and 
control of participating NG will be accomplished with CBP sectors 
through state-controlled NG joint task forces assigned to the sector 
concerned.

                           Army Guard Apaches

    Question. Currently, Army National Guard Apache battalions are 
operating at 75% of aircraft requirements. It seems as though building 
a capable and deployable Guard battalion is done by robbing three 
Attack Battalions to create one 100% battalion. Is this an acceptable 
readiness shortfall? And if not, what actions are being taken to ensure 
units designated to deploy are fully ready and what is the plan to 
address this shortfall of the Army Guard Apache Battalion aircraft?
    Answer. The ARNG is required to move aircraft among four battalions 
in order to support a deploying Apache battalion. A deploying unit 
takes a full complement of 24 aircraft and leaves non-deployed units 
with less aircraft. Units down the deployment schedule may be left with 
only a handful of aircraft for training while the deploying battalion 
and the next battalion to deploy are brought to full strength. This 
prevents consistent training and makes it impossible to deploy all four 
Apache battalions at the same time in the event of an emergency. The 
Army is supportive of equipping our battalions to 100%.

                      Aircraft Engine Maintenance

    Question. The National Guard has taken a much larger role in its 
aircraft engine maintenance. Will this FY19 budget support this added 
workload and allow the Guard to meet the maintenance demand for this 
depot-level maintenance?
    Answer. The FY19 budget allows the ANG to fund existing 
requirements for field level repair and overhaul. Air Force Materiel 
Command retains responsibility for all ``depot-level'' maintenance.

                 Relief in Place/Transfer of Authority

    Question. How long is the RIP/TOA (Relief in Place/Transfer of 
Authority) expected to last per rotation for the units deploying to the 
Southwest Border?
    Answer. The NG personnel supporting CBP will go through a Joint 
Reception Staging Onward Movement and Integration (JRSOI) process to 
integrate into their missions assigned. The average JRSOI time will be 
approximately 7 days for most of the personnel and slightly longer for 
aviation personnel due to the nature of the certifications required 
prior to conducting their missions.

                      Southwest Border Guard Units

    Question. Are the units deploying to the Southwest Border, Guard 
units that would otherwise be dormant or that historically function as 
in-garrison support units but are now taking on new roles outside of 
their traditional scope?
    Answer. The National Guard (NG) historically has been called upon 
to perform domestic support missions that are not the national defense 
missions they are organized for. The NG volunteers supporting the 
Department of Homeland Security/Customs and Border Protection security 
mission on the Southwest Border do not belong to dormant units. They 
belong to units that train for national defense missions.

                               ARNG ARBs

    Question. What is the plan and what are you doing to ensure ARNG 
ARBs have the ability to train under the same conditions to meet the 
same task and standard as their Active Duty counterparts?
    Answer. The first step is coordination with U.S. Force Command to 
draft a tentative deployment schedule. Then NGB coordinates with the 
appropriate U.S. Combatant Commands, First Army and the ARBs to draft a 
resource and training plan. ARNG ARBs then undergo training under the 
same conditions and to meet the same standards as their Active Duty 
counterparts prior to deployment.

                              End Strength

    Question. Texas is currently overdriving to help the National Guard 
Bureau meet its overall end strength, and has for more than 10 years. 
When will this effort result in additional force structure, along with 
the corresponding full-time manning, equipment and support personnel?
    Answer.
                          army national guard
    Prior to Congressional action arresting the decline in Total Army 
endstrength, the Army National Guard (ARNG) was programmed to decline 
to an end strength of 335,000. As part of that decline, the TXARNG was 
directed to divest the 72nd Infantry Brigade Combat Team, a combat 
formation of more than 4,000 Soldiers. After receiving Congressional 
support for an ARNG endstrength of 343,500, the Army, working with 
National Guard Bureau, retained the 72nd Infantry Brigade Combat Team 
(IBCT). Additionally, as the Army grows Security Force Assistance 
Brigades (SFAB), the TXARNG received part of the National Guard's SFAB 
and was directed to field an additional Field Artillery Battalion 
beyond its existing force structure.
    The Army National Guard, through its General Office Advisory 
Councils made up of state TAGs, is actively developing options for 
rebalancing force structure across the country to move missions and 
units to available manpower. The Director, ARNG will use the input of 
these councils to ensure states, like Texas, that have shown the 
ability to field more force structure are first in line when the ARNG 
grows or rebalances the force.
    NGB has made additional full time manning for the ARNG a priority 
and is engaging the Army seeking an increase. The ARNG is at 64% of its 
full time support requirement. Increasing this support to closer to 80% 
of the requirement, approximately equivalent to 20% of the ARNG end 
strength, is seen as crucial to raising readiness and relieving stress 
on units, particularly high demand combat formations like the 72nd IBCT 
and the 1-149th Attack Reconnaissance Battalion.
                           air national guard
    The Texas Air National Guard has done an outstanding job meeting 
recruiting and retention goals. In fact, because TX has such strong 
recruiting, to help address the Air Force's pilot shortage, NGB added 
six aircraft and increased the fulltime manpower authorizations at the 
149th Fighter Wing by 98. The Air Force has stated its desire to grow 
end strength over the Future Year Defense Program and began doing so in 
fiscal year 2018. The Air National Guard is part of that effort and 
expects commensurate growth in coming years. Manpower requests in the 
FY19 President's Budget underlie a plan to place five more full-time 
authorizations in the Texas Air National Guard.

    [Clerk's note.--End of questions submitted by Mr. Cuellar.]

                                         Wednesday, April 25, 2018.

         FISCAL YEAR 2019 DEPARTMENT OF DEFENSE OVERVIEW BUDGET

                               WITNESSES

HON. JAMES N. MATTIS, SECRETARY OF DEFENSE
GENERAL JOSEPH F. DUNFORD, USMC, CHAIRMAN, JOINT CHIEFS OF STAFF
DAVID NORQUIST, UNDER SECRETARY OF DEFENSE (COMPTROLLER)

                 Opening Statement of Chairman Granger

    Ms. Granger. The Subcommittee on Defense will come to 
order.
    This morning, the subcommittee will hold a hearing on the 
Department's fiscal year 2019 budget request.
    Before we proceed, I would like to recognize Ranking Member 
Mr. Visclosky for a motion.
    Mr. Visclosky. Madam Chair, I move that those portions of 
the hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Ms. Granger. So ordered. Thank you.
    We are delighted to have Secretary James Mattis and General 
Joseph Dunford, Chairman of the Joint Chiefs, with us this 
afternoon. Alongside the Secretary and the Chairman is Mr. 
David Norquist, the Comptroller and Chief Financial Officer of 
the Department.
    Thank you all for being here today.
    Mr. Secretary and General Dunford, this subcommittee 
appreciates the partnership we share with you. This 
relationship is incredibly important. When we received 
increased funding for fiscal year 2018, we were able to ensure 
that your priorities and those of the service chiefs were all 
funded. I wanted to take this opportunity to thank you for the 
open lines of communication. It was extraordinarily helpful.
    Mr. Secretary, the subcommittee very much appreciates your 
recent briefing to us on the new National Defense Strategy. 
This strategic framework you laid out was tremendously 
important as we completed work on the Department's fiscal year 
2018 appropriations. We were able to make a critically needed 
downpayment to begin to rebuild our military in line with the 
strategy.
    We look forward to hearing from you both today on how the 
fiscal year 2019 budget will build upon the progress we have 
begun to make and what more needs to be done to ensure we are 
prepared for the fights we face today and in the future.
    Mr. Secretary, as we have often discussed, you are leading 
the Department at one of the most challenging times in recent 
history. Our Nation is facing threats from bad actors across 
the globe. It is our responsibility to ensure that you have 
what you need to do the difficult tasks you have been given. 
The subcommittee relies on you, our military experts, to help 
guide us in the work that we do. We look forward to hearing 
from you both on your needs both now and in the future.
    Before we begin your remarks, I yield to the ranking 
member, Mr. Peter Visclosky, for his comments.
    Mr. Visclosky. Gentlemen, thank you for your attendance 
today. I look forward to your testimony.
    Madam Chair, thank you.
    Ms. Granger. Thank you. I would remind all members that 
this briefing is being held at the Top Secret level and none of 
the information shared here today should leave the room.
    Mr. Secretary and General Dunford, unfortunately, we are 
going to be interrupted by a vote series shortly. In the 
interest of time, Mr. Secretary, we would appreciate it if you 
could both limit your opening statement to brief remarks. This 
would allow us to conclude the opening remarks before we recess 
for votes and move straight to questions as soon as we return.
    Mr. Secretary, please proceed with your remarks. I am sorry 
for talking so fast. I am trying to get everything done before 
they call us out. Can you tell? It is the same old thing I say 
every time, so don't worry about it.
    Mrs. Lowey.
    Mrs. Lowey. No opening remarks.
    Ms. Granger. Okay.
    Mrs. Lowey. We want to get right to it.
    Ms. Granger. Right.
    Secretary Mattis, thank you so much. And you can proceed.
    [The written statements of Secretary Mattis and General 
Dunford follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    [Clerk's note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                            Wednesday, May 9, 2018.

                    TESTIMONY OF MEMBERS OF CONGRESS

                 Opening Statement of Chairman Granger

    Ms. Granger. The subcommittee will come to order.
    This morning, the subcommittee will hold an open hearing in 
which any Members of the House have been invited to come and 
address the subcommittee on matters concerning the men and 
women who serve in our military.
    This session is to hear from Members about what they think 
and what is important to them, in some ways that we can help 
them. So we welcome the opportunity to hear from our colleagues 
on these matters.
    And I want to thank the Members who are appearing today for 
taking the time to testify and salute their commitment to our 
national security and our national defense. I don't think there 
is anything more important than that.
    Without objection, all the testimony submitted by Members 
will be entered into the record. So ordered.
    Before we begin with the testimony, I would like to 
recognize our ranking member, Mr. Visclosky, for any remarks he 
would like to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you, Madam Chair.
    Madam Chair, I thank you very much for holding the hearing. 
I was saying before we got started that this is my favorite 
hearing of the year, because I do believe, unfortunately, the 
committee has become, in many ways, very insular.
    It is important that people understand we are charged with 
the constitutional responsibility to fund the day-to-day 
operation of the government. We are here, all of us, in a 
bipartisan fashion to solve problems. And we are also here in a 
bipartisan fashion to help Members.
    So appreciate the Members, including Mr. Johnson, who is 
going to testify next, for being here. I am delighted to be 
here, and appreciate the chairwoman holding the hearing very 
much. Thank you.
    Ms. Granger. Thank you, Ranking Member Visclosky.
    We will now begin with the Members' testimony with 
Congressman Mike Johnson of Louisiana.
    Congressman Johnson.
                                            Wednesday, May 9, 2018.

                                WITNESS

HON. MIKE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA

                Summary Statement of Congressman Johnson

    Mr. Johnson. Well, thank you so much, Chairwoman Granger 
and Ranking Member Visclosky and members of the committee. I 
appreciate all your time.
    I sincerely am grateful for this opportunity to return to 
provide input during the committee's member day hearing for the 
fiscal year 2019 defense appropriations bill in the budget.
    I have the distinct honor of representing a congressional 
district that is home to two vital military installations for 
our Nation and our national security interests around the 
world, and that is Fort Polk and the Barksdale Air Force Base, 
and even our smaller National Guard facilities such as Camp 
Minden.
    As I am sure you know, Fort Polk is home to the Army Joint 
Readiness Training Center, and Barksdale Air Force Base is home 
to the Air Force Global Strike Command, our four-star command 
right there in my hometown.
    As is evident with the recent provocations of Syria, North 
Korea, Iran, Russia, and others, we live in a highly uncertain 
and incredibly complex time, which further highlights the 
importance of these two bases and our military readiness to be 
fully prepared to combat any threat from overseas.
    In keeping to today's time constraints, I will focus 
primarily on just two areas I think are essential--in an 
essential need of attention by this committee and the Congress, 
and that is modernizing our U.S. nuclear enterprise and 
ensuring U.S. Army capabilities are fully equipped for 
necessary training exercises.
    As I begin, I just want to respectfully thank this 
committee for working closely with me last year while crafting 
the 2018 defense appropriations budget to begin the process of 
reengineering and modernizing the B-52 bombers. They are housed 
at Barksdale Air Force Base. And that is a much-needed makeover 
that will extend the life of the B-52s into the 2050s, which is 
kind of an amazing thing to think about, the engineering marvel 
that that is. And then, of course, it improves the range and 
fuel efficiency of those planes and actually decreases 
maintenance cost.
    I would also like to relay my thanks for the continued 
support of Fort Polk from this committee in recognition of 
their vital importance to accomplishing its missions and our 
military readiness.
    One on the nuclear enterprise. Today, I would just briefly 
like to speak to the nuclear weapons as they continue to play 
an integral role in the strategies of Russia, North Korea, 
Pakistan, India, and China. And, in fact, according to many 
reports, as you all know, and as evidenced from the recent 
aggressive actions, these countries are increasing their 
reliance on and modernizing their capabilities, whether it be 
in the land, air, or sea-based nuclear forces.
    If this Congress is going to be serious about rebuilding 
our nuclear infrastructure, it has to continue to express 
support for the long-term commitment of our Barksdale Air Force 
Base and our nuclear enterprise. And I applaud the decision by 
the Air Force to include the new entrance gate at the 
Interstate 20 and I-220 interchange into Barksdale Air Force 
Base on its unfunded priority list.
    This project has to be completed in sequence because what 
this does is it paves the way for the construction of the new 
weapons storage area at that base, and that is currently 
scheduled to begin construction in fiscal year 2020.
    The new weapons storage area is absolutely vital to 
America's nuclear enterprise, and it will support the overall 
activities of Global Strike Command, everything it oversees, 
and its necessary involvement in a wide array of strategic 
deterrence.
    As members of this committee, you all are well aware, of 
course, of how critical the Bomber Command in the 8th Air Force 
in charge of our aging fleet, and Missile Command in the 20th 
Air Force in charge of the U.S. intercontinental ballistic 
missiles, are critical to deterrence and global strategy.
    Second issue is ground capability. So in any event that 
maintaining a capable and robust nuclear option doesn't suffice 
as a deterrent from war, it is obviously imperative we have a 
capable and ready ground force. As this committee and Congress 
have presented a path forward to rebuilding our force 
structure, the need for modernizing our ground capabilities is 
certainly prevalent to ensure full mission readiness.
    As a proud Member who represents one of the two unit 
training centers in the United States, Fort Polk Army Base and 
the Joint Readiness Training Center in our district, it is 
critical to highlight how the Army has continued to solidify 
its footprint with a state-of-the-art JRTC.
    As Fort Polk's JRTC provides invaluable training for its 
advise and assist roles, it provides soldiers with the training 
and flexibility necessary to carry out the demands placed on 
them to achieve victory. It also partners with our close allies 
in collaborative joint exercises to prepare for the unique 
situations and challenges the unit may face while deployed.
    As we work to regrow our ground forces and since Fort Polk 
remains a vital security asset, we should invest in the JRTC to 
ensure full military readiness.
    I hope to work with members of this committee to ensure 
that the Army uses the right information and the proper 
methodology to maximize our resources and facilities to ensure 
Fort Polk and the JRTC continue to provide invaluable training 
to fully prepare and equip our men and women in uniform for the 
many challenges ahead. It is the only combat training center in 
the Nation that also trains and deploys combat units.
    As I prepare to close, I just want to say the defense 
communities that surround both Barksdale and Fort Polk have a 
long and proven track record of fully supporting--
enthusiastically so--these two vital military installations. 
And all these folks stand ready to help modernize our armed 
forces to meet our Nation's mission capabilities and necessary 
resources.
    And just recently at Fort Polk, the Army completed its 
largest land purchase, over 47,000 acres, in an effort to 
provide even more robust training capabilities there for their 
brigade combat team rotations and all the rest. And we got $90 
million on the State level for the interchange at Barksdale, 
which shows the investment of that State.
    Finally, I just want to thank this committee for continuing 
these important priorities for this district and all of ours 
around the country. You have such important work and we are so 
grateful. I look forward to doing everything I can to support 
you and the committee's work to provide our military with the 
essential resources it needs. This is a top priority for all of 
us, and it should be.
    With that, I yield back, and thank you again for your time.
    [The written statement of Congressman Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you. And thank you for appearing here 
today, and congratulations on having two installations that are 
so important in your district. I represent Fort Worth, Texas; 
it was an Air Force base. And then I had the misfortune to have 
that base closed during a BRAC. It is now realigned as a Joint 
Reserve Base, but I know what it means. And it is a very 
different sort of constituency, because they are coming and 
going, but we can be so helpful if we really understand what is 
going on at those bases. And so thank you for bringing that to 
our attention. We appreciate it very much.
    Mr. Johnson. Yes, ma'am.
    Ms. Granger. Anything you would like to say, Mr. Visclosky?
    Mr. Visclosky. Just to thank the witness in particular for 
your emphasis on readiness. And, again, I appreciate your 
thoughtful testimony, and compliment you on your choice of 
ties. Thank you.
    Mr. Johnson. Thank you.
    Ms. Granger. Thank you. Anything else you would like to 
leave with us?
    Mr. Johnson. No. I just told my colleague here, Mr. Graves, 
it is good to be with a committee that has a lot of authority 
and power. So that is a nice change for a freshman.
    Thank you for your time.
    Ms. Granger. Thank you. Thank you very much.
    We are waiting on Mr. McGovern. We will give some more time 
because Congressman Carter, the other Congressman Carter, was 
supposed to appear. And he may come in, but I don't think so. 
So we will wait a few more minutes.
    Next, we will hear from Congressman Jim McGovern of 
Massachusetts.
    Mr. McGovern, welcome. Sorry we had a little change in 
time, so we didn't mean to rush you, but that is the situation 
we are in.
    Mr. McGovern. No, that is fine. I am happy to be here, 
honored to be here with all of you. Thank you so much for 
giving me this opportunity.
                              ----------                              

                                            Wednesday, May 9, 2018.

                                WITNESS

HON. JAMES P. MCGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS

               Summary Statement of Congressman McGovern

    Mr. McGovern. And I want to thank you, Madam Chair and 
Ranking Member Visclosky, for allowing me the opportunity to 
testify in support of the Wounded Warrior Service Dog Program. 
And I want to thank this committee in particular. You, in the 
last fiscal year, raised the amount for this program from $5 
million to $10 million, and we are here to ask that we continue 
the $10 million.
    As you know, these service dogs have made an incredible 
difference in the life of many of our men and women who have 
served overseas in battle and--but it is an expensive 
proposition to train these dogs, and sometimes that expense 
makes it difficult for our veterans to get access to them. And 
this program provides grants so that these dogs can be trained 
and our veterans can get what they need. And so I am here to 
say thank you for your past support, and thank you, hopefully, 
for your continued support.
    The other reason why I am here is to ask you to provide 
$250,000 for the creation and distribution of the Atomic 
Veterans Service Medal. As you may recall, for the last 3 
years, we in the House have passed in the national defense 
authorization bill a provision creating a service medal for 
atomic veterans.
    These are people who served our country during a very 
difficult time and could never talk about their service because 
it was top secret. In fact, many of them couldn't even tell 
their doctors that they potentially could have been exposed to 
radiation. It wasn't until the first George Bush was President 
and then Bill Clinton that they kind of opened things up and 
these veterans were able to talk about their service.
    They were never recognized at the time for their service to 
our country, and many of us thought that they deserve some sort 
of recognition. And so for 3 years in a row, we have passed a 
provision that would give them that medal. In fact, the last 
roll call vote we had, every single Member of the House voted 
for it. And, unfortunately, for 3 years in a row, it continues 
to get dropped in the--by the Senate during the conference 
negotiations.
    The Pentagon, I am sad to say, has been reluctant to 
support this idea. They have told me they don't believe in 
giving medals retroactively, which seems like a strange excuse 
not to want to honor these veterans. And then I was even told 
that by honoring these atomic veterans, that somehow we would 
be diminishing the service of other veterans, which I found, 
quite frankly, offensive.
    And so, you know, we are going to continue to push the 
authorizers to create this program, but in the meantime, you 
know, I am coming to you to say, let's begin this. Let's do 
what is right. Again, these veterans are aging, many of them 
are dying, and I think they deserve to be recognized, and I 
think that is the will of the House, and so I hope that you 
will look favorably upon that request as well.
    So I thank you for giving me the opportunity to be here, 
and I thank you for your service on this committee.
    [The written statement of Congressman McGovern follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Ms. Granger. Thank you for appearing before us today.
    This is an opportunity we have--we can just talk frankly 
about some things that Members are requesting. And I think that 
there is--the service dog program is one, everyone is very 
aware of it, because you see them now and see the difference it 
makes in the lives of the people, the wounded warriors they are 
serving, so that is a wonderful request.
    The second one, I am as puzzled as you are about the 
response from the Senate, because it was overlooked, and I 
think it is a wonderful recognition. So I am certainly very 
positive about it.
    Mr. Visclosky, do you have anything to say about that one?
    Mr. Visclosky. You know, I associate myself with the 
chairwoman's remarks. And thank you very much for your concern, 
not only for veterans, but those who need that extra care and 
recognition.
    Do you have any sense at all that someone in the Senate is 
going to pick that issue up as far as honoring the atomic 
veterans, Mr. McGovern?
    Mr. McGovern. We have Senator Markey has introduced the 
bill over in the Senate, and we are going to continue to work 
with him to try to see if he can move it in a bipartisan way. 
But, again, I think there are some Members of the Senate Armed 
Services Committee, I think staff members in particular, and 
some people over in the Pentagon who have urged them to 
basically drop this idea.
    Mr. Visclosky. Yes.
    Mr. McGovern. And, again, I just--I don't get it. And, you 
know, if the policy is that we don't retroactively honor--you 
know, create medals for veterans' service, you know, maybe we 
ought to take another look at that. But I don't think this 
opens up the floodgates.
    And, again, I am--I think it is particularly urgent because 
this is an aging population, and a lot of these atomic veterans 
are no longer with us. And I think they deserve to know that 
our country is grateful for their service.
    Mr. Visclosky. Thank you. And thank you for taking the time 
to be here today, and good luck on that initiative.
    Mr. McGovern. And I just want to say on the service dog, 
the Wounded Warrior Service Dog Program, you know, I want to 
thank this committee in particular because this would not be in 
existence without Chairwoman Granger and Ranking Member 
Visclosky and the members of this committee. So, I mean, you 
made this happen, and it is benefiting a lot of veterans. So 
thank you.
    Ms. Granger. Thank you very much. Thank you for being here.
    That concludes today's hearing. The subcommittee is 
adjourned.
    Mr. Carter. Madam Chairwoman.
    Ms. Granger. Oh, I am sorry. Mr. Carter.
    Mr. Carter. May I be recognized?
    Ms. Granger. You may.
    Mr. Carter. These are the people that were out at the 
nuclear test sites----
    Mr. McGovern. Yes.
    Mr. Carter [continuing]. That volunteered to be within the 
blast radius?
    Mr. McGovern. Right. That is correct.
    Mr. Carter. Well, I kind of agree with you. They ought to 
get something. Are benefits attached to this medal?
    Mr. McGovern. No. All it is is a recognition, a medal or 
whatever is deemed appropriate, but something that would honor 
their service and recognize their service. That is it.
    Mr. Carter. Thank you for bringing that up.
    Mr. McGovern. Thank you.
    Mr. Carter. That is very interesting.
    Ms. Granger. Anybody else?
    That concludes today's hearing. The subcommittee is 
adjourned.

    [Clerk's note.--Written testimony submitted for the record 
by Congressman Earl L. ``Buddy'' Carter, Congressman Doug 
Lamborn, Congressman Beto O'Rourke, Congressman Paul Cook, 
Congressman Glenn `GT' Thompson, Congresswoman Barbara 
Comstock, and Congressman Alan Lowenthal follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  <all>
</pre></body></html>
